i
 sre
   por
     t,aswell
            asauditr
                   epor
                      tsa
                        ndtes
                            timonyt
                                  ext,a
                                      rea
                                        vai
                                          la
                                           bleo
                                              ntheI
                                                  nte
                                                    rne
                                                      tat
                                                        :www.do
                                                              dig
                                                                .mi
                                                                  l
     Addit
         ionali
              nfo
                rmati
                    onand/o
                          rcopie
                               soft
                                  hisre
                                      por
                                        tmaybeobt
                                                ai
                                                 nedbyc
                                                      ont
                                                        act
                                                          ing
                                                            :
                    Depar
                        tmentofDefe
                                  nseIns
                                       pec
                                         torGeneral
               Oﬃc eofCommunicat
                               ionsandCongre
                                           ssi
                                             onalLi
                                                  a i
                                                    son
               4800Ma r
                      kCe nt
                           erDri
                               veAlexa
                                     ndri
                                        a,VA 22350-1500


               Mr
                .Jo
                  hnR.Cr
                       ane 703-
                              604-
                                 8324;DS
                                       N 664-
                                            8324
Department of Defense                   Department of Defense
Inspector General                            Inspector General
4800 Mark Center Drive                  4800 Mark Center Drive
Alexandria, VA 22350-1500            Alexandria, VA 22350-1500

www.dodig.mil                                   www.dodig.mil

Defense Hotline 1.800.424.9098   Defense Hotline 1.800.424.9098
                                                                                                    NERAL
                                                                                        INSPECTOR GEDEFENSE
                                                                                                  OF
                                                                                     DEPARTMENT
                                                                                             RK C EN TER DRIVE
                                                                                     4800 MA                0-1500
                                                                                              VIRGINIA 2235
                                                                                  ALEXANDRIA,



                                                                                                                                                                  Report to the
                                                                                                                          r  G  en  er  al Semiannual
                                                                                tment of Defen
                                                                                                          se In sp ec  to                                         e dedicated to
                                                                     D   ep  ar                                               ar  ch  31, 2012. We ar
                                                 pres   en t  th  e                                          th ro ug  h  M                                           oblems and
                           I am pleased to                           pe  ri od    October 1, 2011                                 tly  in  formed about pr
                                                 e re po   rt in  g                                        lly an  d  cu  rr en                                      we detect and
                           Congress for th                             en   se  and Congress fu                                er  at io  ns. To this end,
                            keeping the Se
                                                cretar   y  of   D  ef                                  ogram    s  an  d  op                                      s to help ensure
                                                                  in  or  de  r to improve pr                             ci en  cy , and effectivenes                            g our
                            deficiencies with
                                                   in   D  oD
                                                                            e an   d   pr  om  ote econom        y,  effi
                                                                                                                                       e  cr  iti ca l  m  is sion of defendin
                                                 waste, and abus                                              ed to achieve th
                            prevent fraud,                 oD     pe  rs  on  ne   l are best equipp
                                                 and    D
                             the warfighter                                                                                                                                       ersight
                             countr  y.                                                                                                  d   ex  ce lle nc   e, we conduct ov
                                                                                                       cy, accountabilit
                                                                                                                                 y, an                                           nancial
                                                                              te  gr  ity , effici en                                  s  of   co  nt ra ct   management, fi
                                                  core values of in                                      ciencies in the
                                                                                                                                area                                rruption; health
                              Driven by our                                od  , identified defi                                  d  pr  ivacy; public co
                              which, in this re
                                                     po  rt in  g   pe  ri
                                                                                      ation assurance,
                                                                                                                se cu  rity   an                                     and other issues
                                                           is  iti on  ; in  fo rm                                co  nd   uc  t; pr  oc  urement fraud;
                                                   acqu                                    nior official mis
                              reporting, and                 ower reprisal; se
                                       au  d; w  hi st lebl
                               care fr                                                                                                                                                 rting
                                                    epartment.                                                                                                    during this repo
                               affecting the D                                                                                 l mon     et  ar  y be   ne  fi ts
                                                                                                                                                                                    arrests,
                                                                                ti fi ed   $9 0  m  ill ion in potentia                  ig  at iv e  Se  rv  ic e resulted in 61
                                                      ports that iden                                                                 st
                                We issued 69 re                                                            se Criminal In
                                                                                                                                   ve                                 ts, generating a
                                                                   co nd    uc  te d by the Defen                             si on  s,  an  d 78 debarmen
                                period. Investig
                                                       at io ns                                             103 su    sp  en                                          5 contacts.
                                                           ge  s,  87   cr  im  in  al convictions,                   ef en  se   H  ot  lin  e handled 8,98
                                                       ar                                                        e D
                                155 criminal ch                                          government. Th
                                              $3  04  m   ill ion to the U.S.                                                                                         se Hotline,
                                return    of
                                                                                                                    ar  tm  en   t to   in  clude the Defen
                                                                                                               Dep
                                                                                        provide to the
Acting Inspector General                issu  e hi gh  lig hts support we                         hi st  lebl  ow er Protection.
                                 This                                         ra  m   ,  an d  W                                                                                      we thank
Lynne	Halbrooks	testiﬁ	es	                              closure Prog                                                                                              this report, and
                                 Contractor Dis                                                                                        co   nt ri bu   te d  to                           e
before Congress.                                                                                            community also                     Naval Audit Se
                                                                                                                                                                       rvice, Air Forc
                                                            ith   in  th  e  D   ef ense oversight                   A  ud  it  A  ge  nc  y,                                Se rv ic e, A ir
                                                          w                                                 Army                                                       ative
                                  Other agencies                     ci es , w  hi  ch include the                             N   av al  C  riminal Investig
                                                         t  ag  en                                                 m   an  d,
                                  our counterpar                                           vestigation Com                  Contract Audit
                                                                                                                                                        Agency.
                                         it A  ge nc y,  A  rmy Criminal In                           d   th e D ef en  se
                                   Aud                                                 ations, an
                                                           Special Investig                                                                                             ion continue to
                                   Force Office of                                                                              se  sa  cr  ifi ces for our Nat                       valuable
                                                                                  rs ,  ai rm en ,  an   d Marines       w ho
                                                                                                                                          an  d  th  e  D  ep   ar tment for their
                                                             ldiers, sailo                                                             s
                                   We thank the so                                                             thank Congres
                                                               lfi ll ou   r m   is si on. Finally, we                  ns   an   d pr   ograms.
                                                           fu                                               operatio
                                    motivate us to                                   pr  ov  ing D   oD
                                                            support in im
                                    and continued




                                                                                                                               ooks
                                                                                                           Lynne M. Halbr eral
                                                                                                                      ec to r G en
                                                                                                          Acting Insp
STATISTICAL HIGHLIGHTS


SUMMARY OF AUDIT ACTIVITIES

 Reports Issued 	                                                       48
 Monetary Benefits													
 	        Recommendations Made on Funds Put to Better Use	   $90.2 million
 	
SUMMARY OF DEFENSE CRIMINAL INVESTIGATIVE SERVICE ACTIVITIES

  Total Returned to the U.S. Government1	                                               $290.1 million
  	        Recovered Government Property	                                                 $1.6 million
  	        Civil Judgments/Settlements	                                                 $127.3 million
  	        Criminal Fines, Penalties, Restitution and Forfeitures	                      $159.4 million
  	        Administrative Recoveries2	                                                    $1.7 million
  Investigative Cases
	          Arrests	                                                                                61
	          Charges	                                                                               155
	          Convictions	                                                                            87
	          Suspensions	                                                                           103
	          Debarments	                                                                             78

SUMMARY OF ADMINISTRATIVE INVESTIGATIONS

 Complaints Received	                                                                             711
 Complaints Closed	                                                                               601
        Senior Official	                                                                          316
        Whistleblower Reprisal	                                                                   285

SUMMARY OF POLICY AND OVERSIGHT ACTIVITIES

 Existing and Proposed Regulations Reviewed	                                                      185
 Evaluation Reports Issued	                                                                         9
 Inspector General Subpoenas Issued	                                                              280


SUMMARY OF INTELLIGENCE ACTIVITIES

 Intelligence and Special Program Assessment Reports Issued	                                        4

SUMMARY OF SPECIAL PLANS AND OPERATIONS ACTIVITIES

 Assessment Reports Issued	                                                                         6

SUMMARY OF DEFENSE HOTLINE ACTIVITIES

 Contacts	                                                                                      8,985
        Cases Opened	                                                                           1,398
        Cases Closed	                                                                           1,269




1 Includes investigations conducted jointly with other law enforcement organizations.
2 Includes contractual agreements and military non-judicial punishment.

   ii SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                                                       CONTENTS


1. OVERVIEW
	        MISSION & ORGANIZATION.............................................................................................................................................2
                      MISSION................................................................................................................................................................2
                      ORGANIZATION..................................................................................................................................................3
	        EXECUTIVE SUMMARY.........................................................................................................................................................4
                      OVERVIEW............................................................................................................................................................4
                      PRIORITIES............................................................................................................................................................4
                      CORE MISSION AREAS......................................................................................................................................5
                      ENABLING MISSION AREAS ...........................................................................................................................6
	        OVERSEAS CONTINGENCY OPERATIONS......................................................................................................................7
	        IG HIGHLIGHTS.......................................................................................................................................................................9
                      DEFENSE HOTLINE.............................................................................................................................................9
                      CONTRACTOR DISCLOSURE PROGRAM.................................................................................................. 10
                      DEPARTMENT OF DEFENSE WHISTLEBLOWER PROGRAM .............................................................. 12
2. CORE MISSION AREAS
	        AUDITS................................................................................................................................................................................... 16
                      ACQUISITION PROCESSES AND CONTRACT MANAGEMENT........................................................... 16
                      FINANCIAL MANAGEMENT.......................................................................................................................... 23
                      INFORMATION ASSURANCE, SECURITY AND PRIVACY...................................................................... 28
                      JOINT WARFIGHTING AND READINESS................................................................................................... 29
                      NUCLEAR ENTERPRISE.................................................................................................................................. 31
	        INVESTIGATIONS................................................................................................................................................................. 32
                      PROCUREMENT FRAUD................................................................................................................................ 32
                      PRODUCT SUBSTITUTION............................................................................................................................ 34
                      PUBLIC CORRUPTION.................................................................................................................................... 34
                      HEALTH CARE FRAUD.................................................................................................................................... 36
                      TECHNOLOGY PROTECTION....................................................................................................................... 38
                      COMPUTER CRIME.......................................................................................................................................... 39
	        INSPECTIONS....................................................................................................................................................................... 40
                      HEALTH AND SAFETY...................................................................................................................................... 40
                      JOINT WARFIGHTING AND READINESS.................................................................................................. 42
3. ENABLING MISSION AREAS
	        DEFENSE HOTLINE............................................................................................................................................................. 46
	        SENIOR OFFICIALS AND WHISTLEBLOWER PROTECTION.................................................................................... 48
	        CONGRESSIONAL TESTIMONY AND BRIEFINGS...................................................................................................... 51
	        OUTREACH ACTIVITIES..................................................................................................................................................... 52
4. SERVICES
	        ARMY...................................................................................................................................................................................... 58
                      ARMY AUDIT AGENCY................................................................................................................................... 58
                      ARMY CRIMINAL INVESTIGATION COMMAND..................................................................................... 65
	        NAVY....................................................................................................................................................................................... 70
                      NAVAL AUDIT SERVICE.................................................................................................................................. 70
                      NAVAL CRIMINAL INVESTIGATIVE SERVICE............................................................................................ 75
	        AIR FORCE............................................................................................................................................................................. 80
                      AIR FORCE AUDIT AGENCY.......................................................................................................................... 80
                      AIR FORCE OFFICE OF SPECIAL INVESTIGATIONS............................................................................... 86
5. APPENDICES
         A.	 AUDIT, INSPECTION, AND EVALUATION REPORTS ISSUED............................................................................ 90
         B.	 REPORTS CONTAINING POTENTIAL MONETARY BENEFITS............................................................................ 99
         C.	 FOLLOW-UP ACTIVITIES...........................................................................................................................................100
         D.	 CONTRACT AUDIT REPORTS ISSUED...................................................................................................................102
         E.	 STATUS OF ACTION ON POST-AWARD CONTRACTS......................................................................................103
         F.	 STATUS OF REPORTS WITH ACTION PENDING.................................................................................................104
         G.	 CONTRACT AUDITS WITH SIGNIFICANT FINDINGS........................................................................................109
         H.	 RESULTS OF PEER REVIEWS.....................................................................................................................................114
         I.	 ACRONYMS...................................................................................................................................................................115
		
                                                                                                                                     OCTOBER 1, 2011 TO MARCH 31, 2012 iii
REPORTING REQUIREMENTS


The Inspector General Act of 1978, as amended, states that each inspector general shall no later than April 30 and October 31 of each
year prepare semiannual reports summarizing the activities of the office during the immediately preceding six-month periods ending
March 31 and September 30. The IG Act specifies reporting requirements for semiannual reports. The requirements are listed below and
indexed to the applicable pages.

REFERENCES          REQUIREMENTS                                                                                                      PAGE
Section 4(a)(2)     “review existing and proposed legislation and regulations...make recommendations...”                              N/A

Section 5(a)(1)     “description of significant problems, abuses, and deficiencies...”                                                15-44

Section 5(a)(2)     “description of recommendations for corrective action...with respect to significant problems, abuses, and         15-44
                    deficiencies...”

Section 5(a)(3)     “identification of each significant recommendation described in previous semiannual reports on which cor-         N/A
                    rective action has not been completed...”
Section 5(a)(4)     “a summary of matters referred to prosecutive authorities and the prosecution and convictions which have          15-44
                    resulted.”
Section 5(a)(5)     “a summary of each report made to the [Secretary of Defense] under section 6(b)(2)...” instances where infor-     N/A
                    mation requested was refused or not provided”
Section 5(a)(6)     “a listing, subdivided according to subject matter, of each audit report, inspection report, and evaluation re-   90-98
                    port issued” showing dollar value of questioned costs and recommendations that funds be put to better use.
Section 5(a)(7)     “a summary of each particularly significant report...”                                                            15-44

Section 5(a)(8)     “statistical tables showing the total number of audit reports, inspection reports, and evaluation reports and     100
                    the total dollar value of questioned costs...”
Section 5(a)(9)     “statistical tables showing the total number of audit reports, inspection reports, and evaluation reports and     100
                    the dollar value of recommendations that funds be put to better use by management...”
Section 5(a)(10)    “a summary of each audit report, inspection report, and evaluation report issued before the commencement          100
                    of the reporting period for which no management decision has been made by the end of reporting period...”
Section 5(a)(11)    “a description and explanation of the reasons for any significant revised management decision...”                 N/A

Section 5(a)(12)    “information concerning any significant management decision with which the Inspector General is in                N/A
                    disagreement...”
Section 5(a)(13)    “information described under Section 05(b) of the Federal Financial Management Improvement Act of 1996...” N/A
                    (instances and reasons when an agency has not met target dates established in a remediation plan)
Section 5(a)(14)    “An Appendix containing the results of any peer review conducted by another Office of Inspector General           114
                    during the reporting period...”
Section 5(a)(15)    “A list of any outstanding recommendations from any peer review conducted by another Office of Inspector          N/A
                    General that have not been fully implemented, including a statement describing the status of the implemen-
                    tation and why implementation is not complete...”
Section 5(a)(16)    “Any peer reviews conducted by DoD IG of another IG Office during the reporting period, including a list of       114
                    any outstanding recommendations made from any previous peer review...that remain outstanding or have
                    not been fully implemented...”
Section 5(b)(2)     “statistical tables showing the total number of audit reports, inspection reports, and evaluation reports and     101
                    the dollar value of disallowed costs...”
Section 5(b)(3)     “statistical tables showing the total number of audit, inspection, and evaluation reports and the dollar value    101
                    of recommendations that funds be put to better use by management agreed to in a management decision...”
Section 5(b)(4)     “a statement with respect to audit reports on which management decisions have been made but final action          109-113
                    has not been taken, other than audit reports on which a management decision was made within the preced-
                    ing year...”
Section 8(f )(1)    “information concerning the number and types of contract audits...”                                               102
Section 5 note      “an annex on final completed contract audit reports...containing significant audit findings.”                     104-108

  iv SEMIANNUAL REPORT TO THE CONGRESS
           1


Overview
Mission



                                  Serving the Congress
                                  and the Department
                                  Department of Defense Inspector General is an
                                  independent, objective agency within the U.S.
                                  Department of Defense that was created by the
                                  Inspector General Act of 1978, as amended. DoD
                                  IG is dedicated to serving the warfighter and the
                                  taxpayer by conducting audits, investigations,
                                  inspections, and assessments that result in
                                  improvements to the Department. DoD IG
                                  provides guidance and recommendations to the
                                  Department of Defense and the Congress.

                                  Mission
                                  Provide independent, relevant and timely over-
                                  sight of the Department of Defense that supports
                                  the warfighter; promotes accountability, integri-
                                  ty and efficiency; advises the secretary of defense
                                  and Congress; and informs the public.



                                  Vision
                                  Be a model oversight organization in the federal
                                  government by leading change, speaking truth
                                  and promoting excellence; a diverse organization,
                                  working together as one professional team,
                                  recognized as leaders in our field.

                                  Core Values
                                  •	   Integrity
                                  •	   Efficiency
                                  •	   Accountability
                                  •	   Excellence

                                  Goal 1
                                  Promote economy, efficiency and effectiveness.

                                  Goal 2
                                  Identify, deter and investigate fraud, waste and
                                  abuse.

                                  Goal 3
                                  Engage, enable and empower our people.

                                  Goal 4
                                  Achieve excellence through unity.




2 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                              Organization



                                                          Secretary of Defense



                                                            Inspector General




                                                                           Intelligence &
                                                     Administrative                                                        Special Plans &
       Auditing             Investigations                                Special Program        Policy & Oversight
                                                     Investigations                                                          Operations
                                                                            Assessments




Auditing                                               Intelligence and Special
The Office of the Deputy Inspector General for         Program Assessments
Auditing conducts audits on all facets of DoD          The Office of the Deputy Inspector General for
operations. The work results in recommenda-            Intelligence and Special Program Assessments
tions for reducing costs; eliminating fraud, waste     provides oversight (audits, evaluations and in-
and abuse of authority; improving performance;         spections) across the full spectrum of programs,
strengthening internal controls; and achieving         policies, procedures and functions of the intelli-
compliance with laws, regulations and policy.          gence enterprise, special access programs, nucle-
                                                       ar enterprise and related security issues within
Investigations                                         DoD.
The Office of the Deputy Inspector General
for Investigations leads the Defense Criminal          Policy and Oversight
Investigative Service, which protects America’s        The Office of the Deputy Inspector General
warfighters by conducting criminal and civil           for Policy and Oversight provides oversight
investigations in support of crucial national          and policy for audit, investigative and hotline
defense priorities.                                    activities within DoD; conducts engineering
                                                       assessments of DoD programs and provides
Administrative Investigations                          technical advice and support to DoD IG
The Office of the Deputy Inspector General for         projects; and operates the DoD IG subpoena and
Administrative Investigations investigates and         contractor disclosure programs.
oversees investigations of allegations regarding
the misconduct of senior DoD officials, both           Special Plans and Operations
civilian and military; whistleblower reprisal          The Office of the Deputy Inspector General for
against service members, defense contractor            Special Plans and Operations provides assess-
employees and DoD civilian employees                   ment oversight to facilitate informed decision
(appropriated and nonappropriated fund);               making by senior civilian and military leaders
and improper command referrals of service              of the DoD and Congress to accomplish priority
members for mental health evaluations.                 national security objectives.

                                                                                                            OCTOBER 1, 2011 TO MARCH 31, 2012 3
Executive Summary



                                       Overview                                             agency IGs involving whistleblower reprisal, re-
                                                                                            striction, procedurally improper mental health
                                       The Inspector General Act of 1978, as amended,       referrals and senior official misconduct.
                                       states that the inspector general is responsible
                                       for conducting audits, investigations and inspec-    Intelligence and Special Program Assessments is-
                                       tions and for recommending policies and pro-         sued four reports that addressed management
                                       cedures to promote economical, efficient and         challenges of the intelligence enterprise as it sup-
                                       effective use of agency resources and programs       ports information assurance, security and priva-
                                       that prevent fraud, waste, abuse and misman-         cy; health and safety; and the nuclear enterprise.
                                       agement. The IG Act also requires the inspector
                                       general to keep the Department and Congress          Policy and Oversight issued nine evaluation re-
                                       fully and currently informed about problems          ports primarily addressing its oversight of the
                                       and deficiencies in the Department’s operations      Defense Contract Audit Agency and Base Re-
                                       and the need for corrective action.                  alignment And Closure Recommendation #133
                                                                                            Project Fort Belvoir - Mark Center, Virginia.
“...the secretary of                   During this reporting period, DoD IG contin-         Policy and Oversight also issued one Depart-
defense identified the                 ued directing its resources toward those areas of    ment-wide policy, reviewed 185 existing and
                                       greatest risk to the Department of Defense. We       proposed directives and instructions and issued
need to improve effec-
                                       are dedicated to serving the warfighter and the      280 IG subpoenas.
tiveness and efficien-                 taxpayer by conducting audits, investigations
cies in business opera-                and inspections that result in improvements to       Special Plans and Operations issued six assess-
tions in order to sustain              the Department. DoD IG provides guidance and         ment reports with 90 recommendations that
mission-essential                      recommendations to the Department and Con-           addressed a wide range of issues, including U.S.
                                       gress. The work of each component as of March        and coalition efforts to develop the logistics
activities.”
                                       31, 2012, is summarized below.                       sustainment capability of the Afghan National
                                                                                            Army; the DoD combating trafficking in persons
                                       Auditing issued 48 reports with 220 recommen-        program in the U.S. European and Africa Com-
                                       dations identifying potential cost savings and       mands; and the progress in transitioning author-
                                       funds that could be put to better use, ensuring      ity, personnel and equipment from U.S. Forces-
                                       the safety of service members; addressing im-        Iraq to the Office of Security Cooperation-Iraq
                                       provements in DoD operations, financial report-      under Chief of Mission and Department of State
                                       ing and accountability; ensuring the Depart-         authority.
                                       ment complied with statutory mandates; and
                                       identifying new efficiencies. Of those reports,      As of March 31, 2012, the DoD IG workforce
                                       40 percent addressed acquisition processes and       totaled 1,521 employees, not including military
                                       contracting issues; 50 percent addressed finan-      personnel and contractors.
                                       cial management issues; 8 percent addressed
                                       joint warfighting and readiness issues; and 2 per-
                                       cent addressed information assurance, security
                                       and privacy issues.
                                                                                            Priorities
                                                                                            As a Department-wide priority, the secretary of
                                                                                            defense identified the need to improve effective-
                                       Investigations-Defense Criminal Investigative Ser-   ness and efficiencies in business operations in
                                       vice opened 352 cases, closed 385 cases and has      order to sustain mission-essential activities. In
                                       1,785 ongoing investigations. These cases pri-       support of this focus, DoD IG uses its extensive
                                       marily addressed criminal allegations of public      oversight capabilities to promote economy, effi-
                                       corruption, procurement fraud, product substi-       ciency and effectiveness throughout the Depart-
                                       tution and health care fraud.                        ment. DoD IG performs audits, investigations
                                                                                            and inspections to support the Department’s
                                       Administrative Investigations closed 23 inves-       goals to:
 DCIS agents conducting an interview   tigations and conducted oversight reviews of         •	 Prevail in today’s wars.
 in Southwest Asia.
                                       230 investigations conducted by service/defense      •	 Prevent and deter conflict.

  4 SEMIANNUAL REPORT TO THE CONGRESS
•	   Prepare to defeat adversaries and succeed in             before procuring the same items from
     a wide range of contingencies.                           Sikorsky because AMCOM did not de-
•	   Preserve and enhance the all-volunteer                   velop adequate procedures addressing
     force.                                                   inventory use.
•	   Reform the business and support functions           •	 Did not effectively reduce Corpus
     of the defense enterprise.                               Christi Army Depot repair costs by
                                                              adding a material cost reduction clause
We performed audits, inspections and assess-                  into the contract, as directed by Army
ments of key programs and operations. We also                 Materiel Command.                               DoD IG conducts oversight of key DoD
consulted on a variety of Department initiatives         •	 Did not use the most cost-effective               programs and operations.

and issues. DoD IG is focusing work efforts on                source of supply for consumable items
preventing and detecting fraud, waste and abuse               purchased on the contract because
and improving efficiency and effectiveness in                 AMCOM had not developed an effec-
critical areas for the Department such as:                    tive material management strategy.
•	 Acquisition processes and contract                    We identified $47.5 million to $58.7 million
     management                                          of excess inventory that AMCOM could
•	 Financial management                                  use to satisfy CCAD contract requirements.
•	 Information assurance, security and privacy           AMCOM made an unjustified incentive
•	 Joint warfighting and readiness                       payment of $11.8 million to Sikorsky for
•	 Nuclear enterprise                                    reducing material costs. DoD IG calcula-
•	 Health and safety                                     tions showed that depot costs increased by
                                                         $29.3 million. The Defense Logistics Agen-
DCIS investigations resulted in criminal, civil          cy had sufficient inventory to satisfy annual
and administrative actions. DCIS identified the          contract requirements for 3,267 items. The
following investigative priorities for six crimes        Sikorsky contract price for those items was
impacting the Department:                                $7.6 million or 85.1 percent, higher than the
•	 Procurement fraud                                     DLA price. (Report No. DODIG-2012-004)
•	 Product substitution                             •	   We identified that U.S. Central Command
•	 Public corruption                                     and U.S. Forces-Afghanistan controls over
•	 Health care fraud                                     the Commander’s Emergency Response
•	 Technology protection                                 Program contract payments and reporting
•	 Computer crime                                        were not adequate. Specifically, USCENT-
                                                         COM and USFOR-A did not maintain and

Core Mission Areas
                                                         report reliable and meaningful CERP data,
                                                         deobligate unused CERP project funds for
We issued 69 reports identifying $90.2 million           closed or terminated CERP projects, identi-
in potential monetary benefits. We achieved $25          fy or prevent improper payments and unau-
million in financial savings based on manage-            thorized advance payments, or mitigate the
ment completed corrective actions to reports is-         risk of overpayments and underpayments
sued this year and in previous reporting periods.        due to currency rate fluctuations. USFOR-A
In addition, DCIS investigations were the basis          had up to $38.4 million in outstanding un-
for 61 arrests, 155 criminal charges, 87 crimi-          liquidated obligations, improper payments
nal convictions, 103 suspensions and 78 debar-           and high-risk CERP advance payments, and
ments, which resulted in $304 million returned           a high risk for currency exchange rate fraud
to the U.S. government.                                  and overpaying or underpaying Afghanistan
                                                         vendors. (Report No. DODIG-2012-023)
Audits
•	   We identified that Army Aviation and Mis-      Investigations
     sile Life Cycle Command officials:             •	   We investigated Roger Day and his co-con-
     •	 Did not effectively use DoD inventory            spirators for forming at least 18 companies


                                                                                                         OCTOBER 1, 2011 TO MARCH 31, 2012 5
Executive Summary



                                        based in the United States, Canada, Mexi-           tion Facility in Cuba and other facilities
                                        co and Belize, and fraudulently using the           in Afghanistan and Iraq between August
                                        Defense Logistics Agency automated bid              24, 2010 and August 23, 2011, to ensure
                                        system to win nearly 1,000 contracts. Day           proper assurances were received from for-
                                        and his co-conspirators provided defective          eign governments that the detainees would
                                        parts to DoD, which include critical appli-         not be subject to torture. (Report No.
                                        cation parts on more than 300 of the 1,000          DODIG-2012-055)
                                        contracts. Day was featured on "America’s      •	   We conducted an assessment on the plan-
DoD IG performs assessments and         Most Wanted," which resulted in his arrest          ning and operational implementation of
inspections at DoD facilities.          and subsequent extradition from Mexico.             efforts by U.S. and coalition forces to train,
                                        On August 25, 2011, a jury trial found Day          advise and assist in the development of an
                                        guilty of wire fraud conspiracy, wire fraud,        enduring logistics sustainment capability
                                        money laundering conspiracy and conspir-            of the Afghan National Army and whether
                                        acy to smuggle goods. As a result, Day was          the planning was integrated across all levels
                                        sentenced to 105 years imprisonment and             of U.S. and coalition commands and staffs,
                                        ordered to pay more than $3.6 million in            as well as with the Afghan Ministry of De-
                                        fines and restitution.                              fense. (Report No. DODIG-2012-028)
                                   •	   We identified and located a man selling        •	   We conducted a review that focused on
                                        Dark DDoser robot network (botnet) soft-            command and other responses to the rape
                                        ware and infrastructure through various             complaint of Lance Corporal Maria Laut-
                                        internet forums and chat rooms. The ma-             erbach, who was subsequently murdered
                                        licious software was used to carry out ille-        by the person she accused. (Report No.
                                        gal activities such as computer intrusions,         DODIG-2012-003)
                                        denial of service attacks, and spamming. It

                                                                                       Enabling Mission Areas
                                        was responsible for approximately 240,000
                                        completed or attempted connections to the
                                        Global Information Grid each month. We
                                        worked with domestic and international
                                        law enforcement partners and neutralized       Defense Hotline
                                        167 Dark DDoser botnets. This is an ongo-      The Defense Hotline received 8,985 contacts
                                        ing investigation.                             from the public and members of the DoD com-
                                   •	   We investigated former U.S. Army Major         munity: 10 percent by mail, 35 percent by email,
                                        Christopher West and a co-conspirator          9 percent over the internet and 43.5 percent by
                                        for receiving bribes from DoD contractors      telephone. Based on these contacts, the hotline
                                        while deployed to Bagram Airfield, Af-         opened 1,398 cases. The hotline also closed 1,269
                                        ghanistan. In exchange, West fraudulently      cases this reporting period.
                                        verified the receipt of concrete bunkers
                                        and barriers that were never received. The
                                        contractors fraudulently billed DoD for
                                                                                       Whistleblower
                                        the undelivered items, and paid West and       Protection
                                        his co-conspirator a portion of the money.     During the reporting period, the Department
                                        West pleaded guilty to conspiracy to com-      received 318 complaints of whistleblower repri-
                                        mit bribery, bribery and conspiracy to com-    sal, restriction and procedurally improper men-
                                        mit mail fraud. As a result, was sentenced     tal health referrals through the Defense Hotline
                                        to 60 months in prison and ordered to pay      and other sources, and closed 285. Of the 285
                                        $500,000 in restitution.                       complaints closed during the period, 215 were
                                                                                       dismissed due to insufficient evidence to warrant
                                                                                       an investigation; three were withdrawn; and 67
                                   Inspections                                         were closed following full investigation. Of the
                                   •	   We inspected the DoD release or transfer       67 investigations closed, 15 involved procedur-
                                        of detainees from Guantanamo Bay Deten-        ally improper mental health referrals (seven sub-

 6 SEMIANNUAL REPORT TO THE CONGRESS
stantiated (47 percent)); one involved restriction
from communicating with a Member of Con-
                                                        Finalizing the Transition
gress or inspector general (not substantiated);         in Iraq
and 51 involved whistleblower reprisal (10 sub-         Eight years of military operations in Iraq ended
stantiated (20 percent)).                               on December 15, 2011, when the U.S. military
                                                        completed the responsible draw down of all re-
Senior Official                                         maining combat troops. Operation New Dawn,
                                                        which succeeded Operation Iraqi Freedom in
Accountability                                          September 2010, is complete. Millions of pieces
During the reporting period, the Department             of equipment were withdrawn and accounted
received 393 complaints of senior official mis-         for, all bases were either closed or handed over
conduct and closed 316. Of the 316 complaints           to the Iraqi Security Forces and contractors were
closed, 130 were dismissed due to lack of a credi-      demobilized.
ble allegation of misconduct and 186 were closed
following investigation. Of the 186 senior official     A major national security goal of the United
investigations closed, 31 (17 percent) contained        States has been the establishment of a sovereign,
substantiated allegations of misconduct.                stable and self-reliant Iraq with whom the Unit-
                                                        ed States can forge a long-term security partner-
                                                        ship. To facilitate this partnership, and to enable
Congressional                                           the continued development of the Iraq Security
Testimony and Briefings                                 Forces, DoD transitioned all remaining training,
                                                        equipping and mentoring activities from U.S.
During the reporting period, we testified four
                                                        Forces-Iraq to the Office of Security Coopera-
times before Congress on subjects includ-
                                                        tion-Iraq under Department of State’s Chief of
ing combating trafficking in persons, whistle-
                                                        Mission authority. Robust security cooperation/
blower protections for government contractors
                                                        assistance and foreign military sales programs
and mechanisms to oversee billions of taxpayer
                                                        are being established.
dollars spent in Afghanistan and Iraq. DoD IG
received 142 new congressional inquiries and
                                                        Although the Department’s role in Iraq has dra-
closed 119 cases.
                                                        matically changed, DoD IG continues to provide
                                                        oversight as necessary, including focusing on as-
Overseas Contingency                                    set accountability and the transition of materiel
                                                        and equipment in-theater.                                   Overseas
Operations                                              In September 2011, commensurate with the mil-             Contingency
DoD IG conducts oversight of DoD activities
and programs that support the warfighters and
overseas contingency operations. In support of
                                                        itary drawdown, DCIS closed its offices in Iraq
                                                        and increased its presence in Afghanistan. Alle-           Operations
                                                        gations of fraud and corruption resulting from
the U.S. mission in Afghanistan, DoD IG has
                                                        former military operations in Iraq continue to be
stationed more than 50 oversight personnel in
                                                        investigated by special agents based in Kuwait,
Southwest Asia working out of several offices, as
                                                        Germany and the United States.
well as teams of auditors, special agents, inspec-
tors and engineers entering and exiting the re-
                                                        An example of one of DCIS’s many successes
gion on temporary duty assignments.
                                                        during more than eight years of deployments
                                                        to Iraq is the investigation of Marine Corps
DoD IG has one senior executive, the special
                                                        Captain Eric Schmidt, which DCIS conducted
deputy inspector general for Southwest Asia,
                                                        jointly with the Naval Criminal Investigative
headquartered at Camp Arifjan, Kuwait, to serve
                                                        Service and the Special Inspector General for              Acting Inspector General Halbrooks
as the single point of contact for all matters relat-                                                              meets with U.S. troops in Afghanistan.
                                                        Iraq Reconstruction. The investigation revealed
ing to oversight activity in Southwest Asia.
                                                        that in 2008, while Schmidt was deployed to Iraq
                                                        as a logistics officer, he received approximately

                                                                                                              OCTOBER 1, 2011 TO MARCH 31, 2012 7
Executive Summary



                                        $2 million from Iraqi contractors – at least $1.2     to sustain the ANSF logistically, including the
                                        million of which originated from the sale of sto-     capacity to plan, program, budget and execute
                                        len military property such as generators and fuel     the fiscal resources provided by the international
                                        tanks. Schmidt also steered contracts to an Iraqi     community, will continue.
                                        contractor, who once the contracts were award-
                                        ed, paid Schmidt’s wife for the goods. Schmidt        In support of U.S. policy and related DoD mili-
                                        falsely certified that the goods received con-        tary strategy in Afghanistan, DoD IG is con-
                                        formed to the contract, despite the fact that these   ducting a wide range of audits, evaluations, as-
                                        products often did not. Schmidt pleaded guilty        sessments and investigations. U.S. and coalition
                                        to conspiracy to commit wire fraud and filing a       efforts to develop competent leaders and an ef-
                                        false tax return and was sentenced to 72 months       fective command and control system within the
                                        in prison followed by 36 months of supervised         ANSF are being assessed. As billions of dollars
                                        release. Schmidt’s wife pleaded guilty to a tax of-   are spent to achieve these goals, a top priority
                                        fense and was sentenced to 12 months of home          of DoD IG is to provide appropriate monitoring
                                        confinement and 36 months of probation. The           and oversight of the acquisition and contracting
                                        Schmidts were jointly ordered to pay restitution      processes for the training, equipping and sus-
                                        to the DoD and the IRS totaling $2.2 million.         tainment of the ANSF. Oversight performed in
                                                                                              this area addresses the management and admin-
                                        In support of the transition in Iraq, DoD IG as-      istration of contracts for goods and services that
                                        sessed whether DoD provided the Department            directly support efforts funded with Afghan Se-
                                        of State with the necessary support to ensure the     curity Forces Funds. Our oversight also includes
                                        Office of Security Cooperation–Iraq possessed         looking at the acquisition, maintenance and sus-
                                        the initial operating capability required to ac-      tainment of equipment in support of the ANSF.
                                        complish the mission of supporting Iraq Secu-         In addition to the risks typically associated with
                                        rity Forces capability development.                   wartime contracting, these audits could poten-
                                                                                              tially impact the warfighter. Reports issued this
                                        Finally, the special deputy inspector general for     period address challenges the Department expe-
                                        Southwest Asia initiated moving the headquar-         rienced in training, development, support and
                                        ters from Camp Arifjan, Kuwait, to Afghanistan        procurement of goods and materiel for ANSF;
                                        to better support ongoing oversight activities.       controls over financial management; construc-
                                                                                              tion efforts; and cost of parts at depots for equip-
                                                                                              ment that may be used to support overseas con-
                                        Continuing Operations                                 tingency operations.
                                        in Afghanistan                                        DCIS continued investigative operations in Af-
                                        In June 2011, the United States announced a
                                        phased drawdown of military forces from Af-           ghanistan and Kuwait using a multi-faceted
                                        ghanistan. By December 2011, 10,000 U.S. com-         approach to fighting fraud and corruption in
                                        bat forces had been withdrawn, with another           Southwest Asia. This includes pursuing not only
                                        23,000 scheduled to be withdrawn by the end of        criminal prosecutions and civil recoveries, but
                                        2012. During this time frame, the United States       also administrative remedies such as suspen-
Acting Inspector General Halbrooks
and senior leadership in Afghanistan.   and its allies continued training, equipping and      sions and debarments, which prevent unscrupu-
                                        mentoring the Afghan National Security Forces         lous companies and individuals from obtaining
                                        to enable them to assume the lead security op-        further government contracts. To accomplish
                                        erations role.                                        its mission, DCIS special agents in Southwest
                                                                                              Asia are assigned to two task forces that focus on
                                        In 2013 and 2014, the United States will continue     combating fraud and corruption – the Interna-
                                        withdrawing U.S. combat forces while the ANSF         tional Contract Corruption Task Force and Task
                                        gradually assumes responsibility for the internal     Force 2010.
                                        and external security of Afghanistan. During
                                        this time period, efforts to develop the capability   The ICCTF is comprised of special agents from
                                        of the Afghan Ministries of Defense and Interior      DCIS, the Army Criminal Investigation Com-

 8 SEMIANNUAL REPORT TO THE CONGRESS
mand – Major Procurement Fraud Unit, the FBI,         ings. In addition, complaints investigated by the
the Air Force Office of Special Investigations, the   Defense Hotline often result in difficult to quan-
Naval Criminal Investigative Service, the Special     tify increases in efficiencies and safety. More im-
Inspectors General for Iraq and Afghanistan,          portantly, Department of Defense inquiries have
and the Offices of Inspector General for the De-      resulted in safer equipment and operations for
partment of State and the U.S. Agency for Inter-      military personnel.
national Development. This task force focuses
on criminal investigations of procurement fraud       The Defense Hotline was created by then Secre-
and corruption cases.                                 tary of Defense Harold Brown, in April 1979, to
                                                      facilitate the reporting of fraud, waste and abuse
The U.S. military-led Task Force 2010 uses intel-     of authority involving DoD agencies and pro-
ligence analysts, criminal investigators, auditors    grams. The hotline started with 10 staff mem-
and forensic financial analysts to gain visibility    bers, who received complaints via telephone and
on the flow of contracting funds to subcontrac-       mail.
tors in order to prevent the United States from
doing business with insurgents, corrupt officials     In addition to fielding calls concerning the De-
and criminal groups. For this task force, success     partment, Defense Hotline, personnel have
is measured, in part, by significant cost avoid-      operated special hotlines created to respond to
ance resulting from suspensions and debar-            significant events. Additionally, hotline investi-
ments.                                                gators were detailed to operate hotlines for other
                                                      agencies such as the FBI during the Olympic
Finally, under the auspices of the Southwest Asia     Games bombing in Atlanta, Ga., in 1996.               17973-Hotline.indd 1              10/20/06 5:37:57 PM




Joint Planning Group, the inspectors general for
the DoD, Department of State, U.S. Agency for         To assist with the recovery from the devastation
International Development and Afghanistan Re-         of Hurricane Katrina in August 2005, Defense
construction established a Joint Strategic Plan-      Hotline personnel opened a second hotline, the
ning Subgroup for Oversight of Afghanistan Re-        Hurricane Relief Fraud Hotline. During the first
construction. The strategic planning subgroup         week of its existence, Defense Hotline person-
will provide strategic direction for developing       nel answered 280 hurricane-related telephone
audits, evaluations and inspections on Afghani-       calls. The second week after the new hotline was
stan reconstruction. The subgroup will serve as       publicized, it received 555 hurricane-related
the coordinating body for integrating, defining       telephone calls. During the operation, hotline
and prioritizing the strategic issues on Afghani-     personnel received approximately 10,000 tele-
stan reconstruction that the inspectors general       phone calls, emails and faxes, and processed
will address collectively through their annual        5,000 complaints, which were forwarded to the
oversight plans.                                      Department of Homeland Security.


IG Highlights                                         Recent Activities
                                                      Today, the DoD IG purview includes allega-                              IG Highlights
                                                      tions of mismanagement and human trafficking
Defense Hotline                                       involving DoD personnel, threats to national
                                                      security and force protection issues. Ensuring
                                                      the availability of reporting to all members of
Background                                            the public can be a daunting task. The Defense
The Defense Hotline is the first line of defense      Hotline is challenged with utilizing the next
against fraud, waste and abuse within DoD and         generation of technology while maintaining ef-
fields complaints from both military members          ficient non-technology based options for the
and the public at large. From 1985 to the pres-       constituent community that is without access
ent, the Defense Hotline has received more than       to the internet. An increase in the volume and
375,000 contacts that resulted in $551.5 million      complexity of incoming allegations has resulted
in documented monetary recoveries or cost sav-        in additional staffing during FY 2012.

                                                                                                            OCTOBER 1, 2011 TO MARCH 31, 2012 9
IG Highlights



                                   A highly skilled staff of investigators assists call-   Accountability Office, Office of Special Counsel,
                                   ers from 8:00 a.m. to 5:00 p.m., Monday through         Department of State and Department of Justice.
                                   Friday. The investigators receive and evaluate
                                   concerns and complaints, and determine the              Way Forward
                                   agency responsible to take appropriate action.          As part of the DoD IG outreach initiative to im-
                                   In many instances, the investigators provide in-        prove the reporting of fraud, waste, abuse and
                                   formation that may answer questions or address          mismanagement, we recently deployed a website
                                   concerns, in lieu of filing a complaint.                on the Joint Worldwide Intelligence Communi-
                                                                                           cation System. DoD IG is committed to provid-
                                   The Defense Hotline toll-free lines operate 24          ing an effective means for individuals to make
                                   hours a day. Callers to the hotline after business      disclosures involving classified information. The
                                   hours are connected to an automated system that         website incorporates best practices as identified
                                   provides callers detailed information regarding         by the Council of Inspectors General on Integ-
                                   how and where to submit allegations.                    rity and Efficiency, and provides detailed infor-
                                                                                           mation to assist and direct individuals in making
                                   The chart below depicts three to four contacts          disclosures. This deployment follows a similar
                                   for every case opened. Contacts that do not re-         redesign of the websites on the SIPRNet and the
                                   sult in Hotline cases are often referred to other       NIPRNet.
                                   agencies. Currently, the hotline staff fields an av-
                                   erage of 15,000 contacts per year resulting in ap-      DoD IG established a working group focused on
                                   proximately 3,300 cases. The number of contacts         distribution of hotline communication materi-
                                   by email and the website continues to increase          als. The working group will concentrate on im-
                                   each year, making them among the most popu-             proving current distribution methods and will
                                   lar forms of reporting.                                 consider social media options to expand global
                                                                                           reach.
                                   Hotline reports that address life-threatening
                                   circumstances are given immediate priority.             In line with the commitment to transform the
                                   Allegations of senior official misconduct and           Department’s whistleblower protection pro-
                                   whistleblower reprisal are handled upon receipt.        gram, the hotline has placed a renewed em-
                                   In addition to receiving complaints from mem-           phasis on the receipt of whistleblower reprisal
                                   bers of the military and civilian community and         allegations. DoD IG has changed processes for
                                   the general public, the Defense Hotline receives        handling reprisal related complaints to improve
                                   referrals and inquiries from Congress and other         the efficiency of operations and timeliness of re-
                                   government agencies such as the Government              ferrals.
 Number of Total Hotline Contacts/Cases Opened 1995-2011

25000                                                                                      Contractor Disclosure
20000                                                                                      Program
15000                                                                 Cases Opened         Background
                                                                                           In early 2008, DoD IG worked diligently to
                                                                      Contacts             respond to the anticipated FAR amendment
10000
                                                                                           implementing the Close the Contractor Fraud
                                                                                           Loophole Act. There were discussions through-
 5000
                                                                                           out the federal government and private industry
                                                                                           on how to implement the new act, which took ef-
    0                                                                                      fect December 13, 2008. DoD IG participated in
        FY 1995
        FY 1996
        FY 1997
        FY 1998
        FY 1999
        FY 2000
        FY 2001
        FY 2002
        FY 2003
        FY 2004
        FY 2005
        FY 2006
        FY 2007
        FY 2008
        FY 2009
        FY 2010
        FY 2011




                                                                                           public and private sector discussions and brief-
                                                                                           ings. An American Bar Association task force

10 SEMIANNUAL REPORT TO THE CONGRESS
focused on defense contractor implementation           ly, disclosures are referred to defense criminal
of the new rule.                                       investigative organizations; however, few crimi-
                                                       nal investigations have been conducted. To the
The rule required federal contractors to make a        extent that there are criminal fraud actors, DoD
timely disclosure to the “agency inspector gen-        IG continues to seek the cooperation of defense
eral” when a principal of the contractor has           contractors.
credible evidence of a violation of the civil False
Claims Act or certain fraud-related federal crim-      In most instances, if the contractor proffers re-
inal laws in connection with a federal contract or     imbursement, the government accepts their cal-
subcontract valued in excess of $5 million in val-     culation of the loss to the government if it is fac-
ue with period of performance of more than 120         tually supported. As a matter of principle, DoD
days. In response to this new requirement, DoD         IG encourages defense agencies to administra-
IG created the Contractor Disclosure Program           tively remedy disclosures whenever possible.
to replace the Voluntary Disclosure Program.
                                                       Recent Activities
Although it is too early to assess the ultimate        Contractors made 110 disclosures to the DoD
effectiveness of the program, we have noted a          IG program during this reporting period. They
few early findings. First, the program is acces-       involve matters such as cost mischarging (most
sible. Small, large, and foreign defense contrac-      often labor costs), false certifications, theft of
tors; outside and in-house counsel; acquisition        government property and conflicts of interest.
professionals, auditors and investigators all have     Disclosures have been made by both large and
unfettered access to the DoD IG staff to answer        small contractors and many more disclosures
questions about the program. DoD IG devel-             were made by Defense Top 100 Contractors than
oped an online disclosure form to obtain criti-        in the final years of the Voluntary Disclosure
cal information from the disclosing official, the      Program. As of March 31, 2012, 634 disclosures
defense contractor or subcontractor, and the af-       have been received and processed.
fected DoD contracts to: a) determine the essen-
tial facts relating to the potential fraud, and b)
effectively coordinate the disclosure within the       Way Forward
Department. This information is coordinated            A recurring problem with the content of the
with the DoD IG Office of General Counsel, the         disclosures is the lack of sufficient detail to de-
Department of Justice Criminal and Civil Divi-         termine the essential facts surrounding the
sions, the Defense Contract Audit Agency, de-          potential fraud or to determine which DoD
fense criminal investigative organizations, the        components are affected. The FAR requires full
Defense Contract Management Agency, suspen-            cooperation, which it defines as disclosure of
sion and debarment officials and the contracting       “information sufficient for law enforcement to
officer. The intent is to have the disclosures re-     identify the nature and extent of the offense and
viewed by the appropriate DoD components as            the individuals responsible for the conduct…”
quickly as possible and streamline coordination        The sooner the pertinent information is report-
to complete the appropriate remedies in a timely       ed, the timelier the disclosure can be resolved.
manner. Second, the program is growing. At the         DoD IG frequently engages with contractors to
end of FY 2009, DoD IG received approximately          obtain information required by investigators and
10 disclosures each month. The average number          auditors and is considering a standard format for
of disclosures doubled to an average of 20 per         submissions, which would require a change to
month in 2011.                                         the DFAR.

Compliance with the new rule is producing              DoD IG recently began an initiative to identify
more disclosures and keeping DoD better in-            any federal agency whose contracts may have
formed about potential fraud in defense con-           been impacted by a disclosure made to DoD IG.
tracts. It is important to note that disclosures are   A review of approximately 450 open disclosures
accepted even during an investigation. Routine-        identified a number of instances where the con-

                                                                                                              OCTOBER 1, 2011 TO MARCH 31, 2012 11
IG Highlights



                                   tractor had not notified affected agencies. The
                                   FAR Rule does not require contractors to notify
                                                                                        Department of Defense
                                   all affected agencies. DoD IG took notice, pro-      Whistleblower Program
                                   vided the agencies with copies of the disclosures
                                   and will continue this practice.
                                                                                        Background
                                   DoD IG also started an initiative to ensure that     DoD IG has overall responsibility for the whis-
                                   derogatory information involving terminated          tleblower protection program throughout the
                                   contractor employees is reported to the Defense      Department covering service members, ap-
                                   Industrial Security Clearance Office. This initia-   propriated and nonappropriated fund civilian
                                   tive was coordinated with the Defense Security       employees and Defense contractor employees.
                                   Service Office of Inspector General and as a re-     DoD IG investigates or performs oversight of
                                   sult, DoD IG will provide copies of disclosures      DoD component investigations of allegations of
                                   to the DSS IG when a contractor employee with        whistleblower reprisal and restriction of military
                                   a security clearance is terminated for miscon-       members from communicating with a member
                                   duct pursuant to the disclosure. This initiative     of Congress or an IG. In performing this mis-
                                   will prevent contract employees from obtaining       sion, DoD IG acts pursuant to the Inspector
                                   positions with other defense contractors. The        General Act of 1978, as amended, as well as
                                   chart in the bottom left depicts the increase in     several other statutes and their implementing
                                   contractor disclosures per year to include 81 in     regulations. Providing robust whistleblower pro-
                                   2009, 203 in 2010, and 240 in 2011. During the       tection is essential to prevent fraud, waste and
                                   first half of FY 2012, there have been 110 disclo-   abuse, and to promote economy and efficiency
                                   sures.                                               in DoD programs and operations.

                                   DoD IG will implement a program to comply            In September 2011, DoD IG consolidated ci-
                                   with Section 818 of Public Law 112-818, “De-         vilian and military reprisal investigations into
                                   tection and Avoidance of Counterfeit Electronic      a single directorate for whistleblower reprisal
                                   Parts.” This law requires DoD to adopt policies      investigations, within the Office of the Deputy
                                   and procedures for detecting and avoiding coun-      Inspector General for Administrative Investiga-
                                   terfeit parts in its own direct purchases, and for   tions. The merger of the two directorates enabled
                                   assessing and acting upon reports of counterfeit     DoD IG to increase efficiency and improve con-
                                   parts from DoD officials and DoD contractors.        sistency in investigative procedures.

                                                                                        Recent Activities
                  CONTRACTOR DISCLOSURES PER YEAR                                       DoD IG has embarked on an aggressive path
                                                                                        forward to realize our vision of being the model
250                                             240                                     whistleblower protection program, not only in
                                                                            2011        the Department, but also in the federal govern-
                                 203                                                    ment. DoD IG has initiated numerous trans-
200                                                                         2010        formational improvements to its whistleblower
                                                                                        protection program during this reporting pe-
                                                                            2009        riod, including:
150
                                                                                        •	 Significantly increasing the staffing level
                                                                                             and resources dedicated to the whistleblow-
100              81                                                                          er protection program.
                                                                                        •	 Standing up a dedicated oversight team to
 50                                                                                          ensure robust, consistent and timely over-
                                                                                             sight of reprisal complaints investigated by
                                                                                             DoD components.
  0                                                                                     •	 Implementing immediate improvements to
               2009            2010            2011

12 SEMIANNUAL REPORT TO THE CONGRESS
     legacy information management systems.            ers. Specifically, GAO found that DoD IG and
•	   Pursuing the acquisition of the next genera-      the Boards for Correction of Military Records
     tion of technology to more efficiently cap-       are not consistently identifying or tracking this
     ture and report complaint trend data.             data, thus hindering oversight of this final stage
•	   Revising internal processes to improve            in thoroughly addressing whistleblower reprisal
     timeliness in initiating and completing in-       allegations.
     vestigations, and to proceed with a full in-
     vestigation when a complaint raises a prima       Way Forward                                              “DoD IG has overall
     facie allegation of reprisal.                     As noted above, the goal of DoD IG is to trans-          responsibility for the
                                                       form the whistleblower protection program into           whistleblower protec-
On February 22, 2012, the Government Ac-               the model within the federal government. In
countability Office issued the report, “Actions                                                                 tion program through-
                                                       addition to the transformational improvements
Needed to Improve DoD’s Military Whistle-              implemented in the past six months, DoD IG has           out the Department
blower Reprisal Program,” GAO-12-362. GAO              several ongoing initiatives that address multiple        covering service mem-
reported that DoD had generally not satisfied          recommendations made in the past three years             bers...”
the requirement to complete military reprisal in-      by external and internal review of the program.
vestigations within 180 days, or notify complain-      DoD IG believes that GAO recommendations
ants when investigations were delayed beyond           are in line with ongoing organizational and pro-
180 days.                                              grammatic reforms. DoD IG is going forward
                                                       with changes that will incorporate best practices
Additionally, GAO found that DoD IG efforts            of other federal whistleblower protection pro-
to improve timeliness of military reprisal inves-      grams. These improvements will maximize effi-
tigations had been hampered by unreliable and          ciency and increase compliance with legal man-
incomplete data, including inconsistencies and         dates, including notification requirements and
inaccuracies in key dates needed to track and          time frames for completion of investigations.
measure timeliness. GAO found that these de-           Going forward, improved data analysis will also
ficiencies might have limited the ability of DoD       enable DoD IG to evaluate the effectiveness of
IG to identify areas for improvement and evalu-        these reforms and identify additional changes
ate the effectiveness of process reforms. GAO          necessary to improve the timeliness and quality
also pointed out that the absence of key timeli-       of whistleblower reprisal investigations.
ness data could limit congressional oversight of
the DoD whistleblower protection program.
                                                       Whistleblowing and
GAO credited DoD IG for having already ex-
ecuted an action plan to address recommen-             Transparency
dations resulting from previous internal and           The Department of Defense whistleblower pro-
external reviews of operations, but noted that         gram includes not only reprisal investigations
challenges exist in the following areas:               but many other daily actions which seek to
•	 Establishing performance metrics to assess          promote whistleblowing. Protecting the sourc-
     the quality of reprisal investigations;           es upon which the inspector general relies is a
•	 Issuing current guidance on reprisal investi-       cross-component activity.
     gations and achieving consistent implemen-
     tation by the military services; and              The Directorate for Whistleblowing and Trans-
•	 Standardizing case monitoring procedures            parency provides advice to the inspector general
     to track the status of reprisal investigations.   and senior leadership on all aspects of whistle-
                                                       blowing and transparency (including the routing
Finally, GAO stressed the importance of follow-        and disposition of disclosures and the protection
ing up on closed reprisal cases to ensure that         of the sources alleging wrongdoing); provides
appropriate relief is provided to whistleblowers       an internal oversight capability regarding the
and that appropriate corrective action is taken        handling and disposition of whistleblower cases;
against those who reprise against whistleblow-         and serves as liaison to executive branch agen-

                                                                                                            OCTOBER 1, 2011 TO MARCH 31, 2012 13
Overview



“The Inspector Gen-                 cies and legislative stakeholders in the federal    tions, respectively. Highlights of this work in-
eral Act of 1978, as                whistleblowing process.                             clude the American Grocers, Inc. case resulting
                                                                                        in a $15 million return; the Boeing Company
amended, also provides              From October 1, 2011 through March 31, 2012,        case resulting in a $25 million return; and, the
whistleblower pro-                  the director, whistleblowing and transparency       Northrup Grumman case resulting in a $325
tection to those DoD                conducted 17 internal and external outreach         million return to the federal government.
employees and service               events in order to:
members filing com-                 •	 Develop a common information systems             The Inspector General Act of 1978, as amended,
                                        platform to improve the ability to track re-    also provides whistleblower protection to those
plaints or information.”                port disposition and perform analytics on       DoD employees filing complaints or informa-
                                        trends within the filing and processing of      tion. These protected sources include employees
                                        allegations through the Defense Hotline.        working in the military services and the desig-
                                    •	 Brief members of Congress and non-gov-           nated federal entities of the defense intelligence
                                        ernment organizations on transformation         community under the secretary of defense. Ser-
                                        of the inspector general’s whistleblower re-    vice members and other categories of workers
                                        prisal investigations directorate.              are protected through other statutes. Complaints
                                    •	 Promote whistleblower protection in the          filed under the Intelligence Community Whis-
                                        Defense intelligence and counter-intelli-       tleblower Protection Act of 1998 may also be
                                        gence communities through the Joint Intel-      protected in some limited capacity; an employee
                                        ligence Oversight Coordination Group.           or service member filing under procedures 14
                                                                                        and 15 of the intelligence oversight regulations
                                    One DoD IG component associated with the            fall under the inspector general’s jurisdiction.
                                    activities of whistleblowers is DCIS. An initia-
                                    tive of the Directorate for Whistleblowing and      On February 25, 2011, the inspector general
                                    Transparency is to elevate awareness within the     released its most recent report of investigation
                                    federal agency community of DCIS' role in qui       involving defense intelligence community em-
                                    tam actions, including the value provided by        ployees. The report was the ninth case in a series
                                    qui tam whistleblowing relators. During 2011,       of oversight actions beginning in 2004. This line
                                    DCIS reviewed 138 qui tam referrals that result-    of investigations was a cooperative effort with
                                    ed in 56 investigations. One example of crimi-      the inspectors general of the National Security
                                    nal investigative excellence built from a qui tam   Agency and the Defense Intelligence Agency to
                                    whistleblower’s disclosure was the case of Life-    provide whistleblower protection to members of
                                    watch Services, Inc. The alleged fraud was per-     the intelligence and counterintelligence commu-
                                    petrated against federal health care programs to    nities.
                                    include TRICARE. On March 23, 2012, it was
                                    announced that Lifewatch Services would re-         DoD IG currently has five cases of alleged re-
                                    solve allegations of fraud against the company      prisal against civilian employees of the Defense
                                    by paying an $18.5 million civil settlement.        intelligence community engaged in national in-
                                                                                        telligence work and 10 cases of alleged reprisal
                                    DCIS' work with qui tam whistleblowers in this      against civilians engaged in military intelligence
                                    reporting period followed previous robust ef-       work. Critical in the investigation of these cases
                                    forts in 2009 and 2010. In those years, 161 qui     is the protocol established by the inspector gen-
                                    tam referrals generated 65 investigations and       eral for the review of security clearance decision-
                                    108 qui tam referrals generated 181 investiga-      making as a pretext for reprisal in 2009.




 14 SEMIANNUAL REPORT TO THE CONGRESS
                     2


Core Mission Areas
Core Mission Areas



                                   The following are highlights of DoD IG audit         Changes Are Needed to the Army Contract

Audits                             work during the reporting period. DoD IG con-
                                   ducted audits in the following categories:
                                                                                        With Sikorsky to Use Existing DoD Inventory
                                                                                        and Control Costs at the Corpus Christi Army
                                   •	 Acquisition processes and contract                Depot
                                       management                                       Overview: DoD IG evaluated the Army Avia-
                                   •	 Financial management                              tion and Missile Life Cycle Management Com-
                                   •	 Information assurance, security and privacy       mand material purchases from Sikorsky Aircraft
                                   •	 Joint warfighting and readiness                   Corporation supporting the Corpus Christi
                                   •	 Nuclear enterprise                                Army Depot to determine whether the partner-
                                                                                        ship agreement effectively minimized the cost of
                                                                                        direct materials to the depot. AMCOM entered
                                   Acquisition Processes &                              into the partnership to address parts availability
                                   Contract Management                                  problems and improve readiness.
                                                                                        Findings: AMCOM did not effectively use DoD
                                   The Department has had unprecedented large
                                   base budgets and overseas contingency opera-         inventory before procuring the same items from
                                   tions supplemental appropriations for the last       Sikorsky because AMCOM did not develop ad-
                                   several years. However, as DoD moves forward,        equate procedures addressing inventory use.
                                   it will be increasingly challenged to do more        DoD IG identified $47.5 million to $58.7 million
                                   with less. As such, it becomes more important        of excess inventory that AMCOM could use to
                                   for DoD to concentrate on efficiencies and sav-      satisfy CCAD contract requirements. Addition-
                                   ings. Therefore, DoD IG is focusing its oversight    ally, AMCOM, as directed by the Army Mate-
                                   efforts on financial savings and identifying effi-   riel Command, added a material cost reduction
                                   ciencies in DoD operations and programs.             clause into the contract, which was not effective
                                                                                        in reducing CCAD repair costs. The clause was
                                   DoD has made improving the acquisition and           designed for Sikorsky and CCAD to share sav-
                                   contract processes a top priority in the Depart-     ings associated with reduced material usage for
                                   ment. Some of the areas where efficiencies could     repair programs. However, AMCOM did not
                                   be realized include contract award, oversight        use reliable data, did not consider depot labor
                                   and administration. When submitting its budget       and omitted repair programs that experienced
                                   request, the Department focused on increasing        material cost increases in its calculation of ma-
                                   competition, reducing costs and increasing buy-      terial cost reduction. Consequently, AMCOM
                                   ing power.                                           made an unjustified incentive payment of $11.8
                                                                                        million to Sikorsky for reducing material costs.
                                   During this reporting period, DoD IG issued          DoD IG calculations showed that depot costs
                                   audit reports related to improving the Depart-       increased by $29.3 million. Finally, AMCOM of-
                                   ment’s management of acquisition and contract-       ficials did not use the most cost-effective source
                                   ing. DoD IG recommended corrective actions to        of supply for consumable items purchased on the
                                   recover excess fees and incorrect billings, devel-   contract because AMCOM had not developed an
                                   op quality assurance surveillance plans, require     effective material management strategy. The De-
                                   support for other direct costs, develop an acqui-    fense Logistics Agency had sufficient inventory
                                   sition strategy, improve inventory and material      to satisfy annual contract requirements for 3,267
                                   management strategies, and revise DoD acqui-         items, and the Sikorsky contract price for those
                                   sition policy. DoD IG also summarized previ-         items was $7.6 million, or 85.1 percent, higher
                                   ous work on the administration and use of un-        than the DLA price. In addition, from 2008
                                   definitized contract actions. DoD IG issued the      through 2010, Sikorsky was allowed to make
                                   following audits related to acquisition processes    excessive profit of about $930,760 by procuring
                                   and contract management during this reporting        items from DLA that it then sold to CCAD.
                                   period.                                              Result: DoD IG recommended that DoD devel-
                                                                                        op an effective strategy to use existing inventory
                                                                                        before procuring new items from Sikorsky and to
                                                                                        effectively procure consumable items. The Army

16 SEMIANNUAL REPORT TO THE CONGRESS
Contracting Command–Redstone Arsenal re-             allowed to directly bill for payment without a
move the material cost reduction clause from         detailed invoice review. In addition, Northrop
the contract and obtain an appropriate refund.       Grumman double billed the Army for insurance
ACC-RSA should include a contract clause that        charges because the contracting officer’s repre-
requires Sikorsky to obtain consumable items         sentative did not conduct in-depth reviews of
from DLA as the first source of supply when          invoices. Northrop Grumman officials agreed to
cost-effective and practical; pursue a refund        issue refunds for the incorrect billings. Resolving
for excessive profits charged on purchases from      these problems could save $1.5 million.
DLA; and modify contract clauses to prevent          Result: DoD IG recommended that the deputy
Sikorsky from making excessive profits. Overall,     assistant secretary of the Army for procure-
management comments were responsive except           ment conduct a review of contracting officers
for comments on the recommendations to ob-           at the SMDC CAMO and that the director,
tain refunds for the unjustified incentive pay-      SMDC CAMO, meet with Raytheon and USTC
ment and excessive profits.                          to reach agreement on the return of excess fees
Report No. DODIG-2012-004                            paid. In addition, the director of Contract Op-
                                                     erations Directorate A, SMDC CAMO, should
Counter Narcoterrorism Technology Program            ensure that Northrop Grumman refunds the
Office Task Orders Had Excess Fees and the           Army and coordinate a more detailed invoice
Army Was Incorrectly Billed                          approval process. DASA(P) agreed with the rec-
Overview: DoD IG reviewed task orders under          ommendations and the director, SMDC CAMO
the Counter Narcoterrorism Technology Pro-           partially agreed with the recommendations. The
gram Office indefinite-delivery, indefinite-quan-    director agreed that there is a misunderstanding
tity contract to determine whether the Space and     of the terms of the contract but disagreed that
Missile Defense Command Contracting and Ac-          the excess fees of approximately $815,000 paid
quisition Management Office applied the correct      to Raytheon are recoverable. The director agreed
fixed fee to material and other direct cost con-     that USTC overbilled fees will be recovered, and
tract line items.                                    Northrop Grumman billing errors will be cred-
Findings: SMDC CAMO did not properly man-            ited to the Army.
age the task orders in the review. The task orders   Report No. DODIG-2012-006
contained excess fees on material and other di-
rect cost contract line items and billing errors     Acquisition of the Multi-Platform Radar
on ODC contract line items. SMDC CAMO                Technology       Insertion  Program       Needs
contracting officers awarded 25 task orders to       Transparency and Accountability
two contractors that contained fees in excess of     Overview: DoD IG determined whether the
the rates incorporated in the contractors’ IDIQ      Air Force effectively managed the acquisition of
contracts. This occurred because SMDC CAMO           the Multi-Platform Radar Technology Insertion
management did not verify that contract provi-       Program with the Global Hawk Block 40 and
sions incorporated into the IDIQ contracts for       evaluated the under secretary of defense for ac-
fees were clear and specific. In addition, SMDC      quisition, technology and logistics oversight of          DoD IG reviewed the acquisition of the
CAMO contracting officers used boilerplate lan-      the program. The MP-RTIP and Global Hawk                  multi-platform radar technology.

guage and did not verify the rates used in the       Block 40 have an estimated procurement cost of
IDIQ contracts or task orders. SMDC CAMO             about $862 million.
overpaid Raytheon approximately $815,000 and         Findings: The MP-RTIP and Global Hawk Sys-
U.S. Training Center approximately $77,000           tem Program Offices did not effectively manage
in fixed fees and will overpay approximate-          the MP-RTIP and Global Hawk Block 40 acquisi-
ly $446,000 to Raytheon and approximately            tions. Further, the USD(AT&L) did not hold the
$20,000 to USTC in additional fixed fees if the      SPOs accountable for delivering required pro-
IDIQ contracts and related open task orders          gram documentation and completing program
are not modified to reflect the correct rates.       management duties before making acquisition
Northrop Grumman also charged the Army for           decisions. The SPOs did not separately identify
non-CNTPO work because the contractor was            the MP-RTIP/Global Hawk Block 40 from other

                                                                                                           OCTOBER 1, 2011 TO MARCH 31, 2012 17
Core Mission Areas



                                    Global Hawk blocks and did not comply with          erly contracted for the production of short mo-
                                    DoD acquisition policies. In making acquisition     tion picture and television commercials and
                                    decisions, the USD (AT&L) assumed greater risk      wasted about $3.5 million on the contract. In
                                    to expedite delivery of the MP-RTIP capabil-        addition, they allowed the acceptance of in-kind
                                    ity to the warfighter. As a result, the MP-RTIP/    gifts without proper authorization, did not prop-
                                    Global Hawk Block 40 program is at risk for con-    erly record all in-kind gifts, inappropriately ac-
                                    tinued cost increases, additional schedule delays   cepted $343,208 in corporate sponsorship funds
                                    and not meeting the needs of the warfighter. The    and accepted monetary gifts without reviewing
                                    Global Hawk SPO is projected to deliver the MP-     for prohibited sources. This report discusses a
                                    RTIP/Global Hawk Block 40 to the warfighter in      potential violation of the Antideficiency Act.
                                    July 2013, which is about three years late and      Result: DoD IG recommended that the un-
                                    with increased costs of about $76 million.          der secretary of defense (comptroller) initiate
                                    Result: DoD IG recommended that the sec-            a preliminary review for a possible ADA viola-
                                    retary of the Air Force for acquisition develop     tion and the chief of naval operations establish
                                    MP-RTIP/Global Hawk Block 40 documenta-             a quality assurance program for contracts at the
                                    tion that includes specific cost, schedule and      academy. In addition, DoD IG recommended
                                    performance objectives to effectively manage        that the academy superintendant establish poli-
                                    risk in the remaining program phases. Further,      cies and procedures for accepting, recording and
                                    the USD(AT&L) should direct the withholding         inventorying in-kind gifts; conduct an inventory
                                    of funds until the Air Force complies with the      of in-kind gifts; deposit sponsorship funds with
                                    January 2011 acquisition decision memoran-          the U.S. Treasury; and develop procedures for
                                    dum and other recommendations identified in         reviewing donations from prohibited sources.
                                    the report. Management partially agreed to pre-     Management was responsive to most of the rec-
                                    pare the necessary acquisition documentation;       ommendations. DoD IG requested additional
                                    however, the response did not address specific      comments to the final report.
                                    details that will improve the program’s transpar-   Report No. DODIG-2012-017
                                    ency and accountability. Management disagreed
                                    with the complete withholding of funds and          Award and Administration of Multiple
                                    stated that memoranda were issued with the in-      Award Contracts for Services at U.S. Army
                                    tent to withhold procurement funding. Howev-        Medical Research Acquisition Activity Need
                                    er, management did not provide assurance that       Improvement
                                    funds would be withheld beyond procurement          Overview: DoD IG determined whether task
                                    or propose alternative actions. DoD IG request-     orders under professional, administrative and
“This law requires                  ed that management reconsider their position        management support services multiple award
the Interagency                     and provide additional comments on all recom-       contracts were properly competed among all
Coordination Group of               mendations.                                         awardees and whether adequate oversight, in-
                                    Report No. DODIG-2012-007                           cluding review of invoices, was performed for
Inspectors General for                                                                  the contracts. DoD IG reviewed 20 task orders,
Guam Realignment to                 U.S. Naval Academy Officials Did Not Adhere to      valued at about $235.1 million, from two multi-
monitor appropriations,             Contracting and Gift Policies                       ple award contracts issued in FYs 2009 and 2010
programs, operations                Overview: DoD IG performed this audit in            at USAMRAA at Fort Detrick, Md.
and contracts related to            response to a request from the staff of the Sen-    Findings: USAMRAA contracting officials gen-
                                    ate Armed Services Committee to determine           erally provided fair opportunity to compete for
military construction...”           whether the U.S. Naval Academy and its sup-         task orders awarded under multiple award con-
                                    porting organizations were properly disbursing,     tracts. USAMRAA contracting officials did not
                                    recording, accepting and reporting donations,       prepare adequate justifications for the use of
                                    gifts and nonappropriated funds. From January       sole-source procurements on three task orders,
                                    1, 2010, to December 31, 2010, the academy re-      valued at $8.7 million, because contracting of-
                                    ceived 381 monetary gifts, totaling $5.7 million    ficials relied on the logical follow-on exception
                                    and 153 in-kind gifts valued at $25.1 million.      without verifying if the exceptions were valid.
                                    Findings: U.S. Naval Academy officials improp-      In addition, contracting officials did not prepare

 18 SEMIANNUAL REPORT TO THE CONGRESS
fair and reasonable price determinations on two      solicited and awarded the Guam multiple award
task orders awarded with only one proposal,          construction contracts in accordance with ac-
valued at $35.4 million, because they relied on      quisition regulations. However, NAVFAC Pacific
inadequate independent government cost esti-         officials did not have procedures for promptly
mates when determining price reasonableness.         referring information to the Department of the
As a result, USAMRAA had no assurance that           Navy suspension and debarment official about
the government obtained the best value when is-      the offerors’ negative responsibility matters, as
suing the five task orders. Additionally, the CORs   required by Federal Acquisition Regulation.
did not perform adequate surveillance on 19          This occurred because NAVFAC Pacific internal
task orders reviewed. Specifically, quality assur-   policy did not require the contracting officer to
ance surveillance plans were either nonexistent      notify the DON SDO. As a result, the DON SDO
or inadequate, and the CORs did not maintain         was unaware of certain negative responsibility
evidence of written approval for deliverables.       matters pertaining to the Guam multiple award
Result: DoD IG recommended that the direc-           construction contract awardees that could have
tor, USAMRAA, require contracting officers and       been specific causes for suspension or debar-
CORs to:                                             ment.
•	 Prepare adequate justifications for sole          Result: During the audit, DoD IG informed the
     source awards and maintain complete con-        NAVFAC officials about the negative responsi-
     tract file support for fair and reasonable      bility matters of the contractors and senior Navy
     price determinations for negotiated awards.     acquisition officials of the problem. In response,
•	 Develop Quality Assurance Surveillance            NAVFAC headquarters issued an Acquisition
     Plans before the start of the task order per-   policy flash notice regarding the FAR require-
     formance period that provide measurable         ment.
     metrics to evaluate contractor performance      Report No. DODIG-2012-031
     and provide set time frames for frequency
     of reporting relevant to the task order.        DoD Needs to Improve Accountability and
•	 Require written support for inspection and        Identify Costs and Requirements for Non-
     acceptance of deliverables.                     Standard Rotary Wing Aircraft
•	 Obtain adequate supporting documents or           Overview: DoD IG reviewed the management
     recover unsupported ODCs of $139,916.           of the DoD acquisition and support of non-stan-
Management agreed with the recommendations.          dard rotary wing aircraft. DoD IG estimated that
Report No. DODIG-2012-033                            DoD obligated more than $1.6 billion over the
                                                     last five years and planned for more than $1 bil-
Acquisition Procedures for the Guam Design-          lion in estimated future NSRWA efforts.                   DoD IG reviewed the acquisition of
Build Multiple Award Construction Contract           Findings: DoD officials did not adequately                non-standard rotary wing aircraft.

Warning                                              manage the acquisition and support of NSRWA.
Overview: DoD IG performed this audit pur-           Specifically, DoD officials were unable to iden-
suant to Public Law 111-84, “National Defense        tify a comprehensive list of all DoD-owned and
Authorization Act for Fiscal Year 2010,” section     supported Mi-17s, total ownership costs and all
2835, “Interagency Coordination Group of In-         planned requirements in support of these air-
spectors General for Guam Realignment,” Oc-          craft. This occurred because the under secre-
tober 28, 2009. This law requires the group to       tary of defense for acquisition, technology and
monitor appropriations, programs, operations         logistics established the NSRWA Project Man-
and contracts related to military construction       agement Office as a temporary solution without
for the Guam realignment. DoD IG determined          fully authorizing the project manager and staff
whether Navy Facilities Engineering Command          to make DoD-wide decisions and did not follow
Pacific officials awarded the Guam design-build      the defense acquisition process, even though it
multiple award construction contract in accor-       met the requirements of a major defense acqui-
dance with federal, DoD and Department of the        sition program. As a result, DoD may not have
Navy acquisition regulations.                        achieved the best value for the more than $1.6
Findings: NAVFAC Pacific officials generally         billion NSRWA effort is at risk for inadequate

                                                                                                          OCTOBER 1, 2011 TO MARCH 31, 2012 19
Core Mission Areas



                                    management of the more than $1 billion in esti-            nation for 118 UCAs because they did not
                                    mated future costs.                                        adequately document their consideration of
                                    Result: DoD IG recommended that the                        reduced cost risk or the inputs used to cre-
                                    USD(AT&L) establish the NSRWA program as                   ate the profit objective.
                                    a long term effort and designate it with a defense    •	 Obligate funds within allowable limits
                                    acquisition program category; identify and de-             for 109 UCAs because they miscalculated
                                    velop the acquisition documents required for               the obligation amount and decreased the
                                    the program; require that all DoD procurement              not-to-exceed value without adjusting the
                                    and support of NSRWA efforts be sent to a single           amount obligated or they did not take steps
                                    contracting command and implement the initia-              to comply with the Office of Defense Pro-
                                    tives established in the November 3, 2010, bet-            curement.
                                    ter buying power memorandum; and request              •	 Properly justify the issuance of 60 UCAs be-
                                    the deputy secretary of defense to designate the           cause they did not adequately describe the
                                    Army as the executive agent for NSRWA. In ad-              necessity of a UCA to meet requirements.
                                    dition, the assistant secretary of the Army for ac-   •	 Adequately prepare authorization requests
                                    quisition, logistics and technology should issue a         to issue 59 UCAs because they did not
                                    formal charter for the NSRWA project manager.              clearly define UCA approval delegations or
                                    Management comments were partially respon-                 adequately address requirements in the au-
                                    sive to the recommendations. Additional com-               thorization requests.
                                    ments were requested to the final report. This        •	 Adequately support the determination of
                                    report is FOUO.                                            price reasonableness for 15 UCAs because
                                    Report No. DODIG-2012-036                                  personnel were unable to provide docu-
                                                                                               mentation to support fair and reasonable
“Public Law 99-591,                 Summary Report on DoD’s Management of                      pricing.
section 908(b) requires             Undefinitized Contractual Actions                     Result: DoD assumed additional cost risk and
                                    Overview: Public Law 99-591, section 908(b)           may have paid excessive profit and more than
DoD IG to periodically              requires DoD IG to periodically audit un-             fair and reasonable prices. DoD IG recom-
audit undefinitized                 definitized contractual actions and submit a re-      mended defense procurement and acquisition
contractual actions                 port to Congress. This is a summary of five re-       policy personnel revise the Defense Federal Ac-
and submit a report to              ports discussing DoD compliance with section          quisition Regulation Supplement Procedures,
Congress.”                          2326, title 10, U.S.C. DoD IG reviewed a non-         Guidance and Information to provide additional
                                    statistical sample of 251 UCAs with a total not-      guidance for managing UCAs. Management
                                    to-exceed value of about $15 billion awarded          partially agreed with the recommendations and
                                    by the Army Contracting Command-Redstone              DoD IG requested additional comments.
                                    Arsenal, Naval Air Systems Command, Marine            Report No. DODIG-2012-039
                                    Corps Systems Command, Air Force Electronic
                                    Systems Center and Air Force Space and Missile        Improvements Needed With Identifying
                                    Systems Center from FY 2004 through 2009. The         Operating Costs Assessed to the Fleet Readiness
                                    purpose was to determine whether contracting          Center Southwest
                                    personnel complied with the restrictions of sec-      Overview: DoD IG determined whether DLA
                                    tion 2326 and if they appropriately justified and     Aviation San Diego correctly assessed its operat-
                                    definitized UCAs at reasonable prices.                ing costs to Fleet Readiness Center Southwest for
                                    Findings: DoD contracting personnel did not           providing supply, storage and distribution. DLA
                                    consistently comply with statutory and DoD re-        Aviation San Diego assessed their total estimated
                                    quirements for managing UCAs for 216 of 251           operating costs to FRCSW through an annual,
                                    UCAs. DoD contracting personnel did not:              fixed-price agreement. Of the $70.1 million in
                                    •	 Definitize 132 UCAs within the 180-day             estimated operating costs from FY 2009 through
                                         time frame because of inadequate contrac-        FY 2011, DoD IG reviewed $59.3 million of the
                                         tor proposals, staffing shortages and chang-     estimated operating costs to determine whether
                                         ing government requirements.                     the costs were allowable and supportable.
                                    •	 Adequately support their profit determi-           Findings: DLA Aviation San Diego officials did

 20 SEMIANNUAL REPORT TO THE CONGRESS
not correctly assess their operating costs for pro-   comes and met the needs of DoD.
viding SS&D support to FRCSW. Specifically,           Findings: The Army and Air Force require-
DLA Aviation San Diego officials assessed $17.6       ments development and design processes for
million in operating costs for services that were     the 17 projects reviewed resulted in defined re-
outside the scope of their SS&D responsibilities      quirements, measurable outcomes and projects
and $5.1 million in operating costs for services      that generally met DoD needs. Despite the pro-
that were potentially not SS&D. This occurred         cesses, one Air Force project did not fully meet
because the commander, DLA Aviation San Di-           DoD’s needs. Specifically, the Air Force project
ego, the director, DLA Finance Aviation, and          justification required the repair of a runway to
comptroller, FRCSW did not develop a local            be C-17 aircraft capable but the justification did
support agreement that clearly identified ser-        not include a requirement for wider taxiways to
vices performed and costs associated with those       support C-17 aircraft. Subsequently, Congress
services. In addition, neither DLA Finance Avia-      approved a separate project that included the
tion Office nor DLA Aviation San Diego Materi-        necessary taxiway to fully meet DoD needs. In
al Management Division personnel developed or         addition, the design process for three of the 17
implemented policies and procedures that iden-        projects did not result in Army Corps of Engi-
tified, estimated and documented DLA Avia-            neers and Air Force Center for Engineering and
tion San Diego operating costs. As a result, DLA      the Environment officials constructing facilities
Aviation San Diego could reduce its operating         in accordance with facility sizes on the congres-
costs for providing SS&D to FRCSW by approxi-         sional request for authorization. This occurred
mately $5.8 million per FY. Furthermore, DLA          because the scope of work variations permissible
Aviation San Diego could not provide sufficient       by section 2853, title 10, U.S.C., from the con-
documentation for $13.9 million in estimated          gressional request for authorization are unclear
SS&D support costs.                                   and inconsistently applied. As a result, DoD
Result: DoD IG recommended that the com-              officials do not have assurance that MILCON
mander, DLA Aviation San Diego, and the direc-        projects are built consistent with congressional
tor, DLA Finance Aviation, coordinate with the        intent and in accordance with legislative require-
comptroller, FRCSW, to develop and implement          ments. Additionally, AFCEE officials improperly
a local support agreement; establish a quality        authorized the construction of facilities for one
control process to review the operating costs         project. This occurred because AFCEE officials
assessed to the FRCSW; and reduce operating           did not conduct scope verifications and perform
costs in future years by not performing services      proper contract administration. As a result, AF-
outside the scope of SS&D support or that are         CEE officials improperly authorized the expen-
not the responsibility of DLA Aviation San Di-        diture of at least $3.3 million.
ego. Management did not fully respond to the          Result: DoD IG recommended that the deputy
recommendation. DoD IG requested additional           under secretary of defense for installations and
comments to the final report.                         environment issue clarification guidance to de-
Report No. DODIG-2012-049                             fine the scope of work outlined in section 2853,
                                                      title 10, U.S.C., which may not be exceeded.
Guidance Needed to Prevent Military                   Once the deputy under secretary of defense for
Construction Projects from Exceeding the              installations and environment issues clarifying
Approved Scope of Work                                guidance, DoD IG recommends that the com-
Overview: DoD IG evaluated the requirements           manding general, USACE, and director, AFCEE,
development process for military construction         develop and implement procedures to perform
projects in Afghanistan; specifically, the Army       scope verifications to ensure compliance with
and Air Force requirements development and            section 2853, title 10, U.S.C. DoD IG also recom-
design processes for 17 projects, totaling ap-        mended that the director, AFCEE, identify the
proximately $456 million. DoD IG determined           officials responsible for not performing proper
whether the requirements development and              contract administration, perform a review of
design processes resulted in statements of work       the contract file to ensure it is complete and            DoD IG evaluated the requirements
that defined requirements, had measurable out-        accurate, and initiate administrative action, as          development process in Afghanistan.


                                                                                                           OCTOBER 1, 2011 TO MARCH 31, 2012 21
Core Mission Areas



                                    deemed appropriate.                                  forming cables. DoD IG also reviewed DCMA
                                    Report No. DODIG-2012-057                            current policies and procedures on investigating
                                                                                         and controlling nonconforming cables for avi-
“...policy did not                  Inadequate Controls Over the DoD Service-            onic systems produced by NSD.
require adequate                    Disabled Veteran-Owned Small Business                Findings: DCMA issued three corrective action
                                    Set-Aside Program Allow Ineligible Contractors       requests, notified customers and conducted an
verification of
                                    to Receive Contracts                                 evaluation of rapid cable production to validate
contractor status before            Overview: DoD IG analyzed whether the con-           the corrective actions NSD took. According to
awarding SDVOSB set-                trols over the DoD Service-Disabled Veteran-         DCMA-Los Angeles officials, they conducted
aside and sole source               Owned Small Business set-aside program af-           reviews of suppliers based on contract adminis-
contracts.”                         fected the integrity of the program.                 tration delegations, work priorities and critical
                                    Findings: Controls over the DoD SDVOSB set-          safety items. In addition, the DCMA-Los Ange-
                                    aside program were not adequate to ensure that       les quality assurance supervisor stated that her
                                    only eligible SDVOSBs obtained set-aside and         office had not followed the government contract
                                    sole-source contracts. Specifically, DoD con-        quality assurance surveillance plan as directed
                                    tracting activities awarded:                         by DCMA policy because of limited personnel
                                    •	 Six contracts, valued at approximately $1.9       resources.
                                         million, to ineligible contractors.             Results: DoD IG review determined that DCMA
                                    •	 Twenty-seven contracts, valued at approxi-        and NSD addressed and resolved the rapid cable
                                         mately $340.3 million, to contractors that      problem, and that there have not been any non-
                                         potentially misstated their SDVOSB status.      conforming cables since the hotline complaint.
                                    DoD Office of Small Business Programs policy         Report No. DODIG-2012-060
                                    did not require adequate verification of contrac-
                                    tor status before awarding SDVOSB set-aside          Contractor-Invoiced Costs Were Accurate, but
                                    and sole-source contracts. As a result, nonquali-    DoD Did Not Adequately Track Funding
                                    fied firms received awards, reducing the oppor-      Overview: DoD IG determined whether costs
                                    tunities for disabled veterans to receive DoD        on contractor invoices for services performed
                                    contracts.                                           for DoD were accurate, allowable and allocable.
                                    Result: DoD IG recommended that DoD man-             In addition, DoD IG determined whether U.S.
                                    agement establish a contractor verification pro-     Army Medical Research Acquisition Activity of-
                                    cess to evaluate contractors’ SDVOSB status. In      ficials and TRICARE Management Activity of-
                                    addition, the commanding officers of the facili-     ficials adequately tracked funding on one task
                                    ties audited should determine whether contrac-       order. The review included 251 invoices, totaling
                                    tors misstated their SDVOSB status and pursue        $32.9 million, on three task orders, valued at $64
                                    necessary contractual remedies. In addition,         million.
                                    DoD should address the accuracy of data and          Findings: The contractor for the three task or-
                                    reevaluate the process for validating the contract   ders invoiced costs that were generally accurate,
                                    action report data.                                  allowable, and allocable. Specifically, the con-
                                    Report No. DODIG-2012-059                            tractor:
                                                                                         •	 Appropriately invoiced $9.4 million on 94
                                    Defense Contract Management Agency’s Inves-                invoices reviewed.
                                    tigation and Control of Nonconforming Materi-        •	 Generally complied with its time and atten-
                                    als                                                        dance policy for 1,156 time sheets.
                                    Overview: DoD IG initiated the audit because         •	 Properly billed for labor categories and rates
                                    of a Defense Hotline complaint concerning the              established in the task order or base con-
                                    Defense Contract Management Agency’s actions               tract for 111 labor invoices, totaling $19.5
                                    following the discovery of nonconforming cables            million.
                                    used in avionics systems produced by Northrop        •	 Correctly hired employees that met the re-
                                    Grumman’s Navigation Systems Division. DoD                 quirements of their labor categories for 15
                                    IG reviewed the hotline complaint and evaluated            contractor employees of the 19 in the sam-
                                    DCMA actions taken to address the noncon-                  ple.

 22 SEMIANNUAL REPORT TO THE CONGRESS
The contractor’s invoices included minor unal-         improvements to financial information.
lowable costs of $925, which have been credited
to the government. The contractor complied             Due to the limitations on the scope of work,
with FAR Subpart 31.2, “Contracts with Com-            DoD IG issued a disclaimer of opinion on the
mercial Organizations,” which defines accurate,        DoD agency-wide and special purpose financial
allowable and allocable costs. As a result, the De-    statements. DoD IG issued a disclaimer of opin-
fense Finance and Accounting Service and the           ion and did not express an opinion on the re-
TMA Payment Office paid the contractor for ap-         lated reports on internal control and compliance
propriate costs. In addition, DFAS and the TMA         with laws and regulations on the FY 2011 DoD
Payment Office paid 244 invoices, totaling $32.6       agency-wide basic and special purpose financial
million, in accordance with the Prompt Payment         statements.
Act. USAMRAA and TMA officials did not ad-
equately track and deobligate funding on one           Previously identified material weaknesses con-
task order because they were unaware of whose          tinued to exist in the following areas:
responsibility it was to track funding. As a result,   •	 Financial management systems
$521,889 was unavailable for other purposes.           •	 Fund balance with treasury
Result: DoD IG recommended that the director,          •	 Accounts receivable
TMA, coordinate with the director, USAMRAA,            •	 Inventory
to:                                                    •	 Operating materials and supplies
•	 Determine how much of the $196,543 in               •	 General property, plant and equipment
     operation and maintenance funds should            •	 Government property in the possession of
     remain on Task Order 6 for final indirect             contractors
     rate adjustments and deobligate the remain-       •	 Accounts payable
     ing funds.                                        •	 Environmental liabilities
•	 Determine how much of the $325,346 in               •	 Statement of net cost
     DoD Medicare-Eligible Retiree Health Care         •	 Intergovernmental eliminations
     Funds should remain on Task Order 6 for fi-       •	 Other accounting entries
     nal indirect rate adjustments and deobligate      •	 Reconciliation of net cost of operations to
     the remaining funds.                                  budget
•	 Establish guidance that delineates the roles
     and responsibilities of the funds holder and      Office of Management and Budget requires
     contracting activity in tracking funds.           that nine components prepare and submit au-
Management agreed with the recommendations.            dited stand-alone financial statements. The nine
Report No. DODIG-2012-062                              components are the Army General and Work-
                                                       ing Capital Funds; Navy General and Working
                                                       Capital Funds ; Air Force General and Working
Financial Management                                   Capital Funds; U.S. Army Corps of Engineers,
                                                                                                                    “DoD IG continues
DoD IG continues to support as well as provide                                                                    to support as well as
                                                       Civil Works; Medicare-Eligible Retiree Health
oversight of the financial management transfor-        Care Fund; and Military Retirement Fund.               provide oversight of the
mation efforts of the Department. In October                                                                   financial management
2011, the secretary of defense issued a memo-          DoD IG conducted or oversaw the required fi-             transformation efforts
randum renewing the Department’s focus on              nancial statements audits because those state-
improving financial information with a specific                                                                   of the Department.”
                                                       ments represent material portions of the DoD
goal to achieve audit readiness for the statement      agency-wide financial statements. In FY 2011,
of budgetary resources by the end of 2014 as well      USACE, Civil Works; Medicare-Eligible Retir-
as improve accountability for assets. During the       ee Health Care Fund; and Military Retirement
last six months, DoD IG has worked closely with        Fund received unqualified opinions, while the
the Department to address this priority. As the        other components received disclaimers of opin-
Department continues to revise its audit readi-        ion.
ness plan, DoD IG has and will continue to in-
crease our audit and oversight efforts to validate

                                                                                                          OCTOBER 1, 2011 TO MARCH 31, 2012 23
Core Mission Areas



                                       Financial Systems Audits                            ward the planned FY 2015 SFIS compliance
                                       DoD IG performs financial system audits of en-      date before approving deployment to addition-
                                       terprise resource planning systems to determine     al commands. The Defense Business Systems
                                       whether the systems can provide DoD manage-         Management Committee chairman should track
                                       ment with timely, accurate and reliable financial   the configuration and implementation of BEA
                                       information. These audits determine compli-         requirements
                                       ance with federal guidance that will ensure DoD     Report No. DODIG-2012-051
                                       managers can make informed financial deci-
                                       sions in support of the warfighter. These audits    General Fund Enterprise Business System Did
                                       also provide insight and recommendations to         Not Provide Required Financial Information
                                       managers as they focus and prepare for audit        Overview: DoD IG determined whether the
                                       readiness.                                          General Fund Enterprise Business System pro-
                                                                                           vided DoD management with accurate and reli-
                                       Navy Enterprise Resource Planning System            able financial information by assessing whether
                                       Does Not Comply With the Standard Financial         GFEBS complied with the U.S. Government
                                       Information Structure and U.S. Government           Standard General Ledger and the Standard Fi-
DoD IG assessed the General Fund       Standard General Ledger                             nancial Information Structure. The Army de-
Enterprise Business System.
                                       Overview: DoD IG determined whether the             veloped GFEBS to improve the reliability of
                                       Navy Enterprise Resource Planning System pro-       financial information and comply with federal
                                       vided DoD management with accurate, timely          financial reporting guidance.
                                       and reliable financial information by deter-        Findings: GFEBS did not contain accurate and
                                       mining whether the system complied with the         complete FY 2010 USSGL and SFIS information
                                       Standard Financial Information Structure and        as required by the Federal Financial Manage-
                                       the U.S. Government Standard General Ledger.        ment Improvement Act of 1996 and under sec-
                                       However, compliance with this guidance did not      retary of defense (comptroller)/chief financial
                                       apply to the timeliness of the financial data. As   officer, DoD (USD[C]/CFO), guidance. This
                                       such, DoD IG did not determine whether the          occurred because USD(C)/CFO personnel did
                                       system provided DoD management with timely          not provide timely updates to the DoD standard
                                       financial information.                              chart of accounts, and the assistant secretary
                                       Findings: The Navy developed and approved           of the army (financial management and comp-
                                       deployment of the system to 54 percent of its ob-   troller) did not provide adequate oversight for
                                       ligation authority, which was valued at $85 bil-    maintaining the GFEBS chart of accounts or
                                       lion for FY 2011, without ensuring that the sys-    ensuring that GFEBS consistently entered val-
                                       tem complied with SFIS and USSGL. The Navy          ues for all the attributes required by USSGL and
                                       did not have an adequate plan to incorporate        SFIS. ASA(FM&C) has begun to address these
                                       SFIS requirements into the development and          issues identified during the audit. As a result,
                                       implementation of the system, did not develop       GFEBS did not provide DoD management with
                                       an adequate validation process to assess compli-    required financial information. In addition,
                                       ance with SFIS requirements, implemented the        GFEBS may not resolve the Army general fund’s
                                       system to accommodate the existing Navy chart       long-standing financial management systems
                                       of accounts and noncompliant procedures, and        and intragovernmental eliminations material
                                       failed to implement processes necessary to sup-     weaknesses, despite costing the Army $630.4
                                       port requirements. As a result, the Navy spent      million as of October 2011.
                                       $870 million to develop and implement a system      Results: DoD IG recommended that the
                                       that might not produce accurate and reliable fi-    USD(C)/CFO implement procedures to
                                       nancial information.                                streamline DoD chart of account updates. The
                                       Result: DoD IG recommended that the under           ASA(FM&C) should not deploy GFEBS to addi-
                                       secretary of defense for acquisition, technology,   tional users until it can ensure through reviews
                                       and logistics review the Navy ERP System’s Busi-    and validation that GFEBS consistently enters
                                       ness Enterprise Architecture compliance status      required attributes. In addition, ASA(FM&C)
                                       to ensure adequate progress is being made to-       should update the GFEBS chart of accounts with


24 SEMIANNUAL REPORT TO THE CONGRESS
the capability to post to the 28 DoD reporting      Afghanistan operations were adequate. Specifi-
accounts identified in this report. Management      cally, controls were reviewed to ensure that con-
partially agreed with the recommendations.          tract payments were proper and that complete,
Report No. DODIG-2012-066                           accurate and meaningful data were reported to
                                                    the decision makers responsible for managing
Funding for Enhancements to the Standard Pro-       CERP. U.S. Forces-Afghanistan processed more
curement System                                     than 8,509 CERP payment transactions, totaling
Overview: DoD IG determined whether Army            $486 million, between October 2008 and Febru-
officials properly funded the Standard Procure-     ary 2010. As of January 2011, DoD had allocated
ment System enhancements for the Joint Con-         about $3.2 billion in CERP funds to support Af-
tracting Command-Iraq/Afghanistan.                  ghanistan operations, of which DoD obligated
Finding: Army Contracting Agency, Informa-          $2 billion and disbursed $1.5 billion.
tion Technology, E-Commerce and Commer-             Finding: U.S. Central Command and USFOR-
cial Contracting Center contracting officials       A controls over CERP contract payments and
inappropriately used approximately $755,000         reporting were not adequate. Specifically, for
of FY 2008 operation and maintenance funds          CERP payments made between October 2008
rather than procurement funds for the system        and February 2010, USCENTCOM and US-
enhancements. This occurred because agency          FOR-A did not:
contracting officials misinterpreted the DoD        •	 Maintain and report reliable and meaning-
Financial Management Regulation. As a result,            ful CERP data for 6,157 of 8,509 CERP pay-
they potentially may have created a purpose stat-        ments.
ute violation and may have violated the Antide-     •	 Deobligate at least $16.7 million of unused
ficiency Act.                                            CERP project funds for 108 closed or termi-
Result: DoD IG recommended that the assistant            nated CERP projects.
secretary of the Army (financial management         •	 Identify or prevent $1.7 million of improper
and comptroller) initiate a preliminary review           payments on 13 CERP projects.
for the potential Antideficiency Act violation      •	 Identify or prevent at least 30 unauthorized
identified and report the results of the review          advance payments, totaling $3.4 million,
to DoD IG. Management disagreed with the                 made to vendors on CERP contracts.
recommendation. DoD IG requested additional         •	 Mitigate the risk of overpayments and un-
comments to the final report.                            derpayments because of currency rate fluc-
Report No. DODIG-2012-032                                tuations.
                                                    This occurred because USFOR-A did not issue
Financial-Related Audits                            guidance on recording and reconciling CERP
In addition to the financial systems reports,       data until May 2009 and did not properly train
DoD IG auditors conducted several financial-        personnel on that guidance. USCENTCOM and
related audits. These audits focus on providing     USFOR-A did not provide sufficient CERP con-
insight and valuable recommendations to man-        tract oversight to prevent improper payments,
agers as they focus and prepare for audit readi-    payments from unauthorized sites or unauthor-
ness. DoD IG performed audits of controls over      ized advance payments. In addition, DoD acqui-
and recording of financial transactions, report-    sition policy lacked a requirement for contracts
ing of improper payments, oversight of high-risk    to be written and paid in the same currency.
transactions and accounting of Afghan National      Result: USFOR-A had potentially up to $38.4
Army payroll functions.                             million in outstanding unliquidated obligations,
                                                    improper payments, high-risk CERP advance
Management Improvements Needed in                   payments and a high risk for currency exchange
Commander’s Emergency Response Program in           rate fraud and overpaying or underpaying Af-
Afghanistan                                         ghanistan vendors. DoD IG recommended that
Overview: DoD IG determined whether con-            USCENTCOM and USFOR-A should establish
trols over the Commander’s Emergency Re-            and implement policy and training to improve
sponse Program payments made to support             controls over CERP contract payments and re-


                                                                                                        OCTOBER 1, 2011 TO MARCH 31, 2012 25
Core Mission Areas



                                        porting. DoD IG also recommended that US-              journal vouchers so that audit trails comply
                                        CENTCOM review contracting officials’ actions          with DoD FMR requirements and properly
                                        to determine whether administrative action is          support audit readiness efforts.
                                        warranted and that USFOR-A needs to quickly         •	 Eliminate auto-approval of journal vouch-
                                        improve the quality of CERP data provided to           ers and manually approve all system-pre-
                                        Congress, USCENTCOM and its field com-                 pared journal vouchers, including the ap-
                                        manders.                                               propriate level of approval required by DoD
                                        Report No. DODIG-2012-023                              FMR thresholds.
                                                                                            Management mostly agreed with the recom-
                                        Deficiencies in Journal Vouchers That Affected      mendations.
                                        the FY 2009 Air Force General Fund Statement        Report No. DODIG-2012-027
                                        of Budgetary Resources
                                        Overview: The Defense Finance and Account-          American Recovery and Reinvestment Act—
“DoD IG determined                      ing Service Columbus accountants prepared           Improvements Needed in Implementing the
whether the U.S. Army                   6,177 journal vouchers, amounting to approxi-       Homeowners Assistance Program
                                        mately $2 trillion, to prepare the Air Force Gen-   Overview: DoD IG determined whether the
Corps of Engineers                      eral Fund Statement of Budgetary Resources and      U.S. Army Corps of Engineers processed Hom-
processed Homeowners                    associated budgetary reports during FY 2009.        eowners Assistance Program applications and
Assistance Program                      DoD IG reviewed the journal vouchers DFAS           payments in accordance with the interim rule
applications and                        prepared and used to produce the FY 2009 Air        published in the Federal Register and imple-
payments in                             Force General Fund SBR and other budgetary          menting guidance. The American Recovery and
                                        reports for proper support and approval.            Reinvestment Act of 2009 allocated $555 mil-
accordance with the                     Findings: Deficiencies in some of these jour-       lion to expand HAP and the National Defense
interim rule published                  nal vouchers weakened the reliability of the Air    Authorization Act of 2010 authorized an addi-
in the Federal Register                 Force General Fund Statement of Budgetary           tional $300 million.
and implementing                        Resources and did not fully support audit readi-    Findings: USACE district personnel generally
guidance.”                              ness, nor were all journal vouchers properly ap-    made accurate payments to eligible applicants
                                        proved. Specifically, DFAS:                         in accordance with the interim rule and imple-
                                        •	 Made 1,680 journal vouchers, amounting to        menting guidance. However, district personnel
                                             $538 billion, to force agreement of certain    processed and paid HAP applications using in-
                                             financial report totals and did not provide    consistent policies and procedures. USACE did
                                             adequate support, such as transaction de-      not issue detailed guidance on how to process
                                             tails or reconciliations.                      payments consistently among the district offic-
                                        •	 Did not maintain an adequate detailed            es, and district personnel did not effectively use
                                             audit trail for 89 sample journal vouchers     management control checklists to detect mis-
                                             amounting to $169.7 billion.                   takes and ensure program compliance. Of the
                                        •	 Did not properly approve 870 journal             64 payments reviewed, totaling $15.8 million,
                                             vouchers amounting to $877.5 billion.          district personnel underpaid three applicants
                                        In a positive step toward improvement, DFAS is-     $9,563 and overpaid five applicants $1,308. In
                                        sued a memorandum, “Air Force General Fund          addition, they did not fully support payments
                                        Journal Vouchers,” April 18, 2011, establishing a   for seven applicants totaling $28,558. USACE
                                        journal voucher review team.                        had limited success in managing the backlog
                                        Result: DoD IG recommended that the director,       of eligible HAP applicants. As of February 23,
                                        DFAS Columbus, implement new policies and           2011, USACE had paid 4,825 applicants $725.5
                                        procedures in internal control over financial re-   million, but had a backlog of 4,897 eligible ap-
                                        porting to:                                         plicants. This occurred because USACE head-
                                        •	 Support reconciliations with specific ac-        quarters had not developed a detailed plan for
                                             counting transactions and discontinue forc-    managing the backlog. Therefore, DoD did not
                                             ing agreement of amounts to meet budget-       maximize its ability to offset the losses of quali-
                                             ary financial reporting requirements.          fying service members and civilians.
                                        •	 Include adequate detailed evidence with          Result: DoD IG recommended that the director

 26 SEMIANNUAL REPORT TO THE CONGRESS
of real estate, USACE, issue detailed guidance      Result: DoD IG recommended that the assistant
for the uniform processing of HAP payments;         secretary of the Army (acquisition, logistics and
review payment information and make correc-         technology) implement the use of a data min-
tions as necessary; and develop a plan for man-     ing system and review transactions that did not
aging the backlog. Management agreed with all       comply or have documentation. The ASA (ALT)
recommendations except the one to develop a         agreed to implement the data mining system;
plan for managing the backlog. DoD IG request-      however, they did not agree to review potential
ed additional comments to the final report.         violations of laws and regulations. DoD IG also
Report No. DODIG-2012-035                           recommended that the assistant secretary of the
                                                    Army (financial management and comptrol-
Army Needs to Identify Government Purchase          ler), initiate a preliminary review to determine
Card High-Risk Transactions                         whether any potential Antideficiency Act viola-
Overview: DoD IG determined whether Army            tions occurred. The ASA (FMC) agreed with the
government purchase card transactions, identi-      recommendation.
fied as high-risk by the Office of the Under Sec-   Report No. DODIG-2012-043
retary of Defense for Acquisition, Technology
and Logistics using the purchase card on-line       Distribution of Funds and Mentoring of Finance
system, were made in compliance with applica-       Officers for the Afghanistan National Army Pay-
ble laws and regulations. DoD IG also assessed      roll Need Improvement
whether the Army approving officials detected       Overview: DoD IG audited the accuracy of the
any of the transactions that were noncompliant.     distribution of DoD funds to the Afghan Na-
The auditors reviewed a non-statistical sample of   tional Army payroll and the mentoring of Af-
112 transactions, valued at approximately $3.6      ghan Ministry of Defense and ANA personnel
million, which PCOLS identified as high-risk for    to sustain the payroll process without the assis-
being noncompliant.                                 tance of coalition forces.
Findings: PCOLS identified Army high-risk           Findings: The North Atlantic Treaty Organiza-            DoD IG audited the accuracy of the
transactions that DoD IG determined did not         tion Training Mission–Afghanistan/Combined               Afghanistan National Army payroll.

comply with laws and regulations for using          Security Transition Command–Afghanistan CJ8
government purchase cards. Specifically, 17         Directorate Finance Reform Office did not im-
noncompliant transactions valued at $1.2 mil-       plement adequate controls to ensure that $410.4
lion were made on cards issued by eight Army        million of ANA payroll funds were properly ad-
contracting offices. The Army detected only         vanced and reported to the Ministry of Defense.
one of the transactions. Two of the transactions    This occurred because CJ8 FRO personnel did
resulted in more than $1 million in potential       not have written procedures or perform ad-
Antideficiency Act violations. The transactions     equate reviews, and they relied on summary and
were noncompliant because cardholders and           not detailed data when distributing the quarterly
approving officials responsible for the transac-    advances. As a result, CJ8 FRO personnel did
tions ignored GPC laws and regulations to facili-   not have visibility over ANA payroll funds and
tate making desired purchases to meet mission       they could not accurately calculate and report
needs. They also believed the immediate need        quarterly advances to the Ministry of Defense.
for an item overrode GPC business rules. Army       Specifically, CJ8 FRO included $47.8 million in
GPC officials did not detect 16 of the 17 non-      absolute errors in their ANA payroll advances
compliant transactions because the Army did         and reporting from April 2009 through January
not use a data mining system, such as PCOLS,        2011. During the audit, NTM-A/CSTC-A took
to identify high-risk transactions and indepen-     action to improve controls over the ANA payroll
dently monitor the Army’s GPC program. Army         reconciliation process.
officials believed it was too difficult to imple-   Results: DoD IG recommended implementing
ment a data-mining tool. As a result, this led to   procedures to ensure the accuracy of the recon-
Army cardholders wasting funds by procuring         ciliation and distribution process and partner
prohibited items and by splitting purchases that    with the Defense Finance and Accounting Ser-
did not receive the benefit of competition.         vice to develop control procedures in the ANA

                                                                                                        OCTOBER 1, 2011 TO MARCH 31, 2012 27
Core Mission Areas



                                        payroll audit and mentoring areas. Management       achieve audit readiness for the SBR by the end
                                        agreed with the recommendations.                    of 2014.
                                        Report No. DODIG-2012-058                           Results: DoD IG agreed that these areas need
                                                                                            improvement before DoD will be able to pro-
                                        DoD Compliance With the Requirements of the         vide complete and accurate information on the
                                        Improper Payments Elimination and Recovery          Department’s estimated amount of improper
                                        Act                                                 payments. In previous reports, DoD IG identi-
                                        Overview: DoD IG determined whether DoD             fied similar problems and issued recommenda-
                                        complied with Public Law 107-300, “Improper         tions to correct the areas that DoD disclosed in
                                        Payments Information Act of 2002,” November         its AFR. Therefore, DoD IG did not make ad-
                                        26, 2002, as amended by Public Law 111-204,         ditional recommendations to improve the ac-
                                        “Improper Payments Elimination and Recovery         curacy and completeness of the reporting until
                                        Act of 2010,” July 22, 2010. DoD IG reviewed        DoD is able to take corrective actions on out-
                                        DoD reporting in the “FY 2011 Agency Finan-         standing recommendations and the weaknesses
                                        cial Report,” Addendum A, “Other Accompany-         it self-identified in the AFR.
                                        ing Information.”                                   Report No. DODIG-2012-065
                                        Findings: The under secretary of defense
                                        (comptroller)/chief financial officer met the re-
“Information                            quirements of the Improper Payments Elimina-        Information Assurance,
technologies have                       tion and Recovery Act of 2010, but stated that
                                        there were problems with the completeness and
                                                                                            Security and Privacy
revolutionized how                                                                          Information technologies have revolutionized
                                        accuracy of the DoD improper payment review         how the U.S. military organizes, trains and
our militaries organize,                and the information reported. USD(C)/CFO            equips. The current technologies are the essence
train, and equip.”                      made significant disclosures about the limited      of key military capabilities in communications,
                                        completeness and accuracy of the DoD’s efforts      command and control, navigation, intelligence
                                        to identify and report on improper payments,        and surveillance and reconnaissance. Within
                                        including:                                          a few short years, information technology
                                        •	 DoD did not statistically sample Defense         transitioned from a support function to a
                                             Finance and Accounting Service commer-         strategic catalyst for all military functions.
                                             cial payments for its FY 2011 reporting.       Information assurance requires constant
                                        •	 Transactions and processes (business and         vigilance in terms of the identification and
                                             financial processes, controls, and systems)    mitigation of cyber threats. DoD IG audits will
                                             were neither standard nor sound in all cas-    continuously monitor and evaluate DoD use
                                             es.                                            of people, policies, money and equipment to
                                        •	 The Statement of Budgetary Resources was         protect its information; and defend, protect and
                                             not auditable, and as a result, DoD could      restore its information systems.
                                             not reconcile outlays to the quarterly or
                                             annual gross outlays reported in the SBR       Improvements Needed With Host-Based
                                             to ensure that all required payments for re-   Intrusion Detection Systems
                                             porting purposes were captured.                Overview: DoD IG determined whether DoD,
                                        USD(C)/CFO was planning actions to correct          using host-based intrusion detection systems,
                                        these self-identified deficiencies in its improp-   was detecting, reporting, and mitigating cyber
                                        er payment reporting. Specifically, USD(C)/         intrusions. DoD IG reviewed the status of
                                        CFO stated that DFAS would begin statistical        deployment and configuration of HIDS as
                                        sampling of commercial payments in FY 2012.         reported by DoD components to U.S. Cyber
                                        DoD was also working to improve its business        Command and performed a more detailed
                                        and financial processes, controls and systems to    review at two DoD components.
                                        achieve financial statement audit readiness by      Findings: The report findings are FOUO.
                                        September 30, 2017, as required by Congress. In     Result: The report results are FOUO.
                                        October 2011, the secretary of defense directed     Report No. DODIG-2012-050
                                        the USD(C)/CFO to provide a revised plan to

 28 SEMIANNUAL REPORT TO THE CONGRESS
Assessment of Security within the Department           Report       on     Sensitive    Compartmented
of Defense – Training, Certification and               Information Leaks in the Department of Defense
Professionalization                                    Overview: The House Defense Appropriations
Overview: The report was the second in a series        Committee stated concerns with “the number
of assessments designed to provide an overall          of leaked classified and compartmented facts
review of security policies and procedures within      and reports that have occurred over the past
the Department. The assessment responded to a          three calendar years.” The committee expressed
request from the USD(I) and focused on how             concerns that “sources and methods used for
the Department trains, certifies and establishes       clandestine and covert action are being exposed           DoD IG reviewed IT security policies
professional standards for security professionals      on a regular basis and is of grave concern.”              and procedures within the Department.
across the DoD security enterprise.                    Results: DoD IG confirmed with DoD
Finding: DoD IG found that security training           components that some unauthorized disclosures
is sporadic and not consistently applied               of sensitive compartmented information to
throughout the Department. This is due, in part,       the public did occur within DoD between
to the inability to ensure that funding for security   December 23, 2008, and December 23, 2011.
training is dedicated and not re-allocated             Among the unauthorized SCI disclosures to
for non-security efforts. Furthermore, the             the public reported, a former DoD official was
Security Professional Education Development            directly attributed as a source of unauthorized
Certification Program is only partially                SCI disclosures to the public. DoD components
developed at this time and linkages to identified      also reported that they followed established
security job requirements and competencies             DoD guidance and procedures for forwarding
are not well understood by the DoD security            unauthorized disclosure cases to the Department
workforce. As a result, there are some doubts          of Justice for action when appropriate.
across the Department regarding the viability of       Report No. DODIG-2012-056
the certification program and whether it will be
implemented in a timely manner.
Result: DoD IG recommended that the                    Joint Warfighting and
director, Defense Security Service, examine
the current implementation strategy and
                                                       Readiness
                                                       In January 2012, DoD issued “Sustaining U.S.
develop a standardized certification program           Global Leadership: Priorities for the 21st Centu-
implementation plan for use by all organizations       ry,” articulating the 21st century defense priori-
and commands, including a means to track               ties. This strategic guidance called for a smaller
those with certifications and identify the level       and leaner force structure capable of the full
of certification. In addition the director should      range of missions. To meet these various mis-
develop an awareness plan to communicate               sions, the restructured force will be balanced by
the status of the security certification program       technological advancements; able to deter and
across the Department, and address timeliness          defeat aggression; maintain flexibility to ensure
concerns to ensure the prompt implementation           surge capability; and maintain readiness that en-
of certification for security professionals and a      sures effective mobilization. Ensuring that U.S.
consistent level of protection of DoD resources.       forces are ready to carry out assigned missions is
DoD IG also recommend that the deputy under            a preeminent responsibility and challenge.
secretary of defense for intelligence and security
develop a mechanism to provide consistent              DoD Complied With Policies on Converting Se-
oversight and monitoring of funds allocated            nior Mentors to Highly Qualified Experts, but
to support the security certification program          Few Senior Mentors Converted
to ensure funds are not repurposed for non-            Overview: DoD IG determined whether DoD
security training endeavors.                           implemented and complied with the secretary of
Report No. DODIG-2012-001                              defense memorandum, “Policy on Senior Men-
                                                       tors,” April 1, 2010. Specifically, DoD IG deter-
                                                       mined whether DoD properly converted senior
                                                       mentors to HQEs and consistently implemented

                                                                                                            OCTOBER 1, 2011 TO MARCH 31, 2012 29
Core Mission Areas



                                       the secretary of defense senior mentor policies.          misstated (overstated and understated) by
                                       Navy, Marine Corps and selected combatant                 $77.3 million.
                                       commands controls were reviewed for imple-           Separate testing at the Westhampton Air Na-
                                       menting and complying with DoD policies for          tional Guard base identified inventory quantity
                                       converting senior mentors to HQEs. DoD IG            discrepancies with $11.4 million of their $32.5
                                       did not review the Departments of the Army           million inventory value. These conditions oc-
                                       and Air Force because their respective audit         curred because personnel did not always process
                                       agencies were performing those reviews.              inventory transactions promptly and accurately,
                                       Findings: Navy, USMC, U.S. Joint Forces Com-         perform accurate counts and maintain adequate
                                       mand, Special Operations Command and Stra-           control over items stored at supply points and
                                       tegic Command officials complied with DoD            maintenance shops. Inventory record discrep-
                                       policies for converting senior mentors to HQEs.      ancies can limit the ability of the Air Force to
                                       As of February 28, 2011, 11 of the 194 reported      effectively and efficiently manage its inventory
                                       senior mentors for FY 2010 converted to HQEs.        and to provide optimal support to the warf-
                                       The other 183 senior mentors did not convert to      ighter. Air Force inventory controls were gener-
                                       HQEs and are no longer working as senior men-        ally adequate, but deficiencies at 13 of 24 bases
                                       tors. Seven of the 11 HQEs have since resigned.      visited, and analysis of records for other bases
                                       The other four HQEs properly converted within        showed that personnel can make improvements.
                                       the appropriate time frame and in accordance         Specifically:
                                       with DoD policies.                                   •	 Three bases visited and 13 additional bases
                                       Result: The Navy, USMC, USJFCOM, US-                      did not complete required physical invento-
                                       SOCOM and USSTRATCOM took action to                       ries for 39,441 item records, with inventory
                                       implement and comply with DoD policies for                valued at $117.7 million.
                                       converting senior mentors to HQEs.                   •	 Ten bases did not always properly complete
                                       Report No. DODIG-2012-009                                 and retain documentation supporting in-
                                                                                                 ventory adjustments.
                                       Air Force Can Improve Controls Over Base             •	 Eight bases did not always maintain ad-
                                       Retail Inventory                                          equate physical storage of inventory items.
                                       Overview: DoD IG evaluated the controls over         The inventory control deficiencies resulted from
                                       Air Force Working Capital Fund base retail in-       inadequate oversight. Inadequate inventory
                                       ventory stored at sites in the contiguous United     controls can increase the risk of theft or mis-
                                       States. The Air Force reported a $28.1 billion net   management of inventory assets and can nega-
                                       inventory value on its FY 2010 WCF Financial         tively affect mission operations.
                                       Statements. Air Force inventory includes weap-       Result: DoD IG recommended that the Air
                                       on system consumable and reparable parts, base       Force director of logistics, deputy chief of staff/
                                       supply items and medical-dental supplies. Air        logistics, installations and mission support:
                                       Force inventory consists of two primary catego-      •	 Provide all bases that store inventory details
                                       ries: wholesale inventory that Defense Logistics          on the primary causes for inaccurate inven-
                                       Agency distribution depots generally store and            tory records that this audit identified.
                                       retail inventory that Air Force and Air National     •	 Improve oversight over the completion of
                                       Guard bases generally store. Bases use the Air            required physical inventories, the prepara-
                                       Force Standard Base Supply System to electroni-           tion and retention of documentation sup-
                                       cally maintain WCF retail inventory records.              porting inventory adjustments and storage
                                       Findings: Air Force retail inventory records              practices.
                                       were generally accurate at 71 bases but person-      Command agreed with all recommendations.
                                       nel can make improvements. Specifically:             Report No. DODIG-2012-026
                                       •	 System records for 44,155 of the 759,387
                                             national stock numbers included in the         Marine Corps Transition to Joint Region
                                             inventory accuracy testing population had      Marianas and Other Joint Basing Concerns
                                             quantity discrepancies.                        Overview: DoD IG determined whether the
                                       •	 $5.2 billion of base retail inventory was         joint bases adhered to the intent of the 2005

30 SEMIANNUAL REPORT TO THE CONGRESS
base realignment and closure recommendation,
joint basing implementation guidance and sub-
                                                    Nuclear Enterprise
                                                    National security of the U.S. nuclear enterprise
sequent guidance related to the Marine Corps
                                                    extends to providing oversight for evaluating
relocation to Guam.
                                                    policies, procedures, plans and capabilities of se-
Findings: DoD adequately implemented the
                                                    curity and control of nuclear weapons.
joint basing program at Joint Base Pearl Harbor
–Hickam and Joint Region Marianas; however,
                                                    Status of Recommendations to Improve the                         “...a congressional
improvements to the process were identified.
                                                    Department of Defense Nuclear Enterprise -                     request that DoD IG
Joint Region Marianas and Joint Base Pearl Har-
                                                    Phase II
bor–Hickam encountered difficulties develop-
                                                    Overview: The audit was conducted, in part, in
                                                                                                                   continue to monitor
ing efficient processes because levels of instal-                                                                      DoD progress in
                                                    response to a congressional request that DoD
lation support for joint bases were above levels
                                                    IG continue to monitor DoD progress in rein-                     reinvigorating the
at stand-alone bases and did not allow for other
                                                    vigorating the nuclear weapons enterprise. The                    nuclear weapons
methods to provide support or always align with
                                                    report focused on the recommendations in six                             enterprise.”
the urgency of warfighter needs; commanders
                                                    DoD and service-specific reports regarding the
did not have full authority to implement best
                                                    DoD nuclear weapons enterprise and followed-
policies; and Joint Region Marianas and Joint
                                                    up on the status of open recommendations iden-
Base Pearl Harbor–Hickam provided reports to
                                                    tified in report 09-INTEL-11 “Status of the Rec-
the under secretary of defense for installations
                                                    ommendations to Improve the Air Force Nuclear
and environment, basing directorate, that may
                                                    Enterprise,” September 18, 2009. DoD IG found
be inconsistent. Additionally, the Marine Corps
                                                    that sufficient action had taken place to close 215
can improve the transition process to Joint Re-
                                                    of the 240 recommendations in the DoD nuclear
gion Marianas through increased planning and
                                                    weapons enterprise reports. In addition, the Air
coordination in key transition areas. If Marine
                                                    Force took sufficient action to close 29 of the 33
Corps concerns are not promptly addressed
                                                    recommendations that remained open when Re-
readiness, resources and quality of life may be
                                                    port No. 09 INTEL-11 was published. The report
affected during the relocation to Guam.
                                                    also noted that the nuclear enterprise manage-
Result: DoD IG recommended that the deputy
                                                    ment tool is a valuable tool for tracking Air Force
under secretary of defense for installations and
                                                    nuclear weapons-related recommendations.
environment revise installation support stan-
                                                    Result: DoD IG made recommendations to the
dards to better reflect mission needs and issue
                                                    six organizations identified in the reports re-
guidance on reporting joint basing results at
                                                    viewed. DoD IG recommended that the offices
joint bases. DoD IG also recommended that the
                                                    of primary responsibility provide supporting
commander, Navy Installations Command, al-
                                                    documentation to substantiate the actions taken
low joint bases to deviate from service-specific
                                                    toward completing the implementation of the
policy so that best practices can be developed,
                                                    open recommendations. DoD IG requested that
establish guidelines for conducting joint inspec-
                                                    the offices of primary responsibility also identify
tions at the Navy-led joint bases and develop an
                                                    points of contact capable of discussing the ac-
equitable method to distribute Marine Corps
                                                    tions and the closure dates and provide a written
Exchange profits at Joint Region Marianas. DoD
                                                    explanation if no action was taken or provide the
IG recommended that the commander, Joint
                                                    plan to implement the recommendations, as ap-
Region Marianas, task the comptroller with pro-
                                                    propriate.
viding detailed support regarding the transfer of
                                                    Report No. DODIG-2012-044
funds and develop specific policy to assist the
Marine Corps regarding how installation sup-
port will be provided on future Marine Corps
base Guam.
Report No. DODIG-2012-054




                                                                                                          OCTOBER 1, 2011 TO MARCH 31, 2012 31
Core Mission Areas



                                       The following cases are highlights of investiga-     $2.1 million representing proceeds from the
Investigations                         tions conducted by DCIS and its federal law en-
                                       forcement partners during the reporting period
                                                                                            scheme to defraud DoD.

                                       in the following categories:                         Theft of Aviation Fuel
                                       •	 Procurement fraud                                 Overview: A joint investigation with DCIS, FBI,
                                       •	 Product substitution                              and Air Force Office of Special Investigations
                                       •	 Public corruption                                 disclosed that Aero Taxi, LLC, doing business as
                                       •	 Health care fraud                                 Aeroflite Sales was awarded two indefinite de-
                                       •	 Technology protection                             livery/indefinite quantity into-plane contracts
                                       •	 Computer crime                                    from DLA-Energy. Francis T. Deutsch, former
                                                                                            manager and co-defendant Robert Gulledge,
                                                                                            former owner, defrauded Chevron in excess of
                                       Procurement Fraud                                    $700,000 by charging for fuel when no fuel was
                                       Procurement fraud investigations continue to         sold. Gulledge also admitted to giving gratuities,
                                       comprise a major part of the DCIS inventory of       prohibited by contractual agreement, to military
                                       cases. Of all forms of white-collar crime, pro-      customers to promote Aero Taxi as a refueling
                                       curement fraud is probably the least visible, yet    stopping point on their training missions. The
                                       the most costly. Procurement fraud includes but      into-plane program supplies fuel and refuel-
                                       is not limited to, cost and/or labor mischarg-       ing services to government and DoD aircraft at
                                       ing, defective pricing, price fixing, bid rigging,   commercial airports where no military refueling
                                       defective parts and counterfeit parts. The po-       capability are available nearby or other circum-
                                       tential damage relating to procurement fraud         stances require the use of a contracted commer-
                                       extends well beyond financial losses; it poses se-   cial resource.
                                       rious threats to the ability of the Department to    Result: On January 12, 2012, Deutsch was sen-
                                       achieve its operational objectives and can nega-     tenced to 41 months in prison and five years
                                       tively impact the implementation of programs.        mandatory supervised release. In addition,
                                                                                            he was ordered to pay $777,254 in restitution,
                                       DoD Contractor Sentenced to 105 Years in Jail        $600,000 in forfeitures and a special assessment
                                       for Defrauding DoD                                   of $100. Gulledge was debarred from doing
                                       Overview: A DCIS investigation disclosed that        business with the U.S. government by DLA for
                                       Roger Charles Day Jr., and co-conspirators op-       a 3-year period.
                                       erating in the United States, Canada, Mexico
                                       and Belize, formed more than 18 companies to         Boeing Corporation pays $4.3 Million to Settle
                                       obtain DoD contracts. The companies used the         Allegations of False Claims
                                       Defense Logistics Agency automated bid system        Overview: A joint investigation with DCIS
                                       to win nearly 1,000 contracts. Day and his co-       and Army Criminal Investigation Command
                                       conspirators provided defective parts, to include    disclosed that Boeing Corporation improperly
                                       critical application parts, to DoD on more than      billed DoD for work performed to refurbish
                                       300 of those contracts. Day was featured on          CH-47 Chinook helicopters. The investigation
                                       America’s Most Wanted, which resulted in his         examined whether Boeing employees improp-
                                       arrest and subsequent extradition from Mexico.       erly charged efforts to refurbish CH-47 Chi-
 DCIS investigated overcharging for
 CH-47 Chinook refurbishment.          Result: On August 25, 2011, a jury trial found       nooks to other projects, resulting in a potential
                                       Day guilty of wire fraud conspiracy, wire fraud,     double payment to the company. Boeing agreed
                                       money laundering conspiracy and conspiracy           to retrain its employees and upgrade technology
                                       to smuggle goods. On December 15, 2011, Day          used to track billing information.
                                       was sentenced to 105 years imprisonment and          Result: On January 20, 2012, the Boeing Com-
                                       three years supervised release. He was ordered       pany entered into a civil settlement agreement
                                       to pay a $3 million fine, $6.3 million in restitu-   with the Department of Justice, in which Boeing
                                       tion to DLA and a $600 special assessment. Day       agreed to pay $4.39 million to settle the allega-
                                       was also ordered to forfeit 3,496 ounces of gold     tions of improperly billing DoD for work per-
                                       bars and coins, two sport utility vehicles and       formed to refurbish CH-47 helicopters.

32 SEMIANNUAL REPORT TO THE CONGRESS
Father and Son Sentenced to Prison for                sonnel about his employment with Tybrin.
Fraudulently Billing NSA                              Result: On August 17, 2010, investigators con-
Overview: A DCIS investigation disclosed that         firmed Hunter died in Michigan and the crimi-
the Bechdon Company submitted false claims to         nal case became a civil false claim matter. On
the DoD for work allegedly not performed on           November 10, 2011, Aerospace entered into a
National Security Agency contracts. Since 1995,       civil settlement agreement with the Department
Bechdon made metal and plastic parts for NSA          of Justice, in which Aerospace agreed to pay $2.5
for various contracts totaling more than $10 mil-     million to settle civil claims related to the sub-
lion. William Turley and Donald Turley, owners        mission of false labor costs to DoD.
of Bechdon, were tried and convicted of submit-
ting false claims to NSA by falsely claiming ap-      GenCorp Paid $3.3 Million to Settle Expressly
proximately $1.3 million in labor hours on NSA        Unallowable Costs Allegations
contracts during the past 10 years. According to      Overview: A joint investigation with DCIS,
D. Turley, he charged on average 16 hours per         Army CID, AFOSI, NCIS and NASA OIG dis-
week for work he did not perform. Additionally,       closed that GenCorp allegedly submitted false
nine other employees charged between two and          claims to DoD. In July 2009, DCAA provided a
12 hours per week at as much $89 per hour for         Suspected Irregularity Referral form indicating
work that was not performed. D. Turley claimed        GenCorp included $2.4 million of expressly un-
this was done to recoup money for underbid-           allowable costs in a certified incurred cost (over-
ding to be awarded NSA contracts.                     head) proposal covering FY 2006. The unallow-
Result: On March 2, 2012, William Turley and          able costs were related to GenCorp defending
his son Donald Turley were each sentenced to 18       against a corporate takeover by a shareholder;
months in prison and one year of home deten-          the expressly unallowable costs are delineated
tion, as part of three years of supervised release,   in the Federal Acquisition Regulation 31.205.27.
and a $100,000 fine for conspiring to commit          The investigation determined GenCorp claimed
and committing wire fraud arising from a fraud-       similar unallowable costs in FY 2004 and 2005
ulent billing scheme. Additionally, William and       for attorneys, accountants and management
Donald Turley were ordered to pay, jointly and        consultant fees.
severally, $247,631 in restitution.                   Result: On November 28, 2011, GenCorp, Inc.,
                                                      agreed to pay $3.3 million to settle allegations
Aerospace Corporation Paid $2.5 Million to            that unallowable costs were included in over-
Settle Employee Mischarging                           head cost claims submitted to DoD.
Overview: A joint investigation with DCIS,
NASA OIG and AFOSI disclosed that Aero-               Sea Star Line Pleads Guilty to Anti-Trust
space Corporation allegedly submitted false           Violations and Agrees to Pay $14.2 Million in
labor costs to DoD. William G. Hunter, a soft-        Fines
ware quality assurance expert, was employed by        Overview: A joint investigation with DCIS,
Tybrin Corporation on a NASA contract while           FBI and DOT OIG disclosed that Sea Star Line,
simultaneously employed at Aerospace. Tybrin’s        LLC., engaged in a conspiracy to fix rates and
pay records indicated Hunter consistently av-         surcharges for shipping freight between the con-
eraged 20 hours overtime each week, which             tinental United States and Puerto Rico from as
increased his $127,000 base salary to $180,000        early as May 2002 until at least April 2008. In            DCIS investigated Sea Star Line for
per year. On many occasions, his recorded work        2005, the U.S. Army, Surface Deployment and                conspiring to fix shipping rates.
hours at Aerospace and Tybrin combined ex-            Distribution Command, Regional Domestic
ceeded 24 hours in a single day. In addition, the     Contract Division, contracted with Sea Star
investigation confirmed Hunter did not possess        and other companies for shipping of a variety
the Bachelor of Science, Master of Science and        of cargo for the DoD, such as heavy equipment,
Doctor of Philosophy degrees in Computer Sci-         perishable food items, medicines and consumer
ence from Oxford University as claimed in his         goods to Puerto Rico. The investigation dis-
resume. Hunter resigned from Aerospace in July        closed that Sea Star conspired with others to fix
2008 after being questioned by Aerospace per-         rates and divide up customers, rigged bids and

                                                                                                            OCTOBER 1, 2011 TO MARCH 31, 2012 33
Core Mission Areas



                                        added surcharges to the DoD and commercial            $4.75 Million Settlement by Kaman Precision
                                        customers for shipping between the continen-          Products in Connection with the Submission of
                                        tal United States and Puerto Rico from 2005           False Claims
                                        through 2008.                                         Overview: A joint investigation with DCIS,
                                        Result: On November 17, 2011, Sea Star Line,          AFOSI, Army CID, NCIS and FBI disclosed
                                        LLC, pleaded guilty to one count of violating         that Kaman Precision Products, Inc., allegedly
                                        the Sherman Antitrust Act and agreed to pay a         substituted EB401-3 bellows motors for EB401-
                                        $14.2 million fine for its role in a conspiracy to    2 bellows motors in FMU-143 fuses. Air Force
                                        fix prices in the coastal water freight transporta-   technical experts determined that if the incor-
                                        tion industry.                                        rect bellows version was used in the FMU-143
                                                                                              fuse that there was a 50 percent chance of pre-
                                                                                              mature detonation. Due to the serious nature of
                                        Product Substitution                                  the allegation, all of the FMU-143 fuses affected
                                        DCIS supports DoD and its warfighting mission         by the allegation were quarantined in the field.
                                        through timely, comprehensive investigations          The United States filed a civil action against Ka-
                                        involving products that are counterfeit, defec-       man for violation of the False Claims Act. The
                                        tive or substandard, and do not conform with          United States, acting through the Army con-
                                        the requirements of the contract. Nonconform-         tracting officer, asserted claims, defaulted Ka-
                                        ing products not only disrupt readiness and           man and demanded monetary compensation
                                        waste economic resources, but also threaten the       for alleged latent defects due to manufacturing
                                        safety of military, government and other end-         efforts to rework fuzes after ATE failures. The
                                        users. When substituted products are provided         Army contracting officer issued a notice supple-
                                        to DoD deliberately, mission-critical processes       menting its earlier default on the basis of fraud.
                                        and capabilities can be severely impacted until       Kaman expressly denied having committed any
                                        they are removed from the DoD supply chain.           fraudulent act, but agreed to settle the matter to
                                                                                              avoid further litigation and to repair the rela-
                                        Point Blank Pays U.S. Government $1 Million           tionship between the parties.
                                        for the Sale of Defective Zylon Bulletproof Vests     Result: On December 20, 2011, Kaman en-
                                        Overview: The results of a joint investigation        tered into a civil settlement agreement with the
                                        with DCIS, AFOSI, DOE OIG, GSA OIG, DOC               Department of Justice and the Army. Kaman
                                        OIG, Army CID and Treasury Inspector Gener-           agreed to pay the U.S. government $4.75 million
                                        al for Tax Administration led Point Blank Solu-       of which $2 million will settle the civil claim
                                        tions Inc. (formerly DHB Industries Inc.), Point      and $2.75 million will cover the Armed Services
                                        Blank Body Armor Inc. and Protective Apparel          Board of Contract Appeals claim.
                                        Corporation of America Inc. (collectively, “Point
                                        Blank”) to pay $1 million to resolve allegations
                                        that they knowingly manufactured and sold de-         Public Corruption
                                        fective Zylon bulletproof vests to U.S. govern-       Public corruption within DoD impacts national
                                        ment agencies including DoD. The Zylon mate-          security and safety and degrades the overall mis-
                                        rials degraded quickly and were not suitable for      sion of the warfighter. When brought to light,
                                        ballistic use. This settlement is part of a larger    corruption undermines public trust and confi-
DCIS investigation of defective vests   investigation of the body armor industry’s use of     dence in the U.S. government and wastes billions
leads to settlement.                    Zylon in body armor. The U.S. government has          in tax dollars every year. DCIS is in a unique
                                        settled with nine other participants in the Zylon     position to investigate allegations of public cor-
                                        body armor industry for more than $61 million.        ruption. Investigative tools and methods such as
                                        Result: On November 2, 2011, Point Blank en-          undercover operations, court-authorized elec-
                                        tered into a civil settlement agreement with the      tronic surveillance and informants can provide
                                        U.S. Department of Justice in which the contrac-      a compelling witness to the actual exchange of
                                        tor agreed to pay $1 million to settle the allega-    bribe money or to a back room handshake that
                                        tion they violated the False Claims Act.              seals an illegal deal and supply critical evidence
                                                                                              to send the culprits to prison.

34 SEMIANNUAL REPORT TO THE CONGRESS
Army Sergeant Major and Former Sergeant Sen-           made by DoD. During the material inspections,
tenced to Prison for Bribery Conspiracy at Ba-         West and a co-conspirator reported an inflated
gram Airfield                                          number of bunkers and barriers than were actu-
Overview: A joint investigation conducted by           ally delivered. West pleaded guilty in June 2009
DCIS, Army CID, AFOSI and SIGAR deter-                 to a superseding indictment charging him with
mined former Sergeant Charles O. Finch and             eight counts of bribery, conspiracy and fraud.
Sergeant Major Gary Canteen, conspired to re-          The co-conspirator was indicted and sentenced.
ceive bribes from military contractors in return       Result: On December 20, 2011, West was sen-
for contracts. According to court documents,           tenced to 60 months in prison, two years of su-
Finch and Canteen were deployed to Bagram              pervised release, an $800 special assessment and
Airfield and responsible for coordinating truck-       ordered to pay $500,000 in restitution to the U.S.
ing or “line haul” services, to ensure the distribu-   government for conspiracy to commit bribery,
tion of all goods destined for U.S. and coalition      bribery and conspiracy to commit mail fraud.
soldiers throughout Afghanistan. In advance of
the award of line haul contracts in October 2004,      Former Army Sergeant Pleads Guilty to Stealing
Canteen and Finch agreed to accept a $50,000           Equipment in Iraq and Receiving Proceeds from
bribe from military contractors John Ramin and         Sale on Black Market
Tahir Ramin and their company, AZ Corpora-             Overview: A joint investigation conducted by
tion, in return for Finch’s recommendation and         DCIS, SIGIR and Army CID determined that
facilitation of the award of a line haul contract      Robert A. Nelson, a former U.S. Army sergeant,
to AZ Corporation. In August 2011, Finch and           conspired to steal Army equipment related to
Canteen pleaded guilty for their roles in con-         his work as a noncommissioned officer helping
spiring to receive a $50,000 bribe from a mili-        to train Iraqi army personnel in Mosul, Iraq. Ac-
tary contractor in return for the award of a DoD       cording to the court documents, Nelson, along
trucking contract. Finch pleaded guilty to one         with a Army translator agreed to steal eight
count of conspiracy to commit bribery and one          generators from a lot on post that held various
count of bribery, and Canteen pleaded guilty to        pieces of used equipment. Once the generators
one count of conspiracy to commit bribery              were taken off the post, the translator arranged
Result: On January 19, 2012, Finch was sen-            for them to be sold on the black market in Iraq.
tenced to 51 months in prison, three years of su-      Nelson admitted to receiving approximately
pervised release and a $200 special assessment.        $44,830 from this scheme. On June 28, 2011,
On January 20, 2012, Canteen was sentenced             Nelson pleaded guilty to a criminal information
to 31 months in prison, three years of super-          charging him with one count of conspiracy to
vised release and a $100 special assessment.           steal public property.
Both Finch and Canteen were ordered to pay             Result: On October 5, 2011, Nelson was sen-
$200,000, jointly and severally, in restitution to     tenced to six months home confinement, five
the U.S. government.                                   years probation, and ordered to pay $44,830 in
                                                       restitution to DLA.
Army National Guard Major Sentenced to 60
Months for Accepting Bribes in Afghanistan             Former Army Major and Spouse Convicted for
Overview: A joint investigation conducted by           Bribery Scheme Related to Defense Contracts in
DCIS, Army CID, AFOSI and SIGAR deter-                 Iraq
mined that Christopher P. West, a former major         Overview: A joint investigation conducted by
in the U.S. Army National Guard, deployed to           DCIS, FBI, Army CID, SIGIR and IRS-Criminal
Bagram Airfield, Afghanistan, received bribes          Investigations determined that Eddie Pressley,
from military contractors in exchange for fraud-       a former Army major, took various contracting
ulently certifying the receipt of concrete bunkers     actions to benefit certain contractors who paid
and barriers. According to court documents,            him bribes while serving as a Army contracting
West conspired with the contractors to inflate         official at Camp Arifjan, Kuwait, between 2004             DCIS investigated soldiers for
the number of bunkers and barriers delivered           and 2005. According to testimony and other                 receiving bribes from contractors.

to Bagram and profited from the overpayments           evidence presented at trial, Pressley received

                                                                                                            OCTOBER 1, 2011 TO MARCH 31, 2012 35
Core Mission Areas



                                        approximately $2.9 million in bribe payments        a warning on the FDA-cleared label against this
                                        from various contractors. Evidence at trial also    use due to serious medical concerns about the
                                        showed Pressley enlisted the help of his wife,      safety of the devices when used on the spine.
                                        Eurica Pressley, to receive the bribes, open for-   The use of the Norian XR for the above proce-
                                        eign bank accounts and attempt to conceal their     dure was neither tested by Synthes/Norian, nor
                                        corrupt scheme by having Eurica Pressley ex-        submitted as required for approval by FDA.
                                        ecute bogus consulting agreements. On March         Three fatalities occurred during the unauthor-
                                        1, 2011, a jury convicted both Eddie and Eurica     ized clinical trial of Norian XR. Norian and Syn-
                                        Pressley of one count of bribery, one count of      thes did not recall Norian XR from the market
                                        conspiracy to commit bribery, eight counts of       and subsequently submitted false statements to
                                        honest services fraud, one count of money laun-     the FDA during an official inspection in 2004.
                                        dering conspiracy, and 11 counts of engaging in     Norian pleaded guilty to conspiracy and intro-
                                        monetary transactions with criminal proceeds        ducing into interstate commerce adulterated and
                                        Result: On January 5, 2012, Eddie Pressley was      misbranded medical devices. On November 30,
                                        sentenced to 144 months in prison and three         2010, Norian Corporation was sentenced to pay
                                        years supervised release. On February 28, 2012,     a fine of $22.5 million. Synthes pleaded guilty to
                                        Eurica Pressley was sentenced to 72 months in       introducing into interstate commerce adulter-
                                        prison and three years supervised release. The      ated and misbranded medical devices. On Sep-
                                        court also ordered the Pressleys to forfeit $21     tember 27, 2010, Synthes agreed to pay $38,000
                                        million, as well as real estate holdings and au-    in restitution. On November 30, 2010, Synthes
                                        tomobiles.                                          was sentenced to pay a fine of $200,000 and for-
                                                                                            feit $469,800. In addition, Synthes entered into
                                                                                            a corporate integrity agreement, which requires
                                        Health Care Fraud                                   Synthes to implement programs to prevent ille-
                                        Health care fraud continues to be a rising threat   gal conduct from recurring. As part of the CIA,
                                        to national health care. Of particular concern      Synthes entered into a Divestiture Agreement in
                                        to DCIS are the allegations of potential harm       which Sythes will sell all of the assets and opera-
                                        to DoD military and dependent patients. In ad-      tions of Norian to a third party, and if complet-
                                        dition to patient harm, typical investigations      ed, Norian will not be excluded from the federal
                                        address health care providers involved in cor-      health care programs.
                                        ruption or kickback schemes, overcharging for       Result: In 2009, Michael Huggins, Thomas Hig-
                                        medical goods and services, off-label market-       gins and John Walsh plead guilty to an indict-
                                        ing of drugs and unauthorized people receiv-        ment charging them with one count of introduc-
                                        ing TRICARE health benefits. DCIS continues         ing into interstate commerce adulterated and
                                        to proactively target health care fraud through     misbranded medical devices. On November 21,
                                        federal task forces and undercover operations.      2011, Synthes and Norian executives Michael
                                                                                            Huggins, Thomas Higgins and John Walsh were
“Three fatalities                       Over $23 Million Settlement by Synthes              sentenced in the Eastern District and each de-
occurred during the                     Corporation and Norian, Inc. for Using              fendant received a $100,000 fine and a special
unauthorized clinical                   Misbranded Medical Devices                          assessment fee of $25. In addition, Huggins and
                                        Overview: A joint investigation with DCIS, HHS      Higgins each received nine months incarcera-
trial of Norian XR.”                    OIG, Veterans Affairs OIG and Food and Drug         tion and three months of supervised release; and
                                        Administration-OCI disclosed that Synthes           Walsh received five months incarceration and
                                        Corporation and Norian, Inc. were involved in       seven months supervised release. On Decem-
                                        conducting clinical trials, which included TRI-     ber 13, 2011, Synthes executive Richard Bohner
                                        CARE beneficiaries, of a medical device without     was sentenced in the Eastern District of Penn-
                                        the authorization of the FDA. From May 2002         sylvania for similar charges and received eight
                                        until Fall 2004 Norian, a wholly-owned subsid-      months incarceration and four months of super-
                                        iary of Synthes, allegedly conspired with Synthes   vised release. Boehner was also ordered to pay a
                                        and former Synthes executives to treat vertebral    special assessment of $25 and a fine of $100,000.
                                        compression fractures with Norian XR despite

 36 SEMIANNUAL REPORT TO THE CONGRESS
$316,513 Settlement by Eastern Connecticut          introduced Natrecor, a heart failure drug not ap-
Hematology and Oncology, Associates, PC for         proved by the FDA, into interstate commerce.
False Claims for Payment                            The Food, Drug, and Cosmetic Act requires
Overview: A joint investigation with DCIS,          that a company must disclose its planned uses
FBI and HHS OIG disclosed that Eastern Con-         of a drug as part of the application process to the
necticut Hematology & Oncology, Associates,         FDA. If the FDA determines a new drug is safe
PC submitted false claims to DoD for injections     and effective for a company’s planned uses, the
administered by unlicensed medical assistants       drug may be entered into interstate commerce.
from January 2001 through March 2008. The in-       Scios did not receive FDA approval for the use
vestigation verified ECHO was employing med-        of Natrecor as a heart failure drug. The illegal
ical assistants to provide medical services that    off-label use of Natrecor caused false claims to
should be performed by staff physicians, specifi-   be submitted to Medicare, TRICARE and other
cally to administer injections of medicine to pa-   federal, state and private health insurance pro-
tients. The Connecticut Department of Health        grams.
advised that medical assistants are prohibited by   Result: On October 5, 2011, Scios pleaded
Connecticut state statutes from injecting certain   guilty to a one-count violation of the Food Drug
medications as performed by ECHO medical as-        and Cosmetic Act and was sentenced to pay an
sistants.                                           $85 million fine in the Northern District of Cali-
Result: On January 10, 2012, ECHO entered           fornia.
into a civil settlement agreement with the De-
partment of Justice, in which ECHO agreed to        $9,250,000 Settlement by Guidant Corporation
pay $316,513 to the U.S. government.                for Allegations of Fraud
                                                    Overview: A joint investigation with DCIS and
Health Care Provider Sentenced to 25 Years for      HHS OIG disclosed that Guidant Corporation                DCIS investigated fraudulent claims
Falsely Billing U. S. Federal Government            allegedly failed to disclose warranty information         submitted for services and office visits.
Overview: A joint investigation with DCIS,          for implanted medical devices. Guidant’s failure
FBI and HHS disclosed that Dr. Anthony Val-         caused hospitals to submit false claims to U.S.
dez, beginning in 2001 and continuing through       government programs including TRICARE.
2009, caused fraudulent claims to be submit-        Guidant benefitted financially by charging full
ted to Medicare, Medicaid, TRICARE and the          price for replacement and upgraded implanted
Texas Workers’ Compensation Commission. Dr.         medical devices which would have been dis-
Valdez was the ownder of the Institute of Pain      counted if the warranty information was dis-
Management with clinics in El Paso and San          closed. Additionally, Guidant concealed cost
Antonio. Dr. Valdez submitted false claims for      savings to the DoD and U.S. government for
reimbursement of peripheral nerve injections,       replacement of recalled devices.
facet injection procedures and office visits. In    Result: On October 20, 2011, Guidant entered
addition, the investigation revealed Dr. Valdez     into a civil settlement agreement with the De-
unlawfully dispensed controlled substances          partment of Justice, in which Guidant agreed to
from his clinics. Dr. Valdez was convicted on       pay $9.25 million to the U.S. government.
July 1, 2011.
Result: On January 9, 2012, Dr. Valdez was sen-     $66 Million Settlement by LHC Group, Inc. for
tenced to 25 years incarceration and three years    Allegations of False Claims
of supervised release. In addition, Valdez was      Overview: A joint investigation with DCIS and
ordered to forfeit various properties valued at     HHS OIG disclosed that LHC Group, Inc. sub-
$13.35 million.                                     mitted claims to Medicare, TRICARE and the
                                                    Federal Employees Health Benefits Program
$85 million Settlement by Scios, Inc. for FDCA      from January 1, 2006, through December 31,
Violation                                           2008, for home health services that were alleg-
Overview: A joint investigation with DCIS,          edly not rendered. LHC is one of the largest re-
FDA, FBI, HHS OIG and OPM OIG disclosed             cipients of federal health care funds in the Unit-
that Scios, Inc., a Johnson & Johnson subsidiary,   ed States, with recorded revenues in excess of

                                                                                                          OCTOBER 1, 2011 TO MARCH 31, 2012 37
Core Mission Areas



                                              $460 million from federal health care programs.       tempting to export a spool of carbon fiber to
                                              This case was initiated based on information          Iran.
                                              received via a qui tam complaint alleging that
                                              LHC defrauded federal health care programs by         Texas Man Sentenced for Attempting to Export
                                              billing for services not rendered, using fraudu-      Restricted Military Equipment
                                              lent billing codes and billing for services without   Overview: A joint investigation with DCIS and
                                              physician orders. LHC non-compliance rates            ICE-HSI disclosed that Andrew Silcox pur-
                                              for reimbursement were estimated at between           chased surplus DoD equipment and then re-
                                              55 percent and 66 percent, indicating that over       sold it. Silcox admitted that beginning in May
                                              half the federal funds received by LHC may have       2010, he sold one and subsequently attempted
                                              been fraudulently obtained.                           to sell three more Naval Radar Control Unit
 DCIS investigated the attempted sale of      Result: On October 7, 2011, LHC entered into a        AN/SPS-40B/C/D parts, also known as a Sen-
 Naval radar parts.                           civil settlement agreement with the Department        sitivity Time Control Generator Assembly, for
                                              of Justice, in which LHC agreed to pay $66 mil-       an agreed upon price of approximately $6,500
                                              lion to settle the allegations of fraud.              each to an undercover agent. These particular
                                                                                                    units are covered by the U.S. Munitions List and
                                                                                                    require a State Department license for exporta-
                                              Technology Protection                                 tion. The undercover agent told Silcox he was a
                                              DCIS serves an integral role in the protection        broker for a buyer in the United Arab Emirates
                                              of critical military technology research, devel-      and inquired as to how Silcox would get the ex-
                                              opment and acquisition. DCIS targets complex          port license.
                                              and pervasive threats to DoD counter-prolifer-        Result: On December 15, 2011, Silcox pleaded
                                              ation policies.                                       guilty to one count of attempted illegal export of
                                                                                                    munitions list items. On February 24, 2012, Sil-
                                              New York Man Pleads Guilty to Attempting to           cox was sentenced to two years in federal prison,
                                              Ship Prohibited Items to Iran                         three years supervised release and a special as-
                                              Overview: A joint investigation with DCIS and         sessment of $100 for violating the Arms Export
                                              Immigration and Customs Enforcement Home-             Control Act.
                                              land Security Investigations determined that,
                                              in October 2011, Richard Phillips offered to          Attempted Illegal Export of C-130 Aircraft
                                              export a spool of carbon fiber to Tehran, Iran,       Overview: A joint investigation by DCIS and
                                              via the Philippines in direct contravention of the    ICE-HSI determined Donald Bernardo was al-
DCIS prevented export of carbon fiber         U.S. trade embargo against Iran. The two main         legedly willing to supply a C-130 aircraft for
used in micro-aerial vehicles applications.   applications of carbon fiber are in specialized       export to Venezuela. Bernardo represented to
                                              technology, including aerospace and nuclear en-       undercover agents that he had a license from
                                              gineering, and in general engineering and trans-      the Department of State to export the C-130
                                              portation. In a recorded telephone conversation       and indicated that he suspected Venezuela was
                                              with an undercover agent, Phillips was warned         an embargoed country. After Bernardo learned
                                              that the export of the carbon fiber to Iran was       that Venezuela was, in fact, an embargoed coun-
                                              illegal under the trade embargo. After a series of    try, Bernardo continued to represent that he
                                              recorded telephone calls, email exchanges and         was willing to participate in the transaction in-
                                              meetings with undercover agents, Phillips took        volving the C-130. During negotiations, a wire
                                              possession of a spool of carbon fiber, placed         transfer for $25,000 was sent to an escrow ac-
                                              it into a shipping container and affixed a label      count as a partial deposit for the plane. In ad-
                                              to the container addressed to the Philippines,        dition, a final letter of intent outlining the pay-
                                              where it was to be forwarded to Iran. Phillips        ment terms for the purchase of the C-130 was
                                              was arrested by agents prior to the export of the     signed by both parties and emailed to Bernardo.
                                              carbon fiber.                                         On October 22, 2010, Bernardo was arrested
                                              Result: On January 18, 2012, Phillips pleaded         by agents. On May 9, 2011, Bernardo entered a
                                              guilty in federal court to violating the Interna-     guilty plea in U.S. District Court for knowingly
                                              tional Emergency Economic Powers Act by at-           and willfully engaging in the business of broker-

  38 SEMIANNUAL REPORT TO THE CONGRESS
ing activities involving Venezuela. The activities    systems as well as focusing on instances where
included negotiating and arranging contracts,         contract fraud by DoD information technology
purchases, sales and transfers of defense articles,   contractors has been a factor in the penetration
namely, C-130 Hercules military transport air-        of DoD networks. In order to efficiently com-
craft, in return for a fee, commission and other      bat cyber threats, DCIS reorganized its Cyber
consideration, without first registering with the     Crime Program to focus more agents on full-
Department of State, Directorate of Defense           time, cyber-related investigations and disital
Trade Controls.                                       forensics, and developed a dedicated wide-area
Result: On November 16, 2011, Donald Ber-             network to facilitate the review of digital media.
nardo was sentenced to 12 months in prison, 24
months of supervised release and a special as-        Contractor Pays $562,000 Settlement for
sessment fee of $100.                                 Violation of DoD IA Requirements
                                                      Overview: In February 2009, DCIS received
Violation of the Arms Export Control Act              information from the Joint Task Force–Global
Overview: During a joint investigation with           Network Operations regarding a compromise of
DCIS and ICE-HSI, federal agents were contact-        computers belonging to a cleared DoD contrac-
ed in May 2010 about a “Raven” unmanned aer-          tor. The investigation disclosed that the DoD
ial vehicle that was posted for sale on www.ebay.     contractor’s business enterprise network was
com. The Raven is a U.S.-made UAV manufac-            not operated in accordance with the DoD Infor-
tured by AeroVironment, Inc. for the U.S. Army.       mation Assurance Certification and Accredita-
Henson Chua, a citizen of the Philippines, was        tion Program. The DoD contractor’s network                DCIS investigated a man attempting to
attempting to sell the UAV for $13,000 on www.        was compromised and lost personally identifi-             sell an unmanned aerial vehicle.
ebay.com. Undercover agents posing as buyers          able information for DoD employees.
were able to identify the UAV and confirm that        Result: On September 21, 2011, the DoD con-
it was U.S. government property. Agents pur-          tractor entered into a civil settlement agree-
chased the nose cone for the UAV from Chua.           ment with the Department of Justice, in which
On February 10, 2011, the agents arrested Chua        the DoD contractor agreed to pay $531,654, the
after he arrived at the Los Angeles airport. He       amount it had been awarded under the contract
was indicted on March 10, 2011, on charges of         to implement the DIACAP requirements and
smuggling and Arms Export Control Act viola-          other DoD standards.
tions. On July 28, 2011, Chua pleaded guilty to
one count of causing the temporary import of          Joint DCIS-FBI Investigation Dismantles Botnet
a defense article, specifically, the UAV, without     Overview: In a joint investigation with the
authorization in violation of the Arms Export         FBI, DCIS agents identified and located a man
Control Act.                                          known to be selling robot network software and
Result: On November 8, 2011, Chua was sen-            infrastructure through various internet forums
tenced to two months in prison followed by nine       and chat rooms. A botnet is a network of pri-
months home confinement and three years su-           vate computers infected with malicious software
pervised release. Chua was also ordered to pay        and controlled as a group, without the owners’             DCIS aided in dismantling malicious
$13,000 in restitution and a $100 special assess-     knowledge, to carry out illegal activities such as         botnets.

ment.                                                 computer intrusions, denial of service attacks
                                                      and spamming. The botnet in this case, known
                                                      as the Dark DDoser Botnet, has had significant
Computer Crime                                        impact on the DoD Global Information Grid. As
DCIS investigates computer intrusions against         a result, more than 300 individuals in 16 coun-
DoD and also provides digital forensics services      tries were identified as having purchased the
in support of traditional investigations. The Cy-     malicious software.
ber Crime Program continues to place emphasis         Result: To date, 167 distinct botnets utilizing
on crimes involving the compromise and theft          the Dark DDoser malware were dismantled and
of sensitive defense information contained in         either removed as a threat to the DoD GIG or
government and DoD contractor information             prevented from becoming fully operational.

                                                                                                           OCTOBER 1, 2011 TO MARCH 31, 2012 39
Core Mission Areas



                                        The following are highlights of inspections, as-      criminal investigation in accordance with DoD,
Inspections                             sessments and evaluations conducted by DoD
                                        IG. DoD IG conducted inspections in the fol-
                                                                                              Department of Navy and NCIS standards. Ad-
                                                                                              ditionally, the Sexual Assault Prevention and
                                        lowing categories:                                    Response Program and command officials re-
                                        •	 Health and safety                                  sponded inadequately.
                                        •	 Joint warfighting and readiness                    Result: DoD IG recommended the secretary of
                                                                                              the Navy take corrective action, as necessary,
                                                                                              with respect to officials DoD IG identified as
“Taking care of people                  Health and Safety                                     accountable for regulatory violations and proce-
                                                                                              dural deficiencies. Overall, the Navy concurred
is one of the major                     Taking care of people is one of the major themes
                                        of the 2010 Quadrennial Defense Review. DoD           with our report and recommendation, advising
themes of the 2010
                                        IG supports this effort by focusing its oversight     that it instituted new initiatives after the events
Quadrennial Defense                                                                           described in the report.
                                        on preventing and detecting fraud, waste and
Review.”                                                                                      Report No. DODIG-2012-003
                                        abuse, and improving efficiency and effective-
                                        ness of the programs affecting the health and
                                        safety of service members and employees.              Inspection of DoD Detainee Transfers and
                                                                                              Reliance on Assurances
                                        The military health care system provides servic-      Overview: This inspection was the second in-
                                        es to approximately 9.5 million beneficiaries, in-    spection conducted pursuant to a recommenda-
                                        cluding active duty personnel and their families.     tion of the Special Task Force on Interrogation
                                        Of special concern is the proper care and sup-        and Transfer Policies, an interagency task force
                                        port to the thousands of soldiers, sailors, airmen    created by the president in Executive Order
                                        and Marines wounded due to combat actions             13491, January 27, 2009. DoD IG conducted
                                        in Operations Iraqi and Enduring Freedom.             an assessment of the release or transfer process
                                        While the United States has successfully com-         of detainees from Guantanamo Bay Detention
                                        pleted its mission in Iraq, it is still engaged in    Facility, Afghanistan and Iraq between August
                                        overseas contingency operations in Afghanistan        24, 2010, and August 23, 2011, to ensure proper
                                        and most recently, in other efforts in the Middle     assurances were obtained from foreign govern-
                                        East. Medical care required by military person-       ments that the detainees would not be subject to
                                        nel is expected to increase over the next several     torture. The inspection was conducted concur-
                                        years. It is critical for DoD IG to maintain vigor-   rently with and coordinated with the DoS OIG.
                                        ous oversight of the health and safety challenges     Findings: Within the DoD, policies and proce-
                                        facing the Department, not only to ensure that        dures exist describing how detainees should be
                                        wounded warriors receive high-quality health          treated humanely while in DoD custody. DoS
                                        care, but also to make certain that DoD health        has primary authority for negotiating state-to-
                                        care dollars are spent wisely and prudently.          state assurances. DoD works closely with the
                                                                                              DoS when transferring detainees from GTMO
                                        Review of Matters Related to the Sexual Assault       using a structured checklist and timeline to ac-
                                        of Lance Corporal Maria Lauterbach                    complish the transfer smoothly. A Detainee
                                        Overview: DoD IG initiated the review on Au-          Transfer Working Group has been established
                                        gust 7, 2008, in response to a request from the       with representatives from the Departments of
                                        principal deputy under secretary of defense           Defense, Justice and State along with representa-
                                        (personnel and readiness). The review focused         tives from the Director of National Intelligence,
                                        on command and other responses to the rape            FBI, CIA, Joint Staff and Homeland Security
                                        complaint of Lance Corporal Maria Lauterbach,         to discuss issues related to detainees that have
                                        who was subsequently murdered by the person           been transferred from GTMO. A total of 1,064
                                        she accused. At the request of North Carolina         detainees were reported transferred from DoD
                                        prosecutors, DoD IG suspended work until the          custody during the inspection timeframe. The
                                        criminal trial process concluded in August 2010.      decline in transfers as compared to last year’s
                                        Findings: DoD IG determined the Naval Crim-           4,781 is primarily the result of DoD turning over
                                        inal Investigative Service failed to conduct the      control of the Taji Theater Internment Facility

 40 SEMIANNUAL REPORT TO THE CONGRESS
and a portion of the Cropper Theater Intern-          the United Kingdom.
ment Facility to the Iraqi government prior to        Findings: DoD IG found that while 70 percent
August 2010. It is also the result of the National    of the contracts sampled contained some form
Defense Authorization Act for FY 2011, which          of a combating trafficking in persons clause,
prohibits using DoD funds to transfer GTMO            only half had the current required Federal Ac-
detainees to foreign countries unless stringent       quisition Regulation clause. However, three
conditions are met to ensure the detainee does        DoD contracting organizations specifically dis-
not return to terrorist or insurgent activities.      cussed the Federal Acquisition Regulation com-
Result: DoD IG again recommended that the             bating trafficking in persons clause during post-
under secretary of defense for policy, detainee       award orientations with contractors to increase
policy, incorporate relevant recommenda-              awareness of combating trafficking in persons,
tions of the special task force on interrogation      which DoD IG found to be a best practice worth
and transfer policies into the DoD Directive          emulating in other combatant commands.
2310.01E, “Department of Defense Detainee             Result: DoD IG recommended that the assis-
Program.” This report is classified.                  tant secretaries for acquisition of the military
Report No. DODIG-2012-055                             departments ensure that the Federal Acquisition
                                                      Regulation clause 52.222-50, “Combating Traf-
Evaluation of DoD Contracts Regarding                 ficking in Persons,” is included in all contracts
Combating Trafficking in Persons: U.S.                identified as deficient in our review, which they
European Command and U.S. Africa Command              agreed to do. Further, the commander, U.S. Eu-
Overview: Over the past decade, Congress              ropean Command, and commander, U.S. Africa
passed legislation to address its concern regard-     Command, should ensure that existing contin-
ing allegations of contractor and U.S. Armed          gency plans and operational planning guidance
Forces’ involvement in sexual slavery, human          include combating trafficking in persons con-
trafficking and debt bondage. Prior to 2000, al-      siderations.
legations of sexual slavery, sex with minors and      Report No. DODIG-2012-041
human trafficking involving U.S. contractors
in Bosnia and Herzegovina led to criminal in-         Assessment of DoD Wounded Warrior Matters
vestigations by the U.S. government. In 2002, a       – Camp Lejeune
report alleging that women trafficked from the        Overview: In 2007 and 2008, Army and Marine
Philippines, Russia and Eastern Europe were           Corps established Warrior Care and Transition
forced into prostitution in bars in South Korea       programs to manage the care of wounded, ill
frequented by U.S. military personnel resulted        and injured soldiers and Marines from Opera-
in an investigation and changes to DoD policy.        tions Iraqi Freedom and Enduring Freedom; and
In 2004, official reports chronicled allegations of   their transition either back to military units or
forced labor and debt bondage against U.S. con-       into civilian life. There are 29 Warrior Transition
tractors in Iraq. These incidents were contrary       Units in the Army with approximately 10,000
to U.S. government policy regarding official          soldiers and two Marine Wounded Warrior Bat-
conduct and reflected poorly on DoD. The “Wil-        talions in the Marine Corps with approximately
liam Wilberforce Trafficking Victims Protection       1,000 Marines. Camp Lejeune is located near
Reauthorization Act of 2008” requires DoD IG          Jacksonville, N.C., and is the home base for the
to investigate a sample of contracts for which        II Marine Expeditionary Force, 2nd Marine Di-               DoD IG assessed DoD wounded
there is a heightened risk that a contractor may      vision, 2nd Marine Logistics Group and other                warrior matters at Camp Lejeune.

engage in acts related to trafficking in persons.     combat units and support commands. There are
DoD IG reviewed a sample of 267 Department            several major Marine Corps commands and one
of Defense contracts that had a place of perfor-      Navy command aboard Camp Lejeune and sev-
mance in geographic areas of heightened risk          eral tenant commands, which include the Naval
for trafficking in persons, selecting the U.S. Eu-    Hospital and the Wounded Warrior Battalion-
ropean Command and U.S. Africa Command                East. Among the Camp Lejeune warriors were
areas of responsibility, specifically the Federal     severely burned patients, amputee patients,
Republic of Germany, the Italian Republic and         traumatic brain injury and post traumatic stress

                                                                                                            OCTOBER 1, 2011 TO MARCH 31, 2012 41
Core Mission Areas



                                              disorder patients, and other wounded, ill or in-     programs as reported by each of the service in-
                                              jured.                                               spectors general.
                                              Findings: Wounded warriors did not appear to         Results: There are five compliance focus areas
                                              have ownership of their comprehensive transi-        associated with the Federal Voting Assistance
                                              tion plan as a tool to help them identify the in-    Program including staffing, training, material
                                              dividual goals and actions needed to guide them      distribution, communication and information,
                                              as they transition from recovery and rehabilita-     and command emphasis. The Army, Navy, Air
                                              tion to community reintegration. Consequently,       Force and Marine Corps IGs reported that their
                                              warriors may have been at risk of not accessing      service voting assistance programs were effec-
                                              the full benefits of tools and resources available   tive and compliant with relevant policy, regu-
                                              to help them fulfill their transition goals. Fur-    lation and public law. Their assessments also
                                              ther, incidents of both prescription and illegal     identified areas where service voting assistance
                                              drug abuse by warriors, which were viewed as         programs could be improved.
                                              problematic by leadership, were identified. As a     Report No. DODIG-2012-068
                                              result, inadequate order and discipline and risks
                                              to physical health and safety may have negatively
                                              impacted the warriors’ recovery and prolonged        Joint Warfighting and
                                              their transition time. Warriors at Naval Hospital
                                              Camp Lejeune spent an average of 245 days in
                                                                                                   Readiness
                                                                                                   First among DoD priority national security
                                              the treatment, recovery and rehabilitation stages    objectives is to prevail in today’s wars. As de-
                                              of their transition. This prolonged transition       scribed in the 2010 Quadrennial Defense Re-
                                              period had potentially negative effects on some      view, the United States “must ensure the success
                                              warriors’ healing and transition.                    of our forces in the field in Afghanistan, Iraq and
                                              Results: DoD IG recommended that Camp                around the world.” During the last six months,
                                              Lejeune management develop procedures to             the United States has completed its responsible
                                              ensure warriors are active participants in the       drawdown in Iraq while continuing the impor-
                                              development of their comprehensive training          tant mission of advising, training and equipping
                                              plans; update and implement policies and pro-        the Iraqi Security Forces. In Afghanistan, U.S.
                                              cedures for medication management, polyphar-         and international forces are continuing their
                                              macy and medication reconciliation; and estab-       mission to train, equip and mentor the Afghan
                                              lish procedures for the disposal of prescription     National Security Forces.
                                              medications no longer needed by the wounded
                                              warrior                                              Assessment of the DoD Establishment of the Of-
                                              Report No. DODIG-2012-067                            fice of Security Cooperation-Iraq
                                                                                                   Overview: A major national security goal has
                                              Assessment of Voting Assistance Programs for         been the establishment of a sovereign, stable and
                                              Calendar Year 2011                                   self-reliant Iraq with whom the United States
                                              Overview: United States law requires that in-        can forge a long-term security partnership. To
                                              spectors general of the Army, Navy, Air Force        facilitate this partnership after the withdrawal
                                              and Marine Corps conduct an annual review of         of U.S. combat forces in 2011, the DoD transi-
                                              the effectiveness of their voting assistance pro-    tioned all remaining training, equipping and
                                              grams; and an annual review of the compliance        mentoring activities from U.S. Forces-Iraq to
                                              with voting assistance programs of that service.     the Office of Security Cooperation-Iraq under
                                              Upon the completion of their annual reviews,         Department of State’s Chief of Mission author-
                                              each service inspector general is required to        ity. This assessment was to determine whether
                                              submit to DoD IG a report on the results of each     DoD met requirements to effectively execute
                                              review. The statute requires that DoD IG submit      this transition plan and whether it provided the
  DoD IG assessed DoD effectiveness in
  transition to self-reliant Iraq security.   to Congress a report on the effectiveness during     required support to meet initial operating ca-
                                              the preceding calendar year of voting assistance     pability to ensure that the OSC-I would be suf-
                                              programs and the level of compliance during the      ficient to accomplish the mission of supporting
                                              preceding calendar year with voting assistance       Iraq Security Forces capability development.

  42 SEMIANNUAL REPORT TO THE CONGRESS
Findings: The establishment of the OSC-I was         ing security operations of the Afghan National
on track and on schedule to meet its full oper-      Security Forces by the time NATO forces com-
ating capability target date of October 1, 2011,     plete the turnover of responsibility for security
and to operate independently as an element of        in 2014 is a key goal of the commander, Inter-
U.S. Mission to Iraq by January 1, 2012. How-        national Security Assistance Force. Previously,
ever, DoD IG determined that U.S. Forces – Iraq      the ISAF’s primary focus had been on recruit-
deputy commanding general for advising and           ing, training and fielding the combat units of the
training was:                                        Afghan National Army. As of July 2011, NTM-
•	 Managing crucial security cooperation ac-         A/CSTC-A had exceeded the force generation
     tivities with incomplete theater and coun-      milestones set for expanding the ANA. Howev-
     try-level plans and without the required        er, ISAF has only recently been able to focus on
     planning capability.                            fielding ANA enabling organizations, to include
•	 Not clearly communicating information             logistics and maintenance units, and support-
     about the OSC-I’s enduring role regarding       ing infrastructure. The ANA logistics system is
     security cooperation programs with key          therefore at an emerging stage of development. It
     ministry of defense and ministry of interior    will take an intensive effort by ISAF and the Af-
     officials.                                      ghan Ministry of Defense/General Staff to build
•	 Not fully engaged and shared essential tran-      an independent and sustainable ANA logistics
     sition details with key personnel at prospec-   capability, a complex challenge made even more
     tive outlying OSC-I sites.                      difficult given that the country’s security forces
•	 Not establishing detailed internal standard       are at war. To succeed in this endeavor will take
     operating procedures for the OSC-I essen-       time, sufficient resources and strategic patience.
     tial to adequately manage its major func-       Failure to build a logistics sustainment founda-
     tions within the framework of the U.S. Mis-     tion could have significant consequences with
     sion to Iraq.                                   respect to ANSF’s ability to provide for Afghani-
Result: DoD IG recommended that the com-             stan’s internal and external defense. It could also
mander, U.S. Central Command promptly issue          result in the inability of the ANSF to sustain the
completed Iraq Country Plan details. Further,        substantial investment already made by the in-
DoD IG recommended the chief, Office of Secu-        ternational community, primarily the United
rity Cooperation-Iraq:                               States, in infrastructure, equipment and muni-
•	 Improve information flow to site personnel        tions necessary to establish an indigenous and
     to provide clarity and achieve unity of ef-     independent Afghan security capability.
     fort.                                           Findings: ISAF has taken initiative across a                         “Developing an
•	 Communicate sufficient details about the          broad front to close the gap between ANA op-                       effective logistics
     OSC-I role and its operating processes with     erational support needs and the ANA logistical
     key Iraqi defense and interior ministry of-     system’s capacity to meet them. These initiatives
                                                                                                                 sustainment capability
     ficials to enable their understanding of and    include making improvements in ANA logisti-                        that supports the
     confidence in the future of the program.        cal system planning and design, training, in-                     enduring security
•	 Develop standard operating procedures for         frastructure and equipping, as well as account-                    operations of the
     OSC-I administrative and operational pro-       ability and control over necessary contracting,                     Afghan National
     cesses and procedures that include inter-       equipment and services. Nonetheless, there are
     agency operations within the overall frame-     significant vulnerabilities and weaknesses in the
                                                                                                                       Security Forces by
     work of U.S. Mission to Iraq authority and      ANA logistical system; among them remains                     the time NATO forces
     responsibility.                                 the challenge of establishing a more effective              complete the turnover
Report No. DODIG-2012-063                            system of oversight with respect to ANA equip-                  of responsibility for
                                                     ment, supplies and installations. Further, ISAF                     security in 2014
Assessment of U.S. Government and Coalition          lacked a plan that integrates the efforts of its
Efforts to Develop the Logistics Sustainment         subordinate commands, in partnership with the
                                                                                                                           is a key goal of
Capability of the Afghan National Army               MoD/GS and ANA, to address the complexities                         the commander,
Overview: Developing an effective logistics          of timely development of a core ANA logistics                International Security
sustainment capability that supports the endur-      capability. In addition, ISAF did not have an                     Assistance Force.”
                                                                                                           OCTOBER 1, 2011 TO MARCH 31, 2012 43
Core Mission Areas



                                            integrated planning and execution approach,          Assessment of Afghan National Security Forces
                                            in concert with DoD contracting authorities,         Metrics - Quarterly
                                            which effectively linked contract requirements       Overview: DoD IG selected, summarized and
                                            and performance to the accomplishment of             concisely presented six months of quantitative
                                            ISAF operational goals and objectives, while         and qualitative metrics deemed indicative of
                                            also ensuring effective contract oversight.          progress toward the goal of developing a sus-
                                            Result: As part of ISAF’s review and revision of     tainable Afghan National Security Force for
                                            its campaign plan, ISAF revised the ANSF plan of     transition to Afghan control by 2014. Quarterly
   DoD IG presented metrics of a sustain-   record to address ANSF development (including        reports will be produced separately for the Af-
   able Afghan National Security Force.     logistics sustainment). The plan provides guid-      ghan National Police and the Afghan National
                                            ance that defines the minimum essential capa-        Army.
                                            bilities for operations, logistics and maintenance   Findings: The first report, providing an over-
                                            of the ANSF through 2017. The plan includes a        view of the development of the Afghan National
                                            method for measuring the overall effectiveness       Police, was released on January 20, 2012.
                                            of the ANSF as a fighting force and determining      Result: This report is confidential.
                                            whether it is capable of sustaining itself.          Report No. DODIG-2012-034
                                            Report No. DODIG-2012-028




  Summary of Performance                                                              DoD IG Proﬁle
  During this reporting period, DoD IG continued directing its resources
  towards those areas of greatest risk within the Department and addressed
                                                                                      Staffing and Budget
  a variety of issues by conducting audits of programs, investigating                 As of March 31, 2012, DoD IG workforce totaled 1,521
  criminal activity, and assessing key operations.                                    employees. The FY 2012 budget is $346.9 million.
  Audit reports focused on:
  •	 Acquisition processes and contract management
  •	 Financial management.
  •	 Information assurance, security and privacy                                      Office Locations
  •	 Joint warfighting and readiness
  •	 Nuclear enterprise                                                               DoD IG is headquartered in Arlington, Va. Field audit
  Investigations focused on:                                                          and investigation offices are located across the United
  •	 Procurement fraud                                                                States including California, Missouri, Georgia, Texas,
  •	 Product substitution                                                             Ohio, Pennsylvania and Florida. In addition, DoD IG has
  •	 Public corruption                                                                offices across the world including Germany, South Korea,
  •	 Health care fraud                                                                Afghanistan, Qatar and Kuwait.
  •	 Technology protection
  •	 Computer crime
  Inspections focused on:
  •	 Health and safety                                                                About DoD IG Employees
  •	 Joint warfighting and readiness
                                                                                      DoD IG is a knowledge-driven organization and employs
  In addition, DoD IG assessed key operations in a variety of areas by
                                                                                      experts in fields of auditing, criminal investigations,
  conducting assessments and intelligence reviews. DoD IG investigated
                                                                                      computer security, intelligence, hotline complaints,
  senior officials and reprisal complaints; conducted policy and peer
                                                                                      whistleblower reprisal and many others.
  reviews; and managed programs, such as contractor disclosure and the
  Defense Hotline.




   44 SEMIANNUAL REPORT TO THE CONGRESS
Semiannual Report to the Congress                                                                                                                                                  Contracting                                         Finance                                             Technology                                      Health                       Warfighting                                   DoD IG Projects by Category




                                                                                                                           Overseas Contingency




                                                                                                                                                                                                           Product Substitution




                                                                                                                                                                                                                                                                    Information Security
                                                                                                                                                  Recovery Act


                                                                                                                                                                 Acquisition Process



                                                                                                                                                                                       Procurement Fraud
                                                                                                                                Operations




                                                                                                                                                                                                                                               Public Corruption/




                                                                                                                                                                                                                                                                                                                                                                                         Nuclear Enterprise
                                                                                                                                                                                                                                                                                                                                                 Health Care Fraud
                                                                                                                                                                                                                                                                                                                             Health and Safety




                                                                                                                                                                                                                                                                                                                                                                     Joint Warfighting
                                                                                                                                                                                                                                                                                              Computer Crime
                                                                                                                                                                                                                                                Financial Crimes
   The following projects are highlighted in the Semiannual Report for the reporting period                                                                                                                                                                                                                                                                                                                                                  Type Legend




                                                                                                                                                                  & Management




                                                                                                                                                                                                                                  Management
   October 1, 2011 to March 31, 2012. The full listing of reports is available at Appendix A and




                                                                                                                                                                                                                                                                                                               Technology
                                                                                                                                                                                                                                                                                                                Protection




                                                                                                                                                                                                                                                                                                                                                                         Readiness
                                                                                                                                                                                                                                   Financial
   downloadable versions can be viewed on the Web at :                                                                                                                                                                                                                                                                                                                                                                                              Audit


   www.dodig.mil                                                                                                                                                                                                                                                                                                                                                                                                                                    Investigation

                                                                                                                                                                                                                                                                                                                                                                                                                                                    Inspection


Title                                                                                                Report #       Type                                                                                                                                                                                                                                                                                      Page    URL
Assessment of Security within the Department of Defense – Training, Certification and
                                                                                                   DODIG-2012-001                                                                                                                                                        X                                                                                                                                     29     http://www.dodig.mil/Ir/reports/DODIG-2012-001.pdf
Professionalization
Changes Are Needed to the Army Contract With Sikorsky to Use Existing DoD Inven-                                                                                                                                                                                                                                                                                                                                      http://www.dodig.mil/Audit/reports/fy12/DODIG-2012-004_
                                                                                                   DODIG-2012-004                 X                                     X                                                                                                                                                                                                                                     16-17
tory and Control Costs at the Corpus Christi Army Depot                                                                                                                                                                                                                                                                                                                                                               REDACTED.pdf
Counter Narcoterrorism Technology Program Office Task Orders Had Excess Fees and                                                                                                                                                                                                                                                                                                                                      http://www.dodig.mil/Audit/reports/fy12/DODIG-2012-006_
                                                                                                   DODIG-2012-006                 X                                     X                                                                                                                                                                                                                                      17
the Army Was Incorrectly Billed                                                                                                                                                                                                                                                                                                                                                                                       REDACTED.pdf
Acquisition of the Multi-Platform Radar Technology Insertion Program Needs Trans-
                                                                                                   DODIG-2012-007                                                       X                                                                                                                                                                                                                                     17-18   This report is For Official Use Only.
parency and Accountability
DoD Complied With Policies on Converting Senior Mentors to Highly Qualified                                                                                                                                                                                                                                                                                                                                           http://www.dodig.mil/Audit/reports/fy12/audit/DODIG-2012-009.
                                                                                                   DODIG-2012-009                                                                                                                                                                                                                                                          X                                  29-30
Experts, but Few Senior Mentors Converted                                                                                                                                                                                                                                                                                                                                                                             pdf
Naval Academy Officials Did Not Adhere to Contracting and Gift Policies                                                                                                                                                                                                                                                                                                                                               http://www.dodig.mil/Audit/reports/fy12/audit/DODIG-2012-017.
                                                                                                   DODIG-2012-017                                                       X                                                                                                                                                                                                                                      18
                                                                                                                                                                                                                                                                                                                                                                                                                      pdf
Management Improvements Needed in Commander’s Emergency Response Program
                                                                                                   DODIG-2012-023                 X                                                                                                  X                                                                                                                                                                        25-26   http://www.dodig.mil/Audit/reports/fy12/DODIG-2012-023.pdf
in Afghanistan
Air Force Can Improve Controls Over Base Retail Inventory                                          DODIG-2012-026                                                                                                                                                                                                                                                          X                                  30-31   http://www.dodig.mil/Audit/reports/fy12/DODIG-2012-026.pdf

Deficiencies in Journal Vouchers That Affected the FY 2009 Air Force General Fund
                                                                                                   DODIG-2012-027                                                                                                                    X                                                                                                                                                                         26     http://www.dodig.mil/Audit/reports/fy12/DODIG-2012-027.pdf
Statement of Budgetary Resources
Acquisition Procedures for the Guam Design-Build Multiple Award Construction
                                                                                                   DODIG-2012-031                                                       X                                                                                                                                                                                                                                      19     This report is For Official Use Only.
Contract
Funding for Enhancements to the Standard Procurement System                                        DODIG-2012-032                 X                                                                                                  X                                                                                                                                                                         25     http://www.dodig.mil/Audit/reports/fy12/DODIG-2012-032.pdf

Award and Administration of Multiple Award Contracts for Services at Army Medical
                                                                                                   DODIG-2012-033                                                       X                                                                                                                                                                                                                                     18-19   http://www.dodig.mil/Audit/reports/fy12/DODIG-2012-033.pdf
Research Acquisition Activity Need Improvement
American Recovery and Reinvestment Act—Improvements Needed in Implementing
                                                                                                   DODIG-2012-035                                    X                                                                               X                                                                                                                                                                        26-27   http://www.dodig.mil/Audit/reports/fy12/12-035.pdf
the Homeowners Assistance Program
DoD Needs to Improve Accountability and Identify Costs and Requirements for Non-                                                                                                                                                                                                                                                                                                                                      http://www.dodig.mil/Audit/reports/fy12/RIB%20DODIG-2012-036.
                                                                                                   DODIG-2012-036                 X                                     X                                                                                                                                                                                                                                     19-20
Standard Rotary Wing Aircraft                                                                                                                                                                                                                                                                                                                                                                                         pdf
Summary Report on DoD’s Management of Undefinitized Contractual Actions                            DODIG-2012-039                                                       X                                                                                                                                                                                                                                      20     http://www.dodig.mil/Audit/reports/fy12/DODIG-2012-039.pdf
Army Needs to Identify Government Purchase Card High-Risk Transactions                             DODIG-2012-043                                                                                                                    X                                                                                                                                                                         27     http://www.dodig.mil/Audit/reports/fy12/DODIG-2012-043.pdf
Status of Recommendations to Improve the Department of Defense Nuclear Enterprise
                                                                                                   DODIG-2012-044                                                                                                                                                                                                                                                                            X                 31     This report is classified.
- Phase II
Improvements Needed With Identifying Operating Costs Assessed to the Fleet Readi-
                                                                                                   DODIG-2012-049                                                       X                                                                                                                                                                                                                                     20-21   http://www.dodig.mil/Audit/reports/fy12/DODIG-2012-049.pdf
ness Center Southwest
Improvements Needed With Host-Based Intrusion Detection Systems                                    DODIG-2012-050                                                                                                                                                        X                                                                                                                                    28-29   This report is For Official Use Only.
Navy Enterprise Resource Planning System Does Not Comply With the Standard
                                                                                                   DODIG-2012-051                                                                                                                    X                                                                                                                                                                         24     http://www.dodig.mil/Audit/reports/fy12/DODIG-2012-051.pdf
Financial Information Structure and Government Standard General Ledger
Marine Corps Transition to Joint Region Marianas and Other Joint Basing Concerns                   DODIG-2012-054                                                                                                                                                                                                                                                          X                                  30-31   http://www.dodig.mil/Audit/reports/fy12/DODIG-2012-054.pdf
Report on Sensitive Compartmented Information Leaks in the Department of Defense                   DODIG-2012-056                                                                                                                                                        X                                                                                                                                     29     http://www.dodig.mil/Ir/reports/2012-056.pdf
Guidance Needed to Prevent Military Construction Projects from Exceeding the Ap-
                                                                                                   DODIG-2012-057                 X                                     X                                                                                                                                                                                                                                     21-22   http://www.dodig.mil/Audit/reports/fy12/DODIG-2012-057.pdf
proved Scope of Work
Distribution of Funds and Mentoring of Finance Officers for the Afghan National
                                                                                                   DODIG-2012-058                 X                                                                                                  X                                                                                                                                                                        27-28   http://www.dodig.mil/Audit/reports/fy12/DODIG-2012-058.pdf
Army Payroll Need Improvement
Inadequate Controls Over the DoD Service-Disabled Veteran-Owned Small Business
                                                                                                   DODIG-2012-059                                                       X                                                                                                                                                                                                                                      22     http://www.dodig.mil/Audit/reports/fy12/DODIG-2012-059.pdf
Set-Aside Program Allow Ineligible Contractors to Receive Contracts
Defense Contract Management Agency’s Investigation and Control of Nonconforming
                                                                                                   DODIG-2012-060                                                       X                                                                                                                                                                                                                                      22     http://www.dodig.mil/Audit/reports/fy12/DODIG-2012-060.pdf
Materials
Contractor-Invoiced Costs Were Accurate, but DoD Did Not Adequately Track Fund-
                                                                                                   DODIG-2012-062                                                       X                                                                                                                                                                                                                                     22-23   http://www.dodig.mil/Audit/reports/fy12/DODIG-2012-062.pdf
ing
DoD Compliance With the Requirements of the Improper Payments Elimination and
                                                                                                   DODIG-2012-065                                                                                                                    X                                                                                                                                                                         28     http://www.dodig.mil/Audit/reports/fy12/DODIG-2012-065.pdf
Recovery Act
General Fund Enterprise Business System Did Not Provide Required Financial Infor-
                                                                                                   DODIG-2012-066                                                                                                                    X                                                                                                                                                                        24-25   http://www.dodig.mil/Audit/reports/fy12/DODIG-2012-066.pdf
mation
Semiannual Report to the Congress                                                                                                                                                 Contracting                                         Finance                                             Technology                                      Health                       Warfighting                                   DoD IG Projects by Category




                                                                                                                          Overseas Contingency




                                                                                                                                                                                                          Product Substitution




                                                                                                                                                                                                                                                                   Information Security
                                                                                                                                                 Recovery Act


                                                                                                                                                                Acquisition Process



                                                                                                                                                                                      Procurement Fraud
                                                                                                                               Operations




                                                                                                                                                                                                                                              Public Corruption/




                                                                                                                                                                                                                                                                                                                                                                                        Nuclear Enterprise
                                                                                                                                                                                                                                                                                                                                                Health Care Fraud
                                                                                                                                                                                                                                                                                                                            Health and Safety




                                                                                                                                                                                                                                                                                                                                                                    Joint Warfighting
  The following projects are highlighted in the Semiannual Report for the reporting period




                                                                                                                                                                                                                                                                                             Computer Crime
                                                                                                                                                                                                                                               Financial Crimes
                                                                                                                                                                                                                                                                                                                                                                                                                                              Type Legend




                                                                                                                                                                 & Management




                                                                                                                                                                                                                                 Management
  October 1, 2011 to March 31, 2012. The full listing of reports is available at Appendix A and




                                                                                                                                                                                                                                                                                                              Technology
                                                                                                                                                                                                                                                                                                               Protection




                                                                                                                                                                                                                                                                                                                                                                        Readiness
  downloadable versions can be viewed on the Web at:




                                                                                                                                                                                                                                  Financial
                                                                                                                                                                                                                                                                                                                                                                                                                                                    Audit

  www.dodig.mil                                                                                                                                                                                                                                                                                                                                                                                                                                     Investigation

                                                                                                                                                                                                                                                                                                                                                                                                                                                    Inspection


Title                                                                                               Report #       Type                                                                                                                                                                                                                                                                                      Page    URL
DoD Contractor Sentenced to 105 Years in Jail for Defrauding DoD                                       N/A                                                                                X                                                                                                                                                                                                                   32     Press releases on investigations are available at www.dodig.mil.
Theft of Aviation Fuel                                                                                 N/A                                                                                X                                                                                                                                                                                                                   32     Press releases on investigations are available at www.dodig.mil.
Boeing Corporation Pays $4.3 Million to Settle Allegations of False Claims                             N/A                                                                                X                                                                                                                                                                                                                   32     Press releases on investigations are available at www.dodig.mil.
Father and Son Sentenced to Prison for Fraudulently Billing NSA                                        N/A                                                                                X                                                                                                                                                                                                                   33     Press releases on investigations are available at www.dodig.mil.
Aerospace Corporation Paid $2.5 Million to Settle Employee Mischarging                                 N/A                                                                                X                                                                                                                                                                                                                   33     Press releases on investigations are available at www.dodig.mil.
GenCorp Paid $3.3 Million to Settle Expressly Unallowable Costs Allegations                            N/A                                                                                X                                                                                                                                                                                                                   33     Press releases on investigations are available at www.dodig.mil.
Sea Star Line Pleads Guilty to Antitrust Violations and Agrees to Pay $14.2 Million in
                                                                                                       N/A                                                                                X                                                                                                                                                                                                                  33-34   Press releases on investigations are available at www.dodig.mil.
Fines
Point Blank Pays Government $1 Million for the Sale of Defective Zylon Bulletproof
                                                                                                       N/A                                                                                                     X                                                                                                                                                                                              34     Press releases on investigations are available at www.dodig.mil.
Vests
$4.75 Million Settlement by Kaman Precision Products in Connection with the Sub-
                                                                                                       N/A                                                                                                     X                                                                                                                                                                                              34     Press releases on investigations are available at www.dodig.mil.
mission of False Claims
Army Sergeant Major and Former Sergeant Sentenced to Prison for Bribery Con-
                                                                                                       N/A                       X                                                                                                                  X                                                                                                                                                         35     Press releases on investigations are available at www.dodig.mil.
spiracy at Bagram Airfield
Former Army National Guard Major Sentenced to 60 Months for Accepting Bribes in
                                                                                                       N/A                       X                                                                                                                  X                                                                                                                                                         35     Press releases on investigations are available at www.dodig.mil.
Afghanistan
Former Army Sergeant Pleads Guilty to Stealing Equipment in Iraq and Receiving
                                                                                                       N/A                       X                                                                                                                  X                                                                                                                                                         35     Press releases on investigations are available at www.dodig.mil.
Proceeds from Sale on Black Market
Former Army Major and Spouse Convicted for Bribery Scheme Related to Defense
                                                                                                       N/A                       X                                                                                                                  X                                                                                                                                                        35-36   Press releases on investigations are available at www.dodig.mil.
Contracts in Iraq
Over $23 Million Settlement by Synthes Corporation and Norian, Inc. for Using Mis-
                                                                                                       N/A                                                                                                                                                                                                                                          X                                                         36     Press releases on investigations are available at www.dodig.mil.
branded Medical Devices
$316,513 Settlement by Eastern Connecticut Hematology & Oncology, Associates, PC
                                                                                                       N/A                                                                                                                                                                                                                                          X                                                         37     Press releases on investigations are available at www.dodig.mil.
for False Claims for Payment
Health Care Provider Sentenced to 25 years for Falsely Billing U. S. Federal Govern-
                                                                                                       N/A                                                                                                                                                                                                                                          X                                                         37     Press releases on investigations are available at www.dodig.mil.
ment
$85 Million Settlement by Scios, Inc. for FDCA Violation                                               N/A                                                                                                                                                                                                                                          X                                                         37     Press releases on investigations are available at www.dodig.mil.
$9.25 Million Settlement by Guidant Corporation for Allegations of Fraud                               N/A                                                                                                                                                                                                                                          X                                                         37     Press releases on investigations are available at www.dodig.mil.
$66 Million Settlement by LHC Group, Inc. for Allegations of False Claims for Billing
                                                                                                       N/A                                                                                                                                                                                                                                          X                                                        37-38   Press releases on investigations are available at www.dodig.mil.
Non-Reimbursable Services
New York Man Pleads Guilty to Attempting to Ship Prohibited Items to Iran                              N/A                                                                                                                                                                                                        X                                                                                           38     Press releases on investigations are available at www.dodig.mil.
Texas Man Sentenced to Two Years in Prison for Attempting to Export Restricted
                                                                                                       N/A                                                                                                                                                                                                        X                                                                                           38     Press releases on investigations are available at www.dodig.mil.
Military Equipment
Attempted Illegal Export of C-130 Aircraft to Venezuela                                                N/A                                                                                                                                                                                                        X                                                                                          38-39   Press releases on investigations are available at www.dodig.mil.
Violation of the Arms Export Control Act                                                               N/A                                                                                                                                                                                                        X                                                                                           39     Press releases on investigations are available at www.dodig.mil.
Contractor Pays $562,000 Settlement for Violation of DoD Information Assurance
                                                                                                       N/A                                                                                                                                                                                      X                                                                                                             39     Press releases on investigations are available at www.dodig.mil.
Requirements
Joint DCIS-FBI Investigation Dismantles Botnet                                                         N/A                                                                                                                                                                                      X                                                                                                             39     Press releases on investigations are available at www.dodig.mil.
Review of Matters Related to the Sexual Assault of Lance Corporal Maria Lauterbach,                                                                                                                                                                                                                                                                                                                                  http://www.dodig.mil/Inspections/IPO/reports/LauterbachFR_
                                                                                                  DODIG-2012-003                                                                                                                                                                                                                X                                                                             40
Marine Corps                                                                                                                                                                                                                                                                                                                                                                                                         (redacted).pdf
Assessment of Government and Coalition Efforts to Develop the Logistics Sustainment
                                                                                                  DODIG-2012-028                 X                                                                                                                                                                                                                                        X                                  43-44   http://www.dodig.mil/SPO/Reports/DODIG-2012-028.pdf
Capability of the Afghan National Army
Assessment of Afghan National Security Forces Metrics - Quarterly                                 DODIG-2012-034                 X                                                                                                                                                                                                                                        X                                   44     This report is classified.
Evaluation of DoD Contracts Regarding Combating Trafficking in Persons: European
                                                                                                  DODIG-2012-041                                                                                                                                                                                                                X                                                                             41     http://www.dodig.mil/spo/reports/DODIG-2012-041.pdf
Command and Africa Command
Inspection of DoD Detainee Transfers and Reliance on Assurances                                   DODIG-2012-055                                                                                                                                                                                                                X                                                                            40-41   This report is classified.
Assessment of the DoD Establishment of the Office of Security Cooperation - Iraq                  DODIG-2012-063                 X                                                                                                                                                                                                                                        X                                  42-43   http://www.dodig.mil/spo/Reports/DODIG-2012-063.pdf
Assessment of DoD Wounded Warrior Matters – Camp Lejeune                                          DODIG-2012-067                                                                                                                                                                                                                X                                                                            41-42   http://www.dodig.mil/spo/Reports/DODIG-2012-067.pdf
Assessment of Voting Assistance Programs for Calendar Year 2011                                   DODIG-2012-068                                                                                                                                                                                                                X                                                                             42     http://www.dodig.mil/spo/Reports/DODIG-2012-068.pdf
                    3


Enabling Mission Areas
Enabling Mission Areas



                                   The primary mission of the Defense Hotline is        Figure 3.1

Hotline                            to provide a confidential and reliable vehicle for
                                   military service members, DoD civilians, con-
                                                                                        Distribution of Method of Hotline Contacts Received


                                   tractors and the public to report fraud, waste,
                                   mismanagement, abuse of authority, threats to        Email, 35%                                                                       U.S. Mail, 10%
                                   homeland security and leaks of classified infor-
                                   mation.                                                                                                                                    Internet, 9%

                                                                                                                                                                               GAO, 1.5%
                                   For this reporting period, the Defense Hotline
                                                                                                                                                                               Congressional
                                   received 8,985 contacts from the general pub-                                                                                               Inquiries, 1%
                                   lic and members of the DoD community: 10
                                   percent by mail, 35 percent by email, 9 percent
                                   by the internet and 43.5 percent by telephone.
                                   Based on these contacts the hotline initiated
                                   1,398 cases. 1.5 percent were referrals from the
                                                                                                          Telephone, 43.5%
                                   Government Accountability Office, and less than
                                   1 percent were congressional complaints.




                                                                                           Telephone



                                                                                                       Email



                                                                                                                U.S. Mail



                                                                                                                                  Internet



                                                                                                                                                GAO



                                                                                                                                                         Congressional
                                   Open Cases                                           Figure 3.2
                                                                                        Distribution of Cases Initiated by Category
                                   The 1,398 cases opened this reporting period are
                                   classified in the following categories:
                                   •	 Internal misconduct (468)                         500
                                                                                                          468
                                   •	 Reprisal related (280)
                                   •	 Finance (144)                                     400
                                   •	 Contract administration (199)
                                   •	 Government property (62)                          300                    280
                                   •	 Personnel matters (83)
                                   •	 Programs (69)                                                                         199
                                                                                        200
                                   •	 Military support services (8)
                                                                                                                 144
                                   •	 Medical (12)
                                   •	 Mental health evaluation (5)                      100                                                  83 69
                                                                                                                                  62
                                   •	 Nonappropriated fund (1)                                                                                                   25 24
                                                                                                                                                      8 12 5 1 2       7 9
                                   •	 Recovery Act (2)                                      0
                                                                                                                Internal Misconduct
                                                                                                                    Reprisal Related
                                                                                                                             Finance
                                                                                                           Contract Administration
                                                                                                              Government Property
                                                                                                                  Personnel Matters
                                                                                                                           Programs
                                                                                                           Military Support Services
                                                                                                                            Medical
                                                                                                           Mental Health Evaluation
                                                                                                            Nonappropriated Fund
                                                                                                                       Recovery Act
                                                                                                                            Security
                                                                                                                       Procurement
                                                                                                              Trafficking in Persons
                                   •	 Security (25)                                                                            Other
                                   •	 Procurement (24)
                                   •	 Trafficking in persons (7)
                                   •	 Other (9)

                                   Closed Cases
                                   During this reporting period the Defense Hot-
                                   line closed 1,269 cases.
                                   •	 491 cases referred within DoD IG were
                                        closed.
                                   •	 609 cases referred to the military services
                                        were closed.
                                   •	 164 cases referred to other Defense agencies
                                        were closed.
                                   •	 5 cases referred to non-DoD agencies were
                                        closed.
                                   •	 564 cases were not referred and dismissed
                                        without action.
46 SEMIANNUAL REPORT TO THE CONGRESS
Hotline Case Referrals                             Substantiated Hotline Complaints
The Defense Hotline initiated 1,418 cases to the   •	 A German company, Securitas, contracted
following activities:                                   by the Army to provide guard services at
                                                        Army installations in Germany, overcharged
Military Departments		                  	               for guard hours not worked. The investiga-
  	       AF			                             110         tion uncovered 545,431 hours charged to
	         Army	                             294         the U.S government, which had not been
  	       Navy		                            103         worked, resulting in a monetary loss to the
  	       USMC		                             24         government of over $14 million. Shortly af-
  	       JS			                              63
                                                        ter the onset of the investigation Securitas
DoD IG			                                               management admitted to the overcharges. A
    	  ISO		                                118         demand letter was issued and the contract-
    	  WRI			                               254         ing office began recouping monies via con-
  	    Hotline			                           166         tract offsets. Securitas later filed suit against
	      Audits		                              14         the U.S. government, bringing them into
    	  Investigations		                      68         U.S. jurisdiction, and resulted in a coun-
  	    Intel		                                2         tersuit by the Department of Justice. Secu-
  	    OPR		                                  1         ritas and the Department of Justice signed
  	    SPO			                                 1
                                                        a settlement agreement in which Securitas
  	    APO			                                 1
  	    P&O			                                 2         agreed to repay the U.S. government 6.5
                                                        million euro less 2.3 million euro repaid via
Other Defense Agencies		                                contract offsets. Total recovery to the U.S.
	        AAFES			                             5         government was $9 million (based on the
	        CPMS	                                1         conversion rate at the time).
  	      DARPA		                              3    •	   Two employees in overseas assignments
  	      DCMA		                               7         were found guilty of committing fraud in
  	      DODEA 	                             19
                                                        regards to living quarters allowance and
  	      DCAA			                              7
                                                        temporary quarters subsistence allowance.
  	      DECA			                              8
    	    DFAS				                            31         The supervisor administratively placed an
  	      DIA			                              12         employee in a duty position, which allowed
	        DISA			                              4         LQA entitlements, however, the employee
  	      DLA				                             14         never relocated to that position. As a result,
    	    DSS			                              11         the employee received over $30,000 for un-
    	    DTRA				                             1         authorized LQA entitlements. As a result,
      	  MDA				                              3         the employee received a 14-day suspension
    	    MEPCOM		                             2         and was required to repay the $30,000. The
    	    NONDOD		                             9
                                                        supervisor was terminated.
    	    NGA				                              3
    	    NRO			                               1
    	    OSD			                               3    Contractor Employee Rights
    	    PFPA			                              1    The Department amended the Defense Federal
	        Policy		                             2    Acquisition Regulation Supplement to require
    	    AT&L			                            	 3
                                                   contractors to display the Defense Hotline post-
	
                                                   er in common work areas. DoD IG developed
                                                   a poster specifically to provide whistleblower
                                                   protection and Defense Hotline information to
                                                   DoD contractors.




                                                                                                            OCTOBER 1, 2010 TO MARCH 31, 2011 47
Enabling Mission Areas



                                                    DoD IG investigates and oversees investigations                      vides oversight on all investigations into alleged
Senior                                              of allegations regarding the misconduct of se-
                                                    nior DoD officials, both civilian and military;
                                                                                                                         misconduct by senior DoD officials (brigadier
                                                                                                                         general/rear admiral and above, members of
Officials                                           whistleblower reprisal against service members,
                                                    defense contractor employees and DoD civilian
                                                                                                                         the senior executive service and senior political
                                                                                                                         appointees). Misconduct allegations are non-
                                                    employees (appropriated and nonappropriated                          criminal in nature and typically involve ethics
                                                    fund); and improper command referrals of ser-                        or regulatory violations. Most senior official in-
                                                    vice members for mental health evaluations.                          vestigations are conducted by specialized units
                                                                                                                         within military department Offices of Inspector
                                                    Investigations of Senior                                             General. DoD IG investigates allegations against
                                                                                                                         the most senior DoD officials and allegations not
                                                    Officials                                                            suitable for assignment to service IGs.
                                                    To promote public confidence in the integrity
                                                    of DoD leadership, DoD IG conducts or pro-                           On November 29, 2011, DoD IG announced the
                Senior Official Complaints Closed During First Half FY 2012                                              creation of an oversight branch within the Di-
                                     Total Closed   Dismissed    Investigated      Substantiated   Substantiation Rate   rectorate for Investigations of Senior Officials.
                                                                                                                         The oversight branch represents commitment to
Senior Official’s Affiliation                                   Closed by DoD IG                                         assign high priority and sufficient resources to
Army                                     53            49             4                  1                25%            achieving timely fulfillment of DoD IG respon-
Navy                                     16            15             1                  0                 0%            sibility to provide oversight of military depart-
Air Force                                20            18             2                  1                50%            ment and agency IG investigations involving
Marine Corps                              1             1             0                  0                 0%            senior DoD officials.
COCOM/ Defense Agency                    52            47             5                  1                20%
                          Subtotal       142           130           12                  3                25%
                                                                                                                         DoD IG conducted several sensitive investiga-
                                                                                                                         tions that received significant attention. In one
Senior Official’s Affiliation                         Closed by Component IG with                                        instance, DoD IG investigated and did not sub-
                                                      Oversight Review by DoD IG
                                                                                                                         stantiate an allegation that a general officer failed
Army                                     82                          82                  7                 9%
                                                                                                                         to report evidence of possible criminal activity
Navy                                     27                          27                  6                22%
                                                                                                                         to the supporting military criminal investigative
Air Force                                49                          49                 13                27%
                                                        0                                                                organization as required by DoD regulation. In
Marine Corps                              6                           6                  0                 0%            a second instance, DoD recovered over $10,000
COCOM/ Defense Agency                    10                          10                  2                20%            from a general officer whom we previously de-
                          Subtotal       174                         174                28                16%            termined improperly received federal pay and
TOTALS                                   316           130           186                31                17%            benefits.

       INVESTIGATIONS OF SENIOR OFFICIALS TYPE OF MISCONDUCT                                                             In every instance, DoD IG expertly investigated
                                                                           Gifts
                                                                                                                         the facts and circumstances of the case and pre-
                                                                                                                         sented a timely and independent report of inves-
                                                                           Reprisal                                      tigation to management officials for appropriate
                                                                                                                         action.
                                                                           Prohibited Personnel Action

                                                                                                                         The chart top left depicts the total number of se-
                                                                           Other
                                                                                                                         nior official complaints closed by DoD IG and
                                                                           Integrity                                     the component IGs during the period, the num-
                                                                                                                         ber dismissed, the number investigated and the
                                                                           Travel/Misuse of GOV                          substantiation rates.
                                                                           Dignity and Respect
                                                                                                                         The chart bottom left depicts the types of mis-
                                                                           Misuse of Position
                                                                                                                         conduct substantiated in the 31 investigations
                                                                                                                         closed during the period.
                                                                           Inappropriate Relationship


48 SEMIANNUAL REPORT TO THE CONGRESS
Whistleblower Reprisal                             vising written policies and procedures and
Investigations
                                                   strengthening whistleblower reprisal over-
                                                   sight functions.
                                                                                                      Whistleblower
At the end of FY 2011, DoD IG merged the
military reprisal investigations and civilian                                                              Reprisal
reprisal investigations into the newly estab-
                                                                               318 COMPLAINTS RECEIVED
lished Whistleblower Reprisal Investigations
Directorate within the Office of the Deputy                                                                Military Restriction
Inspector General for Administrative Inves-
tigations. The consolidation of these director-                                                            NAFI Reprisal
ates enabled DoD IG to increase efficiency and
consistency in investigative procedures.                                                                   Defense Contractor Reprisal

WRI is responsible for conducting and re-                                                                  Medical Health Procedural
viewing investigations conducted by the
military service and defense agency IGs into                                                               Military Reprisal
allegations of whistleblower reprisal made by
DoD military service members, nonappro-                                                                    Civilian Reprisal
priated fund employees and DoD contractor
employees under Title 10 of the United States      The pie chart above depicts the number and
Code and American Reinvestment and Recov-          type of complaints received by the Depart-
ery Act.                                           ment during the first half of FY 2012.
WRI additionally investigates allegations that     Substantiated Whistleblower Reprisal/Restric-
military members were restricted from com-         tion/Procedurally Improper MHE Allegations
municating with a member of Congress or an         •	 An Air Force chief master sergeant down-
IG. WRI also investigates, on a discretionary           graded a subordinate’s performance re-
basis, allegations of reprisal filed by DoD ap-         port in reprisal for the subordinate alleg-
propriated fund civilian employees and in               ing to an IG and the chain of command
particular, civilian employees of the defense           favoritism toward women by the chief
intelligence community. Finally, WRI is re-             master sergeant. The chief master ser-
sponsible for investigating and reviewing in-           geant received written admonishment in
vestigations of alleged procedural violations of        response to the substantiated reprisal al-
DoD Directive 6490.1, “Mental Health Evalu-             legation.
ations of Members of the Armed Forces.”            •	 An Army National Guard unit com-
                                                        mander referred an Air Force Active
DoD IG is committed to transforming the De-             Guard and Reserve member for a mental
partment’s whistleblower protection program             health evaluation in reprisal for the mem-
into the model for the federal government by            ber’s protected communications. The
improving the timeliness and quality of repri-          member had alleged that a unit member
sal investigations. In response to recent in-           drove a government vehicle while under
ternal and external reviews, DoD IG recently            the influence of alcohol and that his unit
hired more than a dozen additional investiga-           improperly used its government purchase
tors to address the ever-increasing number of           card. In addition, the unit commander
whistleblower reprisal complaints filed with            and medical officer failed to follow the
DoD IG and the military services.                       required procedures for a mental health
                                                        evaluation. Finally, the unit deputy com-
DoD IG also implemented several improve-                mander restricted the member from
ments to investigative and oversight functions          communicating with a member of Con-
to include streamlining the complaint intake            gress. Corrective action is pending. Note:
process, providing more robust training, re-            The complaint alleged both reprisal and

                                                                                                      OCTOBER 1, 2010 TO MARCH 31, 2011 49
Enabling Mission Areas



                                                       restriction; the latter was not included in                    •	   A Navy ensign removed a subordinate from
                                                       the statistics as a separate investigation of                       the position in reprisal for the subordinate’s
                                                       restriction.                                                        complaints of misconduct against the en-
                                                •	     An Air Force master sergeant reprimand-                             sign to the chain of command, an equal
                                                       ed a subordinate in reprisal for the master                         opportunity officer, an IG and a member of
                                                       sergeant’s belief that the subordinate had                          Congress. Corrective action is pending.
                                                       reported him for having an unprofessional
                                                       relationship with another airman. Correc-                      Substantiated Whistleblower Reprisal Under the
                                                       tive action is pending.                                        American Recovery and Reinvestment Act
                                                •	     An Air Force staff sergeant received an un-                    A contractor employee was terminated from em-
                                                       favorable performance report for reporting                     ployment for repeatedly disclosing information
                                                       to the commander that an instructor im-                        to government officials that the employee rea-
                                                       properly taught students about an upcom-                       sonably believed was evidence of a violation of
                                                       ing Air Force qualifying test, thus improp-                    law, rule or regulation related to a defense agen-
                                                       erly increasing the students’ test scores. The                 cy contract involving ARRA funds. The contrac-
                                                       commander retired before corrective action                     tor required that certain issues could only be
                                                       could be taken; however, the staff sergeant                    raised internally and never disclosed to govern-
                                                       was advised of the right to petition the                       ment officials and its offer of employment, which
                                                       Board for Correction of Military Records                       the complainant signed, included a statement to
                                                       for relief.                                                    that effect. However, ARRA provides that the
                                                •	     An Army lieutenant colonel gave an Army                        rights and remedies of its whistleblower protec-
                                                       Reserve major an unfavorable evaluation                        tion section may not be waived by any agree-
                                                       report in reprisal for the major’s complaint                   ment, policy, form or condition of employment.
                                                       of harassment against another officer to the                   Thus, given that the complainant’s disclosures
                                                       chain of command and an IG. The lieuten-                       to the government were a contributing factor in
                                                       ant colonel retired from the Army before                       the termination and that the termination would
                                                       corrective action could be taken. The Army                     not have occurred in the absence of those dis-
                                                       Reserve major was advised of the right to                      closures, DoD IG substantiated reprisal. The
                                                       petition the Board for Correction of Mili-                     Department ordered the contractor to pay the
                                                       tary Records for relief.                                       complainant nearly $60,000 in back-pay and re-
                                                                                                                      imbursement for other expenses.
                       Reprisal, Restriction, and Mental Health Procedural
                         Complaints Closed During First Half FY 2012
                                                                                                                      Corrective Action Taken on Investigations
                           Closed   Dismissed        Withdrawn   Investigated   Substantiated   Substantiation Rate
                                                                                                                      Closed in Prior Reporting Period
Type of Complaint                                            Closed by DoD IG                                         •	 An Army sergeant first class received a gen-
Civilian Reprisal            56        53                2            1              0                  0%
                                                                                                                          eral officer reprimand for threatening sev-
                                                                                                                          eral soldiers with unspecified unfavorable
Military Reprisal            57        51                0            6              1                 17%
                                                                                                                          personnel actions for filing IG complaints.
Contractor Reprisal          21        20                0            1              0                  0%
                                                                                                                      •	 Two Army noncommissioned officers re-
ARRA Reprisal                 1         0                0            1              1                 100%
                                                                                                                          ceived general officer reprimands for threat-
NAFI Reprisal                 6         3                1            2              0                  0%                ening nonjudicial punishment if the subor-
         DoD IG Subtotal     141       127               3           11              2                 18%                dinates complained to an IG about a hostile
Type of Complaint                                Closed by Component IG with                                              work environment.
                                                 Oversight Review by DoD IG                                           •	 An Army staff sergeant informed an IG that
Civilian Reprisal            1          0                0            1              0                  0%                the command was hampering retirement
Military Reprisal            125       86                0           39              8                 21%                training. The sergeant received an unfavor-
Military Restriction          1         0                0            1              0                  0%                able evaluation report in reprisal for the
Mental Health Procedural     17         2                0           15              7                 47%                complaint. The rating officials received gen-
      Service/Component                                                                                                   eral officer reprimands.
                             144       88                0           56              15                27%
                Subtotal
TOTALS                       285       215               3           67              17                25%


50 SEMIANNUAL REPORT TO THE CONGRESS
Section 4(a) of the Inspector General Act re-         ployees. Garrison stressed the important role of
quires the inspector general “to review existing
and proposed legislation and regulations relating
                                                                                                  Congressional
                                                      DoD IG in providing whistleblower protections
                                                      to these individuals and also discussed specific
to the programs and operations of [the Depart-
ment of Defense]” and to make recommenda-
                                                                                                  Testimony and
                                                      concerns related to reprisal investigations of de-
                                                      fense contractor employees.
tions “concerning the impact of such legislation
or regulations on the economy and efficiency in       On December 7, 2011, Inspector General Gor-
                                                                                                        Briefings
the administration of programs and operations         don Heddell testified before the House Com-
administered or financed by [the Department]          mittee on Oversight and Government Reform,
or the prevention and detection of fraud and          Subcommittee on National Security, Homeland
abuse in such programs and operations.” DoD           Defense, and Foreign Operations, at a hearing
IG is given the opportunity to provide informa-       titled, “Mechanisms Currently in Place to Over-
tion to Congress by participating in congressio-      see the Billions of Taxpayer Dollars Spent in Af-
nal hearings and briefings.                           ghanistan and Iraq.” Heddell discussed DoD IG
                                                      oversight efforts in Southwest Asia.
Hearings
On November 2, 2011, Deputy Inspector Gen-            On March 27, 2012, Deputy Inspector Gen-
eral for Special Plans and Operations Kenneth         eral for Special Plans and Operations Kenneth
Moorefield testified before the Subcommittee          Moorefield testified again before the Subcom-
on Technology, Information Policy, Intergov-          mittee on Technology, Information Policy, In-
ernmental Relations and Procurement Reform,           tergovernmental Relations and Procurement
House Committee on Oversight and Govern-              Reform, House Committee on Oversight and
ment Reform, at a hearing titled, “Are Govern-        Government Reform, at a hearing titled, “Labor
ment Contractors Exploiting Workers Overseas?         Abuses, Human Trafficking, and Government                 Deputy IG Kenneth Moorefield testifies
Examining Enforcement of the Trafficking Vic-         Contracts: Is the Government Doing Enough                 on combating trafficking in persons.

tims Protection Act.” Moorefield discussed past       to Protect Vulnerable Workers?” Moorefield
and ongoing efforts of DoD IG in the area of          discussed a report issued since the last hearing,
combating trafficking in persons, and highlight-      along with two pending reports. Moorefield also
ed a series of reports issued in response to Public   discussed concerns noted in past efforts, and ar-
Law 110-457, the “William Wilberforce Traffick-       eas that should be addressed.
ing Victims Protection Reauthorization Act of
2008,” requiring the inspectors general of DoD,       Meetings with Congressional Members and Staff
State and USAID to “…investigate a sample of          During the reporting period, the inspector
contracts, or subcontracts at any tier, under         general and representatives of DoD IG had 58
which there is a heightened risk that a contractor    meetings with members of Congress and their
may engage, knowingly or unknowingly, in acts         staffs. Topics of discussion during those meet-
related to trafficking in persons….”                  ings included issues such as whistleblower repri-
                                                      sal investigations, concerns regarding financial
On December 6, 2011, Deputy Inspector Gen-            management systems, DoD efforts related to
eral for Administrative Investigations Margue-        combating trafficking in persons and discussions
rite Garrison testified before the Subcommittee       related to a new metrics report tracking the de-
on Contracting Oversight, Senate Homeland Se-         velopment of the Afghan National Police.
curity and Governmental Affairs Committee, at
a hearing titled, “Whistleblower Protections for      DoD IG received 142 new congressional inqui-
Government Contractors.” Garrison discussed           ries and closed 119 cases. New inquires involved
DoD IG authority to investigate or oversee in-        issues such as requests related to reprisal inves-
vestigations of allegations of whistleblower re-      tigations, concerns with information operations
                                                                                                                Deputy IG Marguerite Garrison testifies
prisal conducted by DoD component inspectors          contractors and inspections of DoD cemeteries.            on whistleblower protections.

general, allegations made by members of the
armed forces, appropriated and nonappropri-
ated fund employees, and DoD contractor em-

                                                                                                           OCTOBER 1, 2010 TO MARCH 31, 2011 51
Enabling Mission Areas



                                        DoD IG outreach activities include chairing and        cal field office. The internal assessment revealed

Outreach                                participating in programs, coordination group
                                        and task forces as well as providing training as
                                                                                               that this organization led to underutilization of
                                                                                               some personnel, inefficiencies in the conduct of

Activities                              experts in defense oversight.                          digital forensics and a lack of focus for computer
                                                                                               crime investigations. In January 2012, the acting
                                                                                               inspector general approved a reorganization of
                                        Programs                                               the Cyber Crime Program to better focus DCIS
                                                                                               efforts on the core missions of digital forensics
                                        DCIS Cyber Crime Program Begins Develop-               and intrusion investigations. The result is a vir-
                                        ment of Nationwide Forensic Network                    tual cyber field office staffed with 24 full-time
                                        Prompted by the ever-growing number, variety           agents and support personnel nationwide. Per-
                                        and capacity of data storage devices encoun-           sonnel identified as underutilized will be phased
                                        tered throughout the range of DCIS investiga-          out of the Cyber Crime Program and returned
                                        tions, the DCIS Cyber Program is designing a           to full utilization in the traditional fraud arena,
                                        next-generation case data processing and review        resulting in approximately $400,000 in savings
                                        capability, referred to as the Digital Media Ex-       through elimination of unnecessary training
DCIS works with DMEN, a secure          amination Network. The network will serve as a         and hardware replacement. The Cyber Crime
digital media-processing network.       multi-law enforcement collaborative data pro-          Program priorities include:
                                        cessing, examination, review and production ca-        •	 Intrusions into DoD networks where there
                                        pability, thereby increasing the effectiveness and           has been a compromise of DoD data or per-
                                        efficiency of the investigative data review and              sonally identifiable information.
                                        production business processes, including infor-        •	 Intrusions into cleared Defense contractors
                                        mation sharing and review capabilities among                 resulting in loss/compromise of technical or
                                        DCIS, investigative partners and federal and                 other information affecting DoD warfight-
                                        state prosecutors. DMEN will reduce the time                 ing or peacekeeping capabilities.
                                        required for processing and electronic discovery       •	 Specific cyber threats impacting DoD, to
                                        of large volumes of digital data, eliminate geo-             include, but not limited to terrorism, orga-
                                        graphic barriers in digital examination and anal-            nized crime, criminal actors such as Anony-
                                        ysis and accelerate the production of documents              mous, LulzSec and web-based robot net-
                                        so that investigations and prosecutions proceed              works impacting DoD.
                                        seamlessly. By increasing the efficiency of digital    •	 Contract fraud exposing DoD networks to
                                        examination, analysis and sharing, DMEN will                 heightened risk of compromise.
                                        decrease personnel, resource and programmatic
                                        costs associated with all aspects of collecting, ex-   Asset Forfeiture Program
                                        amining, processing, reviewing and producing           During this reporting period, DCIS participated
                                        relevant data.                                         in final court orders of forfeiture amounting to
                                                                                               $1.55 million. Seizures for the same time frame
                                        DCIS Cyber Crime Program Resources                     amounted to $1.66 million ($529,819 in cash,
                                        The DCIS Cyber Crime Program conducted an              currency and other financial instruments; $1
                                        internal assessment of its staffing, organization      million in real property; and over $100,000 in
                                        and priorities from January through Septem-            vehicles, jewelry and other items). Since DCIS
The DCIS asset forfeiture program       ber 2011. The assessment, which included case          became a participant in the Department of Jus-
included gold as proceeds of a crime.   and work force reviews, as well as benchmark-          tice Asset Forfeiture program in May 2007, it has
                                        ing with other federal law enforcement agencies,       conducted investigations that have led to orders
                                        identified areas where program efficiencies and        of final forfeiture of more than $338 million
                                        effectiveness could be improved via realignment        and participated in the seizure of assets totaling
                                        of personnel under a centrally directed Cyber          $598.1 million.
                                        Crime Program. Previously, program personnel
                                        and assets were scattered across DCIS field of-        Contractor Disclosure Program
                                        fices and cyber agents reported only to their lo-      DoD IG conducted orientations and briefings


52 SEMIANNUAL REPORT TO THE CONGRESS
with the CIA IG, Army CID, Naval Criminal            the IT Committee included new media, cyber-
Investigative Service, Air Force Office of Special   security, quality standards for investigations,
Investigations, and defense contractors on how       and investigations qualitative assessment review
we implemented and managed our contractor            guidelines. DoD IG also trained CIGIE on its
disclosure program. DoD IG Policy and Over-          guide for conducting external peer reviews of
sight staff worked with the U.S. Air Force Office    audit organizations of federal OIGs. In addition,
of Procurement Fraud Remedies to emphasize           the deputy inspector general for administrative
the disclosure program and the mandatory dis-        investigations met with CIGIE training officials
closure rule. The program requires federal con-      regarding administrative investigations training.
tractors to notify the agency inspector general      DoD IG staff attended CIGIE training courses
about violations of criminal law with a federal      including the FLETC IG Academy advanced
contract or subcontract valued above $5 million.     interviewing and leadership training in Gettys-
                                                     burg, Pa.
Interagency Initiatives
                                                     Defense Council on Integrity and Efficiency                  “DCIE is chaired by
Southwest Asia Joint Planning Group                  DCIE is chaired by DoD IG and meets on a quar-                 DoD IG and meets
The Southwest Asia Joint Planning Group is a         terly basis to discuss issues of common interest,
                                                     share information, and build closer working                  on a quarterly basis
coordinating body for U.S. government organi-
                                                     relationships among members of the oversight                  to discuss issues of
zations conducting oversight over U.S. military
and civilian activities in Southwest Asia. The       community within the Department. Key areas                      common interest,
group meets quarterly to coordinate and decon-       of focus during the reporting period included             share information and
flict oversight activities. The group last met in    military voting assistance, the Government Ac-                best practices, and
February 2012.                                       counting Office report on DoD whistleblower
                                                     protection and the volume of oversight in South-            build closer working
                                                     west Asia and command concerns over mission                       relationships...”
Afghanistan Shura
The Afghanistan Shura, a consultative body           impact.
composed of U.S. government oversight orga-
nizations operating in Afghanistan, meets on a       Export Enforcement Coordination Center
near monthly basis in Kabul to discuss relevant      On November 9, 2010, Presidential Executive
ongoing and planned projects. The Shura is facil-    Order 13558 directed the establishment of the
itated by U.S. Forces–Afghanistan and DoD IG.        Export Enforcement Coordination Center. The
                                                     center serves as the primary forum within the
Council of Inspectors General                        federal government for executive departments
The Council of Inspectors General for Integrity      and agencies to coordinate and enhance export
and Efficiency was statutorily established as an     control enforcement efforts. The center increases
independent entity within the executive branch       information sharing, consistent with applicable
by the “The Inspector General Reform Act of          export enforcement laws and helps partner
2008.” Its purpose was to address integrity, econ-   agencies “detect, prevent, disrupt, investigate
omy and effectiveness issues that transcend in-      and prosecute violations of U.S. export control
dividual government agencies; and increase the       laws.” The E2C2, which includes DCIS, consists
professionalism and effectiveness of personnel       of numerous government agencies with an ex-
by developing policies, standards and approach-      port enforcement mission, such as Immigration
es to aid in the establishment of a well-trained     and Customs Enforcement, Homeland Security
and highly skilled workforce in the Offices of       Investigations, Department of Commerce, De-
Inspectors General. DoD IG is an active partici-     partment of Energy, military criminal investi-
pant in the CIGIE, serving as a member of the        gative organizations, the FBI; Department of
CIGIE Executive Council through December             Justice, DoS, Office of the Director of National
of 2011; as chair of the Information Technology      Intelligence and other federal partners.
Committee through December of 2011; and as
editor-in-chief of the Journal of Public Inquiry.    Operation Chain Reaction Task Force
During this reporting period, areas of focus for     DCIS is one of nine task force members of Oper-

                                                                                                         OCTOBER 1, 2010 TO MARCH 31, 2011 53
Enabling Mission Areas



                                        ation Chain Reaction, launched in June 2011 by        on the forensic coordination steering group. The
                                        the National Intellectual Property Rights Cen-        group reviews the role of forensics in support of
                                        ter. The operation is a collaborative approach to     military operations, including how forensic ca-
                                        targeting counterfeit items entering the supply       pabilities support law enforcement and overseas
                                        chains of the Department of Defense and other         contingency operations.
                                        U.S. government agencies. Pooling the member
                                        agencies’ resources allows for more effective         DoD Procurement Fraud Working Group
                                        detection and removal of inferior goods that          DoD IG his a member of the DoD Procurement
                                        threaten the safety of America’s soldiers, sailors,   Fraud Working Group. The group promotes co-
                                        airmen and Marines.                                   ordination of parallel criminal, civil, regulatory
                                                                                              and administrative proceedings.
                                        Violent Crimes Division
                                        DoD IG works with the military criminal inves-        Briefings/Training
                                        tigative organizations to share information and
                                        resources on crimes related to sexual assault and     Joint Inspector General Course - IG Panel
                                        violence. DoD IG participates as a member of          The Joint Inspector General Course sponsored
                                        the chairman, joint chiefs of staff ’s Sexual As-     an IG Panel on October 26, 2011, featuring guest
                                        sault Campaign Operational Planning Team to           speakers from DCIS, AFOSI, NCIS and Army
                                        address sexual assault across the joint force.        CID. The panel members provided information
                                                                                              on each of their respective agencies and dis-
                                        Multi-Functional Domestic Violence Data WG            cussed how each agency collaborated with their
                                        DoD IG participates in the multi-functional do-       peer investigative agencies in executing their
The Joint IG Course sponsored an IG
                                        mestic violence data working group, hosted by         mission.
panel with DCIS and the MCIOs.          the Office of the Under Secretary of Defense for
                                        Personnel and Readiness. The group is creating        APEX Orientation Program
                                        a plan and report format to better inform Con-        Acting Inspector General Lynne Halbrooks
                                        gress about domestic violence and disciplinary        spoke to the class of the 33rd APEX Orientation
                                        actions.                                              about the DoD IG mission, accomplishments,
                                                                                              challenges and focus areas. The APEX orienta-
                                        Defense Enterprise-Wide Working Group                 tion program is a two-week DoD-wide executive
                                        DoD IG Investigative Policy and Oversight is a        development opportunity designed to provide
                                        member of the Defense Enterprise-Wide Work-           newly appointed senior executives with an un-
                                        ing Group along with representatives from the         derstanding of the Department.
                                        DCIS, the MCIOs, defense counterintelligence
                                        agencies, DoD Cyber Crime Center, Coast               Industrial College of the Armed Forces
                                        Guard Investigative Service and Special Inspec-       On February 2, 2012, Deputy Inspector Gen-
                                        tor General for Afghanistan Reconstruction.           eral for Special Plans and Operations Kenneth
DoD IG is a charter member of the De-   These agencies work together to increase effi-        Moorefield gave a briefing to a student study
fense Enterprise-Wide Working Group.    ciency and effectiveness of operations through        group from the Industrial College of the Armed
                                        collaborative investigative efforts and sharing of    Forces at Fort McNair, Va., on the subject of
                                        information and resources. Through their col-         “SPO’s Oversight of Logistical Developments in
                                        laborative efforts, they provide their DoD cus-       Iraq and Afghanistan.” Efforts such as this not
                                        tomers high quality criminal and counterintelli-      only serves to assist in education about the DoD
                                        gence investigative products and information to       IG mission, but also promotes leading change,
                                        ensure the security and integrity of world-wide       speaking truth and promoting excellence—the
                                        DoD programs, operations and resources.               three cornerstones of the DoD IG vision state-
                                                                                              ment.
                                        Forensic Coordination Steering Group
                                        DoD IG participates with representatives from
                                        the military services, Office of the Secretary of     Fiscal Law Training
                                        Defense staff offices and combatant commands          On March 20-23, 2012, Deputy Inspector Gener-

54 SEMIANNUAL REPORT TO THE CONGRESS
al for Auditing Daniel Blair and the Army judge       Awards
advocate general partnered for the sixth consec-
utive year to provide training on “fiscal law” to     DCIS Computer Crimes Team Takes First Place
the DoD and federal community. Blair facilitat-       On December 1, 2011, a DCIS computer crimes
ed and provided resources and the Judge Advo-         coordinator and a DCIS computer crimes agent
cate General Legal Center and School provided         won the 2011 DoD Computer Crime Center’s
instructors to present their subject area expertise   Digital Forensics Cyber Challenge Competition
at the Army Management Staff College’s Thur-          in the U.S. military category. They competed
man lecture hall on Fort Belvoir. Guest speakers      against 53 other teams at the DoD Cyber Crime
included Shay Assad, director of defense pricing,     Conference in Atlanta, Ga.
and James Watkins, director, accountability and
                                                                                                                DCIS agents won the 2011 DoD Com-
audit readiness, deputy assistant secretary of the    DCIS - Outstanding Investigative Work                     puter Crime Center’s Cyber Challenge.
Army (financial operations). The collaboration        On January 18, 2012, personnel from DCIS and
of DoD IG and the Army judge advocate general         other agencies involved in the criminal investi-
contributed to improving of DoD financial and         gation of Roger Day were recognized for their
business-related operations because the topics        outstanding investigative work by the director,
addressed increased the awareness of the over-        Defense Logistics Agency, Navy Vice Admiral
sight and protection needed for appropriated,         Mark Harnitchek, at a ceremony in Richmond,
obligated and future years dollars from potential     Va. Day, a fugitive profiled on America’s Most
waste and misuse.                                     Wanted, was sentenced in December 2011 to
                                                      105 years in prison for his role in leading an in-
DoD IG Hosts Pakistani Officials                      ternational conspiracy to defraud the DoD of
On March 30, 2012, DoD IG hosted a DoS-spon-          more than $11.2 million by supplying noncon-              Acting Inspector General Lynne Hal-
sored International Visitor Leadership Program        forming and defective parts for military aircraft,        brooks speaks at the Joint IG Course.
group of Pakistani government officials and pri-      vehicles and weapons systems. This investigation
vate sector representatives as part of a program      was conducted by the DCIS Northeast and Mid-
focused on promoting transparency in govern-          Atlantic field offices. The Day investigation is
ment and fighting corruption.                         highlighted on page 32.

Whistleblower Protection Program Outreach             Outstanding Law Enforcement Officer Awards
DoD IG continued its outreach, communication          On March 21, 2012, three DCIS special agents
and training to whistleblower protection pro-         from the Orlando Post of Duty and Atlanta Resi-
gram stakeholders and its service IG counterpart      dent Agency were recognized during the U.S.
conducting 17 events and reaching 450 military        Attorney’s Office, Middle District of Florida
IGs (more than 47 instruction hours) during the       Outstanding Law Enforcement Officer Awards
reporting period. In addition, WRI leadership         ceremony hosted by U.S. Attorney Robert E.
met numerous times with members of Congress           O’Neill. One agent received the Outstanding
and their staffs and committees, DoD senior ci-       Law Enforcement Officer Award for Civil Affir-
vilian and military officials and nongovernmen-       mative Cases and two others received the Out-
tal organizations to discuss matters of mutual        standing Law Enforcement Officer Award for
interest about the DoD whistleblower protection       Asset Forfeiture.
program.
                                                      2011 SHIELD Award
Senior Official Investigations Briefing               On October 4, 2011, a DCIS special agent at
The director of investigations of senior officials    the Denver resident agency, along with person-
visited the Army Judge Advocate General Le-           nel from the FBI’s Washington field office Joint
gal Center and School twice to brief on senior        Terrorism Task Force, were awarded the 2011
official investigations to attendees of the 2011      Service, Honor, Integrity, Excellence, Leadership
Worldwide Staff Judge Advocate Conference;            and Dedication Award by the Anti-Defamation
and provide instruction to students attending a       League in Washington, D.C. The special agent
graduate course offered by the school.                and colleagues were presented with the ADL

                                                                                                           OCTOBER 1, 2010 TO MARCH 31, 2011 55
Enabling Mission Areas



                                          SHIELD award for their work on a Joint Ter-          DoD IG Awarded for Making Ethics Count
                                          rorism Task Force sting operation that led to        DoD IG received a 2011 Program Innovation
                                          the arrest and conviction of Farooque Ahmed, a       and Excellence Award from the Office of Gov-
                                          Pakistani-born computer technician, who joined       ernment Ethics. It honored DoD IG executive
                                          what he thought was an al-Qaida plot to bomb         leadership for demonstrating a strong commit-
                                          the Pentagon Metro station and other metro sta-      ment to excellence in ethics program manage-
                                          tions in the National Capital Region with the        ment and to building an ethical culture in DoD
                                          intent of targeting military personnel and kill-     IG. The nomination highlighted the incorpora-
  DoD IG receives 2011 Program Innova-    ing as many people as possible. As a result of       tion of ethics in the Human Capital Strategic
  tion and Excellence Award for Ethics.   the investigation, the Joint Terrorism Task Force    Plan and the DoD IG ethics counts campaign,
                                          resolved a potential threat, which could have        which promoted ethical consciousness and an
                                          had devastating and long-lasting effects on the      ethical culture that would foster public confi-
                                          D.C. area’s transportation system. After pleading    dence and trust in DoD IG operations.
                                          guilty in 2010, Ahmed was sentenced to 23 years
                                          in prison.                                           14th Annual CIGIE Awards Ceremony
                                                                                               DoD IG received three awards at the 14th annual
                                          DCIS Agent Awarded for Public Service                awards ceremony hosted by the CIGIE. Attorney
                                          On March 28, 2012, a DCIS special agent re-          General Eric Holder delivered the keynote ad-
                                          ceived the Law Enforcement Public Service            dress. The special agent in charge of the DCIS
                                          Award from the U.S. Attorney’s Office, District      Northeast field office was presented the Award
                                          of Massachusetts during its annual awards cere-      for Individual Accomplishment in recognition
                                          mony. The award honored the agent’s “outstand-       of outstanding leadership and expertise in fur-
  SAC presented Award for Individual      ing case-related investigative work” in a joint      thering the mission of DCIS. A team from Spe-
  Accomplishment.                         case involving the illegal export of U.S. military   cial Plans and Operations received the Award of
                                          technology to Iran.                                  Excellence in Evaluation in recognition of ex-
                                                                                               ceptional performance during the “Assessment
                                          DCIS Special Agents Recognized                       of Allegations Concerning Traumatic Brain
                                          On March 30, 2012 the Atlanta IG Council             Injury Research in Iraq.” SPO also received the
                                          presented three DCIS special agents with awards      Award for Excellence in Multiple Disciplines in
                                          for the 2011 Public Corruption Investigation         recognition of exceptional performance during
                                          of the Year, the 2011 Joint IG Investigation         the “Assessment of the U.S. Government Efforts
                                          of the Year and the 2011 Employee Integrity          to Train, Equip, and Mentor the Expanded Af-
                                          Investigation of the Year.                           ghan National Police.”

                                          Outstanding Employee with a Disability               2011 USACIDC Community Partner of Year
                                          On December 6, 2011, John R. Campbell, the           On February 6, 2012, the Computer Crime In-
                                          deputy assistant secretary of defense for wound-     vestigative Unit, Army CID, presented a DoD IG
                                          ed warrior care and transition policy, presented     special agent with the Director’s Award as Com-
                                          a DoD IG employee with the Secretary of De-          munity Partner of the Year for 2011. The award
                                          fense Award for Outstanding Employee with a          recognizes a partner in the law enforcement,
                                          Disability.                                          counterintelligence or information assurance
                                                                                               community whose consistent support had a sig-
                                                                                               nificantly positive impact on the CCIU mission.
                                                                                               The P&O special agent received the award based
                                                                                               on the outstanding subpoena processing support
                                                                                               he provides CCIU.




  56 SEMIANNUAL REPORT TO THE CONGRESS
           4


Services
Services



                                         ARMy AUdIT AGENCy                                   planned or taken should improve the quality

Army                                     To accomplish its mission, U.S. Army Audit
                                         Agency relies on a workforce of highly-trained
                                                                                             of future contracting activities across ACC-
                                                                                             NCR. However, without strong controls, regular
                                                                                             oversight by supervisors and higher command
                                         professional auditors, many with advanced           levels, sound metrics to measure performance,
                                         degrees and professional certifications. USAAA’s    a culture that fosters quality and sufficient
                                         staff consists of approximately 600 employees       personnel resources, it is likely that issues
                                         and is organized into 20 functional audit teams     identified could return. In addition, contracting
                                         that provide audit support to all aspects of Army   operations supporting ANC in the past often
                                         operations.                                         were not consistent with sound business
                                                                                             practices and regulatory guidance. USAAA
                                         USAAA also maintains a significant presence in      review showed ACC-NCR contracting office
                                         the U.S. Central Command area of responsibility     personnel did not effectively maintain ANC
                                         assisting Army commanders. At the end of            contract files with sufficient documentation
                                         March 2012, it had 30 deployed auditors in          to support actions taken and constitute a
                                         Kuwait and Afghanistan. Overall, USAAA has          complete transaction and decision history.
                                         deployed more than 200 auditors since 2002          Source selection and award procedures often
                                         and issued more than 200 reports on Operation       did not adhere to sound business practices,
                                         Enduring Freedom/Operation Iraqi Freedom.           and controls sometimes were not in place to
                                                                                             ensure contract deliverables were objectively
                                         USAAA’s goal is to be a highly sought-after         measurable and traceable to a statement of work
                                         and integral part of the Army by providing          or performance work statement. Contracting
                                         timely and valued services that focus on the        officer’s representatives generally were not
                                         evolving needs of Army leadership. To ensure        designated at all or not designated in writing
                                         its audits are relevant to the needs of the Army,   prior to award. USAAA also found ACC-NCR
                                         USAAA aligned their audit coverage with the         contracting personnel performance objectives
                                         Army’s highest priority and high-risk areas,        in place at the time of their review emphasized
                                         as determined by its enterprise-level risk          customer service but did not fully address the
                                         assessment and input from Army senior leaders.      development, execution and administration of
                                                                                             quality contract actions,or the management and
                                         During the first half of FY 2012, USAAA             completeness of contract files. These conditions
                                         published 80 reports, made more than 265            existed because management controls were not
                                         recommendations and identified approximately        effective in providing sufficient oversight and
                                         $555.8 million of potential monetary benefits. A    surveillance of open contracts. As a result, there
                                         few of USAAA’s significant reports are described    was little assurance that contracts supporting
                                         in the following paragraphs:                        ANC were awarded in the best interest of the
                                                                                             government or that the Army received the
                                         Contracting Operations in Support of Arlington      goods and services it paid for within quality and
                                         National Cemetery – Army Contracting                timeliness-of-delivery expectations.
                                         Command, National Capital Region                    Report No. A-2012-0021-ALC
                                         USAAA performed this review at the request
                                         of the secretary of the Army. USAAA reviewed        Contracting Operations in Support of Arlington
                                         the procedures and controls Army Contracting        National Cemetery – Mission and Installation
                                         Command - National Capital Region used to           Contracting Command-Fort Belvoir
                                         award and administer contracts in support of        At the request of the secretary of the Army,
USAAA reviewed contracting               Arlington National Cemetery. USAAA also             USAAA reviewed the sufficiency of corrective
operations in support of the cemetery.   reviewed the sufficiency of corrective actions      actions taken or planned since concerns about
                                         taken or planned since concerns about ANC           Arlington National Cemetery contracting were
                                         contracting were first raised in a June 2010        first raised in a June 2010, Department of the
                                         Department of the Army inspector general            Army, Inspector General report. USAAA also
                                         report. USAAA determined corrective actions         verified whether controls currently in place

58 SEMIANNUAL REPORT TO THE CONGRESS
were sufficient to successfully posture Army           Army (acquisition, logistics and technology)
Contracting Command and the Mission and                requested that USAAA look at the Item Unique
Installation     Contracting       Command-Fort        Identification program implementation to
Belvoir to provide quality contracting support         determine whether the Army realized the
to ANC in the future. USAAA determined                 envisioned benefits from the DoD-mandated
corrective actions planned by ACC and MICC-            program. The deputy chief of staff, G-8 requested
Fort Belvoir, when fully implemented, should           USAAA evaluate the Army’s implementation of
improve the quality of contract operations             the Item Unique Identification Program and
and reduce future risks for ANC contract               identify barriers to timely implementation.              USAAA reviewed the Item Unique
mismanagement. However, additional corrective          USAAA found that the Army developed a sound              Identification Program implementation.

actions are needed to reduce the risk of similar       initial strategy to implement the Item Unique
issues recurring. USAAA also reviewed the              Identification program. The Army strategy
policies, procedures and controls used by              was to mark legacy items during maintenance-
MICC-Fort Belvoir to award and administer              related events, referred to as trigger events, and
contracts in support of ANC from FY 2004 to            to require new procurement items be marked
2007. USAAA focused their review on 252                at purchase. This strategy resulted in marking
ANC-related contracts awarded or administered          about one million legacy items and about 6.8
from October 1, 2003, through January 11, 2007.        million new purchase items as of August 2011.
USAAA determined that MICC-Fort Belvoir did            The Army also conducted pilot projects to test
not award and administer contracts in support          the use of the Unique Item Identifier, but did
of ANC in a manner fully consistent with sound         not implement the successful aspects of the
business practices and regulatory guidance.            pilots Army-wide. Army activities developed
Specifically:                                          implementation plans, but sometimes did not
•	 At least 27 contract files should have been         prepare complete plans. In addition, the Army
     available based on Federal Acquisition Reg-       took actions to integrate the Item Unique
     ulation retention guidelines. However, only       Identification program into business processes,
     four of those contract files were available for   but did not develop a coordinated use strategy.
     this review.                                      USAAA recommended that the deputy chief of
•	 Independent government cost estimates did           staff, G-4 appoint an existing organization to
     not contain sufficient evidence of detailed       function as an execution cell with the authority
     cost development.                                 to work with different entities. At a minimum,
•	 Two contract modifications were awarded             the execution cell should:
     outside the scope of the original contract.       •	 Develop a use strategy and plan to include
                                                             interim milestones and metrics to measure
These conditions occurred because controls                   progress.
were not in place to retain and track closed-out       •	 Request periodic Item Unique Identifica-
contracts. Additionally, management controls                 tion program status reports.
were not in place to provide sufficient oversight      •	 Re-examine the process for marking to
and surveillance of open contracts. As a result,             identify other means to mark legacy items
there is little assurance contracts were awarded             besides trigger events.
in the best interest of the government or that the     •	 Implement the positive processes identified
Army received the goods and services it paid                 during the pilot projects Army-wide, if cost
for within quality and timeliness-of-delivery                effective.
expectations.                                          If the Army continues current plans without
Report No. A-2012-0011-ALC                             improvement, and at the present rate of marking,
                                                       it will not achieve the envisioned benefits of the
Item Unique Identification Program                     Item Unique Identification Program until at least
USAAA performed this review at the request of          2017 and will not meet the DoD required date of
the assistant secretary of the Army (acquisition,      December 31, 2015, for full implementation.
logistics and technology) and the deputy chief         Report No. A-2012-0057-ALS
of staff, G-8. The assistant secretary of the

                                                                                                        OCTOBER 1, 2011 TO MARCH 31, 2012 59
Services



                                      Central Heating Distribution System, Joint Base        individual boilers. However, they stated that the
                                      Lewis-McChord, Washington State                        disagreement was temporary pending the results
                                      The Army spends more than $213 million                 of a third party life-cycle cost analysis.
                                      annually in energy operating costs for natural         Report No. A-2012-0012-IEE
                                      gas (fossil fuel) at its installations—about $9
                                      million is for Joint Base Lewis-McChord. Several       Hurricane and Storm Damage Risk Reduction
                                      mandates passed over the last six years require        System: Contract Modification Data, U.S. Army
                                      federal agencies to reduce fossil fuel-generated       Corps of Engineers, Mississippi Valley Division,
                                      energy consumption. USAAA found that                   New Orleans District and Task Force Hope
                                      Joint Base Lewis-McChord did not maximize              USAAA audited the Army Corps of Engineers
                                      opportunities to reduce energy consumption             New Orleans District’s use of contract
                                      with its use of a central heating distribution         modification data to identify trends and
                                      system for the area known as the Banana Belt.          opportunities to improve future contract
USAAA audited the U.S. Army Corps     The installation opted to restore and use the          actions for the Hurricane and Storm Damage
of Engineers’ use of contract data.   central heating distribution system instead of         Risk Reduction System in the Greater New
                                      converting to individual boiler systems in the         Orleans area. USAAA performed this audit
                                      Banana Belt area, based on a 2004 life-cycle           because of public interest in the project and
                                      cost analysis. However, major changes have             the high dollar value, about $14.5 billion in
                                      occurred since 2004, including infrastructure          emergency supplemental funding. USAAA
                                      changes to the Banana Belt area and new federal        reported that the New Orleans District recently
                                      regulatory requirements that call for drastic          took actions to use contract and program data
                                      energy reductions. Despite these changes, the          to identify trends and opportunities to improve
                                      installation did not sufficiently reevaluate how       future contract awards in its after action
                                      they would affect its decision to continue to          review process. However, the district could not
                                      restore and use the central heating distribution       demonstrate the implementation of most the
                                      system. Instead, during the course of USAAA            review’s recommendations and its plans for
                                      audit, the installation completed an internal life-    future reviews of key focus areas. This primarily
                                      cycle cost analysis and concluded it was energy        occurred because the district did not have
                                      efficient and cost effective to continue with          controls in place to monitor the implementation
                                      its current plans. USAAA’s review showed the           of recommendations, in order to ensure they
                                      recent life-cycle cost analysis was not sufficient     were actually embedded into the construction
                                      to continue with current plans, primarily              and contract award processes. Additionally,
                                      because it did not include all options and             there were no controls to determine which
                                      included some invalid assumptions and costs.           reviews would be scheduled for key focus areas,
                                      Further, a November 2010 Comprehensive                 such as levees and flood walls, where estimates
                                      Energy and Water Master Plan, which was                for future contract awards for FY 2012 through
                                      directed by U.S. Army Installation Management          2014 are between $399 million to $1.4 billion.
                                      Command, suggested decommissioning central             In addition, the district’s contracting office
                                      heating distribution systems on the installation,      issued contract modifications with a notice-
                                      as a significant energy reduction measure.             to-proceed clause, without negotiating a not-
                                      Consequently, USAAA estimated the Army                 to-exceed price after agreeing to improve this
                                      could potentially achieve about $19.1 million          practice because of its internal audit. As a
                                      in savings during FY 2012 through 2021 by              result, there is an elevated risk of contract cost
                                      discontinuing efforts to restore and use the central   growth because the government’s negotiation
                                      heating distribution system and converting to          advantage is weakened. Further, a review
                                      individual boiler systems in the Banana Belt           showed that some contract modification records
                                      area. The Office of the Assistant Chief of Staff for   were not in the required Federal Procurement
                                      Installation Management did not agree with the         Database System–Next Generation because of
                                      savings associated with our recommendation to          higher priorities. Consequently, the district did
                                      discontinue efforts to restore and use the central     not fulfill the public’s expectation of finding
                                      heating distribution system and convert to             reliable contractual information within the

60 SEMIANNUAL REPORT TO THE CONGRESS
www.usaspending.gov website, as required             the prior audits, USAAA determined the Army
by the Federal Funding Accountability and            has made little progress towards correcting the
Transparency Act of 2006—as amended in 2008          trends identified. Consequently, there is little
(Transparency Act).                                  assurance that the Army is meeting, or will meet,
Report No. A-2012-0027-IEE                           the Executive Order requirements for current
                                                     and future energy and sustainability federal
Trend Report: Establishing Baselines and             mandates.
Reporting for Energy and Sustainability Federal      Report No. A-2012-0016-IEE
Mandates
Executive Orders 13423 (Strengthening Federal        Issuing Ammunition to Coalition Forces:
Environmental, Energy, and Transportation            Controls Over Transactions – U.S. Army Central
Management) and 13514 (Federal Leadership            USAAA performed this audit at the request of
in Environmental, Energy, and Economic               the deputy chiefs of staff, G-3/5/7 and G-4, to
Performance) call for federal agencies to            determine if Army organizations were fully
conduct their missions in an environmentally         aware of the extent U.S. Army Central issued
and      economically      sustainable    manner.    ammunition to coalition forces and if the
Executive Order 13514 expands upon 13423             Army had appropriate controls in place to issue
by adding additional reporting requirements          ammunition to coalition forces. USAAA focused           USAAA audited Army controls for is-
for greenhouse gas emissions, nonpotable             on whether the Army had the appropriate                 suing ammunition to coalition forces.

water and nonhazardous solid waste. USAAA            controls in place for the request, issue and
identified several trends affecting the tracking     reimbursement of ammunition provided to
and reporting of energy and water data in two        coalition forces. USAAA found the Army
prior USAAA audits: Energy Consumption               did not have sufficient controls in place over
(Report No. A-2009-0068-FFE) and Water               ammunition transactions to coalition forces. A
Conservation Resources (Report No. A-2010-           review of 85 transactions (totaling about $6.3
0158-FFE). USAAA focused this effort on              million) within USARCENT’s area of operations
summarizing tracking and reporting trends and        and documented on CC Forms 35 (Standard
identifying actions taken by the Army to ensure      Order/Receipt forms for Reimbursable
it establishes accurate baselines in order to        International Support Transactions) during FY
measure progress towards meeting future energy       2008 through 2010 found:
and sustainability mandates for greenhouse           •	 Forms were not filled out properly or ap-
gas emissions, non-potable water and non-                  proved before issuing ammunition.
hazardous solid waste. USAAA identified four         •	 Ammunition was issued without documen-
trends in the tracking and reporting of energy             tation of receipt.
and environmental data. Specifically, the prior      •	 Transactions were processed without prop-
audits showed a lack of oversight to ensure all            er separation of duties.
activities reported energy and environmental         •	 Unit prices charged for ammunition were
data, no documented standard process at the                not documented legibly, based on standard
installation/activity level to track and report            unit prices, or calculated with transporta-
energy and environmental data, designated                  tion costs.
personnel at the installations and activities were   •	 Reimbursements for ammunition transac-
not trained sufficiently, and limited management           tions made under Lift and Sustain authori-
capabilities in the tracking and reporting system.         ties and the Foreign Assistance Act to the
The Army’s ability to establish accurate baselines         United Nations were not credited to the
and measure and report on its progress towards             Army Ammunition Procurement Appro-
meeting future energy and sustainability                   priation.
mandates for greenhouse gas emissions, non-          USAAA recommended that the deputy chief of
potable water and non-hazardous solid waste          staff, G-4, issue overarching detailed guidance
depends heavily on the tracking and reporting        on how to conduct transactions for issuing
processes and system reviewed in the prior           ammunition to coalition forces using acquisition
audits. Based on a review of actions taken since     and cross-servicing agreements, the Lift and

                                                                                                     OCTOBER 1, 2011 TO MARCH 31, 2012 61
Services



                                          Sustain Program, and Foreign Assistance Act           measures or centrally manage them. Using
                                          Agreements. At a minimum, the guidance                energy-saving features and centrally managing
                                          should include processes and responsibilities         them would allow the Army to potentially avoid
                                          for signing the form, determining prices for          about $25.8 million annually in utility expenses.
                                          ammunition, obtaining reimbursement, and              Additional savings could be realized by turning
                                          applying proceeds from reimbursements.                off peripheral equipment when not in use. This
                                          USAAA recommended that the Commander,                 energy savings could reduce the Army’s carbon
                                          USARCENT, develop and publish complete,               footprint.
                                          consistent and accurate guidance. At a                Report No. A-2012-0007-IET
                                          minimum, the guidance should include
                                          processes and responsibilities for completing         Attestation Review of Enterprise Email Cost-
                                          each block of the transaction form, signing           Benefit Analysis
                                          the form, and additional approval authorities         In response to the National Defense
                                          when appropriate. The lack of controls over           Authorization Act of 2012, USAAA performed
                                          ammunition transactions to coalition forces was       a review attestation of the enterprise email cost
                                          primarily caused by incomplete, inconsistent          benefit analysis. The Act tasked USAAA to
                                          or incorrect guidance. As a result, the Army          evaluate expected cost savings and cost avoidance
                                          had little assurance that transactions involving      from each of four alternatives being considered
                                          ammunition issued to coalition forces were            for enterprise email. In accordance with the
USAAA performed a review of the
enterprise email cost benefit analysis.   conducted appropriately, or that the Army             language in the Act, USAAA focused solely on
                                          received appropriate reimbursement to its             statements in the analysis specifically related
                                          Ammunition Procurement Appropriation.                 to the costs of the four alternatives: status quo,
                                          Report No. A-2012-0002-ALS                            commercial managed service provider, Army
                                                                                                Knowledge Online and the Defense Information
                                          Energy Management of Information Technology           Systems Agency. USAAA found no material
                                          To improve energy efficiency and reduce               issues with the four alternatives; however, they
                                          greenhouse gas emissions, the President               believe the projected cost savings do not include
                                          signed Executive Order 13423 requiring                all necessary factors. The CBA states that the
                                          federal agencies to reduce energy usage by 3          Defense Information Systems Agency option
                                          percent annually or 30 percent by 2015. To            will save the Army more than $100 million per
                                          help the Army meet these environmental goals,         year starting in FY 2013. USAAA evaluated cost
                                          USAAA reviewed the Army’s efforts to use              savings from FY 2013 to 2017. USAAA believes
                                          power management settings on information              that the projected savings did not accurately
                                          technology equipment. USAAA reported that             account for unrecoverable enduring costs for
                                          the Army did not manage the power usage of its        any of the options presented. With the minor
                                          information technology equipment to conserve          adjustments to the status quo and DISA options
                                          energy. Good energy conservation practices            and including unrecoverable costs, the savings
                                          would dictate that energy-saving features is used     would be about $76.1 million in FY 2013 and
                                          to their full advantage. The largest savings can be   a total savings of $379.9 million for FY 2013
                                          realized by putting computers and monitors into       through 2017, approximately $343.9 million less
                                          a power-save mode during periods of inactivity.       than projected.
                                          An average workstation in sleep mode uses             Report No. A-2012-0047-FMT
                                          about three watts versus 71 watts if the feature
                                          is not used. The Army made a good first step          Installation Facilities and Operations Support
                                          by establishing conservation practices in AR          During this time of significant change in the
                                          420-1 (Army Facilities Management), which             Army’s organizational structure and in the
                                          required energy-saving features be enabled            composition and manner of financial support
                                          after 30 minutes of inactivity for computers,         available to garrison leaders, USAAA conducted
                                          and peripheral equipment be turned off when           an audit to determine whether capabilities for
                                          not in use. However, the Army did not translate       installation facilities and operations support
                                          the policy into actions to employ conservation        were sufficient to meet current and future force

62 SEMIANNUAL REPORT TO THE CONGRESS
structure requirements. Some of the primary          USAAA found that CERP had evolved to include
challenges faced by the Army included those          complex, long-term projects that did not provide
associated with the:                                 immediate benefit to the Afghan people. USAAA
•	 Shift from Iraq to Afghanistan.                   reviewed 73 CERP projects each programmed
•	 Continued efforts to refine the Army of the       for more than $500,000 and found nine of the
     21st century.                                   projects did not meet authorized CERP criteria.
•	 Execution of base realignment-directed            Although the remaining 64 met criteria, many
     moves.                                          of them did not meet the intent of providing
•	 Continued efforts to modularize and repo-         immediate benefit. Specifically, 29 projects had
     sition units to meet diverse threats.           an average estimated project execution time of
•	 Transformation of business practices.             more than 10 months, excluding the project
                                                     development. This occurred because 1) policies
USAAA reported that Army capabilities for            and controls for CERP had not evolved along
support of installation facilities and operations    with the program; 2) guidance and criteria
at four garrisons (Forts Benning, Belvoir, Meade     for CERP projects were not clearly defined;
and Riley) were adequate to meet current             and 3) there was not a defined, objective, and
and future force structure requirements. The         measurable methodology for evaluating and
garrisons met mission needs by relying on            prioritizing projects. In addition, funding levels
supplemental appropriations to fund base             drove projects rather than approved, necessary
operations; continuing staffing below their          CERP projects driving funding levels. During
authorized strength and implementing a hiring        the audit, USFOR-A took immediate actions to
freeze; reducing the level of services provided;     improve both the project review and funding
cancelling some personnel support and using          requirements determination processes. After
military manpower for some services previously       the exit briefing, USFOR-A developed a project
performed by contractors; and delaying               review and risk assessment matrix to increase
contractual actions and using funds set aside        project scrutiny. USFOR-A also deobligated one
for other high-priority requirements. However,       CERP project valued at about $32 million.
some of these practices increased risk in key        Report No. A-2012-0072-MTE (FOUO)
mission areas, and were not always in accordance
with leadership’s priorities and guidance.           U.S. Equipment Transfer to Iraq Program –
Further, the continued attrition of personnel had    Phase II
a negative effect and likely contributed to some     USAAA performed the audit at the request
uneconomical practices. USAAA recommended            of the U.S Forces–Iraq J4, director. USAAA
that the Army update key regulations for             reported that commands took action to
garrison-level operations and support to align       solidify organizational structures, policies
them with current base operations structure          and individual processes to execute the U.S.
and funding scenarios; update personnel models       Equipment Transfer to Iraq program since
for the emergency service area; and implement        our initial review. However, USAAA found                 USAAA conducted a review of the U.S.
better business practices in the areas of barracks   there was no comprehensive plan to integrate             Equipment Transfer to Iraq program.

cleaning and nontactical vehicle authorization to    the various entities and complex processes.
take advantage of cost-saving measures, which        Specifically, there was an unclear understanding
could save the Army about $5.2 million annually.     of organizational roles and responsibilities
Report No. A-2012-0051-IEO                           hindering command’s ability to sufficiently
                                                     execute the USETTI Program and meet program
Commander’s Emergency Response Program,              goals. Additionally, various gaps existed in
U.S. Forces – Afghanistan                            the end-to-end processes as equipment was
USAAA audited the Commander’s Emergency              sourced, screened, dispositioned, transported,
Response      Program–Afghanistan        overall     maintained and transferred to the government
program management, project review and               of Iraq. Commands had taken corrective actions
funding requirements processes at the request of     to issue guidance that established some roles and
the former commander, U.S. Forces Afghanistan.       responsibilities, as well as improve operations in

                                                                                                      OCTOBER 1, 2011 TO MARCH 31, 2012 63
Services



                                        the end-to-end process. However, improvements       Full-Time Support Staff – U.S. Army Reserve
                                        were still needed to ensure commands                USAAA audited U.S. Army Reserve Command’s
                                        sufficiently transferred about 52,600 items of      requirements for full-time support staff at
                                        equipment, valued at about $640 million, to the     regional support commands, operational and
                                        government of Iraq.                                 functional commands, and units to determine
                                        Report No. A-2012-0070-MTE (FOUO)                   whether they had sufficient FTS personnel to
                                                                                            meet mission requirements. USAAA reported
                                        Implementing the Temporary Change of Station        that the regional support commands and
                                        Action Plan                                         operational & functional commands did not
                                        USAAA performed this audit at the request           have enough full-time personnel to support
                                        of the deputy assistant secretary of the Army       Army Reserve units and Reserve units did not
                                        (financial operations). USAAA also followed up      have enough full-time personnel to perform
                                        on actions taken to address problems it reported    their mission requirements. Specifically, critical
                                        previously in Audit Report No. A-2008-0182-         workload required of an operational Reserve
                                        FFS, Temporary Change of Station Orders and         was not considered when determining initial
                                        Housing for Mobilized Soldiers, dated July          manpower requirements, models used to
                                        15, 2008. USAAA found the Army realized             determine unit full-time support requirements
                                        about $37.1 million in savings by establishing      were outdated and manpower studies used
                                        government contracts to house mobilized soldiers    to validate unit requirements had not been
                                        in the National Capital Region. In addition, the    done due to U.S. Army Reserve Command
                                        Army lowered the full per diem rate for other       transformation initiatives and personnel
                                        contingency operations temporary change of          shortages. Therefore, the Army did not know its
                                        station soldiers to a flat 55 percent. Effective    true requirements for full-time staffing because
                                        June 1, 2011, the Army eliminated the payment       it had not accurately identified the workload
                                        of per diem for mobilized soldiers on voluntary     associated with those requirements. The staffing
                                        duty for more than 180 days at any one location.    shortages also impacted mission requirements
                                        Instead, the Army authorized permanent change       resulting in backlogs in processing medical
                                        of station travel and transportation allowances     evaluation boards, property losses, ineffective
                                        for these soldiers. The new policy should greatly   visibility and administration of contracts and
                                        reduce mobilized soldiers on active duty for        environmental violations. To identify accurate
                                        extended periods and save significant per           staffing requirements, Reserve command
                                        diem costs. Even with per diem reductions, the      planned and started some manpower studies
                                        Army obligated more than $197 million in FY         of regional support commands and operational
                                        2009 through first quarter FY 2010 under the        and functional commands using the acceptable
                                        temporary change of station program to support      manpower model development methodology.
                                        contingency operations outside of theater.          However, command had no plans to review full-
                                        USAAA also found that control weaknesses            time support staffing of the units at the brigade
                                        over voucher procedures such as ineffective         level and below.
                                        supervisory review and approval also continued      Report No. A-2012-0010-FFS
                                        to exist. This occurred because a centralized
                                        voucher review process was not implemented          Institutional Training for the Adjutant General
                                        as agreed in the initial audit and the personnel    Workforce
                                        policy guidance was not updated to clearly define   USAAA performed this audit at the request of
                                        allowable lodging and other housing-related         the deputy chief of staff, G-1. USAAA reported
                                        expenses for soldiers in the temporary change       that the Adjutant General School did not have
                                        of station status. Consequently, these control      sufficient training databases for interactive
                                        weaknesses contributed to potential fraudulent      systems training, which lessened training
                                        travel vouchers being submitted, processed and      effectiveness. This occurred partly because
USAAA reviewed training databases for   paid by the Army without detection.                 DoD began developing the Defense Integrated
interactive systems training.           Report No. A-2012-0009-FFS                          Military Human Resources System in FY
                                                                                            2006 to replace all personnel and pay systems

64 SEMIANNUAL REPORT TO THE CONGRESS
and curtailed investments for legacy human          Management Command’s installation support
resources systems. However, during the audit, an    personnel and operational staff (corps/division
interactive training database for the Electronic    headquarters). USAAA reported that the lines of
Military Personnel Office system became             responsibility were aligned with Decision Point
operational and a similar training database was     91 decisions and continued to differ from those
under development for the Deployed Theater          performed by installation support personnel.
Accountability Software System. These training      Although functions provided by both groups
databases will allow students to access brigade-    were sometimes similar, each provided services
sized files of about 4,500 personnel to simulate    to different customers with a different funding
personnel transactions they would access at         stream consistent with Decision Point 91.
their home station and during operational           USAAA also found functions performed by the
deployments.                                        mission support elements differed from those
Report No. A-2012-0068-MTS                          done by the corps/division headquarters staff;
                                                    however, in some cases, the headquarters staff had
Operational Training for the Adjutant General       the necessary skill sets to satisfy the functions,
Workforce                                           while in other areas the headquarters structure
USAAA performed this audit at the request           was not sufficient. In addition, USAAA found
of the deputy chief of staff, G-1. USAAA            that there were no approved workload metrics
reported that operational training for human        to verify the associated staffing requirements to
resources units and S-1 personnel was not           ensure the mission support elements was right-
consistent and availability of the training         sized. U.S. Army Forces Command was working
varied by Army command and geographical             with the U.S. Army Manpower Analysis Agency
location. This occurred because both the            to assess the staffing requirements and develop
Army’s implementation of the Personnel              manpower models for its mission support
Services Delivery Redesign and the condensed        elements.
Army Force Generation cycle reduced training        Report No. A-2012-0075-MTS
opportunities. As a result, some human resources

                                                    Army Criminal
units and S-1 personnel may not be fully prepared                                                                  “Since October 1,
to provide support to commanders and soldiers
                                                                                                                2011, Army CID has
                                                    Investigation
when deployed. Various Army commands
organized ad hoc training teams and exercises to                                                                generated more than
                                                                                                               4,610 new reports of
                                                    Command
fill the operational training gap. However, there
was no oversight or coordination to ensure that                                                              investigation and more
all deploying adjutant general soldiers received                                                               than 4,046 investiga-
training. Unit deployments and reductions in        Significant Activities
Overseas Contingency Operations funding
                                                                                                             tive sequence actions.”
                                                    Since October 1, 2011, Army CID has generated
also affected the availability of some teams.       more than 4,610 new reports of investigation
Further, the absence of human resources metrics     and more than 4,046 investigative sequence
hindered the ability of unit commanders to          actions. In spite of the demanding case load,
monitor the skill development of S-1 personnel      Army CID maintained a solve rate of 99 percent
and identify training requirements.                 for drug crimes, 93 percent for violent persons
Report No. A-2012-0069-MTS                          crimes, 95 percent for economic fraud crimes,
                                                    and 98 percent for miscellaneous crimes. The
Mission Support Elements                            solve rate for general crimes was 52 percent, well
At the request of the assistant secretary of the    above the national average of 12.4 percent. Army
Army (manpower and reserve affairs) and             CID’s overall solve rate for this reporting period
the deputy chief of staff, G-8, USAAA audited       was 89 percent, with more than $42.9 million in
U.S. Army Forces Command’s mission support          recoveries and cost avoidance generated.
elements. USAAA focus was to verify that            Army CID placed significant emphasis on the
work performed by the MSEs was different            conduct of sexual assault and death investigations
than work performed by U.S. Army Installation

                                                                                                     OCTOBER 1, 2011 TO MARCH 31, 2012 65
Services



                                     to help meet the intent of DoD and Department             National Ground Intelligence Center’s Anti-
                                     of the Army leadership in reducing the number of          Armor Analysis Program that requested
                                     sexual assaults and suicides that affect the Army         support for post-blast sample analysis. The
                                     community. The Army CID continued to hire                 forensic material was processed by Reach-
                                     additional dedicated sexual assault investigators         Back to USACIL for trace-evidence analy-
                                     and formed special victims units to improve               sis. Three cases for the Anti-Armor Analysis
                                     the quality of sexual assault investigations, and         Program were coordinated and completed.
                                     increased efforts to hold offenders accountable      •	   Continued to support and facilitate forensic
                                     for their actions.                                        processing of improvised explosive device
                                                                                               material the FBI’s Terrorist Explosive De-
                                     Protective Services                                       vice Analytical Center received from the
                                     Since October 2011, the Army CID conducted                Combined Explosive Exploitation Cell in
                                     13 Operation Enduring Freedom and five                    theater. To date, Reach-Back has received
                                     Operation New Dawn travel missions, 111 travel            514 wire twist cases for analysis and com-
                                     missions to OCONUS locations, 190 CONUS                   pleted latent print analysis for 406 cases and
                                     missions (excluding the daily protection of               DNA analysis for 118 cases. The completed
                                     principals within the National Capital Region),           cases resulted in the recovery of seven latent
                                     and four visiting foreign counterpart missions            images and five DNA profiles resulting in
An Army CID special agent searches
                                     for ministers, chiefs of defense and Army chief           one DNA profile hit.
motor pool during investigation.     of staff equivalents within the national capital     •	   Received 100 DNA cases from Expedition-
                                     region and throughout CONUS.                              ary Forensic Laboratory Leatherneck, Af-
                                                                                               ghanistan, and coordinated with USACIL
                                     Major Procurement Fraud                                   to complete the DNA analysis. Reach-Back
                                     Army CID continues to focus its efforts on                completed the upload of all cases to the
                                     countering fraud and corruption related to                Combined Information Data Network Ex-
                                     overseas contingency operations. Since October            change and submitted 59 DNA profiles from
                                     2011, 78 reports of investigation were initiated,         40 cases to the Armed Forces DNA Identi-
                                     with approximately $42.6 million in total                 fication Laboratory for analysis, resulting in
                                     recoveries and an additional $754,000 identified          23 cases with DNA profile hits.
                                     as cost avoidance. Specific to OCO, Army CID
                                     initiated 17 ROIs and realized more than $1.7        Army CID continued forward on merging
                                     million in fines and restitutions.                   duplicate forensic support functions in teams out
                                                                                          of Kandahar, Bagram and Forward Operating
                                     U.S. Army Criminal Investigation Laboratory          Base Leatherneck. On December 11, 2011,
                                     Army CID’s forensic Reach-Back Operations            Expeditionary Forensic Laboratory-Bagram
                                     Center continued to expand its capabilities to       and the Combined Explosive Exploitation
                                     support the forward deployed expeditionary           Cell-Bagram merged into one joint forensic
                                     forensic laboratories, the warfighter and            laboratory, now termed Afghanistan Forensic
                                     other DoD agencies. Army CID’s Reach-Back            Exploitation Laboratory-Bagram. By combining
                                     Operations Center has:                               the laboratories, the forensic operation now
                                     •	 Developed procedures to support the Bio-          houses five forensic disciplines (latent print,
An Army CID special agent swabs a         metrics Identity Management Agency and          DNA, firearms and tool mark examiners,
weapon for DNA evidence.                  to re-establish latent-to-latent analysis for   document exploitation and chemistry) providing
                                          unidentified latent prints within the DoD       timely dissemination of information and forensic
                                          Automated Biometric Identification System       processing for the warfighter and eliminating
                                          database. Since its inception on December       duplicated effort. The AFX is comprised of Army
                                          23, 2011, the Reach-Back latent print exam-     personnel, coalition forces, Department of the
                                          iners have completed 7,079 examinations         Army civilians, and contractors. On January
                                          within 472 latent-to-latent cases, resulting    1, 2012, AFX-Kandahar was established, with
                                          in 544 identifications/matches.                 AFX-Leatherneck projected for the March/April
                                     •	 Provided forensic chemistry analysis to the       time frame.

66 SEMIANNUAL REPORT TO THE CONGRESS
The workload in Afghanistan continued to                   DNA profile was matched to the other three
increase as there was not the usual decline in             events spanning the year, but the suspect re-
cases during the winter months. Army CID                   mained unknown. On December 25, 2011,
conducted more than 126,942 examinations                   a suspect was detained and a DNA refer-
and made 5,042 identifications. Latent print               ence sample was collected and processed
examiners closed 1,727 cases, DNA examiners                through the Bagram laboratory. On January
1,708 and fire arms/tool marks 391. Significant            1, 2012, the suspect was positively linked to
examples of some of the “hits” or identifications          all four improvised explosive device events
include:                                                   through DNA.
•	 On October 15, 2011, Expeditionary Fo-
     rensic Laboratory-Leatherneck DNA de-             DoD Criminal Investigation Task Force
     veloped a profile from the swab of a latent       Army CID continued to serve as the executive
     print. This print was biometrically matched       agency for the DoD Criminal Investigation Task
     to a high-level, suspected improvised explo-      Force that conducts criminal investigations of
     sive device builder/facilitator in the Sangin     suspected terrorists and ultimately helps remove
     and Kajaki Districts. This suspect was de-        terrorists from the battlefield. In support of
     tained and removed from the battlefield. He       overseas contingency operations, the Task Force
     was also linked to one of the most proficient     CITF had teams of CID special agents, attorneys
     improvised explosive device builder/facili-       and analysts at Fort Belvoir, Naval Station at          An Army CID special agent teaches
                                                                                                               Afghan law enforcement authorities.
     tators, a top ten target. This suspect’s impro-   Guantanamo Bay, Cuba, and in Afghanistan.
     vised explosive device incidents spanned          The Task Force also had teams in Iraq until the
     from March 2011 to January 2012 and re-           U.S. withdrawal at the end of 2011. The Task
     sulted in the injury of two coalition mem-        Force continued to conduct investigations of
     bers and destruction of multiple vehicles.        detained suspected terrorists in Guantanamo
•	 In February 2012, evidence was received             and Afghanistan; to pursue justice for the victims
     from an improvised explosive device-related       killed on 9/11, in the attack on the USS Cole on
     event that resulted in two U.S. service mem-      October 12, 2000, and in other atrocities; to
     bers wounded in action. An improvised ex-         support Army CID in the Afghanistan Theater
     plosive device pressure plate was processed,      of Operations and to provide intelligence reach-
     resulting in identifiable latent prints. One      back capabilities in support of United States and
     print was biometrically matched to a high-        Army CID Anti-Terrorist Operations. The task
     level, suspected improvised explosive device      force also:
     builder who had previously been linked            •	 Assisted military units in Afghanistan with
     to another improvised explosive device                 developing information about terrorists and
     through DNA processing. This subject has               criminal networks involved in capture, theft
     been subsequently captured and removed                 and diversion of U.S. and NATO military
     from the battlefield.                                  equipment traveling to and from Afghani-
•	 Another incident spanned February to                     stan.
     December 2011. During this period, there          •	 Supported two units in the Afghanistan
     were four separate improvised explosive                Theater of Operations: Task Force 2010 and
     device events, with the last resulting in              the Legal Operations Directorate of Com-
     two U.S. service members killed in action,             bined Joint Interagency Task Force 435.
     one U.S. civilian killed in action, and three     •	 Supported the Habeas Project overseen by
     U.S. service members wounded in action.                DoD.
     All evidence from the four events was pro-        •	 Trained CID special agents and others for
     cessed and all four improvised explosive de-           deployment to Afghanistan and trained
     vices were biometrically linked to one indi-           Afghan law enforcement and judiciary per-
     vidual through DNA. The last catastrophic              sonnel.
     event was processed by AXF-Bagram on              •	 Collaborated with the FBI on exploitation
     December 19, 2011, and a DNA profile                   of evidence retained at the DoD National
     was obtained. On December 22, 2011, the                Media Exploitation Center.

                                                                                                        OCTOBER 1, 2011 TO MARCH 31, 2012 67
Services



                                The Task Force agents, analysts and attorneys        from U.S. military bases in Afghanistan. In
                                continued to work with DoD Office of Military        February 2012, the Task Force participated in a
                                Commissions prosecutors on investigations            separate operation with Army CID that resulted
                                of Guantanamo detainees, and assisted with a         in detaining an individual responsible for the
                                project intended to accelerate adjudication of       theft and sale of four Laser Target Designator
                                detainee cases through the commissions process.      and Range Finders valued at $1.2 million. The
                                The Commission, with the assistance of the Task      operation resulted in the recovery of one laser
                                Force and other federal agencies, has identified     and other U.S. military equipment valued at
                                several dozen detainees for possible prosecution     $700,000.
                                over the next several years. These detainees
                                include Majid Shoukat Khan who joined with           With regard to cargo returning from the
                                members of al-Qaeda in Pakistan to plan attacks      Pakistan ground lines of communication, Task
                                against targets in the United States and elsewhere   Force analysts and agents recognized that cargo
                                after September 11, 2001, and delivered $50,000      needed to be better monitored. The Task Force
                                in al-Qaeda funding to finance the bombing           coordinated with U.S. Customs and Border
                                of a hotel in Indonesia in 2003 that resulted in     Patrol leadership and was successful in helping
                                the deaths of 11 people and wounded 81 others.       to facilitate the logistical decision to move all
                                Mr. Khan was formally charged and pleaded            retrograde cargo returning from the Pakistan
                                guilty to the Commission in March 2012 with          ground lines of communication through a port
                                his sentence pending. Six other Guantanamo           that offers radiation monitoring and X-ray
                                detainees have also been charged. They are:          screening supervised by U.S. Customs and
                                •	 Abd al-Rahim Hussayn Muhammad Abdu                Border Patrol officials.
                                     al-Nashiri, who allegedly was in charge of
                                     the planning and preparation of the Oc-         Law Enforcement Professionals Program
                                     tober 12, 2000 attack on the USS Cole in        Army CID managed expert law enforcement
                                     which 17 sailors were killed, and for whom      personnel who assist commanders through
                                     pretrial commission hearings have begun.        the Law Enforcement Professionals Program.
                                •	 Khalid Sheikh Mohammed, Muham-                    This program provides enhanced expertise and
“Army CID managed                    mad Salih Mubarak Bin ‘Attash, Ramzi            methodology to understand, identify, penetrate,
expert law enforcement               Binalshibh, Ali Abdul Aziz Ali and Mus-         interdict and suppress international insurgent
                                     tafa Ahmed Adam al Hawsawi, who were            and criminal-like networks. During the reporting
personnel who assist
                                     charged by prosecutors in connection with       period, Program personnel were instrumental
commanders through                   the 9/11 attack and whose cases are being       in the arrest or capture of 29 insurgents. The
the Law Enforcement                  reviewed by the convening authority.            Program personnel spent more than 287 hours
Professionals Program.”                                                              training 96 Afghan National Security Forces.
                                Since October 1, 2011, Task Force analysts
                                have responded to 63 requests for intelligence       Command Intelligence Operations Center
                                information pertaining to locations, individuals,    Army CID’s Command Intelligence Operations
                                trucking companies and other topics related          Center continued to expand its analytical support
                                to the theft of U.S. government material. This       to investigative elements worldwide by collecting,
                                information helped Task Force 2010 recover           assessing and forwarding criminal intelligence
                                $836,000 worth of stolen U.S. equipment.             to its field elements. It continues to expand the
                                                                                     Army’s e-Guardian Program, allowing its law
                                In Afghanistan, Task Force agents and analysts,      enforcement to share and disseminate terrorist
                                working with Army CID and law enforcement            threat information with the FBI, other DoD
                                professionals on investigations involving the        law enforcement agencies and local civilian law
                                theft of government property, participated in        enforcement authorities. The center personnel
                                multiple raids on facilities being used as havens    attached to the National and Regional Joint
                                to store and distribute stolen government            Terrorism Task Forces have assisted the FBI
                                property and materials. In one case, Army CID        in several investigations concerning former
                                was able to recover $35,000 in equipment stolen      Iraqi insurgents who entered the United States

 68 SEMIANNUAL REPORT TO THE CONGRESS
under various U.S. immigration programs.              contractor’s ability to pay. The total value of the
Additionally, center personnel are leading an         bribes contractors agreed to pay amounted to
initiative at the National Joint Terrorism Task       more than $1.3 million; Capt. Handa and the
Force to identify potential insider threats posed     interpreter collected $315,000, which they split
by DoD contractors working in support of              evenly. Capt. Handa admitted that after leaving
military operations in both the United States and     Afghanistan he tried to collect more than $1
overseas.                                             million in bribe money that contractors had
                                                      pledged to pay. A cooperating witness offered
Significant Cases                                     to help him collect the money, and in 2010 and
                                                      early 2011 Capt. Handa provided witness details
Drill Instructor Guilty of Abusive Sexual Contact     of the outstanding bribes and other relevant
and Cruelty and Maltreatment                          facts to help secure the promised money. During
Overview: Investigation established a soldier         the course of these conversations, Capt. Handa
sexually assaulted another male soldier assigned      indicated he knew people in the drug business,
to his unit in Baumholder, Germany. During the        and the witness and he developed plans to
course of the investigation, it was determined that   sell kilogram quantities of heroin to his drug
while performing his duties as drill instructor       contacts. According to court documents, on April
at Fort Benning, Ga., he also sexually assaulted      7, 2011, Capt. Handa met with the cooperating
eight male trainees. The assaults on the trainees     witness and an undercover officer in a northern
would have likely gone unreported if not for the      Virginia hotel where Capt. Handa received what
thorough investigative efforts of the CID office.     he believed was $500,000 in collected bribe
The soldier confessed to all of the offenses.         payments and acknowledged that he knew the
Result: The soldier was convicted by general          right people to receive the kilogram of heroin
courts-martial on September 21, 2011, of              shown to him by the undercover officer. Capt.
violating UCMJ Article 120 – Rape and Carnal          Handa was arrested as he was leaving the hotel
Knowledge, and Article 93 – Cruelty and               with the bribe money, a loaded handgun, and
Maltreatment. He was sentenced to 22 months           a spreadsheet detailing specific bribe amounts
incarceration, a reduction in rank, forfeit all pay   paid and outstanding. Army CID investigated
and allowances and a bad conduct discharge.           this case jointly with member agencies of the
Upon release, the enlisted member is required to      International Contract Corruption Task Force,
register as a sex offender.                           including DCIS, SIGAR, FBI and DEA.
                                                      Result: On September 23, 2011, Capt. Handa
Captain Sentenced to Seven Years for Bribery          appeared at the Federal District Court for the
and 10 Years for Conspiracy                           Eastern District of Virginia and was found guilty
Overview: Army Captain Sidharth Handa,                of violating 18 U.S.C. §§ 201(b)(2)(A) Bribery
while stationed in Afghanistan from March             of a public official; and U.S.C. § 846 Conspiracy
through November 2008, served as the liaison to       to distribute one kilogram or more of heroin.
the local governor and engineers on the Kunar         For the offense of bribery, Capt. Handa was
Provincial Reconstruction Team. Capt. Handa           sentenced to 84 months confinement, three years
assisted in awarding reconstruction project           supervised release, and restitution in the amount
contracts funded by the U.S. government to            of $315,000. For the offense of conspiracy, he was       CID special agents and Military Police
local contractors through a competitive bidding       sentenced to 120 months confinement, and five            Drug Suppression Team members.

process. Through investigation, Capt. Handa           years supervised release. The two confinement
admitted that almost immediately upon his             sentences were to be served concurrently.
arrival in Afghanistan, he engaged in a scheme        Furthermore, on February 6, 2012, Capt. Handa
to secure bribes from contractors who sought          was debarred and listed in the excluded parties
to secure large PRT construction projects. With       list system.
the help of an Afghan interpreter, Capt. Handa
typically solicited bribes equal to 10 percent of     Soldier Sentenced to Eight Years for Indecent
the overall contract value, though the actual         Liberties with a Child
bribe payment was negotiated based on the             Overview: NCIS notified Army CID that an

                                                                                                        OCTOBER 1, 2011 TO MARCH 31, 2012 69
Services



                                      Army specialist assigned to the Kaiserslautern       value management, overseas acquisition and
                                      military community was soliciting parents            disbursing and more. In addition, Army CID
                                      of minors throughout Europe for sexual acts          continued a series of audits on the protection
                                      with their children. An undercover operation         of personally identifiable information and the
                                      resulted in the soldier being apprehended and        Marine Corps’ accountability over its small arms
                                      interviewed, wherein he confessed to meeting         program. Our audits of military construction
                                      the undercover agent in order to perform             projects identified opportunities for the
                                      sexual acts with her two children. The soldier       Department to put DON funds to other use by
                                      also confessed to the offenses of possession of      eliminating or reducing the scope of a number
                                      child pornography, aggravated sexual contact,        of projects. To date, our FY 2012 assist reports
                                      abusive sexual contact and sodomy with a child       for the Naval Criminal Investigative Service
                                      under the age of 16, when he sexually assaulted      have identified approximately $1.4 million in
                                      his own two daughters on multiple occasions.         potential fraud. Army CID will continue to work
                                      Investigative efforts further identified another     with senior DON officials to provide them with
                                      relative of the soldier as a victim. Evidence        an expert and impartial assessment of critical
                                      recovered during examination of the crime            DON issues. If necessary, Army CID will make
                                      scene was forensically examined and revealed         recommendations that address the identified
                                      evidence of child pornographic images. The           conditions and help prevent their recurrence.
                                      images were confirmed as known victims by
                                      the National Center for Missing and Exploited        Joint Warfighting and
                                      Children. Army CID investigated this jointly
                                      with NCIS Child Exploitation Investigations.         Readiness
                                      Result: At general courts-martial, the soldier
                                      pleaded guilty to violating UCMJ Article 120 –       Marine Corps Small Arms Accountability
                                      Rape and Carnal Knowledge, and Article 134           The audit objective was to verify that the Marine
                                      – General Article for indecent language. He was      Corps’ small arms program, which includes
                                      sentenced to eight years confinement, reduced        handguns, shoulder-fired weapons, and light
                                      in rank, forfeiture of all pay and allowances, and   automatic weapons through heavy machine guns
                                      received a dishonorable discharge.                   had adequate controls to ensure that the arms
                                                                                           were secured and accounted for. NAVAUDSVC

Navy
                                                                                           found all inventoried weapons to be accounted
                                      Naval Audit Service                                  for at the eight Marine Corps activities visited;
                                                                                           however, the Marine Corps needs to improve
                                      The NAVAUDSVC’s mission is to provide
                                      independent and objective audit services to assist   its accountability and control of small arms.
                                      Department of the Navy leadership in assessing       NAVAUDSVC found problems with storage
                                      risk to improve efficiency, accountability           and access controls, key and lock controls,
                                      and program effectiveness. NAVAUDSVC                 small arms accountability, armory personnel
                                      works with senior Navy and Marine Corps              qualifications, documentation retention and
                                      officials to develop a risk-based annual audit       outdated division-level policies. In addition,
                                      plan that addresses critical areas officials feel    headquarters Marine Corps requested that
                                      merit additional oversight. NAVAUDSVC also           NAVAUDSVC review Distribution Management
                                      responds to requests from senior DON officials to    Office compliance with defense transportation
                                      provide audit work on emergent issues including      regulation’s report of shipment notification
                                      but not limited to the Department’s Financial        requirements for conventional arms to include
NAVAUDSVC reviewed the Marine
Corps’ small arms program controls.   Improvement Program initiative, administration       missiles, rockets and small arms. NAVAUDSVC
                                      of base operation support contracts. In the past     found that Marine Corps weapon shipments
                                      six months, our audits have addressed a number       requiring use of the transportation protective
                                      of important DON issues, such as energy              service did not consistently receive prescribed
                                      initiatives, diversity, the relocation of Marine     levels of shipment security controls. Specifically,
                                      Corps forces to Guam, controls over various          NAVAUDSVC found that the Marine Corps
                                      facets of the acquisition process such as earned     Distribution Management Offices:

70 SEMIANNUAL REPORT TO THE CONGRESS
•	   Did not consistently ensure that the report    Joint Task Force’s and NAVSUP Fleet Logistics
     of shipment notifications were sent to re-     Center-Sigonella’s ability to provide reasonable
     ceiving activities for weapons shipments       assurance to DoD and DON leadership that
     and/or did not enter shipments in the De-      internal control objectives were being achieved.
     fense Transportation Tracking System.          Report No. N2012-0003
•	 Did not consistently issue required trans-
     portation discrepancy reports to shipping      Implementation of Earned Value Management
     activities notifying them of their noncom-     for the Future Aircraft Carrier Program
     pliance with the defense transportation        The audit objective was to verify that Earned
     regulations when reports of shipments were     Value Management was implemented in
     not sent.                                      accordance with Department of Defense
As a result, receiving activities were often        requirements and used to monitor acquisition
not aware of the weapon shipments and not           program cost, schedule, and performance for the
prepared to detect potential shipping problems.     Future Aircraft Carrier program. NAVAUDSVC               NAVAUDSVC reviewed acquisitions in
These weaknesses increased the vulnerability to     found that EVM was not implemented and used              the Future Aircraft Carrier program.

theft, loss and misuse of weapons. Management       to monitor acquisition program cost, schedule
concurred with the seven recommendations to         and performance for the aircraft carrier’s detailed
improve accountability and physical security        design and construction contract in accordance
control of Marine Corps small arms; and             with DoD requirements. As a result, the Navy
enhance transportation controls and oversight,      did not have earned value data on which it
and provide training to ensure compliance with      could fully rely to manage and make informed
DoD policy.                                         decisions about the contractor’s cost, schedule
Report No. N2012-0002                               and technical performance.
                                                    Report No. N2012-0011
Acquisition Processes and
Contract Management                                 Information Assurance,
                                                    Security and Privacy
Department of the Navy Acquisition and
Disbursing Checks and Balances at Camp              Personally Identifiable Information and
Lemonnier, Djibouti, Africa                         Department of the Navy Data on Unencrypted
The objective of the audit was to verify that       Computer Hard Drives Released From
Department of the Navy checks and balances for      Department of the Navy Control
acquisitions and disbursements were in place to     The audit objective was to verify that Department
detect, deter and prevent fraud, waste and abuse,   of the Navy disposal of hard drives is complying
and were in compliance with federal, DoD and        with DON chief information officer policy.
DON acquisition and disbursing requirements         NAVAUDSVC identified unencrypted hard
at Camp Lemonnier, Djibouti, Africa.                drives containing easily accessible personally
NAVAUDSVC found that significant internal           identifiable information (more than 240,000
control weaknesses with the oversight and           Social Security numbers) and sensitive DON
management of the acquisition and disbursing        data (proprietary data and military orders)
operations supporting the Joint Task Force in       that had been improperly released from DON
Djibouti, that were identified by a NAVAUDSVC       control. If DON CIO policy had not permitted
2009 audit, had not been corrected. This created    the issuance of waivers for encrypted hard
an environment conducive to fraud, waste and        drives, all hard drives would have been required
abuse. NAVAUDSVC also addressed weaknesses          to be physically destroyed. Physically destroying
in the oversight and management of the              the hard drives would have eliminated the
contracting operations provided by Naval Supply     possibility of unencrypted hard drives with
Systems Command Fleet Logistics Center-             DON PII and sensitive data being released from
Sigonella to Camp Lemonnier. These internal         DON custody and control. The controls over
control weaknesses significantly affected the       the waiver/disposal process at Navy activities

                                                                                                      OCTOBER 1, 2011 TO MARCH 31, 2012 71
Services



                                         were apparently not sufficient to ensure that all      of the nation. This condition existed because
                                         computers released from Navy control had the           some minority groups had lower than expected
                                         required encryption software installed on their        rates of enrollments in commissioning sources,
                                         hard drives or personnel were unaware of the           graduations from commissioning sources,
                                         policy. The release of hard drives puts the DON        preferences for naval pilot/flight officer careers
                                         at an unnecessary level of risk for significantly      and selection as naval pilot/flight officers. It was
                                         costly breaches of PII and DON-sensitive               also found that for some minority groups the
                                         information.                                           averaged scores during flight training were low.
                                         Report No. N2012-0009                                  Report No. N2012-0001

                                         Financial Management                                   Individual Augmentee Reintegration Process
                                                                                                The audit objective was to verify that returning
                                         Department of the Navy Military Standard               Navy and Marine Corps individual augmentees
                                         Requisitioning and Issue Procedures Internal           were receiving the support needed throughout
                                         Controls                                               the deployment cycle to reintegrate with family,
                                         The audit objective was to verify that Military        community and employers. The Marine Forces
                                         Standard Requisitioning and Issue Procedures           Reserve did not effectively execute the Yellow
                                         were used in accordance with established               Ribbon Reintegration Program for individual
                                         guidance, and that internal controls were in           augmentees. None of the 112 individual
                                         place to prevent fraud, waste and abuse at             augmentees in the NAVAUDSVC sample
                                         selected Department of the Navy commands/              were provided with at least one deployment
                                         activities. NAVAUDSVC findings indicated               support and reintegration event for each of
                                         that there were several significant opportunities      the five mandatory intervals, as required
                                         to improve the management of MILSTRIP                  by under secretary of defense Directive-
                                         processes at the Navy commands reviewed.               Type Memorandum 08-029. This condition
                                         At those commands, MILSTRIP processes                  existed because not all voluntary individual
                                         for procurement, accounting for warehouse              augmentees were adequately identified and
                                         items and authorizing information technology           tracked throughout the deployment cycle; not
                                         purchases did not provide an effective internal        all individual augmentees were provided with
                                         control environment. The Navy commands did             sufficient reintegration event information;
                                         not have proper oversight nor did they maintain        Yellow     Ribbon      Reintegration    Program
                                         proper supporting documentation, such as               guidance was misinterpreted regarding the
                                         requisitions, receiving reports and invoices for       characteristics for providing a post-deployment
                                         many DoD purchases. Opportunities existed to           event; compliance and effectiveness metrics
                                         improve internal controls over maintaining and         were not established and the program was not
                                         reconciling accounting and purchase-related            identified as an assessable unit in the Marine
                                         records.                                               Forces Reserve Internal Control Program. As a
                                         Report No. N2012-0022                                  result, not all individual augmentees received
                                                                                                the support thought by Congress and DoD to be
                                                                                                needed to reintegrate with family, community
                                         Human Capital                                          and employers.
                                                                                                Report No. N2012-0015
                                         Naval Pilot and Naval Flight Officer Diversity
                                         The objective of this audit was to verify that
                                         the processes leading to the selection and             Infrastructure and
                                         assignment of naval pilots/flight officers support     Environment
                                         diversity. NAVAUDSVC determined that despite
                                         recent increases in minority enrollments at the        Strategy for Considering Energy Efficient
                                         U.S. Naval Academy and Naval Reserve Officer           and Renewable Energy Initiatives Associated
                                         Training Corps, new naval pilot/flight officer         with the United States Marine Corps Guam
NAVAUDSVC reviewed the selection
and assignment process of Navy pilots.   accessions are not on track to reflect the diversity   Relocation Effort

72 SEMIANNUAL REPORT TO THE CONGRESS
The audit objective was to verify that the             the National Environmental Policy Act process
Department of the Navy had a strategy for the          and the subsequent Environmental Impact
consideration and implementation of energy             Statement were not fully defined. In addition,
efficient and renewable energy initiatives for         decisions were made to provide for individual
the Marine Corps Guam relocation effort.               and small unit training range requirements to be
NAVAUDSVC found that Naval Facilities                  located on Guam and Tinian, but to only plan for
Engineering Command, Pacific, developed a              those ranges that did not have an adverse impact
building energy strategy, but at the time of the       to cost, schedule or environmental planning. If
site visit, an implementation plan for this strategy   required training ranges are not included in the         NAVAUDSVC conducted review of
had not been developed. The goal of this strategy      relocation plans, Marine forces in Guam may be           Marine Corps training ranges in Guam.

was to deliver the highest level of environmental      required to make unnecessary travel to obtain
improvement to meet federal mandates at the            required training elsewhere, which could lead to
lowest cost level. The strategy was planned            increased costs, limited training opportunities
for facilities to achieve a 40.2 percent energy        and decreased unit readiness. Additional
reduction, and a 13.5 percent renewable energy         planning could be required which may adversely
purchase requirement, which would exceed               impact cost and schedule of the relocation. In
federal mandates. Since NAVAUDSVC’s site visit,        addition, NAVAUDSVC determined that Marine
NAVFAC Pacific drafted an implementation               Corps training and readiness manuals should be
plan for the building energy strategy that lacked      updated to include all required training events
critical elements. In addition, while viable base-     and range requirements with standardized
specific renewable energy initiatives were not         planning details. Management concurred with
recommended or incorporated into the strategy          all recommendations, and the corrective actions
for the future Marine Corps Base on Guam,              met the intent of the recommendations.
NAVFAC Marianas evaluated potential island-            Report No. N2012-0008
wide renewable energy initiatives for Guam. This
occurred because the strategy focused mainly on        Selected Department of the Navy Military
reducing energy consumption within individual          Construction Projects Proposed for Fiscal Year
facilities and buildings, but not base-wide. As        2013
a result, other viable initiatives might not be        The audit objective was to verify that the selected
incorporated into the design and construction          military construction projects were needed and
of the future Marine Corps Base to minimize            the scope requirements were supported. The
energy consumption and maximize the use of             NAVAUDSVC identified unneeded and over-
renewable energy. Management concurred with            scoped projects and made recommendations
all recommendations, the corrective actions            to cancel the projects that were not needed
met the intent of the recommendations and the          and reduce the scope of the over-scoped
recommendations were considered closed at the          projects. The commandant of the Marine
time of audit publication.                             Corps and commander, Navy Installations
Report No. N2012-0004                                  Command agreed with the recommendations
                                                       and the associated potential monetary benefits.
Consideration of Requirements for U.S. Marine          Both commands took appropriate corrective
Corps Training Ranges Associated with the              actions and NAVAUDSVC considers all of the
Relocation of Marine Corps Forces to Guam              recommendations closed.
The audit objective was to verify that                 Report No. N2012-0012
requirements for Marine Corps training ranges
were appropriately addressed in the planning           Reporting of United States Marine Corps
for the relocation of the Marine Corps Forces to       Aviation Fuel Consumption
Guam. NAVAUDSVC found that the relocation              The overall objective was to verify that the
plans did not fully address Marine Corps               Marine Corps was accurately reporting aviation
training range requirements of the relocating          fuel consumption. NAVAUDSVC reviewed
forces. This occurred, in part, because the            a sample of 474 FY 2010 Fuel Enterprise
training range requirements used to initiate           Server fuel transactions. For the supported

                                                                                                         OCTOBER 1, 2011 TO MARCH 31, 2012 73
Services



                                            transactions, NAVAUDSVC found that the                reviewing and approving travel vouchers (the
                                            quantities of fuel reported in the Fuel Enterprise    authorizing official function), and to create an
                                            Server were accurate. However, NAVAUDSVC              exception report for management review when
                                            found opportunities to improve the aviation fuel      an administrator approves a travel voucher.
                                            consumption reporting process. The internal           Report No. N2012-0010
                                            control weakness occurred because oversight
                                            was not sufficient to ensure that Marine Aviation     Suicide Crisis Links and/or Phone Numbers on
                                            Logistics Squadrons’ personnel received the           Department of the Navy Websites
NAVAUDSVC reviewed a sample of              fuel documentation from the Marine aircraft           The audit objective was to verify that the
Fuel Enterprise Server fuel transactions.   squadrons, or maintained the documents after          Department of the Navy initial response to
                                            completing the reconciliations, as required.          Sailors and Marines requesting assistance related
                                            NAVAUDSVC estimates that supporting                   to suicidal behavior was handled appropriately.
                                            documentation was not readily available for           NAVAUDSVC focused on whether DON websites
                                            transactions representing 44 percent of the           posted links/phone numbers to suicide-related
                                            125,031,672 gallons of fuel purchased by the          prevention or crisis services. NAVAUDSVC
                                            Marine Corps. Therefore, the Marine Corps             found that 22 percent (321 of 143) of Navy home
                                            did not have assurance that the FY 2010               pages searched did not have a required working
                                            aviation fuel consumption was accurately              link to the National Suicide Prevention Lifeline
                                            reported. Management concurred with all               in accordance with Navy Admin 178/11 of June
                                            recommendations, and the corrective actions           9, 2011, which states “Every Navy homepage
                                            met the intent of the recommendations.                now has a direct lifeline link to a live chat staffed
                                            Report No. N2012-0013                                 by Veterans Affairs professionals.” It should be
                                                                                                  noted that NAVAUDSVC found 100 percent
                                            Other                                                 (20 of 20) of selected Navy Operational Support
                                                                                                  Center websites posted working links. In
                                            Defense Travel System – Marine Corps                  addition, NAVAUDSVC found that 54 percent
                                            The audit objective was to verify that internal       (30 of 56) of Marine Corps websites searched
                                            controls over the approval of travel authorizations   did not advertise a suicide crisis link or phone
                                            and vouchers in the Defense Travel System             number, such as the National Suicide Prevention
                                            for the Marine Corps were effective and in            Lifeline, on their home page or within their
                                            compliance with applicable laws and regulations.      website. However, this was not a requirement for
                                            The NAVAUDSVC found that Marine Corps                 the Marine Corps. Not having this information
                                            activities did not have proper separation of          available is potentially a missed opportunity to
                                            duties concerning Defense Travel System-              encourage Sailors and Marines to seek assistance
                                            related functions. Specifically, Defense Travel       in a critical time of need.
                                            Administrator functions that allow complete           Report No. N2012-0017
                                            access to the system were not separated from
                                            travel voucher review and approval functions as       Defense Travel System - Navy Controls Over
                                            required by Department of Defense guidance.           Unsettled Travel Authorizations
                                            The lack of separation of duties represents an        The audit objective was to verify that internal
                                            internal control weakness and places the Defense      controls over unsettled travel authorizations
                                            Travel System at risk for financial loss through      and resulting vouchers in the Defense Travel
                                            misuse of the system. NAVAUDSVC also found            System for the Navy were effective and in
                                            that authorizing officials were approving travel      compliance with applicable laws and regulations.
                                            expense payments that were not supported by           NAVAUDSVC found that the Navy had
                                            receipts or were not allowable under guidance.        unliquidated travel authorizations at least 28
                                            This occurred because of insufficient training.       days old. In addition, the Defense Travel System
                                            NAVAUDSVC made eight recommendations to               did not correctly transfer scheduled partial
                                            the Marine Corps to improve internal controls;        payments to the accounting system, transferring
                                            and to request Defense Travel System changes          them as travel payments instead of advances
                                            so the system prevents administrators from also       to travelers. Applicable guidance states that

74 SEMIANNUAL REPORT TO THE CONGRESS
travelers must submit travel vouchers within five     Significant Activities
working days after returning from the trip. These
conditions existed because travelers did not          Crime Reduction
file their vouchers within five working days as       During the reporting period, NCIS fraud
required by the Joint Federal Travel Regulation       investigations resulted in nearly 40 convictions
and Defense travel administrators did not             and more than $2.5 million returned to the
identify unliquidated travel authorizations nor       government in fines, forfeitures and restitution.
take action to liquidate the travel authorizations.   Examples include:
The impact was that scheduled partial payments/       •	 NCIS recovered more than $1.8 million
advances to travelers were not collected                  worth of stolen warfighting equipment
timely and funds were not deobligated timely.             and identified 47 active-duty military and
NAVAUDSVC made 17 recommendations to                      21 civilians on and around Marine Corps
improve internal controls to the Navy Defense             Base Camp Lejeune suspected of trafficking
Travel System Program Management Office and               high-value military gear on Internet auc-
ten commands.                                             tion sites. The undercover operation was
Report No. N2012-0020                                     initiated after NCIS observed a significant
                                                          increase in on-base larcenies in which simi-           “During the reporting
Naval Criminal                                            lar items were taken, including night vision
                                                          goggles, rifle optical scopes, suppressors, la-
                                                                                                                    period, NCIS fraud
                                                                                                                          investigations
Investigative Service                                     sers and other International Traffic in Arms
                                                          Regulations restricted items. The ongoing                   resulted in nearly
The Naval Criminal Investigative Service is the           NCIS operation combined the efforts of                    40 convictions and
primary law enforcement and counterintelligence           DCIS; Department of Homeland Security;                        more than $2.5
arm of the DON. It works closely with other               Bureau of Alcohol, Tobacco, Firearms and
federal, state, local and international police and
                                                                                                                    million returned to
                                                          Explosives; Defense Logistics Agency; FBI;
security services on serious crimes affecting                                                                        the government in
                                                          North Carolina State Bureau of Investiga-
the DON, including homicide, sexual assault,              tion and several local North Carolina police            fines, forfeitures and
procurement fraud and other crimes against                agencies.                                                         restitution.”
persons and property. NCIS also has a significant     •	 In January 2012, NCIS concluded a four-year
national security mission, investigating such             long undercover operation targeting com-
crimes as terrorism, espionage and computer               panies suspected of selling counterfeit or
intrusion. In the combating terrorism arena,              substandard aircraft or weapon system parts
NCIS provides both offensive and defensive                to DoD. Undercover agents purchased and
capabilities to the DON. In the offensive context         tested suspected nonconforming parts and
(performing the “counterterrorism” mission),              NCIS confirmed approximately $750,000
                                                          worth of fraudulent components had been
NCIS conducts investigations and operations               imported and distributed to Navy suppliers.
aimed at interdicting terrorist activities. In the        The effort was conducted in support of the
defensive context (performing the “antiterrorism”         Naval Air Systems Command in Patuxent
mission), NCIS supports key DON leaders with              River, Maryland, and combined the efforts
protective services and performs vulnerability            of eight U.S., law enforcement agencies. At
assessments of military installations and areas to        least three of the implicated companies sold
which naval expeditionary forces deploy. NCIS             counterfeit integrated circuits to the De-
also leverages its investigative capabilities as it       fense Supply Center Columbus, the Navy’s
conducts its indications and warning mission              major supplier of micro components.
for the DON, fusing threat information from           •	 NCIS is pursuing a global counter fraud
an array of sources and disseminating threat              initiative launched after a 2010 Naval Audit
products to naval elements around the world on a          Service initiative identified a Defense Travel
24-hour basis. Below are investigative highlights         System embezzlement scheme. The ensuing
of NCIS cases for the current reporting period.           NCIS-NAVAUDSVC initiative implicated
                                                          ten DTS administrators who allegedly ma-

                                                                                                        OCTOBER 1, 2011 TO MARCH 31, 2012 75
Services



                                    nipulated e-mail and banking information             from the Navy. Since its inception in April
                                    and falsified or altered travel vouchers to          2011, the program has collected almost 500
                                    divert $433,500 in DTS funding to bank ac-           criminal intelligence tips and has led to the
                                    counts they controlled. An inspection of the         recovery of more than $68,000.
                                    system revealed several potential vulnera-      •	   In addition to ongoing joint counter pi-
                                    bilities that NCIS briefed to commands and           racy efforts, NCIS took the lead in creating
                                    for which those commands were instructed             a comprehensive manual for investigating
                                    to conduct self-inspections of DTS accounts          piracy. The Guide for Investigating Acts
                                    with guidance on how to identify and re-             of Maritime Piracy, published in October
                                    port suspected fraudulent activity. The U.S.         2011, is a compilation of best practices and
                                    Attorney’s Office for the Eastern District of        expertise from more than 20 international
                                    Virginia is prosecuting.                             law enforcement and security partners. It is
                               •	   During the investigation of a large scale            already widely accepted as the authority for
                                    credit card fraud ring, NCIS cyber special-          investigative responses and procedures dur-
                                    ists quickly conducted a highly technical            ing all phases of a piracy investigation, from
                                    examination of more than 100 pieces of di-           the initial on-scene assessment to evidence
                                    verse digital evidence seized by agents. The         collection, debriefs and collaboration with
                                    analysis led to identifying suspects and ad-         prosecutors.
                                    ditional victims and neutralized a criminal     •	   Forward-deployed NCIS agents produced
                                    enterprise that preyed on Navy military and          221 intelligence information reports on
                                    civilian employees aboard the Norfolk Na-            maritime piracy closing intelligence gaps
                                    val Base, Va. Beyond the computers, game             identified by the Office of Naval Intelligence,
                                    consoles and cell phones examined, NCIS              Naval Forces Central Command, and U.S.
                                    used capabilities to bypass an iPhone pass-          African Command. NCIS remains a key
                                    word, identified incriminating text mes-             partner in Combined Task Force 151, the
                                    sages and recovered a key scanner database           front-line international counter piracy force
                                    password. NCIS was able to access an en-             that patrols shipping lanes and responds to
                                    crypted credit card scanner that contained           piracy events.
                                    the identities of known victims and led to      •	   On October 21, 2011, a suspected pirate
                                    identifying numerous additional victims.             identified in an ongoing joint FBI and NCIS
                                    The efforts of NCIS enabled the prosecu-             investigation was sentenced to life in prison
                                    tion team to present highly technical and            for his role in an attack on the Quest sailboat
                                    complex investigative processes in easy to           in February 2011 that resulted in the deaths
                                    understand, laymen’s terms resulting in all          of four Americans. NCIS provided investi-
                                    suspects pleading guilty without any pre-            gative support through the Middle East and
                                    liminary hearings and receiving prison sen-          Norfolk field offices and conducted debriefs
                                    tences ranging from seven to 35 years.               with the suspected pirates. So far, 11 sus-
                               •	   During the past six months, more than 300            pects have pleaded guilty to piracy-related
                                    anonymous tips were reported through the             charges and seven have been sentenced.
                                    NCIS text and web tip hotline, 287 through
                                    the website, 12 by text message and two         Global Partnerships and Capacity-Building
                                    from its smart phone application. Tipsters      In support of Navy and Marine Corps global
                                    provided real-time, actionable intelligence     reach and forward presence goals, NCIS has
                                    leading to 27 investigations ranging from       aggressively pursued a global partnership
                                    basic housing allowance fraud to espionage      network that supports naval global reach
                                    and illegal drug use. In November 2011,         objectives with effective host nation law
                                    NCIS relayed a tip about USS Stennis per-       enforcement and security capabilities and timely
                                    sonnel smoking the synthetic drug, “spice,”     and efficient cooperation, coordination and
                                    aboard the ship to Stennis investigators;       communication. Examples include:
                                    three sailors admitted they used the synthet-   •	 NCIS provided vessel tracking and basic
                                    ic drug and were administratively separated         technical investigative training to the Re-

76 SEMIANNUAL REPORT TO THE CONGRESS
     public of Cape Verde judicial police through              can law enforcement officers and secu-
     cogent partnership, a U.S. AFRICOM coun-                  rity specialists as part of the SOUTH-
     ternarcotics initiative to enhance host-                  COM Southern Partnership Station
     nation interdiction capabilities and mul-                 program. Instruction included surveil-
     tinational coordination and cooperation.                  lance methodology, facility and area
     Subsequently, in October 2011, the police                 analysis, and route analysis.
     arrested four suspected drug traffickers and         •	   Port facility physical security practices
     interdicted more than 1,500 kilograms of                  for law enforcement and security of-
     cocaine—the country’s largest narcotics sei-              ficers from several Caribbean nations            NCIS provided vessel tracking and
     zure. NCIS and the Drug Enforcement Ad-                   encompassing installation access con-            basic technical investigative training.

     ministration have been working jointly with               trol, intrusion detection systems, mari-
     the Cape Verde Judicial Police to examine                 time threats, officer safety use of force
     weapons, sensitive evidence and technical                 continuum, high value asset protection,
     equipment seized during the interdiction.                 service craft inspection and waterside
•	   In February 2012, NCIS provided narcotics                 security and pier inspections. The sem-
     intelligence to its Operation RIPTIDE task                inars demonstrated how to identify and
     force that directly resulted in the seizure of            mitigate facility vulnerabilities.
     $5 million worth of heroin and metham-
     phetamines in the U.S. Central Command           Countering the Insider Threat
     area of responsibility. Operation Riptide is     NCIS significantly increased biometric collec-
     a counter-narcoterrorism task force com-         tion through information sharing agreements
     prised of NCIS, DEA, the Office of Naval         with foreign partners and continued deployment
     Intelligence and the United Kingdom’s Se-        of advanced portable biometric devices. NCIS
     rious Organized Crime Agency that sup-           added almost 11,500 enrollments to the DoD
     ports Combined Task Force 150, Naval             Automated Biometric Identification System,
     Forces Central Command and Combined              yielding nearly 475 matches. In an innovative
     Maritime Forces assets to identify and stop      joint operation with a law enforcement partner
     the flow of illegal drugs from Afghanistan,      in CENTCOM, NCIS enrolled facial images of
     Pakistan and Iran.                               nearly 900 refugees, resulting in three matches
•	   NCIS continued to support theater security       with individuals of concern. Recent biometrics-
     cooperation and assist foreign and domes-        enabled successes include:
     tic partner capacity building through law        •	 Through the combined efforts of NCIS, Ku-
     enforcement and security interoperability             waiti authorities and DEA, two suspected
     seminars. Since November 2011, NCIS has               drug couriers were arrested and enrolled
     provided numerous interoperability semi-              in the DoD Biometric-Enabled Watch List.
     nars directly or as part of the Navy Africa           NCIS subsequently discovered their bio-
     and Southern Partnership Stations includ-             metric information matched that of two
     ing:                                                  contractors currently working as truck driv-
     •	 Improvised explosive device and vehi-              ers on the naval facility. They were placed
          cle-borne improvised explosive device            on the watch list, disqualified from employ-
          recognition and post-blast crime scene           ment and denied access to the base.
          investigation for law enforcement offi-     •	 In November 2011, NCIS discovered that an
          cers from several Middle East nations.           applicant for access to a U.S. installation in
     •	 Port facility physical security practices          Bahrain was suspected of terrorism and was
          for host Southeast Asian law enforce-            listed on the TSA “No-Fly List.” NCIS col-
          ment and security officers encompass-            lected biometric information and placed the
          ing port security, improvised explosive          suspect on the DoD watch list.
          device recognition and threat manage-       •	 In January 2012, NCIS agents conducting
          ment, and cargo container inspection.            a routine employee screening learned that
     •	 Installation surveillance detection for            a third-country national in Bahrain had
          Caribbean, Central and South Ameri-              fraudulently attempted to enter the United

                                                                                                        OCTOBER 1, 2011 TO MARCH 31, 2012 77
Services



                                             States. The criminal record was discovered      Justice filed a civil complaint against Lockheed
                                             when NCIS received a positive match with        Martin, SAIC, Applied Enterprise Solutions
                                             FBI and DoD databases.                          and the implicated Naval Oceanographic Office
                                        •	   While deployed to Afghanistan, NCIS poly-       officials for knowingly violating the False Claims
                                             graph examiners conducted more than 575         Act.
                                             examinations including one conducted on         Result: The final settlement was reached on
                                             an Afghan source that had been captured         September 27, 2011, when Applied Enterprise
                                             by anti-coalition forces. On his release, the   Solutions and its owner Dale Galloway agreed
                                             source contacted his International Security     to pay nearly $2.17 million, bringing the total
                                             Assistance Force handlers and requested a       settlement value to about $30 million.
                                             meeting. While his handlers suspected him
                                             of giving up sensitive information during       Marine Sentenced to 30 Years for Rape of a Child
                                             his captivity, the source adamantly denied      Overview: In July 2011, a Marine staff sergeant’s
                                             providing the enemies any information. He       wife told NCIS that she saw her husband
                                             was turned over to the NCIS polygraph ex-       “French kissing” their 11-year old daughter.
                                             aminer for testing. He failed the exam and      NCIS examined the crime scene at their home
                                             confessed to providing anti-coalition forces    aboard Marine Corps Base Camp Pendleton
                                             information regarding the work he had           and collected evidence from the house and
                                             been performing for the Americans, and          from the staff sergeant’s private vehicle. During
                                             that he compromised the identities of ap-       interrogation the Marine confessed to having
                                             proximately 10 other men from his village       sexual intercourse with his daughter for the past
                                             working for the Americans.                      two years.
                                                                                             Result: At a general court-martial in January
                                        Significant Investigative Cases                      2012 the staff sergeant pleaded guilty to violating
                                                                                             UCMJ Article 120 - Rape and Carnal Knowledge
                                        $2.17 million Settlement in Conflict of Interest     and Article 125 - Sodomy. He was sentenced to
                                        Case                                                 30 years confinement, dishonorable discharge,
                                        Overview: NCIS initiated a joint investigation       reduction in rate and forfeiture of all pay and
                                        with DCIS and General Services Administration        allowances.
                                        into alleged cost mischarging at the Naval
                                        Oceanographic Office at Stennis Space Center         Sailor Sentenced to 21 Years for Murdering a
                                        in Mississippi. No merit to the allegations          Child
                                        of product services substitution was found.          Overview: In January 2011 a Navy fireman
                                        However, NCIS discovered evidence of                 brought his unconscious and unresponsive
                                        preferential treatment in awarding a contract to     5-month old daughter to the U.S. Naval Hospital
NCIS investigated cost mischarging at
the Naval Oceanographic Center.         provide support services for the at the National     at Yokosuka, Japan. Doctors were unable to
                                        Center for Critical Information Processing and       revive the child. NCIS examined the crime scene
                                        Storage at Naval Oceanographic Major Shared          and interrogated the father who confessed that
                                        Resource Center. The investigation revealed that     he caused the baby’s injuries and demonstrated
                                        both the center’s director and deputy director       two “karate chops” he made to the girl’s chest
                                        had provided confidential information before         that ruptured her heart.
                                        a $2.4 billion contract was awarded to SAIC,         Result: At general courts-martial in February
                                        in violation of the Procurement Integrity Act.       2012 the Navy fireman pleaded guilty to
                                        Additionally, requirements defined by Dale           violating UCMJ Article 118 - Murder. He was
                                        Galloway, former director of the Information         sentenced to 21 years confinement, dishonorable
                                        Technology Center for Space and Naval Warfare        discharge, reduction in rate, and forfeiture of all
                                        Systems Command, violated conflict of interest       pay and allowances.
                                        standards. During the investigation, seven DoD
                                        IG subpoenas were served, 65 depositions were        Petty Officer Sentenced to 12 Years for Child
                                        taken and more than one million documents            Manslaughter
                                        were reviewed. In June 2009, the Department of       Overview: In September 2009 a petty officer

78 SEMIANNUAL REPORT TO THE CONGRESS
at Pearl Harbor Naval Station brought his             NCIS that she had been sexually assaulted by five
unresponsive 14-month old son to the                  Navy service members in a local hotel after she
emergency room of an off-base hospital. Doctors       had consumed several alcoholic beverages with
determined the child was suffering from cranial       them. Investigation obtained video surveillance
and retinal bleeding. He was pronounced               from both the bar and hotel. Photos and a video
brain dead and removed from life support. An          found on the suspects’ cell phones were taken
autopsy revealed the cause of death was abusive       during the sexual assault, which demonstrated
head trauma. Neither parent could account for         the woman’s state of intoxication. All five
the injuries during interviews with NCIS. The         suspects admitted having intercourse with her,
mother agreed to a polygraph examination, and         and all but one admitted she was too intoxicated
NCIS determined that she was non-deceptive            to give consent.
regarding the child’s injuries. The petty officer,    Result: On November 18, 2011, at a general
however, continued to deny involvement.               court-martial, the last suspect pleaded guilty to
Result: At a general court-martial in December        violating UCMJ Article 86 – Absence without
2011, the petty officer was found guilty of           Leave, Article 92 – Failure to Obey Order
violating UCMJ Article 119 - Manslaughter             or Regulation, and Article 120 – Rape and
and Article 128 - Assault. He was sentenced to        Carnal Knowledge. He was sentenced to nine
12 years confinement, dishonorable discharge,         years confinement and must register as a sex
reduction in rate and forfeiture of all pay.          offender upon release. At an earlier general
                                                      court-martial, two sailors pleaded guilty to
Commanding Officer Guilty of Sexual Assaults          violating UCMJ Article 120 and were sentenced
Overview: NCIS investigated two sexual assault        to 10 years confinement (eight and one-half
complaints against the commanding officer of          years suspended) and eight years (five years
the USS Momsen (DDG-92) in spring 2011.               suspended). At a general court-martial, two
The first woman claimed the commander had             sailors were found guilty of violating UCMJ
been drinking with her and other crew members         Article 81 - Conspiracy and Article 120 and
before he coerced her into his stateroom and          sentenced to confinement for eight and three
sexually assaulted her in November 2010.              years. All sentences included reduction in
NCIS collected DNA from both the victim and           rate, forfeiture of all pay and allowances and
commander, and the forensic analysis results          dishonorable discharge.
were incriminating. During an interrogation the
commander claimed to have an alcohol problem          Sailor Sentenced to 75 months for Possession
and that he drank heavily the night of the alleged    and Distribution of Child Pornography
assault. A month later, a second female reported      Overview: In January 2011 an ongoing
that the commander sexually assaulted her in          NCIS operation identified a Navy electronics
December 2010 while she was on liberty. NCIS          technician of having downloaded and sharing
conducted wire intercepts during which the            child pornography. NCIS made the discovery
commander was recorded apologizing for the            after determining that a particular IP address
assault.                                              was likely used for downloading child sexual
Results: On October 17, 2011, at a general            abuse images. Agents remotely connected to the
court-martial, the commanding officer pleaded         computer and found 22 file names associated
guilty to violating UCMJ Article 120 – Rape and       with child sexual abuse images. Investigation
Carnal Knowledge and Article 133 – Conduct            further resolved the IP address to a sailor aboard
Unbecoming an Officer and a Gentleman.                Naval Submarine Base New London. The sailor
He was sentenced to 10 years confinement,             admitted to knowingly downloading and sharing
forfeiture of all pay and allowances and dismissal.   child pornography.
Confinement was reduced to 42 months in a plea        Result: On December 6, 2011, at a general
agreement.                                            court-martial, the sailor pleaded guilty to
                                                      violating UCMJ Article 134 – General Article
Five Sailors Guilty of Rape                           for possession of computer hard drives
Overview: In January 2011, a woman reported to        containing child pornography and distribution

                                                                                                       OCTOBER 1, 2011 TO MARCH 31, 2012 79
Services



                                of child pornography. He was fined $25,000 and       specific DoD management challenge areas.
                                sentenced to 75 months confinement, reduction
                                in rate, forfeiture of pay and allowances and a      Joint Warfighting and
                                dishonorable discharge.
                                                                                     Readiness
                                Air Force Audit Agency
Air Force
                                                                                     Worldwide War Reserve Materiel
                                The Air Force Audit Agency mission is to provide     The War Reserve Materiel program supports the
                                all levels of Air Force management timely,           National Security Strategy with assets acquired,
                                relevant and quality audit services by reviewing     positioned and maintained to meet Secretary of
                                and promoting the economy, effectiveness             Defense Strategic Planning Guidance objectives.
                                and efficiency of operations; assessing and          As such, WRM assets support wartime activities
                                improving Air Force fiduciary stewardship            reflected in the Air Force War and Mobilization
                                and the accuracy of financial reporting; and         Plan for requirements over and above primary
                                evaluating programs and activities and assisting     operating stocks and deployed equipment. As
                                management in achieving intended results.            of February 2011, Air Force personnel managed
                                The AFAA is committed to reaching out to Air         WRM at more than 100 installations, including
                                Force customers at all levels. To support Air        approximately 264,000 Standard Base Supply
                                Force decision makers, the AFAA is composed          System authorizations exceeding $4 billion and
                                of approximately 700 members spanning                about 129,000 on-hand assets valued at $2.26
                                more than 50 worldwide locations. The AFAA           billion. Although Air Force personnel accurately
                                conducts centrally directed, Air Force-wide          determined WRM requirements, they either
                                audits in numerous functional areas to support       misstated or duplicated about 161,000 SBSS
                                Air Force senior leaders. Installation-level         authorizations valued at $2.1 billion. In addition,
                                audit teams provide additional audit services to     personnel did not actively pursue WRM
                                installation commanders.                             redistribution, prioritize the need for almost
                                                                                     30,000 WRM asset shortages valued at $299.8
                                To provide Air Force officials timely, responsive,   million or submit consumable requirements
                                balanced and value-added audit services, AFAA        totaling $286.7 million. Maintaining accurate
                                audit planning methods include frequent contact      SBSS authorizations helps the Air Force retain
                                with Air Force senior leaders and Joint Audit        only appropriate equipment and deleting
                                Planning Groups. The FY 2012 Audit Plan was          duplicated authorizations would allow the Air
                                prepared in partnership with Air Force decision      Force to reduce buy and budget requirements
                                makers to address the most significant areas of      by more than 1,200 authorizations and put $17.6
                                management concern. As such, AFAA ongoing            million to better use over six years (execution
                                and planned audits address many of the Air           year and the Future Years Defense Program).
                                Force’s most critical programs and initiatives,      Further, establishing excess asset distribution
                                including topics on electronic warfare,              plans helps the Air Force maintain the highest
AFAA reviewed Air Force range                                                        level of readiness in all theaters and ensures the
optimization training.          intelligence gathering, force management,
                                installation security, control of nuclear-related    Air Force retains critical wartime assets while
                                material, aircraft systems acquisition, health       reducing maintenance cost for unneeded assets.
                                initiatives and auditable financial statement        Finally, distribution of excess assets would fill
                                preparation.                                         shortages within the Air Force for more than
                                                                                     3,500 assets with requisitions valued at $57.8
                                During the first half of FY 2012, the AFAA           million.
                                published 62 centrally directed audit reports,       Report No.F2012-0003-FD3000
                                made more than 105 recommendations to
                                Air Force senior officials and identified $576.4     Air Force Range Optimization
                                million in potential monetary benefits. The          Training air crews for combat requires access to
                                following paragraphs provide and synopsize a         ranges suitable for actual or simulated weapons
                                few examples of AFAA audit coverage related          delivery and dedicated airspace suitable for

80 SEMIANNUAL REPORT TO THE CONGRESS
air-to-air and air-to-ground tactics. Modifying       features to 347 generators. As a result, generators
and developing ranges capable of supporting           may sustain costly equipment damage and may
these requirements is particularly important          not meet critical facility requirements in times
given the advances in military technology to          of need. In addition, lives are unnecessarily put
combat threats emerging during contingencies.         at risk when safety features are not properly
During 2010, the Air Force was responsible for        maintained.
providing range resources and infrastructure          Report No. F2012-0005-FD1000
to approximately 40 ranges with approximately
$521 million programmed for maintenance,              Information Assurance,
repair and modernization in FY 2011 through
2015. AFAA determined units optimized                 Security, and Privacy
training range flying hours, but personnel did
not develop or implement range capabilities           United States Air Forces Central Deployed
based on training requirements. Linking range         Locations Network Controls
capabilities to supported training requirements       The United States Air Forces Central employs
allows the Air Force to accurately report range       foreign nationals and contractors who require
capabilities and defend range modernization           area of responsibility network access in
costs to senior Air Force, DoD and Congressional      performance of official duties. Foreign nationals
leaders. Further, implementing identified             and contractors must meet information
training range capabilities to address new            assurance requirements before AFCENT
training requirements will allow the Air Force to     network personnel can grant them access to
efficiently use $39.6 million in flying hour costs    the AOR network. In October 2010, more than
over six years (execution year and the Future         500 foreign nationals and 2,000 contractors
                                                                                                               AFAA reviewed Air Forces central
Years Defense Program).                               had access to the AOR network at seven AOR               deployed locations network controls.
Report No. F2012-0004-FD3000                          locations. AFAA disclosed Air Force personnel
                                                      did not properly authorize access or configure
Air Force Emergency and Standby Generators            AOR network user accounts for foreign
Emergency and standby generators provide              nationals and contractors, did not label foreign
backup power to mission critical facilities and       national and contractor email accounts for clear
functions during power outages. Emergency             identification, and did not restrict network access
generators are permanently installed on               to sensitive data including access by unauthorized
mission critical facilities, while standby            foreign nationals and contractors. Thoroughly
portable generators provide backup power              investigated and approved foreign nationals and
as needed. As of March 1, 2011, the Air Force         contractors with properly configured accounts
maintained approximately 6,100 emergency              decrease the risk of untrustworthy individuals
generators and 2,200 standby generators               accessing sensitive information. In addition,
valued at approximately $1 billion and $64            clear, easily identifiable email display names and
million, respectively. Air Force personnel            addresses decrease the risk of unintentionally
did not properly authorize 149 generators or          disclosing sensitive information to unauthorized
properly match 341 generators to facility load        individuals. Finally, restricting access to shared
requirements. Eliminating unauthorized and            network drives and folders protects for official
oversized generator requirements will save the        use only, personally identifiable information and
Air Force $124.8 million over six years (execution    other sensitive information from unauthorized
year and the Future Years Defense Program).           distribution and use. On March 18, 2011,
In addition, personnel did not account for 128        AFCENT network personnel restricted user
(15 percent) of 847 emergency and standby             access to sensitive AOR network folders averting
generators reviewed. Properly accounting              more than $2.9 million in privacy breach
for real property equipment is essential for          notification costs to the Air Force.
                                                                                                                AFAA evaluated Air Force emergency
determining availability, location, and security of   Report No. F2012-0001-FB4000                              and standby generators.
vital equipment and facilities. Finally, personnel
did not test, perform oil changes or add safety

                                                                                                        OCTOBER 1, 2011 TO MARCH 31, 2012 81
Services



                               Defense Enterprise Accounting and Management         IT duplication within the Air Force will help
                               System Selected System Controls                      eliminate duplication and make more funds
                               The Defense Enterprise Accounting and                available to aid the warfighter. In addition,
                               Management System is an Office of Secretary          establishing a portfolio management IT training
                               of Defense, Comptroller initiative designed to       and education program that includes identifying
                               transform business and financial management          and eliminating duplicate IT systems will help
                               processes and systems. Once properly designed,       enhance the Air Force’s tactical, operational and
                               DEAMS will provide accurate, reliable and            strategic missions.
                               timely financial information to support effective    Report No. F2012-0004-FB2000
                               business decision making for U.S. Transportation
                               Command, Defense Finance and Accounting              Air National Guard Information Systems
                               Service and the Air Force. As of July 2010,          Security
                               DEAMS program costs have exceeded $147               Air National Guard base local area networks
                               million. Management requested $838.8 million in      are information systems connected to the
                               additional funding over the Future Years Defense     Air Force Network. To maintain information
                               Program. AFAA determined DEAMS personnel             system security, the Air Force requires the ANG
                               did not effectively implement segregation of         to comply with DoD Information Assurance
                               duties, interface and configuration management       Certification and Accreditation Process and the
                               controls. Strengthening segregation of duties,       Federal Information Security Management Act
                               interface and configuration management               of 2002. As of November 5, 2010, ANG reported
                               controls will enhance data integrity; promote        150 base local area networks in the Enterprise
                               complete, timely, reliable and auditable financial   Information Technology Data Repository. An
                               data; and could result in more than $86 million      audit to determine whether the ANG effectively
                               in potential monetary benefits.                      managed information system security revealed
                               Report No. F2012-0003-FB2000                         ANG officials did not properly perform system
                                                                                    certification and accreditation. Noncompliant
                               Information         Technology         Duplication   system certification and accreditation could
                               Identification Process                               result in undetected security vulnerabilities,
                               Within the Department of Defense, information        presenting unnecessary and avoidable risks
                               technology portfolio managers are charged            to the Air Force Network. Further, ANG
                               to identify opportunities for consolidation,         personnel did not properly register systems in
                               avoidance of IT system duplication, and if           the Enterprise Information Technology Data
                               there is a need for new investments, to enable       Repository. Incomplete and inaccurate system
                               reengineered processes to fill the gaps in           registration contributes to erroneous network
                               capabilities. Historically, IT resources have been   security assessments and inaccurate FISMA
                               managed and acquired as stand-alone systems          status reporting to the Office of Management
                               rather than an integral part of a net-centric        and Budget and Congress. Finally, ANG officials
                               capability, resulting in duplicate investments in    did not effectively manage system user accounts.
                               systems or platforms that deliver the same or        To maintain the confidentiality, integrity and
                               similar capabilities. As of September 9, 2011,       availability of critical Air Force information
                               there were 2,335 IT investments registered in        systems, system administrators assign unique
                               the Enterprise Information Technology Data           access rights and permissions to users to ensure
                               Repository. The FY 2012 IT budget reported           system and data access is limited to only those
                               for the president’s budget is $6.75 billion. AFAA    authorized.
                               determined Air Force IT governance and criteria      Report No. F2012-0002-FB4000
                               did not incorporate effective review procedures
                               to identify and prevent IT duplication. In           Acquisition Processes and
                               addition, Air Force management did not develop
                               or implement an effective training program for       Contract Management
                               portfolio managers to detect IT duplication.
                               Establishing an effective methodology to detect

82 SEMIANNUAL REPORT TO THE CONGRESS
Green Procurement: Standard Base Supply               result, the FY 2012 President’s Budget overstated
System Purchases                                      spare part requirements by $41 million over
The Federal Green Procurement Program                 six years (execution year and the Future Years
mandates agencies implement sustainable               Defense Program).
environmental practices for the acquisition           Report No. F2012-0005-FC3000
of green products. Agencies are required
to purchase United States Environmental               Requirement Computations for Items Without
Protection Agency-designated recycled-content         Recent Procurement
and Department of Agriculture-designated              The Secondary Item Requirements System
biobased products. Air Force personnel use the        (D200A) computes future weapon system
Standard Base Supply System to order supplies,        spare part buys and repair quantities. These
including EPA- and USDA-designated antifreeze,        computations pass to the Automated Budget
refined lubricating oil, sorbents and vehicle         Compilation System to form the basis for the
tires. In FY 2010, the Air Force spent more than      Air Force budget. An item that computes a
$17 million on these four products and more           buy requirement and does not have a recent
than $2.9 billion on all SBSS purchases. AFAA         procurement date may indicate the item is
auditors determined Air Force personnel did           no longer available. The March 2010 D200A
not purchase green alternatives for gear oil and      computation cycle showed 430 items with a
sorbents and missed opportunities to purchase         date of last procurement occurring in 1995
retread vehicle tires. Buying recycled and            or earlier and approximately $170 million in
biobased products complies with federal laws,         corresponding buy requirements. Logistics
conserves natural resources, reduces waste and        personnel could improve the effectiveness of
improves human safety and health. Maximizing          requirement computations for items without
green alternative purchases could save the Air        recent procurement. While logistics personnel
Force $2.8 million over six years (execution          planned for continued support of items that can
year and the Future Years Defense Program).           no longer be procured, logistics personnel did not
In addition, Air Force personnel did not make         accurately compute and support requirements
cost-efficient tire purchases for at least 79 stock   for items without recent procurement. As a result,
numbers reviewed. Making cost-efficient tire          logistics personnel overstated buy requirements;
purchases could save the Air Force $6.2 million       reducing the overstatement would allow the Air
over six years (execution year and the Future         Force to put $41.1 million to better use.
Years Defense Program).                               Report No. F2012-0006-FC4000
Report No. F2012-0004-FD1000
                                                      TF39 Engine Drawdown
C-130 Avionics Modernization Program                  The C-5 Galaxy aircraft, powered by four General
The C-130 Hercules aircraft is the Air Force’s        Electric TF39 engines, is a strategic airlift aircraft
primary tactical aircraft for air-dropping troops     flown by Air Mobility Command, Air National
and cargo into hostile areas. Because the C-130       Guard and Air Force Reserve Command
has been in inventory for more than 37 years, the     personnel. The Air Force plans to retire 22 C-5
Air Force initiated the Avionics Modernization        aircraft by FY 2013 and replace TF39 engines on
Program to upgrade and enhance the avionics           52 C-5 aircraft by the end of FY 2016. In addition,
equipment. The AMP will provide a modern              between FY 2012 and 2017, the Air Force plans
digital glass cockpit with multi-function             to overhaul 123 TF39 engines valued at $448
displays, wide field of view head-up displays,        million. The Air Force currently maintains 502
improved communication and navigation                 active TF39 engines valued at $1.8 billion. AFAA
capabilities, and night vision imaging. The C-130     disclosed Air Force personnel did not properly
AMP will modernize 221 aircraft with program          calculate or contract for TF39 engine overhaul
costs totaling more than $6.1 billion. While Air      requirements. Reducing TF39 engine overhaul
Force personnel adequately accomplished life-         requirements by available serviceable engines
cycle management planning, personnel did not          would reduce the TF39 overhaul budget by more               AFAA evaluated C-130 avionics
establish accurate spare part requirements. As a      than $190 million for FY 2013 through 2016.                 modernization program.


                                                                                                           OCTOBER 1, 2011 TO MARCH 31, 2012 83
Services



                               Contracting for only approved funded overhaul          satisfy active duty mission requirements that
                               quantities ensures the Air Force complies with         cannot be met with existing personnel. Man-day
                               the appropriation’s purpose and amount rules,          requirements should be limited to valid mission
                               remains within statutory funding limitations,          requirements because they represent additional
                               and avoids contract penalties.                         costs to the MPA in the form of full-time pay
                               Report No. F2012-0007-FC2000                           and benefits to ARC members. In FY 2011, the
                                                                                      Air Force budgeted more than $495 million for
                               Financial Management                                   man-days. AFAA determined Air Force officials
                                                                                      did not use man-days for valid mission needs.
                               Services Medical Activity – Air Force: Out-of-         Of 232 approved man-day requests reviewed,
                               Service Debt                                           command functional area managers approved
                               Out-of-service debt is a material component of         82, totaling more than $2.6 million, which either
                               the Service Medical Activity-Air Force financial       did not meet valid man-day requirements or did
                               statements. As of March 31, 2010, out-of-service       not adequately justify and certify the specific
                               debt accounted for more than $26 million               mission requirements. Using man-days for valid
                               of total reported accounts receivables in the          mission requirements will provide $33 million
                               accounts receivable line item. Medical accounts        over the next six years (execution year and the
                               receivables arise when payment for medical             Future Years Defense Program) to fund other
                               services, provided by the government, is not           service-wide priorities. In addition, personnel
                               made at the time services are provided. They           did not effectively monitor man-day execution.
                               are reported as a receivable if they are unpaid        Specifically, 25 percent of man-day requests
                               at the financial statement reporting date. Air         reviewed authorized more or less days than
                               Force Medical Service financial officers did not       originally allocated to the man-day mission.
                               accurately report the individual out-of-service        Based on statistical projection, at least 180,000
                               debt in the second quarter FY 2010 accounts            additional man-days (valued at $42 million) were
                               receivable balance. Specifically, medical              used without prior approval during the period
                               personnel did not properly process (identify,          reviewed. In addition, returning unused man-
                               support, record and transfer) out-of-service           days will provide approximately $72 million over
                               debt. As a result, military treatment facilities did   the next six years (execution year and the Future
                               not collect a potential $12 million in delinquent      Years Defense Program) to support mission
                               debt; financial managers could not support the         requirements.
                               accuracy and validity of the accounts receivables      Report No. F2012-0002-FD4000
                               reported in the financial statements; and the
                               accounts receivable line item was understated by       Support Equipment Budgeting Process
                               at least $10.7 million in the second quarter FY        Support equipment, such as generator sets,
                               2010 SMA-AF financial statements. In addition,         chemical detectors and maintenance platforms
                               debt collections were not properly processed           supports Air Force assigned missions. The
                               at the Debt and Claims Management Office.              operations and maintenance and investment
                               Proper follow-up procedures on debt collections        budgets include projections for current and
                               will allow the Air Force to accurately track and       future support equipment requirements.
                               validate out-of-service debts and make collected       Backorders aligned to authorizations without
                               funds available for immediate use. Retrieving the      valid on-hand inventory, are also included in
                               funds erroneously credited to FY 2005 through          budget projections. As of September 2011,
                               2009 will provide nearly $1.7 million for use in       the FY 2011 through 2016 support equipment
                               current operations.                                    budget included 4,089 items valued at $1.1
                               Report No. F2012-0001-FB3000                           billion with 3,700 backorders valued at about
                                                                                      $430 million. AFAA disclosed logistics personnel
                               Military Personnel Appropriation Man-days              did not accurately compute the operations and
                               Military personnel appropriation man-days              maintenance support equipment budget. As a
                               (hereafter referred to as man-days) are short-         result, personnel overstated the FY 2011 through
                               term Air Reserve component force support to            2016 budget by 6,041 items valued at $80.4

84 SEMIANNUAL REPORT TO THE CONGRESS
million. In addition, personnel did not always         obtains reimbursement from the Air Force
validate backorders. Cancelling unnecessary            surgeon general for the expenses related to these
authorizations and associated backorders will          collection actions. In FY 2010, MTFs collected
provide $19.5 million to fill valid requirements.      more than $2.3 million from MCRP claims.
Report No. F2012-0007-FC4000                           AFAA determined MTF officials either did not
                                                       identify or process 41 percent of MAC collection
Health Care                                            opportunities reviewed. Improving MAC
                                                       identification and processing procedures will
Internal    Medicine      Subspecialty     Clinic      result in potential monetary benefits of nearly
Optimization                                           $1.7 million over six years (execution year and
In an era of competing resources, military             Future Years Defense Program). In addition, Air
treatment facilities must have effective referral      Force Legal Operations Agency personnel could
management policies and sufficient internal            not support more than $550,000 in expenses and
medicine subspecialty appointments in which            did not provide the Air Force surgeon general
to schedule patients. Whenever IM subspecialty         with required annual reports accounting for
treatment cannot be provided within the MTF,           program charges. Adequately supported and
patients requiring these services are referred to      reported program expenses are necessary to
the TRICARE network (private sector purchased          evaluate whether funds are being appropriately
care) for treatment. During FY 2010, the Air           used.
Force spent approximately $102 million to              Report No. F2012-0004-FD2000
purchase IM subspecialty care from the private
sector while employing 196 IM subspecialists           Nuclear Enterprise
at 17 MTFs. AFAA disclosed that four MTFs
reviewed referred more than 2,300 IM                   Management of Air Force Nuclear Weapons-
subspecialty care patients to the private sector       Related Materiel Positive Inventory Controls
at an additional cost to DoD rather than using         The Air Force manages a worldwide supply chain
existing appointments and creating additional          supporting diverse nuclear-capable weapons
appointments from available clinic capacity.           systems and related materiel. Due to the sensitive
Improving IM subspecialty clinic appointment           nature of nuclear weapons-related materiel, Air
utilization and capacity management will               Force logistics management personnel initiated
increase the number of patients treated within         positive inventory controls to track NWRM
the MTF, resulting in increased physician              assets at the serial number level from the time         AFAA reviewed nuclear weapons-
readiness and reduced private sector care costs        an asset enters the Air Force inventory until the       related materiel inventory controls.

of approximately $3.7 million over six years           asset leaves the inventory. The positive inventory
(execution year and the Future Years Defense           control fusion database combines data feeds
Program).                                              from several systems in order to provide tracking
Report No. F2012-0001-FD2000                           capability. As of November 2010, item managers
                                                       were responsible for a worldwide NWRM
Medical Affirmative Claims                             inventory of more than 21,500 assets valued at
Third party liability claims, henceforth referred to   more than $6.7 billion. Although item managers
as medical affirmative claims, exist when a person     could track NWRM assets by serial number,
or entity, other than the injured party, is liable     not all managers used PIC fusion or conducted
for causing an injury or disease and treatment         daily reconciliations. Consistent utilization and
is provided at a military treatment facility.          reconciliation of PIC fusion helps ensure NWRM
The medical cost reimbursement program is a            data accuracy and visibility. Item managers did
coordinated effort between the judge advocate          not always maintain supporting documentation
general of the Air Force and the Air Force surgeon     for balance adjustments. Maintaining adequate
general. Specifically, MTFs identify and the Air       supporting documentation for adjustments is
Force Legal Operations Agency adjudicates and          essential for effective positive inventory control
collects MAC reimbursements for the MTFs. In           of NWRM assets.
return, the Air Force Legal Operations Agency          Report No. F2012-0003-FC4000

                                                                                                        OCTOBER 1, 2011 TO MARCH 31, 2012 85
Services



                                Air Force Ofﬁce of                                         were collecting and providing the Taliban
                                                                                           with information on coalition forces activi-

                                Special Investigations                                     ties. Four of the 13 had participated in two
                                                                                           indirect fire attacks against U.S. resources.
                                                                                      •	   Investigative activity near Shin and Dis-
                                Significant Activities                                     trict, Afghanistan revealed information that
                                                                                           led to an operation to capture a mid-level
                                AFOSI Investigative Activity in Afghanistan,               Taliban commander responsible for impro-
                                Kuwait and Iraq                                            vised explosive device and suicide bomber
                                Investigative activity conducted by AFOSI agents           attacks throughout Western Afghanistan.
                                was instrumental in the successful outcome of              He was tied to attacks since 2009 that killed
                                military operations.                                       two Afghan National police chiefs and sev-
                                •	 AFOSI investigative activity led to the iden-           en afghan national policemen.
                                     tification and subsequent capture of two         •	   In an investigative operation to identify
                                     local nationals working as contractors on             and neutralize internal threats to U.S. mili-
                                     projects with coalition forces on Kandahar            tary personnel and resources at locations
                                     Air Field, Afghanistan. These local nationals         in Kuwait, AFOSI members netted nine
                                     had extensive connections to area Taliban             third country nationals who were ultimately
                                     networks and were responsible for smug-               barred from all U.S. military installations.
                                     gling weapons and explosives for enemy                The third country nationals were found in
                                     forces.                                               possession of hand drawn maps of military
                                •	 In the vicinity of Kandahar Air Field, AFOSI            installations, gave false information to of-
                                     agents led military information operations            ficials, and in one case the individual was
                                     in identifying a Taliban facilitator who was          determined to be a violent extremist and
                                     directly responsible for indirect fire attacks        sympathizer to extremists activities.
                                     on U.S. and coalition forces. The facilitator    •	   AFOSI members stationed in the vicinity
                                     and his son had extensive ties to the Taliban.        of Kirkuk Regional Air Base, Iraq devel-
                                •	 AFOSI members in the Kandahar air field                 oped time critical information that lead to
                                     identified and collected information critical         the capture of four Jaysh Rijal al-Tariq al
AFOSI special agents conduct         to the capture of a Taliban sub-commander             Naqshabandi fighters who were in the pro-
operations in Southwest Asia.        with multiple associations to Taliban com-            cess of conducting an indirect fire attack on
                                     manders. This particular sub-commander                coalition forces. Along with the four indi-
                                     was responsible for the collection of weap-           viduals, Iraqi police elements seized four
                                     ons from nomads in the Daman region and               57mm rockets.
                                     their redistribution to different command-
                                     ers.                                             Significant Investigative Cases
                                •	 As a result of information collections in
                                     and around Bagram Air Field, Afghanistan,        $300,000 in Restitution to U.S. Transportation
                                     AFOSI agents identified an Iranian national      Command
                                     who obtained a Pakistani passport to gain        Overview:      USTRANSCOM            contracted
                                     employment at coalition forces locations.        Hummingbird Aviation, LLC, for helicopter
                                     Agents learned that this individual devel-       services in Afghanistan. However, the FAA
                                     oped plans to conduct an attack on a spe-        would not certify any of the helicopters for use
                                     cific coalition forces base.                     in Afghanistan and Hummingbird’s contract
                                •	 As a result of aggressive information opera-       with USTRANSCOM was terminated for
                                     tions in and around Bagram, AFOSI agents         convenience. Charles Priestley, the CEO for
                                     collected and presented information that         Hummingbird, requested payments to allow
                                     lead to the debarment or arrest of 13 local      the small business to continue operating and
                                     national contractors who worked on U.S. or       submitted a cost proposal for the termination
                                     coalition forces installations. These 13 local   for convenience. In total, USTRANSCOM paid
                                     nationals had ties to Taliban members and        Hummingbird nearly $1.9 million. As a means

86 SEMIANNUAL REPORT TO THE CONGRESS
of prodding the FAA to approve the use of its        Conspiracy; 118 - Murder; and 134 – General
helicopters in Afghanistan, Priestly stated that     Article for wrongly endeavoring to impede an
he back-dated the lease.                             investigation. He was sentenced to life in prison
Result: On January 23, 2012, in the U.S.             without the possibility of parole, reduced in rank
District Court, Southern District of Illinois,       to E-1, forfeiture of all pay and allowances, and
Priestley pleaded guilty to 18 U.S.C. section 287,   received a dishonorable discharge.
false, fictitious and fraudulent claim. He was
sentenced to serve five years of probation and to    Air Force Sergeant Receives 20 Months for
pay a $4,000 fine and $300,000 in restitution to     Possession of Child Pornography
USTRANSCOM. The Air Force, in accordance             Overview: An investigation was initiated in
with Federal Acquisition Regulation Subpart 9.4,     September 2010 based upon information from
issued a notice of debarment excluding Priestley     Immigrations and Customs Enforcement that an
and Hummingbird from federal contracting for         Air Force staff sergeant had used PayPal, an online
six years.                                           payment system, to purchase subscriptions to
                                                     child pornographic websites. During interviews
Convicted Murderer Sentenced to Life without         conducted by AFOSI and ICE, the sergeant
Parole                                               admitted to purchasing, downloading and
Overview: An investigation was initiated after       storing child pornographic images and videos
being notified by the 18th Security Forces           between 2006 and early 2010. The images and
Squadron, Kadena Air Base, Japan and Okinawa         videos were collected by downloading from
police department that an Air Force technical        the internet via websites and peer-to-peer file
sergeant was found dead in his off-base residence    sharing programs to his laptop and portable
by a coworker. An active duty Air Force neighbor     hard drive. The sergeant consented to a search of
reported hearing loud noises and fighting            his apartment and assisted law enforcement in
coming from the apartment between 4:00 a.m.          identifying computers and storage media likely
and 4:30 a.m. on February 6, 2011. The victim’s      to contain child pornography. That equipment
wife admitted to marital problems but denied         was examined and found to contain more than
involvement in her husband’s death. The wife         39,000 suspected child pornographic images and
told investigators that on February 3, 2011, she     approximately 725 suspected child pornographic
fought with her husband and after the argument       videos. This was investigated jointly with ICE
she started staying at a deployed friend’s off-      and AFOSI served as lead.
base residence. The wife stated that the night       Result: At general courts-martial, the sergeant
before her husband was killed she was with           pleaded guilty to UCMJ Article 134 – General
the staff sergeant. An ex-boyfriend of the wife      Article for possession of child pornography.
and coworker of the victim, the staff sergeant       He was sentenced to 20 months confinement,
revealed that he and the victim’s wife conspired     reduced in rank to E-1, forfeiture of all pay
on at least three plans to murder the technical      and allowances, and received a bad conduct
sergeant, starting as early as September 2010.       discharge. Sex offender notification is required.
The staff sergeant stated that the victim’s wife
had asked him to kill her husband. Additionally,     Lieutenant Commander Sentenced to 22 Years
he provided details on how he murdered the           Imprisonment for Sexual Exploitation of a Child
victim on February 6, 2011, and those details        Overview: An investigation was initiated October
were corroborated with evidence found at the         21, 2009, based upon information received from
victim’s residence and from the wounds to his        the Internet Crimes Against Children Task
body. This was investigated jointly with the         Force, Anchorage police department that a
Okinawa police department and AFOSI served           lieutenant commander assigned to Elmendorf
as the lead agency. Okinawa Police arrested the      Air Force Base maintained child pornography on
wife for conspiring to commit murder and the         a peer-to-peer file sharing network. The LCDR
legal proceedings for the wife are still pending.    was apprehended on October 22, 2009. Agents
Result: At general courts-martial, the staff         searched his off-base residence where they
sergeant pleaded guilty to UCMJ Articles 81 -        found numerous forms of computer hardware,

                                                                                                       OCTOBER 1, 2011 TO MARCH 31, 2012 87
Services



  “In September 2011,             media storage, and film that contained many        Unauthorized Disclosure to Foreign National
  during an update of             sexually explicit photos of young males. The       and Security Violation
                                  LCDR’s son was interviewed and disclosed that      Overview: In September 2011, during an update
  computer software               his father took sexually explicit photos of him    of computer software located on a cleared
  located on a cleared de-        while assigned to Sheppard AFB, Texas. The         defense contractor’s computer system, an
  fense contractor’s com-         investigation looked at the LCDR’s current and     unapproved wireless router was found attached
  puter system, an unap-          past interaction with various youth programs, to   to a computer located in a classified room at
  proved wireless router          include those while assigned to Sheppard AFB,      Teledyne. The wireless router was used by an
                                  TX from 2002-2006. Additionally, reviews of        individual to call a woman he met online who
  was found attached to           the LCDR’s hand-written journals disclosed that    lived in Vietnam. He later attached a webcam to
  a computer located in a         he “went too far” with young boys in the 1980s.    another unclassified computer at the site to web-
  classified room...”             AFOSI investigated this case jointly with the      chat online with the same woman in Vietnam.
                                  Internet Crimes Against Children Task Force.       Subject traveled to Vietnam to meet with this
                                  Result: On December 5, 2011, in U. S. District     woman. Subject was aware of committing a
                                  Court, District of Alaska, the LCDR pleaded        security violation by attaching a web-cam and
                                  guilty to violating 18 U.S.C. sections 2251(a)     wireless router. The employee worked as a test
                                  and (e), sexual exploitation of a child –          engineer on a classified contract for Raytheon
                                  production and attempted production of child       and the U.S. Air Force. Employee had no
                                  pornography; and 18 U.S.C. section 2252(a)         prior security violations. This case was jointly
                                  (2) and (b)(1), receipt and attempted receipt of   investigated with the FBI.
                                  child pornography. He was sentenced to 22 years    Result: Employee’s access and clearance to secure
                                  imprisonment and supervised release for life.      areas was revoked. He no longer has access
                                  Sex offender notification is required.             to classified information and is not deemed a
                                                                                     threat to national security, nor seems to have any
                                                                                     substantial positive intelligence value.




   88 SEMIANNUAL REPORT TO THE CONGRESS
             5


Appendices
Appendix A




Audit, Inspection, and
Evaluation Reports Issued
Copies of reports may be obtained from the appropriate issuing office by contacting:

	            DoD IG							                                                              Army Audit Agency
	            (703) 604-8937						                                                       (703) 693-5679
	            www.dodig.mil/PUBS					                                                    www.hqda.army.mil/aaaweb

	            Naval Audit Service					                                                   Air Force Audit Agency
	            (202) 433-5525						                                                       (703) 696-7904
	            www.hq.navy.mil/navalaudit				                                             www.afaa.af.mil

                                                                                               DoD IG                     Military Depts.                Total
     Joint Warfighting and Readiness                                                              8                             52                        60
     Information Assurance, Security, and Privacy                                                 4                             19                        23
     Acquisition Processes and Contract Management                                                25                            27                        52
     Financial Management                                                                         24                            49                        73
     Health and Safety                                                                            4                              9                        13
     Nuclear Enterprise                                                                           1                              1                        2
     Other                                                                                        3                             14                        17
     Total                                                                                       69                            171                       240




Joint Warfighting and Readiness
    Agency           Report Number         Report Title                                                                                     Date
    DoD IG           DODIG-2012-009        DoD Complied With Policies on Converting Senior Mentors to Highly Qualified Experts, but         10/31/2011
                                           Few Senior Mentors Converted
    DoD IG           DODIG-2012-026        Air Force Can Improve Controls Over Base Retail Inventory                                        11/23/2011
    DoD IG           DODIG-2012-028        Assessment of U.S. Government and Coalition Efforts to Develop the Logistics Sustainment         12/09/2011
                                           Capability of the Afghan National Army
    DoD IG           DODIG-2012-034        Assessment of Afghan National Security Forces Metrics-Quarterly (Classified)                     01/20/2012
    DoD IG           DODIG-2012-052        Report on the Program and Contract Infrastructure Technical Requirements for the Guam            02/08/2012
                                           Realignment Program
    DoD IG           DODIG-2012-054        Marine Corps Transition to Joint Region Marianas and Other Joint Basing Concerns                 02/23/2012
    DoD IG           DODIG-2012-063        Assessment of the DoD Establishment of the Office of Security Cooperation-Iraq                   03/16/2012
    DoD IG           DODIG-2012-064        Vulnerability and Risk Assessments Needed to Protect Defense Industrial Base Critical Assets     03/13/2012
    USAAA            A-2012-0002-ALS       Issuing Ammunition to Coalition Forces: Controls Over Transactions                               10/06/2011
    USAAA            A-2012-0010-FFS       Full-Time Support Staff, U.S. Army Reserve                                                       11/09/2011
    USAAA            A-2012-0012-IEE       Central Heating Distribution System, Joint Base Lewis-McChord, Washington                        11/08/2011


    90 SEMIANNUAL REPORT TO THE CONGRESS
Agency      Report Number        Report Title                                                                                        Date
USAAA       A-2012-0013-ALM      Follow-up Audit of Rotor Blades                                                                     11/08/2011
USAAA       A-2012-0015-FFM      Controls Over the Incentive Program in the Indiana Army National Guard, Joint Force                 11/03/2011
                                 Headquarters, Indiana Army National Guard and U.S. Property and Fiscal Office for Indiana
USAAA       A-2012-0016-IEE      Trend Report: Establishing Baselines and Reporting for Energy and Sustainability Federal            11/10/2011
                                 Mandates
USAAA       A-2012-0025-ALL      Agreed-Upon Procedures Attestation--Analysis of 45 Contracts Associated With Unit Supply            12/20/2011
                                 Operations at Combined Security Transition Command - Afghanistan; Kabul, Afghanistan (For
                                 Official Use Only)
USAAA       A-2012-0026-ALS      System Support for Command Supply Discipline Program                                                12/12/2011
USAAA       A-2012-0030-ALM      Follow-up Audit of Fleet Management of Firefinder Radars, CECOM Life Cycle Management               01/04/2012
                                 Command
USAAA       A-2012-0034-FFF      Training Within the ARFORGEN Model, Office of the Deputy Chief of Staff, G-3/5/7                    12/22/2011
USAAA       A-2012-0039-FFP      Army Implementation of Ration Control in Korea, U.S. Army Installation Management                   01/11/2012
                                 Command-Korea (For Official Use Only)
USAAA       A-2012-0040-FMF      Controls Over the Incentive Program in the Army National Guard                                      01/06/2012
USAAA       A-2012-0042-IEO      Audit of Joint Basing-Funding of Installation Services                                              01/10/2012
USAAA       A-2012-0043-MTP      Audit of the Army's Installation Actions Taken to Implement Fort Hood Recommendations               01/13/2012
USAAA       A-2012-0050-MTT      Ground Operating Tempo Program Reporting and Execution                                              02/02/2012

USAAA       A-2012-0051-IEO      Installation Facilities and Operations Support, Assistant Chief of Staff for Installation           01/20/2012
                                 Management
USAAA       A-2012-0053-MTP      Readiness of Army Units Allocated to Support the Chemical, Biological, Radiological, Nuclear,       01/25/2012
                                 and High-Yield Explosive Consequence Management Response Force
USAAA       A-2012-0054-ALS      Audit of the Item Unique Identification Program, Aviation Project Management Offices                01/26/2012
USAAA       A-2012-0055-ALS      Audit of the Item Unique Identification Program, Combat Support and Combat Service                  01/26/2012
                                 Support Project Management Offices
USAAA       A-2012-0056-ALS      Audit of the Item Unique Identification Program, Ground Combat Systems Project                      01/26/2012
                                 Management Offices
USAAA       A-2012-0057-ALS      Item Unique Identification Program                                                                  02/27/2012
USAAA       A-2012-0059-FMP      Army Service Component Command Transition Process, U.S. Army Pacific (For Official Use              02/14/2012
                                 Only)
USAAA       A-2012-0060-MTH      Application of Army Reenlistment Standards                                                          02/02/2012
USAAA       A-2012-0062-ALM      Depot-Level Maintenance Workload Reporting - FY 10                                                  02/21/2012
USAAA       A-2012-0064-IEM      Child, Youth and School Services Staffing Requirements, Fort Bliss, Texas                           02/13/2012
USAAA       A-2012-0067-FMP      Watercraft Readiness and Operations, Hawaii                                                         03/01/2012
USAAA       A-2012-0068-MTS      Institutional Training for the Adjutant General Workforce                                           03/01/2012
USAAA       A-2012-0069-MTS      Operational Training for the Adjutant General Workforce                                             03/01/2012
USAAA       A-2012-0070-MTE      Audit of the U.S. Equipment Transfer to Iraq Program--Phase II (For Official Use Only)              03/16/2012
USAAA       A-2012-0071-ALS      Materiel Release Process for Munitions Previously Fielded by Other Military Services                03/20/2012
USAAA       A-2012-0072-MTE      Commander's Emergency Response Program, U.S. Forces - Afghanistan (For Official Use Only)           03/16/2012
USAAA       A-2012-0074-MTT      Follow-up Audit of Use of Role Players-Army wide                                                    03/08/2012
USAAA       A-2012-0075-MTS      Mission Support Elements                                                                            03/13/2012
USAAA       A-2012-0077-MTE      Audit of Property Accountability of Organizational and Theater-Provided Equipment in Iraq           03/13/2012
USAAA       A-2012-0081-MTE      Audit of Bulk Fuel Accountability in Afghanistan--Phase 1 (For Official Use Only)                   03/21/2012
NAVAUDSVC   N2012-0002           Marine Corps Small Arms Accountability                                                              10/20/2011
AFAA        F-2012-0001-FC2000   Corrosion Control Management                                                                        10/03/2011
AFAA        F-2012-0002-FC2000   Aircraft Structural Integrity Program for Fighter Aircraft                                          12/05/2011
AFAA        F-2012-0003-FC2000   Foreign Military Sales Engine Programs                                                              01/23/2012
AFAA        F-2012-0004-FC2000   Technical Order Management                                                                          01/27/2012
AFAA        F-2012-0006-FC2000   Technical Order Management in the United States Air Forces Central Area of Responsibility           02/27/2012


                                                                                                                     OCTOBER 1, 2011 TO MARCH 31, 2012 91
Appendix A
Agency           Report Number          Report Title                                                                                  Date
AFAA             F-2012-0001-FC4000     Care of Supplies in Storage                                                                   10/11/2011
AFAA             F-2012-0002-FC4000     Aircraft Fuels Servicing Vehicles                                                             10/12/2011
AFAA             F-2012-0004-FC4000     Special Purpose Recoverables Authorized Maintenance                                           12/15/2011
AFAA             F-2012-0005-FC4000     Legacy Equipment Item Unique Identifier Implementation                                         02/14/2012
AFAA             F-2012-0005-FD1000     Air Force Emergency and Standby Generators                                                    02/03/2012
AFAA             F-2012-0001-FD3000     Expeditionary Site Survey Process                                                             10/03/2011
AFAA             F-2012-0003-FD3000     Worldwide War Reserve Materiel                                                                10/25/2011
AFAA             F-2012-0004-FD3000     Air Force Range Optimization                                                                  11/07/2011
AFAA             F-2012-0005-FD3000     United States Air Forces Central Deployed Locations Storage Container Management              12/07/2011
AFAA             F-2012-0006-FD3000     Integrated Defense Program                                                                    01/10/2012
AFAA             F-2012-0001-FD4000     Interim Report of Audit, Air Force Reserve Command Mobility Graduate Flying Training          10/26/2011
                                        Program


Information Assurance, Security, & Privacy
Agency            Report Number         Report Title                                                                                  Date
DoD IG            DODIG-2012-001        Assessment of Security Within the Department of Defense – Training , Certification, and       10/06/2011
                                        Professionalization
DoD IG            DODIG-2012-050        Improvements Needed With Host-Based Intrusion Detection Systems (For Official Use Only)       02/03/2012
DoD IG            DODIG-2012-053        Investigation of Sensitive Compartmented Information Leaks in the Department of Defense       02/28/2012
                                        (Classified)
DoD IG            DODIG-2012-056        An Investigation on Sensitive Compartmented Information of Leaks in the Department of         02/27/2012
                                        Defense
USAAA             A-2012-0007-IET       Energy Management for Information Technology                                                  10/31/2011
USAAA             A-2012-0031-FFD       Workforce Requirements for Expeditionary Forensics, Office of the Provost Marshal General     12/27/2011
                                        and U.S. Army Criminal Investigation Command (For Official Use Only)
USAAA             A-2012-0033-IET       Agents of the Certification Authority, Army Chief Information Officer/G-6                     12/21/2011
USAAA             A-2012-0044-MTP       Time-Sensitive Report, Audit of Army Personnel Actions Taken to Implement Fort Hood           01/13/2012
                                        Recommendations (For Official Use Only)
USAAA             A-2012-0047-FMT       Attestation Review of Enterprise E-mail Cost-Benefit Analysis                                 01/19/2012
USAAA             A-2012-0066-FMI       Workload Survey - Army intelligence Program Funding (For Official Use Only)                   02/15/2012
USAAA             A-2012-0073-MTP       Vulnerability Assessments and Risk Mitigation Plans for Non-Installation U.S. Army Corps of   03/12/2012
                                        Engineers Sites (For Official Use Only)
USAAA             A-2012-0080-MTP       Audit of Army Personnel Actions Taken to Implement Fort Hood Recommendations                  03/22/2012
NAVAUDSVC         N2012-0009            Personally Identifiable Information and Department of the Navy Data on Unencrypted            12/08/2011
                                        Computer Hard Drives Released From Department of the Navy Control
NAVAUDSVC         N2012-0014            Protecting Personally Identifiable Information (PII) at Selected Department of the Navy       01/09/2012
                                        Classified Activities (Classified)
NAVAUDSVC         N2012-0019            Freedom of Information Act Implementation in the Department of the Navy                       02/06//2012
NAVAUDSVC         N2012-0025            Protecting Personally Identifiable Information at the Naval Sea Systems Command Human         03/09/2012
                                        Resources Offices
AFAA              F-2012-0001-FB2000    National Security System Classification                                                       11/18/2011
AFAA              F-2012-0003-FB2000    Defense Enterprise Accounting and Management System Selected System Controls                  01/17/2012
AFAA              F-2012-0004-FB2000    Information Technology Duplication Identification Process                                     02/01/2012
AFAA              F-2012-0001-FB4000    United States Air Forces Central Deployed Locations Network Controls                          10/24/2011
AFAA              F-2012-0002-FB4000    Air National Guard Information Systems Security                                               01/11/2012
AFAA              F-2012-0003-FB4000    System Vulnerability Detection and Mitigation                                                 02/16/2012
AFAA              F-2012-0005-FB4000    Follow-up Audit, Information Systems Inventory                                                03/15/2012


Acquisition Processes and Contract Management
 92 SEMIANNUAL REPORT TO THE CONGRESS
Agency   Report Number     Report Title                                                                                         Date
DoD IG   DoDIG-2012-002    Hotline Complaint Involving Auditor Independence at a Field Audit Office in the Defense              10/16/2011
                           Contract Audit Agency, Western Region
DoD IG   DODIG-2012-004    Changes Are Needed to the Army Contract With Sikorsky to Use Existing DoD Inventory and              11/03/2011
                           Control Costs at the Corpus Christi Army Depot (For Official Use Only)
DoD IG   DODIG-2012-005    DoD Countermine and Improvised Explosive Device Defeat Systems Contracts for the Vehicle             10/28/2011
                           Optics Sensor System
DoD IG   DODIG-2012-006    Counter Narcoterrorism Technology Program Office Task Orders Had Excess Fees, and the Army           11/01/2011
                           Was Incorrectly Billed (For Official Use Only)
DoD IG   DODIG-2012-007    Acquisition of the Multi-Platform Radar Technology Insertion Program Needs Transparency              11/02/2011
                           and Accountability (For Official Use Only)
DoD IG   DODIG-2012-017    U.S. Naval Academy Officials Did Not Adhere to Contracting and Gift Policies                         11/07/2011
DoD IG   DODIG-2012-029    Report on Quality Control Review of Grant Thornton, LLP FY 2009 Single Audit of Concurrent           12/05/2011
                           Technologies Corporation
DoD IG   DODIG-2012-030    Contractor Compliance Varied with Classification of Lobbying Costs and Reporting of                  12/12/2011
                           Lobbying Activities (For Official Use Only) * This report was rescinded on April 5, 2012, and will
                           be re-issued as report number DODIG-2012-030R.
DoD IG   DODIG-2012-031    Acquisition Procedures for the Guam Design-Build Multiple Award Construction Contract (For           12/08/2011
                           Official Use Only)
DoD IG   DODIG-2012-033    Award and Administration of Multiple Award Contracts for Services at U.S. Army Medical               12/21/2011
                           Research Acquisition Activity Need Improvement
DoD IG   DODIG-2012-036    DoD Needs to Improve Accountability and Identify Costs and Requirements for Non-Standard             01/05/2012
                           Rotary Wing Aircraft (For Official Use Only)
DoD IG   DODIG-2012-037    American Recovery and Reinvestment Act - U.S. Army Corps of Engineers Mobile District                01/06/2012
                           Contractor Performance and Reporting Controls Were Generally Effective
DoD IG   DODIG-2012-038    Hotline Complaint Concerning Inadequate Audit Services Provided by an Audit Team in the              01/10/2012
                           Defense Contract Audit Agency, Mid-Atlantic Region
DoD IG   DODIG-2012-039    Summary Report on DoD's Management of Undefinitized Contractual Actions                              01/13/2012
DoD IG   DODIG-2012-041    Evaluation of DoD Contracts Regarding Combating Trafficking in Persons: U.S. European                01/17/2012
                           Command and U.S. Africa Command
DoD IG   DODIG-2012-042    Naval Air Systems Command Lakehurst Contracts Awarded Without Competition Were                       01/20/2012
                           Properly Justified
DoD IG   DODIG-2012-045    Quality Control Review of Army Audit Agency’s Special Access Program Audits                          10/27/2012
DoD IG   DODIG-2012-046    Performance and Reporting Controls Over American Recovery and Reinvestment Act Projects              01/30/2012
                           at Fort Wainwright, Alaska, and Fort Huachuca, Arizona, Were Generally Effective
DoD IG   DODIG-2012-048    Implementation and Reporting of the American Recovery and Reinvestment Act of 2009:                  02/01/2012
                           Government Controls Over Selected Near Term Energy-Efficient Technologies Projects Were
                           Generally Effective
DoD IG   DODIG-2012-049    Improvements Needed With Identifying Operating Costs Assessed to the Fleet Readiness                 02/02/2012
                           Center Southwest
DoD IG   DODIG-2012-057    Guidance Needed to Prevent Military Construction Projects from Exceeding the Approved                02/27/2012
                           Scope of Work
DoD IG   DODIG-2012-059    Inadequate Controls Over the DoD Service-Disabled Veteran-Owned Small Business Set-Aside             02/29/2012
                           Program Allow Ineligible Contractors to Receive Contracts
DoD IG   DODIG-2012-060    Defense Contract Management Agency's Investigation and Control of Nonconforming                      03/09/2012
                           Materials
DoD IG   DoDIG-2012-061    Report on Quality Control Review of the Raich Ende Malter & Co. LLP FY 2009 Single Audit of          03/07/2012
                           the Riverside Research Institute
DoD IG   DODIG-2012-062    Contractor-Invoiced Costs Were Accurate, but DoD Did Not Adequately Track Funding                    03/08/2012
USAAA    A-2012-0003-ALA   Audit of Weapon System Requirements Process                                                          10/12/2011
USAAA    A-2012-0005-IEI   Military Construction Contract, U.S. Army Corps of Engineers Fort Worth District,                    10/21/2011
                           Unaccompanied Enlisted Personnel Housing for Brigade Combat Teams 1, 2, and 3, Fort Bliss,
                           Texas



                                                                                                             OCTOBER 1, 2011 TO MARCH 31, 2012 93
Appendix A
Agency          Report Number          Report Title                                                                                     Date
USAAA           A-2012-0008-FFT        Warfighter Field Operations Customer Support Contract                                            10/27/2011
USAAA           A-2012-0011-ALC        Contracting Operations in Support of Arlington National Cemetery, Mission and Installation       10/27/2011
                                       Contracting Command-Fort Belvoir
USAAA           A-2012-0017-ALC        Army Contract Renewals, U.S. Army Mission and Installation Contracting Command Center,           11/10/2011
                                       Fort Knox and U.S. Army Corps of Engineers, Sacramento District
USAAA           A-2012-0018-IET        Information Technology Service Contract, Program Executive Office Simulation, Training, and      11/21/2011
                                       Instrumentation
USAAA           A-2012-0019-IEI        Military Construction Contract, U.S. Army Corps of Engineers Sacramento District, 212th Fires    11/15/2011
                                       Brigade Headquarters Building, Fort Bliss, Texas
USAAA           A-2012-0020-ALA        Army Rapid Acquisition Processes Testing Procedures, U.S. Army Test and Evaluation Command       11/21/2011
USAAA           A-2012-0021-ALC        Contracting Operations in Support of Arlington National Cemetery, Army Contracting               11/18/2011
                                       Command, National Capital Region
USAAA           A-2012-0024-ALL        Agreed-Upon Procedures Attestation to Determine the Sources and Costs for the U.S.               12/05/2011
                                       Government's Late Cancellation of Host Nation Trucking Missions, Afghanistan (For Official Use
                                       Only)
USAAA           A-2012-0027-IEE        Hurricane and Storm Damage Risk Reduction System: Contract Modification Data, U.S. Army          12/09/2011
                                       Corps of Engineers, Mississippi Valley Division, New Orleans District and Task Force Hope
USAAA           A-2012-0049-MTE        Controls Over Vendor Payments (Phase II) Southwest Asia (For Official Use Only)                  02/16/2012
USAAA           A-2012-0061-IEE        American Recovery and Reinvestment Act of 2009: Project Outcomes and Recipient Reporting,        02/14/2012
                                       U.S. Army Corps of Engineers Savannah District
USAAA           A-2012-0078-ALE        Agreed-Upon Procedures Attestation of Port Services Contracts in Europe (For Official Use        03/15/2012
                                       Only)
USAAA           A-2012-0086-IEO        Audit of the Base Realignment and Closure Act 2005 - Phaseout of Support Contracts               03/30/2012
NAVAUDSVC       N2012-0003             Department of the Navy Acquisition and Disbursing Checks and Balances at Camp Lemonnier,         11/09/2011
                                       Djibouti, Africa
NAVAUDSVC       N2012-0007             Communications Security Equipment Provided to U.S. Industrial Firms under Contract to the        12/06/2011
                                       Department of the Navy (Classified)
NAVAUDSVC       N2012-0011             Implementation of Earned Value Management for the Future Aircraft Carrier Program                12/22/2011
AFAA            F-2012-0001-FC1000     Transition of Contract Senior Mentors to Highly Qualified Experts                                10/17/2011
AFAA            F-2012-0007-FC2000     TF39 Engine Drawdown                                                                             03/01/2012
AFAA            F-2012-0001-FC3000     Acquisition Category III Program Management                                                      11/04/2011
AFAA            F-2012-0002-FC3000     B-1 Cockpit Modifications                                                                        11/22/2011
AFAA            F-2012-0003-FC3000     Acquisition Programs at Air Logistics Centers                                                    01/09/2012
AFAA            F-2012-0004-FC3000     QF-16 Full Scale Aerial Target Program Planning                                                  01/24/2012
AFAA            F-2012-0005-FC3000     C-130 Avionics Modernization Program                                                             01/31/2012
AFAA            F-2012-0006-FC4000     Requirement Computations for Items without Recent Procurement                                    02/17/2012
AFAA            F-2012-0004-FD1000     Green Procurement: Standard Base Supply System Purchases                                         01/25/2012


Financial Management
Agency          Report Number          Report Title                                                                                     Date
DoD IG          DODIG-2012-008         Independent Auditor's Report on the DoD Military Retirement Fund, FY 2011 and FY 2010            11/04/2011
                                       Basic Financial Statements
DoD IG          DODIG-2012-010         Independent Auditor's Report on the Air Force General Funds FY 2011 and FY 2010 Basic            11/08/2011
                                       Financial Statements
DoD IG          DODIG-2012-011         Independent Auditor's Report on the Air Force Working Capital Funds FY 2011 and FY 2010          11/08/2011
                                       Basic Financial Statements
DoD IG          DODIG-2012-012         Independent Auditor's Report on the Army General Fund FY 2011 and FY 2010 Basic Financial        11/08/2011
                                       Statements
DoD IG          DODIG-2012-013         Independent Auditor's Report on the Army Working Capital Fund FY 2011 and FY 2010 Basic          11/08/2011
                                       Financial Statements



94 SEMIANNUAL REPORT TO THE CONGRESS
Agency   Report Number     Report Title                                                                                       Date
DoD IG   DODIG-2012-014    Independent Auditor's Report on the Navy General Fund FY 2011 and FY 2010 Basic Financial          11/08/2011
                           Statements
DoD IG   DODIG-2012-015    Independent Auditor's Report on the Navy Working Capital Fund FY 2011 and FY 2010 Basic            11/08/2011
                           Financial Statements
DoD IG   DODIG-2012-016    Independent Auditor's Report on the United States Marine Corps General Fund FY 2011 and            11/08/2011
                           FY 2010 Combined Statement of Budgetary Resources
DoD IG   DODIG-2012-018    Endorsement of the Qualified Opinion on the DoD Medicare-Eligible Retiree Health Care Fund         11/16/2011
                           FY 2011 and FY 2010 Basic Financial Statements
DoD IG   DODIG-2012-019    Endorsement of the Unqualified Opinion on the TRICARE Management Activity's Contract               12/02/2011
                           Resource Management FY 2011 and FY 2010 Basic Financial Statements (For Official Use Only)
DoD IG   DODIG-2012-020    Independent Auditor's Report on the U.S. Army Corps of Engineers, Civil Works, FY 2011 and         11/14/2011
                           FY 2010 Basic Financial Statements
DoD IG   DODIG-2012-021    Independent Auditor's Report on the DoD Agency-Wide FY 2011 and FY 2010 Basic Financial            11/15/2011
                           Statements
DoD IG   DODIG-2012-022    Independent Auditor's Report on the Department of Defense Special Purpose Financial                11/15/2011
                           Statements for Fiscal Years Ending September 30, 2011 and 2010
DoD IG   DODIG-2012-023    Management Improvements Needed in Commander's Emergency Response Program in                        11/21/2011
                           Afghanistan
DoD IG   DODIG-2012-027    Deficiencies in Journal Vouchers That Affected the FY 2009 Air Force General Fund Statement        12/01/2011
                           of Budgetary Resources
DoD IG   DODIG-2012-032    Funding for Enhancements to the Standard Procurement System                                        12/14/2011
DoD IG   DODIG-2012-035    American Recovery and Reinvestment Act - Improvements Needed in Implementing the                   12/21/2011
                           Homeowners Assistance Program
DoD IG   DODIG-2012-040    Independent Auditor's Report on the Attestation of the Existence, Completeness, and Rights         01/19/2012
                           of the Department of the Navy's Ships and Submarines, Trident Missiles and Satellites
DoD IG   DODIG-2012-043    Army Needs to Identify Government Purchase Card High-Risk Transactions                             01/20/2012
DoD IG   DODIG-2012-047    Independent Auditor’s Report on the DoD FY 2011 Detailed Accounting Report of the Funds            01/30/2012
                           Obligated for National Drug Control Program Activities
DoD IG   DODIG-2012-051    Navy Enterprise Resource Planning System Does Not Comply With the Standard Financial               02/13/2012
                           Information Structure and U.S. Government Standard General Ledger
DoD IG   DODIG-2012-058    Distribution of Funds and Mentoring of Finance Officers for the Afghanistan National Army          02/29/2012
                           Payroll Need Improvement
DoD IG   DODIG-2012-065    DoD Compliance With the Requirements of the Improper Payments Elimination and Recovery             03/15/2012
                           Act
DoD IG   DODIG-2012-066    General Fund Enterprise Business System Did Not Provide Required Financial Information             03/26/2012
USAAA    A-2012-0004-FFP   Host Nation Support--Korea, Office of the Assistant Chief of Staff for Installation Management     10/25/2011
                           (For Official Use Only)
USAAA    A-2012-0006-IEO   Audit of the Office of the Chief Legislative Liaison Fund Controls and Business Practices          10/19/2011
USAAA    A-2012-0009-FFS   Implementing the Temporary Change of Station Action Plan                                           11/09/2011
USAAA    A-2012-0014-FFR   Independent Auditor's Report for FY 11 American Red Cross Financial Statements                     11/02/2011
USAAA    A-2012-0022-FFM   Army Executive Dining Facility Fund Financial Statements, Office of the Administrative             12/06/2011
                           Assistant to the Secretary of the Army
USAAA    A-2012-0023-FFM   Army Executive Dining Facility Fund Internal Controls, Office of the Administrative Assistant to   12/06/2011
                           the Secretary of the Army
USAAA    A-2012-0028-ALS   Time Sensitive Report for the Audit of Second Destination Transportation Funding                   12/15/2011
                           Requirements (For Official Use Only)
USAAA    A-2012-0036-FFR   National Science Center's Special Fund Financial Statement, Fort Gordon, Georgia (For Official     01/04/2012
                           Use Only)
USAAA    A-2012-0037-FFR   Issues for Management Consideration, Audit of National Science Center Special Fund Financial       01/04/2012
                           Statement (For Official Use Only)
USAAA    A-2012-0038-FFM   Army Defense Travel System Permission Levels, Deputy Assistant Secretary of the Army               12/22/2011
                           (Financial Operations)
USAAA    A-2012-0041-FMF   Controls Over Contributions from the Afghanistan Security Forces Fund (For Official Use Only)      02/14/2012


                                                                                                             OCTOBER 1, 2011 TO MARCH 31, 2012 95
Appendix A


Agency          Report Number          Report Title                                                                                 Date
USAAA           A-2012-0046-IEE        American Recovery and Reinvestment Act of 2009: Project Outcomes and Recipient Reporting,    01/19/2012
                                       U.S. Corps of Engineers Philadelphia District
USAAA           A-2012-0048-FMI        Temporary Duty Authorizations and Vouchers, Program Executive Office Missiles and Space,     02/13/2012
                                       Precision Fires Rocket Missile Systems
USAAA           A-2012-0058-FMF        Agreed-Upon Procedures Attestation Validating Communications-Electronics Command             01/20/2012
                                       Inventory Values (For Official Use Only)
USAAA           A-2012-0063-FMF        Agreed-Upon Procedures Attestation of Program Manager-Defense Communications and             02/09/2012
                                       Army Transmission Systems Reimbursable Operations (For Official Use Only)
USAAA           A-2012-0079-FMF        Controls Over Unemployment Compensation Program for Ex-Service Members                       03/16/2012
USAAA           A-2012-0084-ALE        Attestation Examination of Army Suggestion Proposal EUDG08027O                               03/28/2012
USAAA           A-2012-0085-MTE        Micro-Purchases by Field Ordering Officers, Afghanistan                                      03/30/2012
NAVAUDSVC       N2012-0005             Business Process Reengineering Efforts for Selected Department of the Navy Business System   11/17/2011
                                       Modernizations; Global Combat Support System - Marine Corps
NAVAUDSVC       N2012-0006             Department of the Navy Nonappropriated Fund Purchase Card Pilot Program                      11/22/2011
NAVAUDSVC       N2012-0018             Department of the Navy Fiscal Years 2009 and 2010 Reimbursable Orders at Selected Fleet      02/01/2012
                                       Activities
NAVAUDSVC       N2012-0022             Department of the Navy Military Standard Requisitioning and Issue Procedures Internal        02/21/2012
                                       Controls
NAVAUDSVC       N2012-0024             Business Process Reengineering Efforts for Selected Department of the Navy Business System   03/06/2012
                                       Modernizations; Personalized Recruiting for Immediate and Delayed Enlisted Modernization
NAVAUDSVC       N2012-0026             Independent Attestation - Agreed-Upon Procedures Attestation Engagement of Assessing         03/15/2012
                                       Internal Controls Over Financial Reporting in the Department of the Navy
NAVAUDSVC       N2012-0028             Independent Attestation - Agreed-Upon Procedures Attestation Engagement of the Office of     03/28/2012
                                       Naval Research Statement of Budgetary Resources
AFAA            F-2012-0001-FB1000     Air Mobility Command Fuel Efficiency Governance Process                                      01/17/2012
AFAA            F-2012-0002-FB1000     Air Force Smart Operations for the 21st Century Savings Validation                           02/17/2012
AFAA            F-2012-0003-FB1000     Debt Remission                                                                               02/27/2012
AFAA            F-2012-0004-FB1000     Air Force Services Funds Management                                                          03/09/2012
AFAA            F-2012-0002-FB2000     Automated Funds Management - Accounting Conformance (REVISED)                                01/11/2012
AFAA            F-2012-0001-FB3000     Service Medical Activity - Air Force: Out-of-Service Debt                                    10/03/2011
AFAA            F-2012-0002-FB3000     General Fund General Equipment - Medical Equipment                                           10/14/2011
AFAA            F-2012-0003-FB3000     Memorandum Report of Audit, Operating Materials and Supplies - Missile Motor                 12/05/2011
                                       Accountability
AFAA            F-2012-0004-FB3000     Overall Health of General Fund Real Property Financial Reporting                             12/07/2011
AFAA            F-2012-0005-FB3000     Memorandum Report of Audit, Civilian Pay Process - Defense Industrial Financial Management   02/22/2012
                                       System
AFAA            F-2012-0006-FB3000     Memorandum Report of Audit, Operating Materials and Supplies - Aircraft Engine               02/22/2012
                                       Accountability
AFAA            F-2012-0004-FB4000     Information Technology Efficiencies Initiative Governance                                    03/14/2012
AFAA            F-2012-0005-FC2000     Aircraft Parts Sustainment Engineering                                                       01/31/2012
AFAA            F-2012-0006-FC3000     Air Force Test Center Infrastructure Funding                                                 02/15/2012
AFAA            F-2012-0007-FC4000     Support Equipment Budgeting Process                                                          02/28/2012
AFAA            F-2012-0001-FD1000     Interim Report of Audit, Baseline Adjustments to the Annual Energy Management Report         10/03/2011
AFAA            F-2012-0002-FD1000     Base Realignment and Closure 2005 Finalization                                               10/26/2011
AFAA            F-2012-0003-FD1000     Fiscal Year 2011 Utilities Privatization Economic Analyses                                   11/04/2011
AFAA            F-2012-0006-FD1000     Medical Real Property Records                                                                03/12/2012
AFAA            F-2012-0007-FD1000     United States Air Forces Central Area of Responsibility Utilities                            03/13/2012
AFAA            F-2012-0008-FD1000     Air Force Real Property - Administrative Space Utilization                                   03/14/2012



96 SEMIANNUAL REPORT TO THE CONGRESS
Agency      Report Number         Report Title                                                                                    Date
AFAA        F-2012-0003-FD2000    Medical Food Service Accounting                                                                  01/30/2012
AFAA        F-2012-0002-FD3000    Intelligence Contingency Funds - Fiscal Year 2010                                               10/12/2011
AFAA        F-2012-0002-FD4000    Military Personnel Appropriation Man-Days                                                       11/22/2011


Health and Safety
Agency       Report Number         Report Title                                                                                  Date
DoD IG       D-2011-TAD-002        Assessment of the BRAC 133 Mark Center Emergency Generator Fueling (Classified)               10/07/2011
DoD IG       DODIG-2012-003        Review of Matters Related to the Sexual Assault of Lance Corporal Maria Lauterbach, U.S.      10/18/2011
                                   Marine Corps
DoD IG       DODIG-2012-055        Inspection of DoD Detainee Transfers and Reliance on Assurances (Classified)                  02/23/2012
DoD IG       DODIG-2012-067        Assessment of DoD Wounded Warrior Matters - Camp Lejeune                                      03/30/2012
USAAA        A-2012-0001-IEM       Audit of Behavioral Health Programs, U.S. Army Garrison, Fort Sam Houston                     10/04/2011
USAAA        A-2012-0032-IEM       Follow-up Audit of Trauma Services Cooperative Agreement, Brooke Army Medical Center,         12/20/2011
                                   Fort Sam Houston, Texas
USAAA        A-2012-0035-IEE       Audit of Federal Employee Compensation Act Fraud Investigation (For Official Use Only)        01/10/2012
USAAA        A-2012-0045-ALE       Preventive Healthcare Initiatives in Europe, Public Health Command Region-Europe (For         01/11/2012
                                   Official Use Only)
AFAA         F-2012-0001-FD2000 Internal Medicine Subspecialty Clinic Optimization                                               11/01/2011
AFAA         F-2012-0002-FD2000 Patient Safety Program                                                                           11/21/2011
AFAA         F-2012-0004-FD2000 Medical Affirmative Claims                                                                       02/02/2012
AFAA         F-2012-0005-FD2000 Air Force Medical Service Workforce Diversity                                                    02/23/2012
AFAA         F-2012-0003-FD4000 Outdoor Recreation Safety                                                                        03/08/2012


Nuclear Enterprise
Agency       Report Number          Report Title                                                                                 Date
DoD IG       DODIG-2012-044         Status of Recommendations to Improve the Department of Defense Nuclear Enterprise -          01/24/2012
                                    Phase II
AFAA         F-2012-0003-FC4000     Management of Air Force Nuclear Weapons-Related Materiel Positive Inventory Controls         11/03/2011


Other
Agency       Report Number          Report Title                                                                                 Date
DoD IG       DODIG-2012-024         Independent Engineering Assessment of the Army’s Transportation Plan for the BRAC            11/30/ 2011
                                    Recommendation #133 Project Fort Belvoir – Mark Center, Virginia
DoD IG       DODIG-2012-025         Review of Matters Related to the Office of the Assistant Secretary of Defense (Public        11/21/2011
                                    Affairs) Retired Military Analyst Outreach Activities
DoD IG       DODIG-2012-068         Assessment of Voting Assistance Programs for Calendar Year 2011                              03/30/2012
NAVAUDSVC    N2012-0001             Naval Pilot and Naval Flight Officer Diversity                                               10/19/2011
NAVAUDSVC    N2012-0004             Strategy for Considering Energy Efficient and Renewable Energy Initiatives Associated with   11/15/2011
                                    the United States Marine Corps Guam Relocation Effort
NAVAUDSVC    N2012-0008             Consideration of Requirements for U.S. Marine Corps Training Ranges Associated with the      12/08/2011
                                    Relocation of Marine Corps Forces to Guam
NAVAUDSVC    N2012-0010             Defense Travel System-Marine Corps                                                           12/21/2011
NAVAUDSVC    N2012-0012             Selected Department of the Navy Military Construction Projects Proposed for Fiscal Year      01/05/2012
                                    2013
NAVAUDSVC    N2011-0008             N2012-0013 Reporting of United States Marine Corps Aviation Fuel Consumption                 01/06/2012



                                                                                                                   OCTOBER 1, 2011 TO MARCH 31, 2012 97
Appendix A


 Agency            Report Number        Report Title                                                                                 Date
 NAVAUDSVC         N2012-0015           Individual Augmentee Reintegration Process                                                   01/19/2012
 NAVAUDSVC         N2012-0016           Ethics Program at Marine Corps Combat Development Command                                    01/27/2012
 NAVAUDSVC         N2012-0017           Suicide Crisis Links and/or Phone Numbers on Department of the Navy Web Sites                01/30/2012
 NAVAUDSVC         N2012-0020           Defense Travel System-Navy Controls Over Unsettled Travel Authorizations                     02/10/2012
 NAVAUDSVC         N2012-0021           Fiscal Year 2012 First Quarter Test of Department of the Navy Sexual Assault-Related Phone   02/17/2012
                                        Numbers
 NAVAUDSVC         N2012-0023           Naval History and Heritage Command Detachment Boston Time and Attendance                     02/27/2012
                                        Processes and Other Issues
 NAVAUDSVC         N2012-0027           Commander, Navy Installations Command Safety and Occupational Health Workplace               03/22/2012
                                        Inspections
 NAVAUDSVC         N2012-0029           Department of the Navy Educational and Developmental Intervention Services                   03/29/2012



▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(a)(6).




 98 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                            Appendix B


                                                          Reports Containing Potential
                                                                   Monetary Benefits
                                                                                                      Potential Monetary Benefits
                                                                                                                     Funds Put to Better
                                Reports Issued                                                    Disallowed Costs
                                                                                                                            Use

  DODIG-2012-004 Changes Are Needed to the Army Contract With Sikorsky to
                                                                                  11/03/2011            N/A              $65,866,481
  Use Existing DoD Inventory and Control Costs at the Corpus Christi Army Depot

  DODIG-2012-006 Counter Narcoterrorism Technology Program Office Task
                                                                                  11/01/2011            N/A               $1,526,279
  Orders Had Excess Fees, and the Army Was Incorrectly Billed
  DODIG-2012-017 U.S. Naval Academy Officials Did Not Adhere to Contracting
                                                                                  11/07/2011            N/A               $3,661,759
  and Gift Policies
  DODIG-2012-023 Management Improvements Needed in Commander's
                                                                                  11/21/2011            N/A              $18,500,000
  Emergency Response Program in Afghanistan

  DODIG-2012-033 Award and Administration of Multiple Award Contracts for
                                                                                  12/21/2011            N/A                $139,916
  Services at U.S. Army Medical Research Acquisition Activity Need Improvement

  DODIG-2012-062 Contractor-Invoiced Costs Were Accurate, but DoD Did Not
                                                                                  03/08/2012            N/A                $510,095
  Adequately Track Funding


  Total                                                                                                                 $90,204,530


▶ Partially fulfills the requirement of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(a)(6) (See Appendix
A).




                                                                                                     OCTOBER 1, 2011 TO MARCH 31, 2012 99
Appendix C




Follow-up Activities
Decision status of DoD IG issued audit reports and dollar value of recommendations that funds be put to better use.

                                                                                                                 Funds Put
                                        Status                                        Number                  To Better Use 1
                                                                                                             ($ in thousands)
  A.    For which no management decision had been made by the
        beginning of the reporting period.                                              34 2                    $51,057
  B.    Which were issued during the reporting period.                                  68   3
                                                                                                                90,204
        Subtotals (A+B)                                                                 102                     141,261
                                                                                                                136,887

  C.    For which a management decision was made during the reporting period.
       (i)	 dollar value of recommendations that were agreed to by management.
             - based on proposed management action                                                                510
             - based on proposed legislative action
       (ii)	 dollar value of recommendations that were not agreed to by
             management.
                                                                                        70                     136,377 4

  D.   For which no management decision has been made by the
       end of the reporting period.                                                     34                      $4,374
        Reports for which no management decision was made within six months of
        issue (as of March 31, 2012).                                                   115                       712

1.	 DoD IG issued no audit reports during the period involving “questioned costs.”
2.	 Incorporates retroactive adjustments.
3.	 Does not reflect DODIG-2012-030,”Contractor Compliance Varied With Classification of Lobbying Costs and Reporting of Lobby-
    ing Activities,” which was rescinded April 5, 2012.
4.	 On these audit reports management has agreed to take the recommended actions, but the amount of agreed monetary benefits can-
    not be determined until those actions are completed.
5.	 DoD IG Report Nos. D-2011-045, “American Recovery and Reinvestment Act Project – Solar and Lighting at Naval Station Norfolk,
    Virginia”; D-2011-106, “The Department of the Navy Spent Recovery Act Funds on Photovoltaic Projects That Were Not Cost-
    Effective”; D-2011-108, “ Geothermal Energy Development Project at Naval Air Station Fallon, Nevada Did Not Meet Recovery Act
    Requirements”; D-2011-109, “American Recovery and Reinvestment Act “Heating, Ventilation, and Air Conditioning Replacement”
    Project at Naval Support Activity Norfolk - Planning and Initial Execution Could Have Been Improved”; D-2011-111, “Guidance on
    Petroleum War Reserve Stock Needs Clarification”; D-2011-112, “Counterintelligence Interviews for U.S.-Hired Contract Linguists
    Could Be More Effective”; D-2011-116, “American Recovery and Reinvestment Act Wind Turbine Projects at Long-Range Radar
    Sites in Alaska Were Not Adequately Planned”; SPO-2011-005, “Assessment of Allegations Concerning Traumatic Brain Injury Re-
    search Inquiry in Iraq,” March 31, 2011; and SPO-2011-008, “Assessment of Planning for Transitioning the Security Assistance
    Mission in Iraq from Department of Defense to Department of State Authority,” had no decision as of March 31, 2012, but action to
    achieve a decision is in process. DoD IG Report Nos.D-2011-095, “Afghan National Police Training Program: Lessons Learned Dur-
    ing the Transition of Contract Administration,” and D-2011-110, “Better Management of Fuel Contracts and International Agree-
    ments in the Republic of Korea Will Reduce Costs”, had no decision as of March 31, 2012, but were decided on April 11, 2012.


▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(a)(8),(9), & (10).



100 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                   Follow-up Activities
Status of action on central internal audits period ending March 31, 2012


                                                                                                                   Funds Put to Better Use 1
                                          Status                                              Number                  ($ in thousands)


  DoD IG
    Action in Progress - Beginning of Period2                                                   101                         $43,036
    Action Initiated - During Period                                                            70                          136,887
    Action Completed - During Period                                                            68                           25,382
    Action in Progress - End of Period                                                          100                         29,700 2
  Military Departments
    Action in Progress - Beginning of Period                                                    499                        4,439,367
    Action Initiated - During Period                                                            169                        1,296,389
    Action Completed - During Period                                                            210                         668,149
    Action in Progress - End of Period                                                         528   3
                                                                                                                           4,947,781 3

1.	 DoD IG issued no audit reports during the period involving “questioned costs”.
2.	 On certain reports (primarily from prior periods) with audit estimated monetary benefits of $1.025 million, DoD IG agreed that
    the resulting monetary benefits can only be estimated after completion of management action, which is ongoing.
3.	 Incorporates retroactive adjustments.

▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(b)(2) & (3).




                                                                                                         OCTOBER 1, 2011 TO MARCH 31, 2012 101
Appendix D




Contract Audit Reports Issued1
                                                                         Dollars
                                                                       Examined             Questioned
  Type of audit2                                Reports Issued       ($ in millions)          Costs3            Funds Put to Better Use

  Incurred Costs, Ops Audits, Special Audits         1,603             $11,663.1              $653.5                     --- 4

  Forward Pricing Proposals                          936               $59,003.8                ---                   $5,154.6 5

  Cost Accounting Standards                          343                $400.0                 $10.3                      ---

  Defective Pricing                                   15                (Note 6)               $22.3                      ---

  Totals                                             2,897             $71,066.9              $686.1                   $5,154.6

1.	 This schedule represents Defense Contract Audit Agency contract audit reports issued during the six months ended March 31,
    2012. This schedule includes any audits that DCAA performed on a reimbursable basis for other government agencies and the
    associated statistics may also be reported in other OIGs’ Semiannual Reports to Congress. Both “Questioned Costs” and “Funds
    Put to Better Use” represent potential cost savings. Because of limited time between availability of management information system
    data and legislative reporting requirements, there is minimal opportunity for DCAA to verify the accuracy of reported data. Ac-
    cordingly, submitted data is subject to change based on subsequent DCAA authentication. In prior semiannual reporting periods,
    DCAA reported the total number of assignments completed. The total number of assignments completed during the six months
    ended March 31, 2012 was 4,467. Some completed assignments do not result in a report issued because they are part of a larger
    audit or because the scope of the work performed does not constitute an audit or attestation engagement under generally accepted
    government auditing standards, so the number of audit reports issued is less than the total number of assignments completed.
2.	 This schedule represents audits performed by DCAA summarized into four principal categories, which are defined as:
	        Incurred Costs – Audits of direct and indirect costs charged to Government contracts to determine that the costs are reason		
	        able, allocable, and allowable as prescribed by the Federal Acquisition Regulation, Defense Federal Acquisition Regulation 		
	        Supplement, and provisions of the contract. Also included under incurred cost audits are Operations Audits, which evaluate a 		
	        contractor’s operations and management practices to identify opportunities for increased efficiency and economy; and special 	
	        audits, which include audits of terminations and claims.
	        Forward Pricing Proposals – Audits of estimated future costs of proposed contract prices, proposed contract change orders, 		
	        costs for redeterminable fixed-price contracts, and costs incurred but not yet covered by definitized contracts.
	        Cost Accounting Standards – A review of a contractor’s cost impact statement required due to changes to disclosed practices, 		
	        failure to consistently follow a disclosed or established cost accounting practice, or noncompliance with a CAS regulation.
	        Defective Pricing – A review to determine whether contracts are based on current, complete and accurate cost or pricing data 		
	        (the Truth in Negotiations Act).
3.	 Questioned costs represent costs that DCAA has questioned because they do not comply with rules, regulations, laws, and/or
    contractual terms.
4.	 Represents recommendations associated with Operations Audits where DCAA has presented to a contractor that funds could be
    used more effectively if management took action to implement cost reduction recommendations.
5.	 Represents potential cost reductions that may be realized during contract negotiations.
6.	 Defective pricing dollars examined are not reported because the original value was included in the audits associated with the origi-
    nal forward pricing proposals.


▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 8(f)(1).



102 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                               Appendix E




                                                                    Status of Action on Post-
                                                                    Award Contracts1
                                                                                   Costs Questioned
                                                      Number of Reports              ($ in millions)              Disallowed Costs6
  Open Reports:
    Within Guidelines2                                       512                        $1,043.9                         N/A7
    Overage, greater than 6 months3                          583                        $1,229.6                         N/A
    Overage, greater than 12 months   4
                                                             431                        $1,145.7                         N/A
    In Litigation   5
                                                             198                        $2,294.5                         N/A
  Total Open Reports                                        1,724                       $5,713.7                         N/A
  Closed Reports                                             375                        $394.3                     $154.5 (39.2%)8

1.	 This schedule represents the status of Defense Contract Audit Agency reports on incurred costs, defective pricing, equitable adjust-
    ments, accounting and related internal control systems, and noncompliances with the Cost Accounting Standards as reported by
    DoD Components. The status of action on significant post-award contract audits is reported in accordance with DoD Instruction
    7640.02, “Policy for Follow-up on Contract Audit Reports”. Because of limited time between availability of the data and reporting
    requirements, there is minimal opportunity to verify the accuracy of the reported data.
2.	 These reports are within the time frames established by OMB Circular A-50, “Audit Follow-up”, and DoD Instruction 7640.02 as
    described in footnotes 3 and 4 below.
3.	 OMB Circular A-50 requires that audit reports be resolved within 6 months after report issuance. Generally, an audit is resolved
    when the contracting officer determines a course of action, which is documented and approved in accordance with agency policy.
4.	 DoD Instruction 7640.02 states that audit reports are overage if not dispositioned within 12 months from date of issuance. Gener-
    ally, disposition is achieved when the contractor implements audit recommendations, the contracting officer negotiates a settle-
    ment with the contractor, or the contracting officer issues a final decision pursuant to the Disputes Clause.
5.	 Of the 142 reports in litigation, 56 are under criminal investigation.
6.	 Disallowed costs are costs sustained by the contracting officer in negotiations with contractors.
7.	 N/A (not applicable)
8.	 Contracting officers disallowed $154.5 million (39.2 percent) of the $394.3 million questioned as a result of significant post-award
    contract audits during the period. The contracting officer disallowance rate of 39.2 percent represents a increase from the disallow-
    ance rate of 22.0 percent for the prior reporting period.


▶ Fulfills requirement of DoD Instruction 7640.02, “Policy for Follow-up on Contract Audit Reports,” Enclosure 2, Section (1)(d).




                                                                                                       OCTOBER 1, 2011 TO MARCH 31, 2012 103
Appendix F




Status of Reports with
Action Pending
Report: D-2002-010, Armed Services Blood Program Defense Blood           ciencies in interagency acquisitions on the proper use of Non-DoD
Standard System, 10/22/2001                                              contracts.
Description of Action: Commercial-Off-The-Shelf solution to correct      Reason Action Not Completed: The Army delayed staffing the draft
the inventory counting and interface problems has been selected. A       directive pending a determination regarding future use of Directives
contract for development/implementation/deployment of a Enter-           within the Department of the Army. The Draft Directive was reformat-
prise Blood Management System has been awarded.                          ted as a manual for issuance and as an Appendix to the Army’s Federal
Reason Action Not Completed: Delays due to compliance activities         Acquisition Regulation Supplement.
and Food and Drug Administration validation prior to deployment.         Principal Action Office: Army
Principal Action Office: Air Force, ASD(HA)
                                                                         Report: D-2008-079, Management of Incremental Funds on Air Force
Report: D-2006-077, DoD Security Clearance Process at Requesting         Research, Development, Test, and Evaluation Contracts, 4/8/2008
Activities, 4/19/2006                                                    Description of Action: Review the requirements of Air Force Instruc-
Description of Action: Updating policies for the DoD Personnel           tion 65-601, chapter 13, to clarify the use of Research, Development,
Security Clearance Program to include various information includ-        Test, and Evaluation funds in the second year.
ing program management and investigative responsibilities, security      Reason Action Not Completed: AFI 65-601, Volume I is approaching
clearance systems, submission processes, types and levels of security    final coordination and is expected to be complete in March 2012.
clearances, and training requirements for security personnel.            Principal Action Office: Air Force
Reason Action Not Completed: Despite repeated recommendations
to revise personnel security program guidance, the current guidance      Report: D-2008-089, Planning Armor Requirements for the Family of
is dated January 1987. Delays continue for revision and coordina-        Medium Tactical Vehicles, 5/9/2008
tion of DoD Instruction 5200.2 and DoD Manual 5200.2. Estimated          Description of Action: Update the capabilities documents for the
Completion Date on the instruction is June 2012. ECD on the Manual       FMTV to include armor kit requirements. Once these requirements are
is January 2014 for volume 1 and March 2014 for volume 2. Air Force      approved, document plans for issuance of the armor kits.
Instruction delays are due to the consolidation of several current AF    Reason Action Not Completed: Although action was initiated in late
security instructions into a single publication. ECD is Dec 2012. Army   2008, Army has yet to establish validated armor kit requirements for
Regulation 380-67 is in legal review. ECD is Fall 2012.                  the FMTV.
Principal Action Office: USD(I), ARMY, AF                                Principal Action Office: Army

Report: D-2008-002, DoD Salary Offset Program, 10/9/2007                 Report: D-2008-090, Controls Over Reconciling Army Working Capital
Description of Action: Make modifications to existing systems to         Fund Inventory Records, 5/13/2008
properly compute salary offsets for military members, retirees, and      Description of Action: The Army is working to update its regulations,
annuitants.                                                              policies, and procedures for performing the annual and end-of-day
Reason Action Not Completed: Extensive time required to make             inventory reconciliations.
modifications to existing systems.                                       Reason Action Not Completed: The Army has coordinated the
Principal Action Office: DFAS                                            revision of policy and guidance, which is expected to be published
                                                                         this year. Requested systems changes to the Logistics Modernization
Report: D-2008-045, Controls Over the TRICARE Overseas Healthcare        Program have not been funded.
Program, 2/7/2008                                                        Principal Action Office: Army
Description of Action: ASD (Health Affairs) is implementing recom-
mendations to further control health care costs provided to overseas     Report: D-2008-118, Host Nation Support of U.S. Forces in Korea,
DoD beneficiaries.                                                       8/25/2008
Reason Action Not Completed: Extensive time needed to develop            Description of Action: Conduct joint reviews of accounting and
and receive approval of fee schedules.                                   disbursing procedures for Labor Cost Sharing funds. Prepare and issue
Principal Action Office: ASD(HA)                                         any required updates to current policies and procedures based on
                                                                         joint review results.
Report: D-2008-066, FY 2006 and FY 2007 DoD Purchases Made               Reason Action Not Completed: Extensive time taken to complete
Through the Department of the Interior, 3/19/2008                        coordination between DoD Components to conduct joint reviews
Description of Action: Publish guidance/manual to address defi-          of accounting and disbursing policy, and update appropriate policy

104 SEMIANNUAL REPORT TO THE CONGRESS
guidance.                                                              Report: D-2009-062, Internal Controls Over DoD Cash and Other Mon-
Principal Action Office: USD(C)                                        etary Assets, 3/25/2009
                                                                       Description of Action: Improve internal controls over cash and other
Report: D-2008-130, Approval Process, Tracking, and Financial Man-     monetary assets by establishing a special control account, developing
agement of DoD Disaster Relief Efforts, 9/17/2008                      policies and procedures, and monitoring cash usage. Develop non-
Description of Action: Develop a memorandum of understanding           cash methods of payment for contingency operations.
with the Federal Emergency Management Agency that establishes          Reason Action Not Completed: Corrective actions cannot be imple-
guidelines and requirements for using and being reimbursed for DoD     mented until coordination with the OMB and/or the Department of
equipment used on mission assignments.                                 the Treasury is complete. Extensive coordination needed between
Reason Action Not Completed: The Department is reviewing current       DoD and its Components, and with the Treasury and OMB.
procedures to determine if they align with the recently published      Principal Action Office: USD(C), DFAS
DoDD 3025.18 and addresses issues identified.
Principal Action Office: USD(C)                                        Report: D-2009-064, FY 2007 DoD Purchases Made Through the Na-
                                                                       tional Institutes of Health, 3/24/2009
Report: D-2009-028, Organizational Structure and Managers Internal     Description of Action: Develop mandatory training to address how
Control Program for the Assistant Secretary of Defense and American    the rules and regulations governing multiple-award contracts differ
Forces Information Service, 12/10/2008                                 from those governing the General Services Administration’s federal
Description of Action: Investigate potential misuse of funds, im-      supply schedules, including the award and administration of task and
proper contracting, and statutory violations.                          delivery orders.
Reason Action Not Completed: The formal Antideficiency Act Viola-      Reason Action Not Completed: Updating policy and in-processing
tion investigations are ongoing.                                       Federal Acquisition Regulation changes takes time. Developing train-
Principal Action Office: ASD(PA), WHS                                  ing materials to be consistent with the FAR changes also takes time.
                                                                       Principal Action Office: USD(AT&L)
Report: D-2009-030, Marine Corps Implementation of the Urgent Uni-
versal Needs Process for Mine Resistant Ambush Protected Vehicles,     Report: D-2009-066, Marine Corps’ Management of the Recovery and
12/5/2008                                                              Reset Programs, 4/1/2009
Description of Action: Report is FOUO.                                 Description of Action: Update USMC guidance to comply with De-
Reason Action Not Completed: Joint Staff has been delayed issuing      partmental guidance on prioritizing requirements.
revised guidance due to pending DoD overarching guidance being         Reason Action Not Completed: The USMC’s Ground Equipment Reset
issued. Marine Corps action is on hold pending completion of JS cor-   Strategy document was under revision and is now awaiting approval
rective action.                                                        by the commandant of the Marine Corps.
Principal Action Office: JCS, USMC                                     Principal Action Office: USMC

Report: D-2009-037, TRICARE Controls Over Claims Prepared By Third-    Report: D-2009-072, Monitoring Power Track Payments for DoD
Party Billing Agencies, 12/31/2009                                     Freight Transportation, 4/9/2009
Description of Action: Resolve legal relationship between providers    Description of Action: Use data mining to monitor problematic pay-
and billing agencies in accordance with requirements.                  ments for duplicate payment indicators.
Reason Action Not Completed: Subsequent to mediation discussions       Reason Action Not Completed: Enterprise Data Warehousing and
between the TRICARE Management Activity and DoD IG, TMA is seek-       data mining solutions to assist with the pre-payment and post-pay-
ing ways to satisfy the intent of this recommendation.                 ment processes will be analyzed and implemented through an internal
Principal Action Office: ASD(HA)                                       controls effort sponsored by the deputy assistant secretary defense
                                                                       (transportation policy) and DFAS. The ECD is February 2013.
Report: D-2009-051, Controls Over Time and Attendance Reporting at     Principal Action Office: USD(AT&L)
the National Geospatial-Intelligence Agency, 2/9/2009
Description of Action: Revise guidance to improve internal controls    Report: D-2009-086, Controls Over the Contractor Common Access
over time and attendance, especially the use of overtime and compen-   Card Life Cycle in the Republic of Korea, 6/9/2009
satory time.                                                           Description of Action: US Forces Korea will rewrite Regulation 700-19
Reason Action Not Completed: Awaiting the issuance of the final        to address the issues stated in the recommendations.
NGA instruction addressing time and attendance.                        Reason Action Not Completed: The rewrite to Regulation 700-19 is
Principal Action Office: NGA                                           being re-staffed and is scheduled to be complete in May 2012.
                                                                       Principal Action Office: USFK
Report: D-2009-059, Air Force Management of the U.S. Government
Aviation Into-Plane Reimbursement Card Program, 3/6/2009               Report: D-2009-098, Status of the Defense Emergency Response Fund
Description of Action: Develop Air Force-specific guidance and         in Support of the Global War on Terror, 7/30/2009
procedures on the use of the AIR Card. Develop a training program to   Description of Action: Review the Fund for GWOT obligations and
ensure training for all personnel involved in AIR functions.           deobligate all unliquidated obligations, withdraw all excess funds
Reason Action Not Completed: Extensive time required to staff and      provided to the DoD Components, and transfer the funds to the U.S.
get approval of regulation. ECD November 12, 2012.                     Treasury.
Principal Action Office: Air Force                                     Reason Action Not Completed: Extensive time needed to coordinate
                                                                       deobligation of unliquidated obligations, withdrawal of excess funds,

                                                                                                         OCTOBER 1, 2011 TO MARCH 31, 2012 105
Appendix F

and transference of funds to U.S. Treasury.                                mand. Revisions to DoD Instruction 5410.19 are in process.
Principal Action Office: USD(C)                                            Principal Action Office: ASD(PA), WHS

Report: D-2009-104, Sanitization and Disposal of Excess Information        Report: D-2010-028, Rapid Acquisition and Fielding of Materiel Solu-
Technology Equipment, 9/21/2009                                            tions by the Navy, 12/15/2009
Description of Action: DoD CIO is updating DoD Directive 8500.01,          Description of Action: Report is FOUO.
DoD Instruction 8500.02, and DoD Instruction 8510.01.                      Reason Action Not Completed: Long-term corrective actions are
Reason Action Not Completed: Extended time is required for revision        ongoing.
of DoD guidance series.                                                    Principal Action Office: Navy
Principal Action Office: DoD(CIO)
                                                                           Report: D-2010-032, DoD Countermine and Improvised Explosive
Report: D-2009-108, U.S. Air Forces Central War Reserve Materiel           Device Defeat Systems Contracts - Husky Mounted Detection System,
Contract, 9/23/2009                                                        12/31/2009
Description of Action: The Air Force will ensure a qualified contract-     Description of Action: Report is FOUO.
ing officer reviews award fees and sales of Government property            Reason Action Not Completed: Extensive time required to award
and closes the old WRM contract. DCAA will audit direct costs under        contract. ECD April 18, 2012.
the old WRM contract and perform required surveillance of internal         Principal Action Office: Army
controls.
Reason Action Not Completed: The Air Force has not completed               Report: D-2010-035, Defense Logistics Agency Contracts for M2
corrective actions on contracting issues. DCAA has not completed its       Machine Gun Spare Parts in Support of Operations in Southwest Asia,
audit work.                                                                1/11/2010
Principal Action Office: Air Force, DCAA                                   Description of Action: Evaluate the metrics used to manage the
                                                                           product quality deficiency reporting process and update the DLA Joint
Report: D-2010-015, DoD Civil Support During the 2007 and 2008             Product Quality Deficiency Report instruction.
California Wildland Fires, 11/13/2009                                      Reason Action Not Completed: Extensive time required to develop,
Description of Action: Update joint publication to add clarity to the      coordinate and implement the guidance.
process of staffing Federal Emergency Management Agency mission            Principal Action Office: DLA
assignments, on the legal employment of surveillance by DoD assets
providing assistance to civil authorities, and on specific events for      Report: D-2010-036, Controls Over Navy Military Payroll Disbursed in
command and control handoff guidance.                                      Support of Operations in Southwest Asia at San Diego-Area Disbursing
Reason Action Not Completed: Extensive time required to develop,           Centers, 1/22/2010
coordinate and implement the guidance.                                     Description of Action: Develop an electronic storage capability for
Principal Action Office: JCS, USD(C), NORTHCOM                             supporting documentation.
                                                                           Reason Action Not Completed: Navy will commence the Training
Report: D-2010-023, Review of Defense Technical Information Center         Requirements and Information Management System implementation
Internal Controls, 12/3/2009                                               within the U.S. on April 2, with a completion date of June 29. A new
Description of Action: Revise the DoD Financial Management Regula-         version of TRIM that can accommodate overseas users is expected to
tion to state when charging indirect costs to other DoD organizations      be released in September.
is permitted.                                                              Principal Action Office: Navy
Reason Action Not Completed: The USD Comptroller is considering
issuing a DoD chief financial officer policy memo in anticipation of the   Report: D-2010-037, Internal Controls Over United States Marine
next FMR update.                                                           Corps Commercial and Miscellaneous Payments Processed Through
Principal Action Office: USD(C)                                            the Deployable Disbursing System, 1/25/2010
                                                                           Description of Action: Review the Deployable Disbursing System
Report: D-2010-024, Contracted Advisory and Assistance Services for        payments for FY 2006 and FY 2007 for duplicate payments and collect
the U.S. Army Future Combat Systems, 11/24/2009                            the over payments.
Description of Action: Report is FOUO.                                     Reason Action Not Completed: The Marine Corps has reviewed the
Reason Action Not Completed: Extensive time required to coordi-            identified documents for duplicate payments and demand letters were
nate and issue guidance.                                                   issued. Research indicates remaining payments are not duplicates,
Principal Action Office: USD(AT&L)                                         excepting one item that remains in dispute.
                                                                           Principal Action Office: USMC
Report: D-2010-026, Joint Civilian Orientation Conference Program,
12/9/2009                                                                  Report: D-2010-043, Deferred Maintenance and Carryover on the
Description of Action: Update DoD Instruction 5410.19 to clarify how       Army Abrams Tank, 3/2/2010
to administer and manage the JCOC program. Initiate a preliminary          Description of Action: Report is FOUO.
Antideficiency Act review of the use of JCOC fees received since the       Reason Action Not Completed: The proposed change has been in-
inception of the Miscellaneous Receipts Statute.                           corporated into the revised Financial Management Regulation, which
Reason Action Not Completed: Investigations for several allegations        will be published in the near future.
are complete. The entire report may be complete by April 2012, and         Principal Action Office: USD(C)
then will be coordinated through legal counsel and the chain of com-

106 SEMIANNUAL REPORT TO THE CONGRESS
Report: D-2010-048, DoD Methodology for the Valuation of Excess,           2007.
Obsolete, and Unserviceable Inventory and Operating Materials and          Reason Action Not Completed: The ACC and DCAA have not com-
Supplies, 3/25/2010                                                        pleted reviews of task orders and audits of incurred costs.
Description of Action: Develop methodologies for estimating net            Principal Action Office: Army
realizable value of excess, obsolete, and unserviceable inventory, oper-
ating material and supplies, munitions, and missiles.                      Report: D-2010-086, Audit of the Utility Tax Relief Program in Ger-
Reason Action Not Completed: Reorganization within the office and          many, 9/29/2010
developing methodologies for different assets takes time to complete.      Description of Action: Develop regulatory guidance requiring eligible
Principal Action Office: USD(C)                                            civilian personnel to participate in the Utility Tax Avoidance Program
                                                                           in Germany; and develop a standard form to prove participation or
Report: D-2010-051, Defense Contract Management Agency Acquisi-            ineligibility for the program.
tion Workforce for Southwest Asia, 4/8/2010                                Reason Action Not Completed: Long-term corrective actions are in
Description of Action: Revise DoD Instruction 5000.66 to require           process.
military departments and defense agencies to develop guidance to           Principal Action Office: USD(P&R)
identify acquisition, technology and logistics workforce requirements
in accordance with other DoD instructions and the Financial Manage-        Report: D-2010-087, Weaknesses in Oversight of Naval Sea System
ment Regulation.                                                           Command Ship Maintenance Contract in Southwest Asia, 9/27/2010
Reason Action Not Completed: Extensive time required to revise and         Description of Action: NAVSEA will obtain cost and pricing data for
coordinate instructions/guidance.                                          review with Defense Contract Audit Agency.
Principal Action Office: USD(AT&L)                                         Reason Action Not Completed: Delays by the contractor in providing
                                                                           cost and pricing data preventing DoD review.
Report: D-2010-065, Validity and Security of Selected DoD Civilian         Principal Action Office: Navy
Employee Accounts, 5/25/2010
Description of Action: Classified                                          Report: D-2010-088, Accountability and Disposition of Government
Reason Action Not Completed: Corrective actions are on schedule.           Furnished Property in Conjunction With the Iraq Drawdown - Logistics
Principal Action Office: DFAS                                              Civil Augmentation Program, 9/30/2010
                                                                           Description of Action: Defense Contract Management Agency-Iraq to
Report: D-2010-075, Foreign Allowances and Differentials Paid to DoD       (1) provide a sufficiently supported account of all management deci-
Civilian Employees Supporting Overseas Contingency Operations,             sions and actions taken concerning the acceptance, use and disposi-
8/17/2010                                                                  tion of unused trash trucks; (2) determine whether personnel or cost
Description of Action: Finalize and issue uniform DoD-wide policies        recovery actions were warranted; and (3) determine proper disposition
and procedures to accurately and consistently authorize foreign allow-     of the trucks.
ances and differentials. Review foreign allowances and differential paid   Reason Action Not Completed: Two of the three actions have been
records to indentify inaccuracies and make the necessary adjustments.      completed. The third action is ongoing. Final disposition on the al-
Reason Action Not Completed: Extensive time required to coordi-            lowability of costs questioned in the DCAA Form 1 is pending. The
nate with DoD components and agencies. Additional time needed to           Administrative Contracting Officer requested additional information
evaluate the scope of the inaccuracies and take the necessary correc-      from the contractor and DCAA on Feb 3, 2012. Disposition of the audit
tive actions.                                                              results is expected by May 24, 2012.
Principal Action Office: USD(P&R), DFAS                                    Principal Action Office: DCMA

Report: D-2010-078, Air Force Use of Time-and-Materials Contracts in       Report: D-2010-091, DoD Needs to Improve Management and Over-
Southwest Asia, 8/16/2010                                                  sight of Operations at the Theater Retrograde-Camp Arifjan, Kuwait,
Description of Action: The Air Force Center for Engineering and            9/30/2010
Environment will review invoices for Time-and-Materials task orders,       Description of Action: Develop appropriate performance require-
and request Defense Contract Audit Agency for assistance, and obtain       ments for processing materiel that are applicable, auditable and
reimbursements for incorrect charges with attention to $24.3 million       measurable and coordinate those requirements with the contracting
for labor charges invoiced by the contractors but not authorized by        officer for inclusion in the newly awarded contract.
the task orders.                                                           Reason Action Not Completed: Negotiations are ongoing to further
Reason Action Not Completed: AFCEE has not received funds that             refine the performance metrics on the new contract and final agree-
were requested from U.S. Forces- Iraq to conduct the review, and           ment with the contractor is expected by April 2012.
DCAA’s work is ongoing.                                                    Principal Action Office: Army
Principal Action Office: Air Force
                                                                           Report: D-2011-018, FY 2008 and FY 2009 DoD Purchases Made
Report: D-2010-081, Army Use of Time-and-Materials Contracts in            Through the General Services Administration, 11/30/2010
Southwest Asia, 8/27/2010                                                  Description of Action: Review the standardized interagency agree-
Description of Action: The Army Contracting Command will establish         ment to identify necessary enhancements in the financial account-
a plan for reviewing invoices for 18 contracts and request Defense         ability area.
Contract Audit Agency assistance. White Sands Missile Range will           Reason Action Not Completed: Management has not responded to a
review a task order and obtain a refund from the contractor. DCAA          request for current status of agreed-upon implementing action.
will conduct incurred cost audits on the contractor for FY 2006 and FY     Principal Action Office: USD(AT&L)

                                                                                                             OCTOBER 1, 2011 TO MARCH 31, 2012 107
Appendix F

Report: D-2011-020, DoD Controls Over Information Placed on Pub-            Principal Action Office: Army
licly Accessible Web Sites Require Better Execution, 11/29/2010             Report: D-2011-036, Competition Should Be Used for Instructor Ser-
Description of Action: Update guidance for information posted to            vices for the Mine Resistant Ambush Protected Vehicles, 2/3/2011
publicly accessible websites; require annual assessment and docu-           Description of Action: The Army will complete a formal investigation
mentation of DoD Internet services and use of Internet-based capabili-      of the Antideficiency Act violation, will comply with DoD reporting
ties; provide enforcement procedures for annual certification require-      requirements, and will provide a copy of the preliminary and final
ments; mandate procedures to register Internet addresses and contact        investigation report to the DoDIG,
information; ensure implementation of policies on the use of DoD            Reason Action Not Completed: The Army is conducting a formal
Internet services and Internet based capabilities; require an inventory     investigation of the Anti Deficiency Act violation.
capability and a registration system for public DoD websites; expand        Principal Action Office: Army
distribution of Operations Security and threat assessment reports; and
identify the system that will maintain the inventory of DoD publicly        Report: D-2011-037, Marine Corps Fulfillment of the Urgent Universal
accessible websites.                                                        Need Statement for the Laser Dazzler, 2/9/2011
Reason Action Not Completed: Extensive time required to revise and          Description of Action: Perform a review of the circumstances that
coordinate guidance.                                                        led to the purchase of the 28 Compact High Power Laser Dazzlers and
Principal Action Office: DoD(CIO), ASD(PA), DISA                            initiate administrative action if appropriate.
                                                                            Reason Action Not Completed: Extensive time required for coor-
Report: D-2011-021, More DoD Oversight Needed for Purchases Made            dination within and between the DoD Components and for DCIS to
Through the Department of Energy, 12/3/2010                                 complete its investigation.
Description of Action: Determine the feasibility of using direct pur-       Principal Action Office: Navy
chases; update guidance to require that activities participate in techni-
cal evaluations of offers; determine whether changes to the FAR and         Report: D-2011-043, Fleet Industrial Supply Center Ship Maintenance
Defense Federal Acquisition Regulation will be necessary to address         Contracts in Southwest Asia, 2/22/2011
contract financing associated with multiple-year appropriations and to      Description of Action: Revise internal guidance and conduct market
ensure consistency with the DoD FMR; and determine the magnitude            research to identify potential new contractors.
of the potential funding problems related to Work For Others projects       Reason Action Not Completed: Additional time required to finalize
with the Department of Energy.                                              guidance and conduct market research at centralized level.
Reason Action Not Completed: Extensive time required for coordina-          Principal Action Office: Navy
tion among the DoD Components and other federal agencies.
Principal Action Office: USD(C), USD (AT&L), Air Force                      Report: D-2011-050, DoD Needs to Improve High Dollar Overpayment
                                                                            Review and Reporting, 3/16/2011
Report: D-2011-028, Contracts Supporting the Broad Area Maritime            Description of Action: Develop procedures for reviewing information
Surveillance Program, 12/23/2010                                            on corrections, including recalls, offsets, and rejects for overpayments.
Description of Action: Develop an agency improvement policy that            Also, implement a methodology to include statistically sampling com-
will require all letters of delegation be modified to include necessary     mercial pay entitlement systems for improper payments.
surveillance and inspection requirements.                                   Reason Action Not Completed: Extensive time required to coordi-
Reason Action Not Completed: Additional time required to finalize           nate and develop procedures and a methodology.
guidance.                                                                   Principal Action Office: USD(C)
Principal Action Office: DCMA

Report: D-2011-032, Logistics Civil Augmentation Program IV Support
Contract, 1/7/2011
Description of Action: Army will issue guidance for assigning person-
nel to supervise contractors performance for functions closely associ-
ated with inherently governmental duties.
Reason Action Not Completed: Army has not yet issued guidance
regarding contractor performance closely associated with inherently
governmental duties.

For this reporting period, there were no disallowed costs on reports over 12 months old with final action pending.

▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(b)(4).




108 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                     Appendix G




                                                                                       Contract Audits with
                                                                                       Significant Findings
DCAA
Audit Report No. 09711-2003A10100002                                      Date: November 4, 2011
Subject: Independent Audit of 2003 Incurred Cost Proposal
Prepared For: Defense Contract Management Agency
Report: $11.9 Million Questioned Costs
The audit of the incurred cost proposal resulted in $11.9 million questioned direct and indirect costs. Significant items of questioned costs re-
lated to unsupported costs for a specific contract ($7.1M), unsupported direct consultant fees ($1.3M) and unallowable bonuses ($2M).


Audit Report No. 03521-2011V17900002                                      Date: January 12, 2011
Subject: Independent Audit of Work in Kind Credit Requests
Prepared For: Department of the Army, Galveston District Corps of Engineers
Report: $21.0 Million Questioned Cost
The audit of the contractor’s $34.0 million work in-kind credit requests on a project cooperation agreement resulted in $21.0 million of ques-
tioned costs due to lack of adequate supporting documentation for the costs.


Audit Report No. 06501-2010G17100002                                      Date: November 10, 2011
Subject: Independent Audit of Termination Settlement Proposal
Prepared For: Defense Contract Management Agency, Atlanta
Report: $87.0 Million Questioned Cost
The audit of the contractor’s termination settlement proposal resulted in $87.0 million of questioned cost. Significant items questioned include
$34.1 million of questioned subcontractor settlement expenses; $16.8 million of unallocable severance pay and payments under the Worker
Adjustment and Retraining Notification Act (WARN); and $22.9 million of fee.


Audit Report No. 06441-2003V10100003/2004V10100003/200 Date: December 21, 2011
5V10100012
Subject: Independent Audit of Incurred Costs for FYs 2003, 2004, 2005
Prepared For: U.S. Agency for International Development
Report: $24.7 Million Questioned Cost
The audit of the contractor’s incurred cost proposals questioned all of the claimed costs, totaling $24.7 million, in accordance with FAR 31.201-2
Determining allowability, because the contractor could not provide any supporting data for the claimed costs.
The audit of the contractor’s termination settlement proposal resulted in $31.2 million of questioned unallowable, unallocable or unreason-
able costs, including $10.0 million of direct labor, gifts, and bonuses; and $9.9 million of general project expenses and construction equipment
rental or purchases.


Audit Report No. 01311-2009N17100002                                      Date: December 30, 2011
Subject: Independent Audit of Termination for Convenience Settlement Proposal
Prepared For: Department of the Air Force, Air Force Material Command



                                                                                                              OCTOBER 1, 2011 TO MARCH 31, 2012 109
Appendix G

Report: $32.6 Million Questioned Cost
The audit of the settlement proposal resulted in $32.6 million questioned cost, including $29.9 million of claimed subcontractor costs from
related companies for work that was unreasonably priced; outside the scope of the contract; or for goods or services that were not provided.


Audit Report No. 04201-2010C17200003-S1                                    Date: January 5, 2012
Subject: Supplement to Report on Audit of Claim for Equitable Adjustment
Prepared For: U.S. Army Corps of Engineers
Report: $14.6 Million Questioned Cost
The audit of the price adjustment claim for alleged differing site conditions and government delay identified total questioned costs of $14.6
million resulting from unallowable subcontractor labor and other costs; and excessive prime and subcontractor profit.


Audit Report No. 09821-2011M17100003-S1                                    Date: January 24, 2012
Subject: Independent Audit of Termination Proposal
Prepared For: Defense Contract Management Agency
Report: $13.7 Million Questioned Costs
The audit of the $19.0 million termination proposal resulted in $13.7 million questioned costs. Significant items of questioned costs related to
direct labor, material and other direct costs. The costs were questioned because (i) costs were incurred prior to first article testing approval and
therefore are unallowable per FAR and contract terms; (ii) costs were not supported by the contractor’s accounting records; and (iii) consultant
fees did not have the proper supporting documentation per FAR.


Audit Report No. 06421-2011N17900500                                       Date: January 13, 2012
Subject: Independent Audit of Travel Costs
Prepared For: Department of the Army, Army Contracting Command – Rock Island
Report: $21.7 Million Questioned Cost
The audit of billed travel costs under a single contract resulted in questioning all of the billed costs because the contractor did not obtain ad-
vance written approval for the travel as required by the contract terms.


Audit Report No. 04201-2011G17200001                                       Date: January 23, 2012
Subject: Independent Audit of Equitable Adjustment Proposals
Prepared For: Department of the Navy, Naval Facilities Engineering Command Marianas
Report: $23.9 Million Questioned Cost
The audit of nine equitable adjustment proposals resulted in questioned costs for unallowable equipment, subcontract, consultant, and travel
costs; and for an understated credit for a reduction in the contract scope of work.


Audit Report No. 03181-2010D17900006                                       Date: January 24, 2012
Subject: Independent Audit of Billed Costs
Prepared For: Department of State
Report: $75.0 Million Questioned Cost
The audit of labor and labor related other direct costs billed on a contract resulted in questioned direct labor of $53.9 million for employees
who did not meet the qualifications specified in the contract or did not work the hourly or weekly schedule specified in the contract; and $21.1
million in post differential, danger pay, and DBA insurance costs associated with the questioned direct labor or in excess of the maximum con-
tractual limitations.


Audit Report No. 06701-2010S42000002                                       Date: February 10, 2012
Subject: Independent Postaward Audit
Prepared For: Department of the Army, U.S. Army TACOM - Picatinny



110 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                   Appendix G

Report: $12.6 Million Recommended Price Adjustment
The audit of the contractor’s compliance with 10 U.S.C. 2306a (Truth in Negotiations Act) resulted in a recommended price adjustment of $12.6
million for overstated labor and material costs because the contractor did not use the most current job cost data in its proposal or provide the
data to the government prior to final negotiations.


Audit Report No. 06431-2010I17100001                                     Date: February 17, 2012
Subject: Independent Audit of Termination Settlement Proposal
Prepared For: Defense Contract Management Agency – Terminations Division
Report: $19.8 Million Questioned Cost
The audit of subcontract termination settlement proposal questioned $8.0 million of claimed royalties, $5.3 million of proposed settlement ex-
penses, $3.6 million of related indirect expenses, and $2.7 million of claimed fee that was not in accordance with the terms of the subcontract
or prime contractor award fee determination letters.


Audit Report No. 02211-2006U10100001                                     Date: February 29, 2012
Subject: Independent Audit of Corporate Residual and Directly Allocated Expenses
Prepared For: Defense Contract Management Agency – Southern Virginia
Report: $50.5 Million Questioned Cost
The audit of the corporate office incurred cost proposal questioned a total of $50.5 million. Major elements questioned included $18.8 million
of unallowable or inadequately documented bonus payments and incentive compensation; and $18.4 million of healthcare expenses that
were either offset by employee premium contributions or were double-counted in the proposal.


Audit Report No. 02701-2006A10100002                                     Date: February 29, 2012
Subject: Independent Audit of FY 2006 Incurred Cost Submission
Prepared For: Defense Contract Management Agency
Report: $11.1 Million Questioned Cost
The audit of contractor’s incurred cost submission resulted in $11.1 million of questioned costs, including $8.2 million of direct labor which
did not reconcile to the accounting records and was not billed in accordance with subcontract terms; $2.0 million of material and other direct
costs which could not be reconciled to the accounting records; and $0.9 million of unsupported direct costs for which no detail was provided.


Audit Report No. 06211-2005C10100013                                     Date: February 29, 2012
Subject: Independent Audit of Final Incurred Cost Proposal for FY 2005
Prepared For: Department of the Treasury, Internal Revenue Service
Report: $19.6 Million Questioned Cost
The audit of the incurred cost proposal resulted in net questioned costs of $19.6 million including $18.2 million of direct intercompany charges
for which adequate documentation was not provided to determine that the costs were allowable, allocable to Government contracts, or
reasonable; $2.3 million of direct unallowable deferred costs; and $0.9 million of upward adjustments to indirect expenses resulting from other
audits of corporate or home office cost allocations.


Audit Report No. 03511-2010M17100002                                     Date: March 14, 2012
Subject: Independent Audit of Price Adjustment Claim
Prepared For: Department of the Army, AMCOM Contracting Center
Report: $22.6 Million Questioned Cost
The audit of the price adjustment claim resulted in $13.6 million of questioned direct labor cost that was unsupported, previously recovered,
duplicated, overstated, not incurred and/or unreasonable; $5.3 million of other direct costs which were not adequately supported and which
the contractor did not demonstrate were a result of the alleged constructive contract changes; $2.0 million of indirect expenses related to the
questioned costs; and $1.7 million of claimed profit.




                                                                                                            OCTOBER 1, 2011 TO MARCH 31, 2012 111
Appendix G

Audit Report No. 04261-2010S17200003                                      Date: March 23, 2012
Subject: Independent Audit of Equitable Adjustment Contract Disputes Claim
Prepared For: Department of the Army, U.S. Army Engineer District, Alaska
Report: $40.5 Million Questioned Cost
The audit of claim identified $40.5 million of questioned cost including $13.1 million of direct project costs, $14.0 million of equipment costs,
$2.6 million of labor costs, $3.2 million of overhead, and $3.6 million of profit. Direct costs were questioned because they (i) were underesti-
mated by the contractor in its bid, and not caused by changed contract scope; (ii) were caused by the contractor’s or subcontractor’s actions
or inactions and not by the government; (iii) were duplicated in the claim; (iv) were unallocable to the contract; or (vi) were unallowable under
FAR Part 31.


Audit Report No. 02201-2008D10100001                                      Date: March 30, 2012
Subject: Independent Audit of Final 2008 Indirect Cost Rate Proposal
Prepared For: Defense Contract Management Agency
Report: $22.4 Million Questioned Cost
The audit of the incurred cost proposal questioned $15.9 million of indirect costs for unreasonable executive compensation; unallowable loss
on asset disposition; and unallowable contingent environmental remediation costs. In addition, the audit questioned $6.4 million of direct
travel and associated labor costs because the contractor failed to provide evidence that the travel was incurred for an allowable business
purpose.


Audit Report No. 03161-2012H17100001                                      Date: March 30, 2012
Subject: Independent Audit of Termination Proposal
Prepared For: Defense Contract Management Agency, DCMA Terminations Group
Report: $10.5 Million Questioned Cost
The audit of the termination proposal questioned $10.5 million, including $6.0 million of bid and proposal expenses improperly included in
the termination proposal; $1.3 million of settlement expenses, most duplicated elsewhere in the proposal; and $3.1 million of profit.



DoD IG
Report No. DODIG-2012-004                                                 Date: November 03, 2011
Subject: Changes are Needed to the Army Contract With Sikorsky to Use Existing DoD Inventory and Control Costs at the Corpus Christi Army
Depot
Report: $65.9 Million of Funds put to Better Use
The Army Aviation and Missile Life Cycle Management Command did not effectively use $47.5 million to $58.7 million of excess DoD inventory
that could be used to satisfy Corpus Christi Army Depot requirements before procuring the same items from Sikorsky. AMCOM also made an
unjustified incentive payment of $11.8 million to Sikorsky Aircraft Corporation for reducing material costs, when depot costs increased by $29.3
million. Additionally, DoD IG found issues relating to Sikorsky receiving excess profits totaling $930,760 on items procured from the Defense
Logistics Agency.


Report No. DODIG-2012-006                                                 Date: November 01, 2011
Subject: Counter Narcoterrorism Technology Program Office Task Orders Had Excess Fees, and the Army Was Incorrectly Billed
Report: $1.5 Million of Funds Put to Better Use
The U.S. Space and Missile Defense Command Contracting and Acquisition Management Office overpaid Raytheon approximately $815, 000 and
U.S. Training Center approximately $77,000 in fixed fees. Northrop Grumman charged the Army for non Counter Terrorism Program Office work
and double billed the Army for insurance charges. Northrop Grumman issued credits totaling $168,279.


Report No. DODIG-2012-023                                                 Date: November 21, 2011
Subject: Management Improvements Needed in Commander’s Emergency Response Program in Afghanistan
Report: $18.5 Million of Funds put to Better Use

112 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                   Appendix G

 U.S. Central Command and U.S. Forces-Afghanistan controls over the Commander’s Emergency Response Program contract payments and re-
 porting were not adequate. Specifically, USCENTCOM and USFOR-A did not maintain and report reliable and meaningful CERP data, deobligate
 unused CERP project funds for closed or terminated CERP projects, identify or prevent improper payments, identify or prevent unauthorized
 advance payments, or mitigate the risk of overpayments and underpayments because of currency rate fluctuations. USFOR-A had potentially up
 to $38.4 million in outstanding unliquidated obligations, improper payments, and high-risk CERP advance payments, and a high risk for currency
 exchange rate fraud and overpaying or underpaying Afghanistan vendors.

▶ Fulfills requirements of the National Defense Authorization Act for FY 2008 Section 845.




                                                                                                            OCTOBER 1, 2011 TO MARCH 31, 2012 113
Appendix H




Results of Peer Reviews
Peer Review of Department of Defense IG by Department of Health and Human Services OIG
The Department of Health and Human Services OIG conducted an external peer review of DoD IG Office of Audit and issued a final
report on December 2, 2009. DoD IG received a peer review rating of pass. There are no outstanding recommendations. A copy of the
external quality control review report can be viewed on at www.dodig.mil/audit.

Peer Review of U.S. Postal Service OIG by Department of Defense IG
DoD IG conducted an external quality control review of the United States Postal Service OIG audit organization and issued a final re-
port on March 31, 2010. USPS OIG received a peer review rating of pass. All outstanding recommendations have been implemented as
of March 31, 2011. A copy of the external quality control review report in its entirety can be viewed on the USPS OIG website at www.
uspsoig.gov.

Peer Review of DCIS Operations by the U.S. Department of Health and Human Services Office of Inspector General
The U.S. Department of Health and Human Services OIG conducted an external peer review of DCIS’s system of internal safeguards
and management procedures in effect through July 2011 and HHS OIG also conducted an evaluation to determine DCIS’ compliance
with applicable internal policies and procedures from April 2009 to July 2011. Since DCIS does not derive its statutory law enforcement
authority from the Attorney General or the Inspector General Act, it is not subject to the Council of the Inspectors General on Integrity
and Efficiency thus DCIS’s participation in this peer review was voluntary. After completing its review of DCIS, the HHS OIG issued a
final report dated August 19, 2011, and concluded that the system of internal safeguards and management procedures for DCIS was in
full compliance with the quality standards established by CIGIE and the Attorney General guidelines. These safeguards and procedures
provide reasonable assurance that DCIS is conforming to the professional standards for investigations established by CIGIE.

▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(a)(14),(15),(16).




114 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                      Appendix I




                                                                                                     Acronyms
ACA-ITEC4	   Army Contracting Agency, Information 	              BRAC 		        Base Realignment and Closure
		           Technology, E-Commerce and Commercial		             CAPS-C 	       Computerized Accounts Payable System-		
		           Contracting Center                                  		             Clipper
ACC 		       Army Contracting Command                            CCAD 		        Corpus Christi Army Depot
ACC-NCR 	    Army Contracting Command - National 		              CCIU 		        Computer Crime Investigative Unit
		           Capital Region                                      CERP 		        Commander’s Emergency Response Program
ACC-RSA 	    Army Contracting Command – Redstone 		              CIGIE 		       Council of Inspectors General for Integrity and 	
		           Arsenal                                             		             Efficiency
ADA 		       Antideficiency Act                                  CNTPO 		       Counter Narcoterrorism Technology Program 	
ADFM 		      Active-Duty Family Member                           		             Office
AFAA 		      Air Force Audit Agency                              COR 		         Contracting Officers’ Representative
AFAA/FS 	    Air Force Audit Agency Financial Systems 		         DASA(P)	       Deputy Assistant Secretary of the Army for 		
		           Audits Directorate                                  		             Procurement
AFAA/QL 	    Air Force Audit Agency Acquisition and 		           DCAA 		        Defense Contract Audit Agency
		           Logistics Audits Directorate                        DCIS		         Defense Criminal Investigative Service
AFAA/SP 	    Air Force Audit Agency Support and Personnel 	      DCMA 		        Defense Contract Management Agency
		           Audits Directorate                                  DEA 		         Drug Enforcement Administration
AFB		        Air Force Base                                      DEAMS 		       Defense Enterprise Accounting and 		
AFCEE 		     Air Force Center for Engineering and 		             		             Management System
		           Environment                                         DFARS 		       Defense Federal Acquisition Regulation 		
AFCENT 	     Air Forces Central                                  		             Supplement
AFOSI 		     Air Force Office of Special Investigations          DFAS 		        Defense Finance and Accounting Service
AFR 		       Agency Financial Report                             DIACAP 	       DoD Information Assurance Certification and 	
AGR 		       Active Guard and Reserve                            		             Accreditation Program
AIR 		       Aviation Into-Plane Reimbursement                   DLA 		         Defense Logistics Agency
AMC 		       Army Materiel Command                               DMEN 		        Digital Media Examination Network
AMCOM	       Army Aviation and Missile Life Cycle 		             DoD SDVOSB 	   Department of Defense Service-Disable 		
		           Management Command                                  		             Veteran-Owned Small Business
AMP		        Avionics Modernization Program                      DoDD 		        Department of Defense Directive
ANA 		       Afghan National Army                                DOJ 		         Department of Justice
ANC 		       Arlington National Cemetery                         DON 		         Department of the Navy
ANG 		       Air National Guard                                  DON SDO 	      Department of Navy Suspension and 		
ANP 		       Afghan National Police                              		             Debarment Official
ANSF 		      Afghan National Security Forces                     DoS 		         Department of State
AOR 		       Area of Responsibility                              DSS 		         Defense Security Service
Army CID 	   Army Criminal Investigation Command                 DSS IG 		      Defense Security Service Inspector General
ASA(ALT) 	   Assistant Secretary of the Army (Acquisition, 	     DTRA 		        Defense Threat Reduction Agency
		           Logistics and Technology)                           ECD 		         Estimated Completion Date
ASD(HA) 	    Assistant Secretary of Defense for Health 		        ECHO 		        Eastern Connecticut Hematology & Oncology, 	
		           Affairs                                             		             Associates, PC
ASD(NII) 	   Assistant Secretary of Defense for Networks 		      ERP 		         Enterprise Resource Planning
		           and Information                                     ESPC 		        Energy Savings and Performance Contracts
ASD(PA) 	    Assistant Secretary of Defense for Public Affairs   EVM 		         Earned Value Management
ATF		        Bureau of Alcohol, Tobacco, Firearms and 		         FAR 		         Federal Acquisition Regulation
		           Explosives                                          FDCA 		        Food, Drug, and Cosmetic Act
botnet		     Robot Network                                       FLETC 		       Federal Law Enforcement Training Center


                                                                                              OCTOBER 1, 2011 TO MARCH 31, 2012 115
Appendix I

FMTV 		           Family of Medium Tactical Vehicles               NTM-A/CSTC-A North Atlantic Treaty Organization Training 	
FOUO 		           For Official Use Only                            		           Mission-Afghanistan/ Combined Security 		
FPDS-NG 	         Federal Procurement Data System – Next 		        		           Transition Command-Afghanistan
		                Generation                                       NWRM 		      Nuclear Weapon-Related Material
FRCSW 		          Fleet Readiness Center Southwest                 OCO 		       Overseas Contingency Operations
GFEBS 		          General Fund Enterprise Business System          OCR 		       Operation Chain Reaction
GPC 		            Government Purchase Cards                        ODC 		       Other Direct Cost
GSA 		            General Services Administration                  ODO 		       Other Defense Organizations
GWOT 		           Global War on Terror                             OSC-I 		     Office of Security Cooperation - Iraq
HAP 		            Homeowners Assistance Program                    OMB 		       Office of Management and Budget
HHS 		            Health and Human Services                        PCOLS 		     Purchase Card On-Line System
HHS OIG 	         U.S. Department of Health and Human Services 	   PDHRA 	      Post Deployment Health Reassessment
		                Office of Inspector General                      PRC 		       People’s Republic of China
HIDS 		           Host-Based Intrusion Detection Systems           SCI 		       Sensitive Compartmented Information
HQE 		            Highly Qualified Expert                          SFIS 		      Standard Financial Information Structure
ICCTF 		          International Contract Corruption Task Force     SIGIR 		     Special Inspector General for Iraq 			
ICE 		            Immigration and Customs Enforcement              		           Reconstruction
IDIQ 		           Indefinite Delivery Indefinite Quantity          SIPRNet 	    Secret Internet Protocol Router Network
IG 		             Inspector General                                SMDC CAMO 	 Space and Missile Defense Command 		
IM 		             Internal Medicine                                		           Contracting and Acquisition Management 		
IRS 		            Internal Revenue Service                         		           Office
ISAF 		           International Security Assistance Force          SPO 		       Special Plans and Operations
ISF 		            Iraq Security Forces                             SPS 		       Standard Procurement System
ISO		             Investigations of Senior Officials               TMA 		       TRICARE Management Activity
JCOC 		           Joint Civilian Orientation Conference Program    UCA 		       Undefinitized Contractual Actions
JCS 		            Joint Chiefs of Staff                            USAAA 		     U.S. Army Audit Agency
LCDR 		           Lieutenant Commander                             USACE 		     U.S. Army Corps of Engineers
LOGCAP 	          Logistics Civil Augmentation Program             USACIL 	     U.S. Army Criminal Investigation Laboratory
MAC 		            Medical Affirmative Claim                        USAID 		     U.S. Agency for International Development
MACC 		           Multiple Award Construction Contract             USAMRAA 	    U.S. Army Medical Research Acquisition 		
MCRP 		           Medical Cost Reimbursement Program               		           Activity
MHE 		            Mental Health Evaluation                         USCENTCOM 	 U.S. Central Command
MILCON 	          Military Construction                            USCYBERCOM 	 U.S. Cyber Command
MILSTRIP 	        Military Standard Requisitioning and Issue 		    USD(AT&L) 	  Under Secretary of Defense (Acquisition, 		
		                Procedures                                       		           Technology and Logistics)
MoD/GS 	          Ministry of Defense/ General Staff               USD(C) 		    Under Secretary of Defense (Comptroller)
MPA 		            Military Personnel Appropriation                 USD(P&R) 	   Under Secretary of Defense for Personnel and 	
MP-RTIP 	         Multi-Platform Radar Technology Insertion 		     		           Readiness
		                Program                                          USETTI 	     U.S. Equipment Transfer to Iraq Program
MRAP 		           Mine Resistant Ambush Protected Vehicles         USFK 		      United States Forces-Korea
MTF 		            Military Treatment Facilities                    USFOR-A 	    United States Forces - Afghanistan
NATO 		           North Atlantic Treaty Organization               USJFCOM 	    U.S. Joint Forces Command
NAVAUDSVC 	       Naval Audit Service                              USML 		      U.S. Munitions List
NAVFAC 	          Naval Facilities Engineering Command             USPS 		      U.S. Postal Service
NAVSEA 	          Naval Sea System Command                         USPS OIG 	   U.S. Postal Service Office of Inspector General
NAVSUP 	          Naval Supply Systems Command                     USSGL 		     U.S. Government Standard General Ledger
NCIS 		           Naval Criminal Investigative Service             USSOCOM 	    U.S. Special Operations Command
NGA 		            National Geospatial Intelligence Agency          USSTRATCOM 	 U.S. Strategic Command
NIPRNet 	         Non-Classified Internet Protocol Router 		       USTC 		      U.S. Training Center
		                Network                                          USTRANSCOM 	 U.S. Transportation Command
NORTHCOM 	        U.S. Northern Command                            WARN 		      Worker Adjustment and Retraining Notification
NSA 		            National Security Agency                         Act
NSD 		            Navigation Systems Division                      WHS 		       Washington Headquarters Services
NSRWA 		          Non-Standard Rotary Wing Aircraft                WRI 		       Whistleblower Reprisal Investigations

116 SEMIANNUAL REPORT TO THE CONGRESS
Department of Defense                   Department of Defense
Inspector General                            Inspector General
4800 Mark Center Drive                  4800 Mark Center Drive
Alexandria, VA 22350-1500            Alexandria, VA 22350-1500

www.dodig.mil                                   www.dodig.mil

Defense Hotline 1.800.424.9098   Defense Hotline 1.800.424.9098
i
 sre
   por
     t,aswell
            asauditr
                   epor
                      tsa
                        ndtes
                            timonyt
                                  ext,a
                                      rea
                                        vai
                                          la
                                           bleo
                                              ntheI
                                                  nte
                                                    rne
                                                      tat
                                                        :www.do
                                                              dig
                                                                .mi
                                                                  l
     Addit
         ionali
              nfo
                rmati
                    onand/o
                          rcopie
                               soft
                                  hisre
                                      por
                                        tmaybeobt
                                                ai
                                                 nedbyc
                                                      ont
                                                        act
                                                          ing
                                                            :
                    Depar
                        tmentofDefe
                                  nseIns
                                       pec
                                         torGeneral
               Oﬃc eofCommunicat
                               ionsandCongre
                                           ssi
                                             onalLi
                                                  a i
                                                    son
               4800Ma r
                      kCe nt
                           erDri
                               veAlexa
                                     ndri
                                        a,VA 22350-1500


               Mr
                .Jo
                  hnR.Cr
                       ane 703-
                              604-
                                 8324;DS
                                       N 664-
                                            8324
